<html>
<title> - IMPEACHMENT INQUIRY: WILLIAM JEFFERSON CLINTON, PRESIDENT OF THE UNITED STATES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                          IMPEACHMENT INQUIRY:
                       WILLIAM JEFFERSON CLINTON,
                     PRESIDENT OF THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

              IMPEACHMENT INQUIRY PURSUANT TO H. RES. 581:

                   APPEARANCE OF INDEPENDENT COUNSEL

                               __________

                           NOVEMBER 19, 1998

                               __________

                             Serial No. 66


                               <snowflake>


         Printed for the use of the Committee on the Judiciary

                                --------

                        U.S. GOVERNMENT PRINTING OFFICE
  53-367                       WASHINGTON : 1998
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                       COMMITTEE ON THE JUDICIARY

                   HENRY J. HYDE, Illinois, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        BARNEY FRANK, Massachusetts
BILL McCOLLUM, Florida               CHARLES E. SCHUMER, New York
GEORGE W. GEKAS, Pennsylvania        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         RICK BOUCHER, Virginia
LAMAR S. SMITH, Texas                JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. SCOTT, Virginia
CHARLES T. CANADY, Florida           MELVIN L. WATT, North Carolina
BOB INGLIS, South Carolina           ZOE LOFGREN, California
BOB GOODLATTE, Virginia              SHEILA JACKSON LEE, Texas
STEPHEN E. BUYER, Indiana            MAXINE WATERS, California
ED BRYANT, Tennessee                 MARTIN T. MEEHAN, Massachusetts
STEVE CHABOT, Ohio                   WILLIAM D. DELAHUNT, Massachusetts
BOB BARR, Georgia                    ROBERT WEXLER, Florida
WILLIAM L. JENKINS, Tennessee        STEVEN R. ROTHMAN, New Jersey
ASA HUTCHINSON, Arkansas             THOMAS M. BARRETT, Wisconsin
EDWARD A. PEASE, Indiana
CHRISTOPHER B. CANNON, Utah
JAMES E. ROGAN, California
LINDSEY O. GRAHAM, South Carolina
MARY BONO, California

                             Majority Staff

         Thomas E. Mooney, Sr., General Counsel-Chief of Staff
          Jon W. Dudas, Deputy General Counsel-Staff Director
         Diana L. Schacht, Deputy Staff Director-Chief Counsel
               Daniel M. Freeman, Parliamentarian-Counsel
       Paul J. McNulty, Director of Communications-Chief Counsel
                    Joseph H. Gibson, Chief Counsel
                         Rick Filkins, Counsel
                       Sharee M. Freeman, Counsel
                       Peter J. Levinson, Counsel
                       John F. Mautz, IV, Counsel
                     William E. Moschella, Counsel
                        Stephen Pinkos, Counsel

George M. Fishman, Chief Counsel     David P. Schippers, Chief 
Mitch Glazier, Chief Counsel             Investigative Counsel
John H. Ladd, Chief Counsel            
Raymond V. Smietanka, Chief Counsel  Susan Bogart, Investigative 
Laura Ann Baxter, Counsel                Counsel
Daniel J. Bryant, Counsel            Robert S. Hoover, Counsel
Cathleen A. Cleaver, Counsel         John C. Kocoras, Counsel
Vince Garlock, Counsel               Berle S. Littmann, Investigator
James W. Harper, Counsel             Stephen P. Lynch, Professional 
Susan Jensen-Conklin, Counsel            Staff Member
Debra K. Laman, Counsel              Charles F. Marino, Counsel
Blaine S. Merritt, Counsel           Jeffrey J. Pavletic, Investigative 
Nicole R. Nason, Counsel                 Counsel
Glenn R. Schmitt, Counsel            Thomas M. Schippers, Investigative 
Jim Y. Wilon, Counsel                    Counsel
                                     Albert F. Tracy, Investigator
                                     Peter J. Wacks, Investigator
                                     Diana L. Woznicki, Investigator

                             Minority Staff

         Julian Epstein, Minority Chief Counsel-Staff Director
Perry H. Apelbaum, Minority General  Abbe D. Lowell, Minority Chief 
    Counsel                              Investigative Counsel
David G. Lachmann, Counsel           Sampak P. Garg, Investigative 
Cynthia A. R. Martin, Counsel            Counsel
Henry Moniz, Counsel                 Steven F. Reich, Investigative 
Stephanie J. Peters, Counsel             Counsel
Samara T. Ryder, Counsel             Deborah L. Rhode, Investigative 
Brian P. Woolfolk, Counsel               Counsel
                                     Kevin M. Simpson, Investigative 
                                         Counsel
                                     Lis W. Wiehl, Investigative 
                                         Counsel



                            C O N T E N T S

                              ----------                              

                                HEARING

                                                                   Page
November 19, 1998................................................     1

                           OPENING STATEMENT

Hyde, Hon. Henry J., a Representative in Congress from the State 
  of Illinois, and Chairman, Committee on the Judiciary..........     2

                                WITNESS

Starr, Hon. Kenneth, Independent Counsel, Office of the 
  Independent Counsel, Washington, DC............................    14

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Barr, Bob, a Representative in Congress from the State of 
  Georgia: Prepared statement....................................   138
Bryant, Ed, a Representative in Congress from the State of 
  Tennessee: Prepared statement..................................   129
Gallegly, Elton, a Representative in Congress from the State of 
  California: Prepared statement.................................   104
Goodlatte, Bob, a Representative in Congress from the State of 
  Virginia, Claims of Government Misconduct......................   116
Jackson Lee, Sheila, a Representative in Congress from the State 
  of Texas: Prepared statement...................................   125
Starr, Hon. Kenneth, Independent Counsel, Office of the 
  Independent Counsel, Washington, DC: Prepared statement........    43


                          IMPEACHMENT INQUIRY:

                       WILLIAM JEFFERSON CLINTON,

                     PRESIDENT OF THE UNITED STATES

                              ----------                              


                      THURSDAY, NOVEMBER 19, 1998

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m., in room 
2141, Rayburn House Office Building, Hon. Henry J. Hyde 
(chairman of the committee) presiding.
    Present: Representatives Henry J. Hyde; F. James 
Sensenbrenner, Jr.; Bill McCollum; George W. Gekas; Howard 
Coble; Lamar S. Smith; Elton Gallegly; Charles T. Canady; Bob 
Inglis; Bob Goodlatte; Steve Buyer; Ed Bryant; Steve Chabot; 
Bob Barr; William L. Jenkins; Asa Hutchinson; Edward A. Pease; 
Christopher B. Cannon; James E. Rogan; Lindsey O. Graham; Mary 
Bono; John Conyers; Barney Frank; Charles E. Schumer; Howard L. 
Berman; Rick Boucher; Jerrold Nadler; Robert C. ``Bobby'' 
Scott; Melvin L. Watt; Zoe Lofgren; Sheila Jackson Lee; Maxine 
Waters; Martin T. Meehan; William D. Delahunt; Robert Wexler; 
Steven R. Rothman; and Thomas M. Barrett.
    Majority Staff Present: Thomas E. Mooney, Sr., general 
counsel-chief of staff; Jon W. Dudas, deputy general counsel-
staff director; Diana L. Schacht, deputy staff director-chief 
counsel; Daniel M. Freeman, parliamentarian-counsel; Joseph H. 
Gibson, chief counsel; Rick Filkins, counsel; Sharee M. 
Freeman, counsel; John F. Mautz, IV, counsel; William 
Moschella, counsel; Stephen Pinkos, counsel; Sheila F. Klein, 
executive assistant to general counsel-chief of staff; Annelie 
Weber, executive assistant to deputy general counsel-staff 
director; Samuel F. Stratman, press secretary; Rebecca S. Ward, 
office manager; James B. Farr, financial clerk; Elizabeth 
Singleton, legislative correspondent; Sharon L. Hammersla, 
computer systems coordinator; Michele Manon, administrative 
assistant; Joseph McDonald, publications clerk; Shawn Friesen, 
staff assistant/clerk; Robert Jones, staff assistant; Ann 
Jemison, receptionist; Michael Connolly, communications 
assistant; Michelle Morgan, press secretary; and Patricia 
Katyoka, research assistant.
    Subcommittee on Commercial and Administrative Law Staff 
Present: Ray Smietanka, chief counsel; Jim Harper, counsel; and 
Audray Clement, staff assistant.
    Subcommittee on the Constitution Staff Present: John H. 
Ladd, chief counsel; and Cathleen A. Cleaver, counsel.
    Subcommittee on Courts and Intellectual Property Staff 
Present: Mitch Glazier, chief counsel; Blaine S. Merritt, 
counsel; Vince Garlock, counsel; and Debra K. Laman.
    Subcommittee on Crime Staff Present: Paul J. McNulty, 
director of communications-chief counsel; Glenn R. Schmitt, 
counsel; Daniel J. Bryant, counsel; and Nicole R. Nason, 
counsel.
    Subcommittee on Immigration and Claims Staff Present: 
George M. Fishman, chief counsel; Laura Ann Baxter, counsel; 
and Jim Y. Wilon, counsel.
    Majority Investigative Staff Present: David P. Schippers, 
chief investigative counsel; Susan Bogart, investigative 
counsel; Thomas M. Schippers, investigative counsel; Jeffrey 
Pavletic, investigative counsel; Charles F. Marino, counsel; 
John C. Kocoras, counsel; Diana L. Woznicki, investigator; 
Peter J. Wacks, investigator; Albert F. Tracy, investigator; 
Berle S. Littmann, investigator; Stephen P. Lynch, professional 
staff member; Nancy Ruggero-Tracy, office manager/coordinator; 
Patrick O'Sullivan, staff assistant; and Heather McLaughlin, 
staff assistant.
    Minority Staff Present: Julian Epstein, minority chief 
counsel-staff director; Perry Apelbaum, minority general 
counsel; Samara T. Ryder, counsel; Brian P. Woolfolk, counsel; 
Henry Moniz, counsel; Robert Raben, minority counsel; Stephanie 
Peters, counsel; David Lachmann, counsel; Anita Johnson, 
executive assistant to minority chief counsel-staff director; 
and Dawn Burton, minority clerk.
    Minority Investigative Staff Present: Abbe D. Lowell, 
minority chief investigative counsel; Lis W. Wiehl, 
investigative counsel; Deborah L. Rhode, investigative counsel; 
Kevin M. Simpson, investigative counsel; Steven F. Reich, 
investigative counsel; Sampak P. Garg, investigative counsel; 
and Maria Reddick, minority clerk.

               OPENING STATEMENT OF CHAIRMAN HYDE

    Mr. Hyde. Pursuant to notice, I now convene the committee 
for a hearing pursuant to House Resolution 581, the resolution 
which the House adopted authorizing an inquiry into whether to 
recommend impeachment of the President of the United States. 
The Chair intends to recognize himself for 5 minutes and the 
ranking minority member for 5 minutes. Each member may be 
permitted to place an opening statement into the record. After 
the two opening statements, my own and the ranking member's, 
the Chair intends to recognize the witness, the Independent 
Counsel, Mr. Starr.
    Without objection, after Mr. Starr's presentation, the 
Chair will recognize minority counsel, Mr. Lowell, for 30 
minutes to question the witness, majority counsel, Mr. 
Schippers, for 30 minutes to question the witness, and 
subsequent to questioning by committee counsel, each member 
will be recognized to ask questions under the 5-minute rule. 
Subsequent to members' questions, the President's counsel will 
be recognized for 30 minutes to question the witness, and the 
Chair recognizes Mr. Delahunt, the gentleman from 
Massachusetts.
    Mr. Delahunt. Thank you, Mr. Chairman. I have a motion at 
the desk.
    Mr. Hyde. The Clerk will report the--why don't you read it, 
Mr. Delahunt.
    Mr. Delahunt. I move the counsel to the President be 
recognized for two hours to question the witness.
    Mr. Hyde. Well, the Chair states that Mr. Starr is here to 
help us adduce and understand the facts. The hearing today is 
not a trial, nor is it White House vs. Ken Starr or Republican 
vs. Democrat. Rather, the hearing today is another step in our 
attempt to carry out our constitutional duty to determine 
whether facts exist which indicate that the President of the 
United States committed an impeachable offense. If this 
committee and the full House determine the President has 
committed an impeachable offense, a trial may be held in the 
Senate.
    With this in mind, the Chair believes the time allotments 
for questioning are eminently fair. As far as giving the 
President an opportunity to present his version of the facts, I 
would first ask the President and his counsel to respond to the 
81 questions we submitted to him two weeks ago. This will go a 
long way to helping us gather and understand the facts involved 
in this matter.
    Furthermore, the President has a standing invitation to 
come before this committee for any amount of time and present 
us with his version of the facts.
    As I compute the timing for questioning the witness, the 
Democrats, including the President's counsel, have 140 minutes 
of questioning time; the Republicans, 135. The Democrats are 
permitted two separate counsel, that is to say the Democrat 
members, Mr. Lowell and the President's counsel. We have one. 
Our counsel will get a half-hour, Mr. Lowell will get a half-
hour, Mr. Kendall will get a half-hour. So I do not see any 
imbalance there.
    Mr. Lowell, the Democratic counsel, will go before any of 
the elected members at Mr. Conyers' request, and I am happy to 
grant that. The President's counsel will have unlimited time to 
present his witnesses at the end of our hearings when they are 
ready to do so.
    So the rule that we are operating under, which is the same 
rule that was used in the Rodino era, Rule IV of the 
impeachment inquiry rule, specifically states that the 
President's counsel may question any witness subject to 
instructions from the chairman respecting the time, scope and 
duration of the examination.
    So, with that statement, the gentleman's motion is denied.
    Mr. Delahunt. Mr. Chairman, I move to strike the last word.
    Mr. Hyde. The gentleman is not recognized for that purpose.
    Mr. Frank. Mr. Chairman, point of order.
    Mr. Hyde. What is the point of order?
    Mr. Frank. The point is the gentleman from Massachusetts 
made a motion. The Chair spoke to the motion and denied under 
the rules the right of the gentleman who made the motion to 
respond to it. I make the point of order that the gentleman is 
entitled to his recognition.
    Mr. Hyde. I am sorry, I was distracted. What is the point 
of order?
    Mr. Frank. The gentleman made a motion. The Chair 
recognized the gentleman to make a motion. The Chair then spoke 
to the motion and is now denying the maker of the motion the 
right under our rules to speak to his own motion. The gentleman 
has a right under our rules to be recognized to speak to our 
motion.
    Mr. Hyde. I recognize the gentleman. Go ahead. I have ruled 
on the gentleman's motion.
    Mr. Delahunt. Thank you, Mr. Chairman. The committee has 
given the Independent Counsel a full two hours to present his 
version of the facts, a version which most Americans are 
already fully familiar with. At the same time, the majority has 
seen fit to give the President's counsel all of 30 minutes to 
question Mr. Starr. This is meant to be the President's sole 
opportunity to confront his accuser during these proceedings.
    Mr. Hyde. Would the gentleman yield for just a second?
    Mr. Delahunt. I will not yield. I submit this is a grave 
disservice, not only to the President but to the integrity of 
these proceedings. It is a complete and unwarranted departure 
from the precedents of this House. During the Watergate 
hearings of 1974, President Nixon's counsel, James St. Clair, 
was given all the time he needed to respond to the evidence and 
cross-examine witnesses.
    This is as it should be. We are talking about the 
impeachment of the President of the United States, a grave 
constitutional moment in our national history.
    I know that some members of the Watergate Committee argued 
that the President's counsel, Mr. St. Clair, should be given 
limited time to speak, but those views were wisely overruled in 
the interests of fairness and decency.
    President Clinton is entitled to the same consideration and 
respect shown to President Nixon on that occasion, no more and 
no less. The record of the Watergate hearings makes clear that 
at no time was Mr. St. Clair given a time limit for his 
presentation or his examination of witnesses.
    Is there any legitimate basis for a different rule today? 
The majority may point out that the Watergate testimony was 
heard in closed session while today we sit before the cameras 
and the American people. Yet that being true, it is more 
important, not less, that the President be given a full and 
fair opportunity to respond to the charges that are being 
leveled against him. They may argue, as they did in a recent 
letter to the White House, that the President and his counsel 
are here, and I am quoting, ``only as a matter of courtesy and 
not of right.''
    In other words, ``be glad that we are letting you testify 
at all.'' With all due respect, Mr. Chairman, if the goal is 
justice, this cannot be a satisfactory response.
    A 30-minute presentation is especially inadequate when one 
considers that Mr. Starr has been preparing for weeks a 
presentation that the White House saw for the first time last 
night. According to news accounts, the witness has spent the 
better part of the past several weeks conducting videotaped 
practice sessions. The President's counsel has had all of 16 
hours to prepare his response.
    Precedent has been abandoned at almost every turn. We 
rushed to release Mr. Starr's transmittal within hours of its 
receipt before any review by this committee or the President's 
counsel. We posted thousands of pages of secret grand jury 
testimony on the Internet and we abdicated our responsibility 
to make an independent examination of the facts before voting 
to commence an impeachment inquiry.
    Let us do this right. I urge support for the motion and 
yield back the balance of my time.
    Mr. Hyde. The gentleman has made a point that the President 
needs more time to present--you said ``present.'' He will be 
given all the time in the world to present, unlimited time. 
Today's hearing is to hear from Judge Starr and to question 
him.
    Mr. Watt. Point of order, Mr. Chairman.
    Mr. Hyde. I don't yield for any points of order. I would 
like to make my statement.
    Mr. Watt. I thought you had already made your statement, 
Mr. Chairman.
    Mr. Hyde. I know that is what you thought. But you couldn't 
possibly know when I am through with my statement or not.
    Mr. Watt. Under the rules under which we are operating, Mr. 
Chairman, we don't know anything about the process. We had 
regular order at one point. I am asking for regular order. I am 
requesting regular order. Regular order is we get 5 minutes to 
address this issue. The Chairman has already had his 5 minutes.
    Mr. Hyde. I want to tell this committee, and especially the 
Democrats, I had a meeting with Mr. Conyers and Mr. Frank a 
couple of days ago, and I suggested I would be very liberal 
with the gavel, and if Mr. Kendall is on a line of questioning 
that he deems pertinent, I don't intend to shut anybody off. 
Now, you are disrupting the continuity of this meeting with 
these adversarial motions.
    Mr. Watt. We are disrupting a railroad, it seems like, Mr. 
Chairman.
    Mr. Buyer. Regular order.
    Mr. Hyde. The gentleman will observe decorum, and I would 
appreciate it if you would speak when you are recognized. I 
have not recognized you.
    Ms. Jackson Lee. Mr. Chairman. I would like a point of 
information, Mr. Chairman. I appreciate being recognized for a 
point of information.
    Mr. Hyde. Now, I am trying to be cooperative. I said I 
would be liberal in giving people time and I recognize Mr. 
Frank.
    Mr. Frank. Mr. Chairman, I thank you. We did have that 
meeting and you accommodated one of our requests particularly 
in terms of the order, and you did say you would be with regard 
to Mr. Lowell, we talked about it, not on a strict gavel. But I 
did think with regard to the President's counsel request, we 
were not authorized to speak entirely for that. We could speak 
for our counsel. It does seem to me there is a reasonable 
difference of opinion here and we ought to vote on it. I don't 
think it will delay the committee process. Have the vote and we 
will decide it.
    Mr. Conyers. I call for a record vote.
    Mr. Frank. We did accept the assurance with regard to Mr. 
Lowell, but not with regard to the independent party of the 
White House.
    Mr. Conyers. Mr. Chairman, I call for a record vote.
    Mr. Hyde. Very well. The record vote is on the motion----
    Mr. Nadler. Mr. Chairman.
    Mr. Hyde. Just a moment, Ms. Jackson Lee, I have got to 
recognize Mr. Nadler. Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman. Mr. Chairman, before 
we vote, I would like to speak to Mr. Delahunt's motion. I 
appreciate the Chair's comments, but the fact is that as of now 
today is the only noticed day for a hearing of this committee. 
We have been noticed that some witnesses will be called for 
depositions. But as of today, Mr. Starr is the only witness 
that we are aware of before the committee considering the 
impeachment of the President. As such, given any consideration 
of fairness and equity, the President's counsel and for that 
matter the Democratic committee counsel should have as much 
time as they request. There should not be a time limit on it.
    The President's counsel requested 90 minutes. That should 
be without question granted. If he asked for 5 hours, that 
should be granted. We have requested an hour for our counsel, 
and I don't know what assurances have been given, but I heard 
the Chair say 30 minutes. That should be an hour.
    The fact is Mr. Chairman, your calculation of 135 minutes 
and 140 minutes is inaccurate, Mr. Starr is going to sit here 
for 120 minutes and tell us why the President ought to be 
impeached in his opinion and he is entitled to do that. But you 
add to that the other time, one side is going to have 260 
minutes and the other side is going to have 135 minutes.
    Now, I really suggest if the President of the United States 
asks that this committee in its one day of scheduled hearings 
should have 90 minutes to cross-examine Mr. Starr, that is the 
least that can be asked. I have looked at lists of questions 
and subjects which Mr. Starr's report and frankly his statement 
that we got last night raises some obvious questions. There is 
a lot more than can be addressed in 30 minutes there. The 
Constitution guarantees the right of anyone who is accused of 
any wrongdoing, and fundamental fairness guarantees the right 
of anyone, to have the right to confront the witness against 
him. Mr. Starr is the only witness.
    Frankly, that right ought not to be limited to 30 minutes. 
So, I support Mr. Delahunt's motion and I hope that in the 
interests of fairness, because, you know, this proceeding must 
not only be fair, it must be seen to be fair. If we end up----
    Mr. Hyde. Thank you, Mr. Nadler. I want to recognize Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much. I would like to take 
this opportunity for a point of information and also to speak 
briefly to the motion of Mr. Delahunt.
    First of all, I think it would be well to clarify the point 
that the President's counsel stands as the President's counsel. 
The Democrats and the Democratic counsel of the House stand 
separately in their responsibility to the impeachment process. 
So to collectively add up numbers to suggest that we have in 
total some 200, 100, 5 minutes, whatever it may be, Mr. 
Chairman, I would respectfully disagree. For instance in the 
St. Clair representation of Mr. Nixon, he had an unlimited 
amount of time, because it was distinct under the Rodino 
Watergate Committee. This committee alludes to the fact that 
they had a separate responsibility from the House Democrats. 
And I respect that, because ultimately, with my colleagues I 
must vote up or down on articles of impeachment.
    Secondly, let me say, Mr. Chairman, in terms in the context 
of justice in America, we have always argued that justice is 
blind, but we have never argued that justice is gagged. You 
cannot have the defense in a courtroom sitting gagged and bound 
without any opportunity to refute the accused's overwhelming 
opportunity to speak. We allow a defense of the accused in the 
courtroom. And I respect the procedure of this very awesome and 
somber occasion. But I cannot for the life of me understand, 
Mr. Chairman, why we would gag and bind the counsel for the 
White House, the counsel for the President. When we did it with 
the Chicago 7, we never recovered from the tainted process. I 
certainly don't equate this with that, but I would argue that 
we should never repeat history and gag the defense counsel on 
this particular issue.
    So, I would ask with all due respect that we recognize that 
the President's counsel is the President's counsel, the House 
is separate, and we should allow each their time to speak. I 
would ask that we vote for Mr. Delahunt's motion.
    Mr. Hyde. The Chair would like to suggest to the 
gentlewoman with respect, the Chair doesn't intend to bind and 
gag anybody.
    Ms. Jackson Lee. I appreciate that, Mr. Chairman.
    Mr. Hyde. Anybody.
    Ms. Jackson Lee. I appreciate that. I would like for us to 
go ahead and approve the motion by acclamation.
    Mr. Hyde. I didn't hear the end. You want a motion by 
acclamation?
    Ms. Jackson Lee. I would ask both Republicans and Democrats 
to support Mr. Delahunt's motion of fairness by acclamation, 
taking up the point that the chairman just made that he has no 
intention to gag and bind the voice of the counsel of the 
President of the United States. I would ask that we accept his 
motion by acclamation, both Republicans and Democrats. I yield 
back my time.
    Mr. Sensenbrenner. Point of Order, Mr. Chairman.
    Mr. Hyde. The gentleman from Wisconsin.
    Mr. Sensenbrenner. Mr. Chairman, the entire purpose of this 
meeting here today is to get Mr. Starr's testimony and to ask a 
reasonable amount of questions of Mr. Starr to find out why he 
did what he did and why he reached the conclusions that he did.
    Having a couple of hours of parliamentary haggling relative 
to the procedure of today's hearing I think denigrates the 
dignity of this hearing. I have great confidence in the 
fairness of Mr. Hyde. Mr. Hyde has presided over this committee 
in an extremely fair manner for the almost 4 years that he has 
served as chairman. I think that the complaints that we are 
hearing from the other side of the aisle insinuate that Mr. 
Hyde will not conduct this hearing fairly. I don't think that 
there are any facts in evidence that Mr. Hyde is not going to 
conduct this hearing fairly. I think we should vote down the 
motion, we should get on with Judge Starr's testimony, the 
questions that will be asked by the various counsels, and see 
how it goes. But the people over on the other side of the 
aisle, I think, are saying that this is going to be a railroad 
before the whistle even blows and the train leaves the station.
    Let's hear what Judge Starr has to say, conduct a dignified 
hearing, and let's get to the merits of this issue rather than 
who gets to talk how long.
    Mr. Hyde. The gentleman from Michigan.
    Mr. Conyers. Mr. Chairman, notwithstanding that Maxine 
Waters is our fairness cop, I move for a vote on the pending 
motion.
    Mr. Hyde. Without objection, the previous question is 
ordered. The Clerk will call the roll.
    The Clerk. Mr. Sensenbrenner.
    Mr. Sensenbrenner. No.
    The Clerk. Mr. Sensenbrenner votes no.
    Mr. McCollum.
    Mr. McCollum. No.
    The Clerk. Mr. McCollum votes no.
    Mr. Gekas.
    Mr. Gekas. No.
    The Clerk. Mr. Gekas votes no.
    Mr. Coble.
    Mr. Coble. No.
    The Clerk. Mr. Coble votes no.
    Mr. Smith.
    Mr. Smith. No.
    The Clerk. Mr. Smith votes no.
    Mr. Gallegly.
    Mr. Gallegly. No.
    The Clerk. Mr. Gallegly votes no.
    Mr. Canady.
    Mr. Canady. No.
    The Clerk. Mr. Canady votes no.
    Mr. Inglis.
    Mr. Inglis. No.
    The Clerk. Mr. Inglis votes no.
    Mr. Goodlatte.
    Mr. Goodlatte. No.
    The Clerk. Mr. Goodlatte votes no.
    Mr. Buyer.
    Mr. Buyer. No.
    The Clerk. Mr. Buyer votes no.
    Mr. Bryant.
    Mr. Bryant. No.
    The Clerk. Mr. Bryant votes no.
    Mr. Chabot.
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. Barr.
    Mr. Barr. No.
    The Clerk. Mr. Barr votes no.
    Mr. Jenkins.
    Mr. Jenkins. No.
    The Clerk. Mr. Jenkins votes no.
    Mr. Hutchinson.
    Mr. Hutchinson. No.
    The Clerk. Mr. Hutchinson votes no.
    Mr. Pease.
    Mr. Pease. No.
    The Clerk. Mr. Pease votes no.
    Mr. Cannon.
    Mr. Cannon. No.
    The Clerk. Mr. Cannon votes no.
    Mr. Rogan.
    Mr. Rogan. No.
    The Clerk. Mr. Rogan votes no.
    Mr. Graham.
    Mr. Graham. No.
    The Clerk. Mr. Graham votes no.
    Mrs. Bono.
    Mrs. Bono. No.
    The Clerk. Mrs. Bono votes no.
    Mr. Conyers.
    Mr. Conyers. Aye.
    The Clerk. Mr. Conyers votes aye.
    Mr. Frank.
    Mr. Frank. Aye.
    The Clerk. Mr. Frank votes aye.
    Mr. Schumer.
    Mr. Schumer. Aye.
    The Clerk. Mr. Schumer votes aye.
    Mr. Berman.
    Mr. Berman. Aye.
    The Clerk. Mr. Berman votes aye.
    Mr. Boucher.
    Mr. Boucher.  Aye.
    The Clerk. Mr. Boucher votes aye.
    Mr. Nadler.
    Mr. Nadler. Aye.
    The Clerk. Mr. Nadler votes aye.
    Mr. Scott.
    Mr. Scott. Aye.
    The Clerk. Mr. Scott votes aye.
    Mr. Watt.
    Mr. Watt. Aye.
    The Clerk. Mr. Watt votes aye.
    Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Ms. Lofgren votes aye.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Aye.
    The Clerk. Ms. Jackson Lee votes aye.
    Ms. Waters.
    Ms. Waters. Aye.
    The Clerk. Ms. Waters votes aye.
    Mr. Meehan.
    Mr. Meehan. Aye.
    The Clerk. Mr. Meehan votes aye.
    Mr. Delahunt.
    Mr. Delahunt. Aye.
    The Clerk. Mr. Delahunt votes aye.
    Mr. Wexler.
    Mr. Wexler. Aye.
    The Clerk. Mr. Wexler votes aye.
    Mr. Rothman.
    Mr. Rothman. Aye.
    The Clerk. Mr. Rothman votes aye.
    Mr. Barrett.
    Mr. Barrett. Aye.
    The Clerk. Mr. Barrett votes aye.
    Mr. Hyde.
    Mr. Hyde. No.
    The Clerk. Mr. Hyde votes no.
    Mr. Chairman, there are 16 ayes and 21 noes.
    Mr. Hyde. And the motion is not agreed to. The Chair 
recognizes himself for 5 minutes for purposes of making an 
opening statement.
    This morning we commence our second public hearing in 
fulfillment of the mandate imposed on us in House Resolution 
581. While the business of impeachment is rare, and happily so, 
it becomes necessary from time to time when circumstances 
require that it be exercised as a constitutional counterbalance 
to allegations of serious abuse of presidential power. It is 
part of the series of checks and balances that exemplify the 
genius of our Founding Fathers.
    Throughout our history, we have had a number of impeachment 
inquiries, but this one represents a historical first. Never 
before has an impeachment inquiry arisen because of a referral 
from an Independent Counsel under Section 595(c) of the 
statute. For that reason, we have no precedent to follow on the 
involvement of the Independent Counsel in our proceedings. 
However, it seems both useful and instructive that we should 
hear from him, since he is the person most familiar with the 
complicated matters the House has directed us to review.
    We are holding this hearing to learn the facts surrounding 
this situation, including those in the referral that Judge 
Starr sent us September 9, 1998, and to determine whether those 
facts justify our voting on articles of impeachment. Everyone 
should understand how this process works. Under the 
Constitution, the House of Representatives has the sole power 
to make accusations, known as articles of impeachment. They may 
do so by a majority vote. If the House makes such accusations, 
they are then sent to the Senate for trial. The Senate may 
convict by a two-thirds vote. Our Founding Fathers wisely 
determined that one Chamber should accuse and the other should 
judge.
    We began our work on November 9 at the hearing when we were 
enlightened by the testimony of two panels of outstanding 
academics about the history and nature of the impeachment 
process. Today the search for the truth continues as we turn to 
the underlying facts, and as we begin that search we turn to 
one person, Judge Starr, who has a comprehensive overview of 
the complex issues we face.
    I thought we should have that overview before we hear from 
other witnesses. As we announced earlier this week, we will 
hear from other witnesses in live hearings and in depositions 
as we move towards a final resolution. In addition, we have yet 
to hear from the President, and I can assure my colleagues if 
and when the President would want to testify, he may have 
unlimited time to do so. In any event, we are hopeful that the 
pledge of cooperation we received from his attorneys will soon 
be fulfilled.
    Let me repeat my new year's resolution. It is my fervent 
hope we will be able to conclude this inquiry before the new 
year turns. I am hopeful that all members will bear this in 
mind as we conduct this search for truth with all deliberate 
speed.
    There are many voices telling us to halt this debate, that 
the people are weary of it all. There are other voices 
suggesting we have a duty to debate the many questions raised 
by the circumstances in which we find ourselves, questions of 
high consequence for constitutional government. David Broder, 
writing in the Washington Post yesterday, suggested that in our 
hearings ``we will define as a Nation the standard of honesty 
we are going to impose on our President.''
    What is the significance of a false statement under oath? 
Is it essentially different from a garden variety lie, a mental 
reservation, a fib, an evasion, a little white lie, hyperbole? 
In a court proceeding, do you assume some trivial 
responsibility when you raise your right hand and swear to God 
to tell the truth, the whole truth and nothing but the truth? 
And what of the rule of law, that unique aspect of a free 
society that protects you from the fire on your roof or the 
knock on your door at 3 a.m.? What does lying under oath do to 
the rule of law? Do we still have a government of laws and not 
of men? Does the law apply to some people with force and 
ferocity, while the powerful are immune? Do we have one set of 
laws for the officers and another for the enlisted? Should we?
    These are but a few questions these hearings are intended 
to explore. And just perhaps when the debate is over, the 
rationalizations and the distinctions and the semantic 
gymnastics are put to rest, we may be closer to answering for 
our generation the haunting question asked 139 years ago in a 
small military cemetery in Pennsylvania, whether a Nation 
conceived in liberty and dedicated to the proposition that all 
men are created equal can long endure.
    The Chair now recognizes the ranking minority member of 
this committee, Mr. Conyers, for 5 minutes for his opening 
statement.
    Mr. Conyers. Mr. Chairman and my colleagues on the 
Judiciary Committee, we meet today for only the third time in 
the history of our Nation to take evidence in an inquiry of 
impeachment against a President of the United States.
    Today's witness, Kenneth W. Starr, wrote the tawdry, 
salacious and unnecessarily graphic referral that he delivered 
to us in September with so much drama and fanfare, and now the 
majority members of this committee have called that same 
prosecutor forward to testify in an unprecedented desperation 
effort to breathe new life into a dying inquiry.
    It is fundamental to the integrity of this inquiry to 
examine whether the Independent Counsel's evidence is tainted, 
whether conclusions are colored by improper motive. In short, 
it is relevant to examine the conduct of the Independent 
Counsel and his staff or where their behavior impacts directly 
on the credibility of the evidence in the referral.
    For example, the committee must determine whether Mr. Starr 
improperly threatened witnesses if they would not provide 
incriminating evidence against the President of the United 
States, whether Mr. Starr's partisan interests affected the 
collection and presentation of evidence, and whether Mr. Starr 
himself violated the law by leaking uncensored grand jury 
material to humiliate the President.
    Mr. Chairman and members of the committee, contrary to the 
views that have been expressed by Chairman Hyde in letters to 
me this week, these are not collateral issues at all. They go 
to the very heart of Mr. Starr's referral. To turn a blind eye 
to these issues is to continue an unfair and partisan process.
    Now, no one defends the President's conduct, but even 
Republican witnesses at our hearing only last week testified 
that even if the alleged facts are proven true, they simply do 
not amount to impeachable offenses. The idea of a federally 
paid sex policeman spending millions of dollars to trap an 
unfaithful spouse, or to police civil litigation would have 
been unthinkable prior to the Starr investigation.
    Let there be no mistake, it is not now acceptable in 
America to investigate a person's private sexual activity. It 
is not acceptable to force mothers to testify against their 
daughters, to make lawyers testify against their clients, to 
require Secret Service agents to testify against the people 
they protect, or to make bookstores tell what books people 
read.
    It is not acceptable for rogue attorneys and investigators 
to trap a young woman in a hotel room, discourage her from 
calling her lawyer, ridicule her when she asks to call her 
mother. But the report suggests, I am sorry to say, that is 
precisely how Kenneth W. Starr has conducted this 
investigation.
    An Independent Counsel must do justice both in the specific 
matter he is investigating and to the system of justice as a 
whole. While an Independent Counsel can and should pursue a 
case with vigor, I and many others believe that Mr. Starr has 
crossed that line into obsession.
    When I talk about obsession, sir, I wonder why Mr. Starr 
encouraged Linda Tripp to continue to betray and entrap her 
young, unsuspecting friend, and to allow her to continue her 
illegal tape recordings without court approval? And when I talk 
about obsession, I wonder why Mr. Starr ignored his ethical 
obligations and failed to disclose his involvement in the Paula 
Jones case, which could have disqualified him from this point 
of the investigation.
    Is it just coincidence that even before he was appointed 
Independent Counsel Mr. Starr was already in contact with 
lawyers for Paula Jones? Is it just coincidental that Mr. 
Starr, until recently, drew a $1 million a year salary from his 
law firm that represents the tobacco industry which is fighting 
President Clinton's effort to deter teen smoking?
    Is it just a coincidence that this Independent Counsel 
accepted a prestigious job at a university funded by one of the 
President's most persistent and vocal critics, Richard Mellon 
Scaife?
    Is it just a coincidence that the Independent Counsel 
failed to provide this committee with important exculpatory 
evidence in his referral, casually glossing over the central 
part of Monica Lewinsky's testimony, when she clearly stated 
that ``no one promised me a job; no one asked me to lie about 
her relationship with the President?
    Perhaps Mr. Starr will persuade us not to be concerned 
about these matters. But he surely carries the burden of 
showing us and the American people that these things did not 
affect his fairness nor his impartiality.
    Nor do I understand why Mr. Starr declined to provide the 
Democratic members of the committee with copies of documents 
that we have repeatedly requested. Mr. Starr even says that the 
President should be impeached because he invokes privilege, but 
he is quick to raise the privilege argument when questioned 
about his own conduct, and did so this week when Democrats 
sought documents concerning his conduct.
    Over the course of this investigation, the Independent 
Counsel complained publicly, and still does, that a lack of 
cooperation was impeding his investigation, and yet he has now 
afforded members of the committee the same treatment about 
which he has complained. This causes us to question Mr. Starr's 
motives and to lack confidence in his referral.
    His conduct over the past week has only reinforced my 
doubts. On Friday, Mr. Starr shipped two new boxes of documents 
to us and announced an indictment dating back to events 
occurring before Bill Clinton was even President, pre-1992.
    On Tuesday, the same day that our Republican colleagues 
suggested that they might want to expand this impeachment 
inquiry, contrary to the chairman's stated desire to close it 
down, Mr. Starr shipped four new boxes of documents to us, and 
last night we learned that Mr. Starr now sees fit for this 
committee to consider Whitewater or other alleged improprieties 
that he did not see fit to mention in his referral. The sense 
of desperation in the face of a failed impeachment inquiry is 
palpable.
    Finally, Mr. Chairman, I would be remiss in my duties if I 
did not observe that to date our committee process has not been 
bipartisan nor fair. All this committee has done since 
September 9 is to, in a partisan matter, dump salacious grand 
jury material on a public that does not want it. It was you, 
Chairman Hyde, who said this process could not proceed unless 
it was bipartisan. We need to do better than 11th hour 
unilateral decisions to subpoena witnesses having little to do 
with the underlying referral. We need to do better in offering 
the President a full and fair opportunity to participate in 
these hearings. We have many questions about the way you have 
conducted your investigation, Mr. Starr. Fairness dictates that 
the committee and the American people learn whether you have 
created a climate for the purpose of driving a President from 
office who has twice been elected by the people of this great 
Nation.
    Mr. Hyde. I thank the gentleman.
    Today our witness is Judge Kenneth W. Starr. On August 5, 
1994, the Special Division of the United States Court of 
Appeals for the District of Columbia Circuit appointed Judge 
Starr to investigate what has become known as the Whitewater 
matter. Since that time, Attorney General Reno and the Special 
Division added several other matters, including the White House 
Travel Office and the FBI files matters, to Judge Starr's 
jurisdiction. After his submission of evidence, they further 
added what has become known as the Lewinsky matter.
    Judge Starr has a Bachelor's Degree from the George 
Washington University, a Master's Degree from Brown University, 
and a Juris Doctor Degree from Duke University. He then clerked 
for Judge David Dyer of the United States Court of Appeals for 
the 5th Circuit and Chief Justice Warren Burger of the Supreme 
Court of the United States.
    After serving on President Reagan's transition team, Judge 
Starr served as counselor to Attorney General William French 
Smith from 1981 to 1983. In 1983, President Reagan nominated 
him to serve as a judge on the United States Court of Appeals 
for the District of Columbia and he was confirmed by the 
Senate.
    Judge Starr served on the D.C. Circuit until 1989, when 
President Bush nominated him to be the Solicitor General of the 
United States. As Solicitor General, Judge Starr was 
responsible for representing the United States before the 
Supreme Court.
    In November 1993, Democrats on the Senate Ethics Committee 
chose him to serve as a hearing examiner to review Senator 
Packwood's diaries for relevant information. Since August 1994, 
Judge Starr has conducted the investigation of Whitewater and 
the other matters that have been assigned to him by Attorney 
General Reno and the Special Division. That investigation has 
led to the conviction of 14 persons, including a sitting 
Governor of Arkansas in two separate cases, the former number 
three person in the United States Department of Justice, and 
two former business partners of the President. Six other 
indictments are currently pending in the courts.
    More pertinent to today's hearing, Judge Starr's 
investigation has led to the first ever impeachment referral 
under section 595(c) of the independent counsel statute. That 
referral has given rise to the impeachment inquiry we are now 
conducting.
    With that, Judge Starr, would you please rise so that I may 
administer the oath.
    [Witness sworn.]
    Mr. Hyde. Thank you. Let the record reflect the witness 
responded in the affirmative. Mr. Starr, you may proceed.

STATEMENT OF HON. KENNETH STARR, INDEPENDENT COUNSEL, OFFICE OF 
           THE INDEPENDENT COUNSEL, WASHINGTON, D.C.

    Mr. Starr. Thank you, Mr. Chairman. I welcome this 
opportunity to be before the committee.
    Mr. Hyde. Would you pull the mike up?
    Mr. Starr. I was just told to push my mike away.
    Mr. Hyde. By a Democrat, I am sure.
    Mr. Starr. The person did not identify his affiliation in 
saying that. But this is my first opportunity to publicly 
report on certain issues and aspects of our work, and I look 
forward to doing so and seeking to assist the committee.
    I appreciate both the seriousness of the committee's work 
and the gravity of its assignment. I have reviewed the 
statements made by the 37 members at the October 5 hearing, and 
any citizen who watched that hearing would have been impressed 
by the depth and the breadth of the discussion that day.
    Mr. Coble. Mr. Chairman, I apologize for interrupting Judge 
Starr, but, Judge, could you pull the mike a little closer.
    Mr. Starr. Yes, I will keep pulling.
    So I appear before you today in the wake of your own 
hearings, both on October 5 and in the hearings to which the 
Chair just referred, with great respect and awareness of the 
difficulty of your task.
    As you know, in January of this year and as the chairman 
indicated, the Attorney General of the United States petitioned 
the Special Division of the United States Court of Appeals for 
this jurisdiction, the panel that oversees independent 
counsels, and, at the Attorney General's request, the Special 
Division granted authority to us to investigate whether Monica 
Lewinsky or others committed Federal crimes relating to the 
sexual harassment lawsuit brought by Paula Jones against the 
President.
    Our office conducted a swift yet thorough investigation. We 
completed the primary factual investigation in under 8 months, 
notwithstanding a number of obstacles in our path.
    The law requires, as the chairman indicated, an independent 
counsel to report to the House of Representatives substantial 
and credible information that an impeachable offense may have 
been committed.
    On September 9, pursuant to our statutory duty, we 
submitted a referral and we submitted backup documentation to 
the House, as Mr. Conyers has noted, and I am here today at 
your invitation, in furtherance of our statutory obligation.
    Let me say at the outset that I recognize that it is the 
House of Representatives and not an independent counsel which 
enjoys the sole power to impeach. My role today is to discuss 
our referral and the underlying investigation.
    Let me then begin with an overview. As our referral 
explains, the evidence suggests that the President made false 
statements under oath and thwarted the search for truth in 
Jones v. Clinton. The evidence further suggests that the 
President made false statements under oath to the grand jury on 
August 17 of this year. That same night, the President publicly 
acknowledged an inappropriate relationship, but maintained that 
his testimony had been legally accurate.
    The President also declared that all inquiries into the 
matter should end because, he said, it was private.
    But shortly after the President's August 17 speech, 
Senators Lieberman, Kerrey and Moynihan stated that the 
President's actions were not a private matter. In our view they 
were correct. Indeed, the evidence suggests that the President 
repeatedly tried to thwart the legal process in the Jones 
matter and in the grand jury investigation. That is not a 
private matter. The evidence further suggests that the 
President in the course of those efforts misused his authority 
and his power as President and contravened his duty to 
faithfully execute the laws. That, too, is not a private 
matter.
    The evidence suggests that the misuse of Presidential 
authority occurred in the following 10 ways:
    First, the evidence suggests that the President made a 
series of premeditated false statements in his civil deposition 
on January 17, 1998. Those are statements under oath. The 
President had taken an oath to tell the truth, the whole truth, 
and nothing but the truth. By making false statements under 
oath, the President, the Chief Executive of our Nation, failed 
to adhere to that oath and to his Presidential oath to 
faithfully execute the laws.
    Second, the evidence suggests that apart from making false 
statements under oath, the President engaged in a pattern, a 
pattern of behavior during the Jones litigation, to thwart the 
judicial process. The President reached an agreement with Ms. 
Lewinsky that each would make false statements under oath. He 
provided job assistance to Ms. Lewinsky at a time when the 
Jones case was proceeding and Ms. Lewinsky's truthful testimony 
would have been harmful. He engaged in an apparent scheme to 
conceal gifts that had been subpoenaed from Ms. Lewinsky. He 
coached a potential witness, his own secretary, Ms. Currie, 
with a false account of relevant events.
    Those acts constitute a pattern of obstruction that is 
fundamentally inconsistent with the President's duty to 
faithfully execute the law.
    Third, the evidence suggests that the President 
participated in a scheme at his civil deposition in which his 
attorney in his presence deceived a United States district 
judge in an effort to cut off questioning about Ms. Lewinsky. 
The President did not correct his attorney's statement. A false 
statement to a Federal judge in order to shortcut and to 
prevent relevant questioning is an obstruction of the judicial 
process.
    Fourth, the evidence suggests that on January 23, 1998, 
after the criminal investigation had become public, the 
President made false statements to his Cabinet and used his 
Cabinet as unwitting surrogates to publicly support the 
President's false story.
    Fifth, the evidence suggests that the President, acting in 
a premeditated and calculated fashion, deceived the American 
people on January 26, and on other occasions, when he denied a 
relationship with Ms. Lewinsky.
    Sixth, the evidence suggests that the President, after the 
criminal investigation became public, made false statements to 
his aides and concocted false alibis that these government 
employees repeated to the grand jury sitting at the United 
States courthouse. As a result, the grand jury here in 
Washington received inaccurate information.
    Seventh, having promised the American people to cooperate 
with the investigation, the President refused six invitations 
to testify before the grand jury. Refusing to cooperate with a 
duly authorized Federal criminal investigation is inconsistent 
with the general statutory duty of all executive branch 
employees to cooperate with criminal investigations. It also is 
inconsistent with the President's duty to faithfully execute 
the laws.
    Eighth, the President and his administration asserted three 
different governmental privileges to conceal relevant 
information from the grand jury. The privilege assertions were 
legally baseless in these circumstances. They were inconsistent 
with the action of Presidents Carter and Reagan in similar 
circumstances, and they delayed and impeded the investigation.
    Ninth, the President made false statements under oath to 
the grand jury on August 17, 1998. The President again took an 
oath to tell the truth, the whole truth, and nothing but the 
truth. The evidence demonstrates that the President failed to 
adhere to that oath and thus to his Presidential oath to 
faithfully execute the laws.
    Tenth, the evidence suggests that the President deceived 
the American people in his speech on August 17 by stating that 
his testimony had been legally accurate.
    In addition to these 10 points, it bears mention that well 
before January of 1998, the President used governmental 
resources and prerogatives to pursue his relationship. The 
evidence suggests that the President used his secretary, Betty 
Currie, a government employee, to facilitate and to conceal the 
relationship with Ms. Lewinsky. The President used White House 
aides and the United States Ambassador to the United Nations in 
his effort to find Ms. Lewinsky a job, at a time when it was 
foreseeable, even likely, that she would be a witness in the 
Jones case. And, the President used a governmental attorney, 
Bruce Lindsey, to assist his personal legal defense during the 
Jones case.
    In short, the evidence suggests that the President 
repeatedly used the machinery of government and the powers of 
his high office to conceal his relationship, to conceal the 
relationship from the American people, from the judicial 
process in the Jones case, and from the grand jury.
    Let me turn, then, to the legal context in which these 
issues first arose. At the outset, I want to emphasize that our 
referral never suggests that the relationship between the 
President and Ms. Lewinsky in and of itself could constitute a 
high crime or misdemeanor. Indeed, the referral never passes 
judgment on the President's relationship with Ms. Lewinsky. The 
propriety of a relationship is not the concern of our office.
    The referral is instead about obstruction of justice, lying 
under oath, tampering with witnesses, and the misuse of power. 
The referral cannot be understood without appreciating this 
vital distinction.
    This case or matter thus raises the following initial 
question: Is a plaintiff in a sexual harassment lawsuit 
entitled to obtain truthful information from the defendant, and 
from associates of the defendant, in order to support her 
claim? That should be easy to answer. No citizen who finds 
himself accused in a sexual harassment case or in any other 
kind of case can lie under oath or otherwise obstruct justice, 
and thereby prevent the plaintiff from discovering evidence and 
presenting her case.
    Paula Jones, a former Arkansas State employee, filed a 
Federal sexual harassment suit against President Clinton in 
1994. The President denied those allegations. We will never 
know whether a jury would have credited the allegations. We 
will also never know whether the ultimate decisionmaker would 
have found that the alleged facts, if true, constitute sexual 
harassment. When the President and Ms. Jones settled the case 
last week, the Eighth Circuit Court of Appeals in St. Louis was 
still considering the preliminary legal question whether the 
facts, as alleged, could constitute sexual harassment.
    After the suit was first filed in 1994, the President 
attempted to delay the trial, or more broadly the proceedings, 
until his Presidency had concluded. The President claimed a 
temporary Presidential immunity from civil suit, and the case 
proceeded through the court of appeals to the Supreme Court of 
the United States. At oral argument, the President's attorney 
specifically warned our Nation's highest court that if Ms. 
Jones prevailed, her lawyers would be able to investigate the 
President's relationships with other women as is common in 
sexual harassment cases. The Supreme Court rejected the 
President's constitutional claim of immunity and did so by a 9-
to-0 vote. The Court concluded that the Constitution did not 
provide such a temporary immunity from suit.
    The idea was simple and powerful: No one is above the law. 
The Supreme Court sent the case back to trial with words that 
warrant emphasis. These are the words of our unanimous Supreme 
Court: ``Like every other citizen who invokes'' the district 
court's jurisdiction, Ms. Jones, the words of the Court again, 
``has a right to an orderly disposition of her claims.''
    After the Supreme Court's decision, the parties started to 
gather the facts. The parties questioned relevant witnesses in 
depositions. They submitted written questions. They made 
requests for documents.
    Sexual harassment cases are often ``he said-she said'' 
kinds of disputes. Evidence reflecting the behavior of both 
parties can be critical, including the defendant's 
relationships with other employees in the workplace.
    Such questions can be uncomfortable, but they occur every 
day in courts and law offices across our country. Individuals 
in those cases take an oath to tell the truth, the whole truth, 
and nothing but the truth. And no one is entitled to lie under 
oath simply because he or she does not like the questions or 
because he believes the case is frivolous, or that it is 
financially motivated or politically motivated. The Supreme 
Court has emphatically and repeatedly rejected the notion that 
there is ever a privilege to lie. The Court has stated that 
there are ways to object to questions. Lying under oath is not 
one of them.
    During this fact-gathering process, Judge Susan Webber 
Wright in Little Rock followed standard principles of sexual 
harassment cases. Over repeated objections from the President's 
attorneys, the judge permitted inquiries into the President's 
relationships with government employees. On January 8, 1998, 
for example, Judge Wright stated that questions as to the 
President's relationships with other government employees, in 
the words of the judge, ``are within the scope of issues in 
this case.''
    In making these rulings, Judge Susan Webber Wright 
recognized that the questions might prove embarrassing. She 
stated in her words, ``I have never had a sexual harassment 
case where there was not some embarrassment.'' She also stated 
that she could not protect the parties from embarrassment.
    Let me summarize the five points that explain how the 
President's relationship with Ms. Lewinsky, what was otherwise 
private conduct, became a matter of concern to the courts. This 
is critical to fully understand the nature of the committee's 
inquiry.
    One: the President was sued for sexual harassment in 
Federal court, and the Supreme Court of the United States ruled 
in that case that the case should go forward.
    Two: The law of sexual harassment and the law of evidence 
allow the plaintiff to inquire into the defendant's 
relationship with other women--with women in the workplace, 
which in this case included the President's relationship with 
Ms. Lewinsky.
    Three: Applying those settled legal principles, Judge Susan 
Webber Wright repeatedly rejected the President's objections to 
such inquiries. The judge instead ordered the President to 
answer the questions.
    Four: It is a Federal crime to commit perjury and obstruct 
justice in civil cases, including sexual harassment cases. 
Violators are subject to a sentence of up to 10 years 
imprisonment for obstruction and 5 years for perjury.
    Five: The evidence suggests that the President and Ms. 
Lewinsky made false statements under oath and obstructed the 
judicial process in the Jones case by preventing the court from 
obtaining the truth about the relationship.
    At his grand jury appearance, the President invoked a 
Supreme Court Justice's confirmation hearings as a comparison 
to his current situation. The President's use of the analogy 
did not fit the facts in the Monica Lewinsky case, however. But 
the President's having raised the analogy, let me make it more 
fitting to the case here.
    Suppose that there is a nominee for a high government 
position. Assume that in the confirmation process, there is an 
allegation of sexual harassment. Suppose that several women 
other than the accuser who have worked with the nominee testify 
before the Senate Judiciary Committee. Suppose that the nominee 
then confers with one of those women ahead of time, and that 
they agree that they will both lie to the Senate Judiciary 
Committee about their relationship. Assume further that they 
both do lie under oath about their relationship, and suppose 
further that a criminal investigation develops and the nominee 
again lies under oath to the grand jury. If that were proved to 
have happened, what would the Senate Judiciary Committee do?
    Suppose that the lying under oath and obstruction of 
justice occurs in a sexual harassment suit brought against the 
nominee. Suppose further that the false statements and the 
obstruction continue into a subsequent criminal investigation. 
What would this committee do with compelling evidence of 
perjury and obstruction of justice committed by, for example, a 
sitting Justice of the Supreme Court in a sexual harassment 
case in which he was the defendant?
    Those hypotheticals, which track the facts of this case, 
put in sharp relief the issue that is before this committee. 
Let me again stress that it is this House, the House of 
Representatives, and not an independent counsel, that has the 
sole power to impeach, but I am suggesting that the 
consideration of our referral be focused on the issues that are 
actually presented by the referral.
    Let me turn next to the essentials of the referral. That 
will include the specifics of Ms. Lewinsky's involvement in the 
Jones case and the President's actions in response to that 
involvement.
    The key point about the President's conduct is this: On at 
least six different occasions from December 17, 1997, through 
August 17, 1998, the President had to make a decision. He could 
choose truth, or he could choose deception. On all six 
occasions the President chose deception, a pattern of 
calculated behavior over a span of months.
    On December 5, 1997, Ms. Jones' attorneys identified Ms. 
Lewinsky as a potential witness. Within a day, the President 
learned that Ms. Lewinsky's name was on the witness list.
    After learning this, the President faced his first critical 
decision. Would he and Monica Lewinsky tell the truth about 
their relationship, or would they provide false information, 
not just to a spouse or to loved ones, but under oath in a 
court of law?
    Eleven months ago, the President made his decision. At 
approximately 2 o'clock in the morning on December 17, 1997, 
the President called Ms. Lewinsky at her Watergate apartment 
and told her that she was on the witness list. This was news to 
Ms. Lewinsky. And it bears noting that the President, not his 
lawyer, made this call to the witness.
    During this 2 a.m. conversation, which lasted approximately 
half an hour, the President could have told Ms. Lewinsky that 
they must tell the truth under oath. The President could have 
explained that they might face embarrassment, but that as a 
citizen and as the President, he could not lie under oath, and 
he could not sit by while Monica did so. The President did not 
say anything like that.
    On the contrary, according to Ms. Lewinsky, the President 
suggested that she could sign an affidavit in the case and use, 
under oath, deceptive cover stories that they had devised long 
ago to explain why Ms. Lewinsky had visited the Oval Office 
area. The President did not explicitly instruct Ms. Lewinsky to 
lie. He did not have to do so. Ms. Lewinsky testified that the 
President's suggestion that they use the preexisting cover 
stories amounted to a continuation of the pattern of concealing 
their intimate relationship. Starting with this conversation, 
the President and Ms. Lewinsky understood, according to Ms. 
Lewinsky, that they were both going to make false statements 
under oath.
    The conversation between the President and Ms. Lewinsky on 
December 17 was a critical turning point. The evidence suggests 
that the President chose to engage in a criminal act to reach 
an understanding with Ms. Lewinsky that they would both make 
false statements under oath. At that moment, the President's 
intimate relationship with a subordinate employee was 
transformed. It was transformed into an unlawful effort to 
thwart the judicial process. This was no longer an issue of 
private conduct.
    Recall that the Supreme Court had concluded that Paula 
Jones was entitled to an orderly disposition of her claims. The 
President's action on December 17 was his first direct effort 
to thwart the mandate of the Supreme Court.
    The story continued: The President faced a second choice. 
On December 23, 1997, the President submitted under oath a 
written answer to what lawyers call interrogatories, as the 
committee knows. The request stated in relevant part: ``Please 
state the name of Federal employees with whom you had sexual 
relations when you were President of the United States.'' In 
his sworn answer, the President said, ``None.''
    On December 28, the President faced a third critical 
choice. On that day, the President met Ms. Lewinsky at the 
White House. They discussed the fact that Ms. Lewinsky had been 
subpoenaed for gifts she had received from the President. 
According to Ms. Lewinsky, she raised with the President the 
question of what she should do with the gifts. Later that day, 
the President's personal secretary, Betty Currie, drove to Ms. 
Lewinsky's Watergate home. Ms. Lewinsky gave Ms. Currie a 
sealed box that contained some of the subpoenaed gifts. Ms. 
Currie then took the box and stored it under her bed at home.
    In her written proffer on February 1, 4 weeks after the 
fact, Ms. Lewinsky stated that Ms. Currie had called her to 
retrieve the gifts. If so, that necessarily would have meant 
that the President had asked Ms. Currie to call. It would 
directly and undeniably implicate him in an obstruction of 
justice. Ms. Lewinsky later repeated that statement in 
testimony under oath. Ms. Currie, for her part, recalls Ms. 
Lewinsky calling her, but even if Ms. Lewinsky called Ms. 
Currie, common sense and the evidence suggest some Presidential 
knowledge or involvement, as the referral explains.
    Let me add another point about the gifts. In his grand jury 
appearance in August, the President testified that he had no 
particular concern about the gifts in December of 1997 when he 
had talked to Ms. Lewinsky about them. And he thus suggested 
that he would have had no reason to take part in December in a 
plan to conceal the gifts. But there is a serious problem with 
the President's explanation. If it were true that the President 
in December was unconcerned about the gifts, he presumably 
would have told the truth under oath in his January deposition 
about the large number of gifts that he and Ms. Lewinsky had 
exchanged. But he did not tell the truth. At that deposition, 
when asked about whether he had ever given gifts to Monica 
Lewinsky, and he had given her several on December 28, the 
President stated, ``I don't recall. Do you know what they 
were?''
    In short, the critical facts to emphasize about the 
transfer of gifts are these: First, the President and Ms. 
Lewinsky met and discussed what should be done with the gifts 
that had been subpoenaed from her. Second, the President's 
personal secretary, Ms. Currie, drove later that day to Ms. 
Lewinsky's home, or apartment, to pick up the gifts. Third, Ms. 
Currie then stored the box of gifts under her bed.
    Meanwhile, the legal process continued to unfold, and the 
President took other actions that had the foreseeable effect of 
keeping Ms. Lewinsky on the team. The President helped Ms. 
Lewinsky obtain a job in New York. His efforts began after the 
Supreme Court's decision in May of 1997, at a time when it had 
become foreseeable that she could be an adverse witness against 
the President. These job-related efforts intensified in 
December 1997 after Ms. Lewinsky's name appeared on the witness 
list.
    Vernon Jordan, who had been enlisted in the job search for 
Ms. Lewinsky, testified that he kept the President informed of 
the status of Ms. Lewinsky's job search and her affidavit. On 
January 7, 1998, Mr. Jordan told the President that Ms. 
Lewinsky had signed the affidavit. Mr. Jordan stated to the 
President that he was still working on getting her a job. The 
President replied, ``Good.'' In other words, the President, 
knowing that a witness had just signed a false affidavit, 
encouraged his friend to continue trying to find her a job. 
After Ms. Lewinsky received a job offer from Revlon on January 
12, Vernon Jordan called the President and said, ``Mission 
accomplished.''
    As is often the situation in cases involving this kind of 
financial assistance, no direct evidence reveals the 
President's intent in assisting Ms. Lewinsky in her job 
efforts. Ms. Lewinsky testified that no one promised her a job 
for silence. Of course, crimes ordinarily do not take place 
with such explicit discussion. But Federal courts instruct 
juries that circumstantial evidence is just as probative as 
direct evidence, and here the circumstantial evidence is 
strong. At a bare minimum, the evidence suggests that the 
President's job assistance efforts stemmed from his desire to 
placate Ms. Lewinsky so that she would not be tempted under the 
burden of an oath to tell the truth about the relationship. 
Monica Lewinsky herself recognized that at the time, saying to 
a friend, ``Somebody could construe or say, 'Well, they gave 
her a job to shut her up. They made her happy.' ''
    And given that the President's plan to testify falsely 
could succeed only if Ms. Lewinsky went along, the President 
naturally had to be concerned that Ms. Lewinsky at any time 
might turn around and decide to tell the truth. Indeed, some 
wanted her to tell the truth. One of her friends, for example, 
talked to Ms. Lewinsky about the December 28 meeting with the 
President. The friend stated that she was concerned because, in 
her words, she ``didn't want to see Monica being like Susan 
McDougal'' and did not want Monica, the friend's words, ``to 
lie to protect the President.'' Needless to say, any sudden 
decision by Ms. Lewinsky to tell the truth, whether out of 
anger at the President or simple desire to be law-abiding, 
would have been very harmful to the President. That helps to 
explain his motive in providing job assistance.
    In mid-January, Ms. Lewinsky finalized her false affidavit 
with her attorney, who sent it to Judge Wright's court in 
Little Rock. The affidavit falsely denied a sexual relationship 
with the President. It essentially recounted the cover stories 
that had been discussed during that middle-of-the-night 
conversation on December 17.
    Let me turn to the President's January 17 deposition. Some 
have suggested that the President might have been surprised or 
ambushed at the deposition. Those suggestions are wrong. The 
President had clear warning that there would be questions about 
Monica Lewinsky. She had, again, been named on the December 5 
witness list. On January 12, just 5 days before the deposition, 
Ms. Jones's attorneys identified Ms. Lewinsky as a trial 
witness. In response, Judge Wright in Little Rock approved her 
as a trial witness. Two days later, on January 14, the 
President's private attorney asked Ms. Lewinsky's attorney to 
fax a copy of the affidavit. During the deposition itself, the 
President's attorney stated that the President was, in his 
words, ``fully familiar'' with the affidavit.
    At the outset of his January 17 deposition, therefore, the 
President faced a fourth critical decision. Fully aware that he 
would likely receive questions about Ms. Lewinsky, would the 
President continue to make false statements under oath, this 
time in the presence of a United States district judge who 
would be presiding at the deposition?
    At the start of the deposition here in Washington, Judge 
Susan Webber Wright administered the oath. The President swore 
to tell the truth, the whole truth, and nothing but the truth. 
As his testimony began, the President, in response to a 
question from Ms. Jones's attorneys, stated that he understood 
he was providing his testimony under penalty of perjury.
    The President was asked a series of questions about Ms. 
Lewinsky. After a few questions, the President's attorney Mr. 
Bennett objected to the questioning about Ms. Lewinsky, 
referring to it as, in his words, ``innuendo.'' Mr. Bennett 
produced Ms. Lewinsky's false affidavit. Mr. Bennett stated to 
Judge Wright that Ms. Lewinsky's affidavit indicated that, in 
Mr. Bennett's words, ``there is absolutely no sex of any kind 
in any manner, shape or form.'' Mr. Bennett stated that the 
President was ``fully aware of Ms. Lewinsky's affidavit.'' 
During Mr. Bennett's statements, the President sat back and let 
his attorney mislead Judge Susan Webber Wright. The President 
said not a word to the judge or, so far as we are aware, to his 
attorney.
    Judge Wright overruled Mr. Bennett's objection. The 
questioning continued. In response, the President made false 
statements not only about his intimate relationship with Ms. 
Lewinsky, but about a whole host of matters. The President 
testified that he did not know that Vernon Jordan had met with 
Ms. Lewinsky and talked about the Jones case. That was untrue. 
He testified that he could not recall being alone with Ms. 
Lewinsky. That was untrue. He testified that he could not 
recall ever being in the Oval Office hallway with Ms. Lewinsky 
except perhaps when she was delivering pizza. That was untrue. 
He testified that he could not recall gifts exchanged between 
Ms. Lewinsky and him. That was untrue. He testified, after a 
14-second pause, that he was not sure whether he had ever 
talked to Ms. Lewinsky about the possibility that she might be 
asked to testify in the lawsuit. That was untrue. The President 
testified that he did not know whether Ms. Lewinsky had been 
served a subpoena at the time he last saw her in December 1997. 
That was untrue. When his attorney read Ms. Lewinsky's 
affidavit denying a sexual relationship, the President stated 
that the affidavit was ``absolutely true.'' That was untrue.
    The evidence thus suggests that the President, long aware 
that Ms. Lewinsky was a likely topic of questioning at his 
deposition, made not one or two, but a series of false 
statements under oath. The President further allowed his 
attorney to use Ms. Lewinsky's affidavit, which the President 
knew to be false, to deceive the court. The evidence suggests 
that the President directly contravened the oath he had taken, 
as well as the Supreme Court's specific mandate in which the 
Court had stated that Ms. Jones was entitled, like every other 
citizen, to a lawful disposition of her case.
    As my referral outlines, the President's deposition did not 
mark the end of his scheme to conceal. During his deposition 
testimony, the President referred to his secretary, Betty 
Currie. The President testified, for example, that Ms. Lewinsky 
had come to the White House to see Ms. Currie, that Ms. Currie 
had been involved in assisting Ms. Lewinsky in her job search, 
and that Ms. Currie had communicated with Vernon Jordan about 
Mr. Jordan's assistance to Ms. Lewinsky. In response to one 
question at the deposition, the President said he did not know 
the answer and ``you'd have to ask Betty.''
    Given the President's repeated reference to Ms. Currie and 
his suggestion to Ms. Jones's attorneys that they contact her, 
the President had to know that Ms. Jones's attorneys might want 
to question Ms. Currie. Shortly after 7 p.m. on Saturday, 
January 17 of this year, just 2\1/2\ hours after the deposition 
had concluded, the President attempted to contact Ms. Currie at 
her home. The President asked Ms. Currie to come to the White 
House the next day, which she did, although it was unusual for 
her to come in on a Sunday. According to Ms. Currie, the 
President appeared concerned, and he made a number of 
statements about Ms. Lewinsky to Ms. Currie. The statements 
included:
    ``You were always there when she was there, right? We were 
never really alone.''
    ``You could see and hear everything.''
    Ms. Currie concluded that the President wanted her to agree 
with him when he made these statements. Ms. Currie stated that 
she did, in fact, indicate her agreement, although she knew 
that the President and Ms. Lewinsky had been alone, and that 
she could not hear or see them when they were alone.
    Ms. Currie further testified that the President ran through 
the same basic statements with her again on either January 20th 
or the 21st.
    What is important with respect to these two episodes is 
that at the time the President made these statements, he knew 
that they were false. He knew he had been alone with Ms. 
Lewinsky; he knew Ms. Currie could not see or hear everything. 
The President thus could not have been trying to refresh his 
recollection, as he subsequently suggested. That raises the 
question: Is there a legitimate explanation for the President 
to have said those things in that manner to Ms. Currie? The 
circumstances suggest not. The facts suggest that the President 
was attempting to improperly coach Ms. Currie at a time when he 
could foresee that she was a potential witness in Jones v. 
Clinton.
    The President's next major decision came in the days 
immediately after January 21st. On the 21st, The Washington 
Post reported the story of Ms. Lewinsky's relationship with the 
President. After the public disclosure of his relationship with 
Ms. Lewinsky and the ongoing criminal investigation, the 
President faced a decision. Would he admit the relationship 
publicly, correct his testimony in the Jones case, and ask for 
the indulgence of the American people? Or would he continue to 
deny the truth?
    For this question, the President consulted with others. 
According to Dick Morris, the political consultant, the 
President and he talked on January 21st. Mr. Morris suggested 
that the President publicly confess. The President replied, 
``But what about the legal thing? You know, the legal thing? 
You know, Starr and perjury and all.'' Mr. Morris suggested 
that they take a poll. The President agreed. Mr. Morris called 
with the results. He stated that the American people were 
willing to forgive adultery, but not perjury or obstruction of 
justice. The President replied, ``Well, we just have to win, 
then.''
    Over the next several months, it became apparent that the 
strategy to win had many prongs. First, the President denied 
the truth publicly and emphatically. Second, he publicly 
promised to cooperate with the investigation. Third, the 
President deflected and diverted the investigation by telling 
aides false stories that were then related to the Federal grand 
jury here in Washington. Fourth, he refused invitations to 
testify to the grand jury for over 6 months. Fifth, his 
administration delayed the investigation through multiple 
privilege claims, each of which has been rejected by the 
Federal courts. Sixth, surrogates of the President attacked the 
credibility and the legitimacy of the grand jury investigation. 
Seventh, surrogates of the President attempted to convince the 
Congress and the American people that the matter was 
unimportant.
    The first step was for the President to deny the truth 
publicly. For this, political polling led to Hollywood staging. 
The President's California friend and producer Harry Thomason 
flew to Washington and advised the President that the President 
needed to be very forceful in denying the relationship. On 
Monday, January 26, in the Roosevelt Room, before Members of 
Congress and other citizens, the President provided a clear and 
emphatic public statement denying the relationship.
    The President also made false statements to his Cabinet and 
to his aides. They then spoke publicly and professed their 
belief in the President.
    The second step was to promise cooperation. The President 
told the American people on several television and radio shows 
on January 21st and 22nd that, in his words, ``I'm going to do 
my best to cooperate with the investigation.''
    The third step was the President's refusal to provide 
testimony to the grand jury, despite six invitations to do so, 
and despite his public promise to cooperate. Refusing 
invitations to provide information to a grand jury in a Federal 
criminal investigation, and one authorized by the Attorney 
General of the United States, and one in which there is a high 
national interest in prompt completion, was inconsistent with 
the January promise of the President to cooperate, and with the 
general statutory duty of all government officials to cooperate 
with Federal criminal investigations.
    As a fourth step, the President not only refused to testify 
himself, but he authorized the use of various governmental 
privileges to delay the testimony of many of his taxpayer-paid 
assistants. The extensive use of governmental privileges 
against grand jury and criminal investigations has, of course, 
been a pattern through this administration. Most notably, the 
White House cited privilege in 1993 to prevent Justice 
Department and Park Police officials from reviewing documents 
in Vincent Foster's office in the days after his tragic death.
    In the Lewinsky investigation, the President asserted two 
privileges, executive privilege and a government attorney-
client privilege. A subordinate administration official, 
without objection from the President, claimed the previously 
unheard of privilege that was called the protective function 
privilege. The privileges were asserted to prevent full 
testimony of several White House aides. They were asserted to 
prevent the full testimony of sworn law enforcement officers of 
the Secret Service.
    In asserting executive privilege, the President was plowing 
headlong into the Supreme Court's unanimous decision 24 years 
ago in United States v. Richard Nixon. There the Supreme Court 
ruled that executive privilege was overcome by the need for 
relevant information and evidence in criminal proceedings. And 
thus it came as no surprise that Chief Judge Norma Holloway 
Johnson of this district rejected President Clinton's effort to 
use executive privilege to prevent disclosure of relevant 
evidence.
    In asserting protective function and government attorney-
client privileges, the administration was asking the Federal 
courts to make up one new privilege out of whole cloth, and it 
was asking them to apply another privilege in a context in 
which no Federal court had ever applied it before. Thus, it 
again came as little surprise that the Federal courts rejected 
the administration's claims. Indeed, as to the government 
attorney-client claim, the D.C. Circuit and the district court, 
like the Eighth Circuit a year ago, stated that the President's 
legal position not only was wrong, but would authorize, in the 
court's words, ``a gross misuse of public assets.'' The Supreme 
Court refused to grant review of the cases notwithstanding the 
administration's two strongly-worded petitions for certiorari.
    This point bears emphasis: The administration justified its 
many privilege claims by claiming an interest in protecting the 
Presidency, not the President personally, but that 
justification is dubious for two reasons. First, Presidents 
Carter and Reagan waived all government privileges at the 
outset of criminal investigations in which they were involved. 
The examples set by those two Presidents demonstrate that such 
privileges in criminal investigations are manifestly 
unnecessary in order to protect the Presidency. Second, these 
novel privilege claims were quite weak as a matter of law.
    And that raises a question: What was it about the Monica 
Lewinsky matter that generated the administration's 
particularly aggressive approach to privileges? The 
circumstantial evidence suggests an answer: delay. Indeed, when 
our office sought to have the Supreme Court of the United 
States decide all three privilege claims at once this past 
June, the administration opposed expedited consideration.
    Not only did the administration invoke these three losing 
privileges, but the President publicly suggested that he had 
not invoked executive privilege, when, in fact, he had. On 
March 24, 1998, while traveling in Africa, the President was 
asked about executive privilege. He stated in response, ``You 
should ask someone who knows. I haven't discussed that with the 
lawyers. I don't know.'' But White House counsel Charles Ruff 
had filed an affidavit in Federal court before Judge Johnson 
only 7 days earlier in which he swore that he had discussed the 
assertion of executive privilege with the President, and that 
the President had approved its invocation.
    After Chief Judge Johnson ruled against the President, the 
President then dropped the executive privilege claim in the 
Supreme Court, and then in August, the President explained to 
the grand jury why he had dropped the claim. The President 
stated, ``I didn't really want to advance an executive 
privilege claim in this case beyond having it litigated.''
    But this statement made to the grand jury was inaccurate. 
In truth, the President had again asserted executive privilege 
only a few days earlier. And a few days after his grand jury 
testimony, the President again asserted executive privilege to 
prevent the testimony of Bruce Lindsey. These executive 
privilege cases continue to this day. Indeed, one case is now 
pending in the D.C. Circuit.
    When the President and the administration assert privileges 
in a context involving the President's personal issues, when 
the President pretends publicly that he knows nothing about the 
executive privilege assertion, when the President and the 
administration rebuff our office's efforts to expedite the 
cases to the Supreme Court, when the President contends in the 
grand jury that he never really wanted to assert executive 
privilege beyond having it litigated, despite the fact that he 
had asserted it 6 days earlier and would do so again 11 days 
afterwards, there is substantial and credible evidence that the 
President has misused the privileges available to his high 
office. And the misuse delayed and impeded the Federal grand 
jury's investigation.
    The fifth tactic was diversion and deflection. The 
President made false statements to his aides and associates 
about the nature of the relationship, as we have seen, with 
knowledge that they could testify to that effect to the grand 
jury sitting here in Washington. The President did not simply 
say to his associates that the allegations were false, or that 
the issue was a private matter that he did not want to discuss. 
Instead, the President concocted alternative scenarios that 
were then repeated to the Federal grand jury.
    The final two tactics were related: to attack the grand 
jury investigation, including the Justice Department 
prosecutors who serve in my office, to declare war, in the 
words of one Presidential advisor and ally; and to shape public 
opinion about the proper resolution of the entire matter. It is 
best that I leave it to someone outside our office to elaborate 
on the war against the office, but no one really disputes that 
these tactics were employed and continue to be employed to this 
very day.
    This strategy proceeded for nearly 7 months. It changed 
course in August after Monica Lewinsky reached an immunity 
agreement with our office, and the grand jury, after 
deliberation, issued a subpoena to the President.
    The President testified before the grand jury on August 17. 
Beforehand, many in Congress and in the public advised that the 
President should tell the truth. They cautioned that the 
President should not lie before the grand jury. Senator Hatch, 
for example, stated that, ``So help me, if he lies before the 
grand jury, that will be grounds for impeachment.'' Senator 
Moynihan simply stated that perjury before the grand jury was, 
in his view, an impeachable offense.
    The evidence suggests that the President did not heed this 
senatorial advice. Although admitting to an ambiguously defined 
inappropriate relationship, the President denied that he had 
lied under oath at his civil deposition. He also denied any 
conduct that would establish that he had lied under oath at 
that deposition. The President thus denied certain conduct with 
Ms. Lewinsky and devised a variety of tortured and false 
definitions.
    The President's answers have not been well received. 
Congressman Schumer, the Senator-elect who won, stated that 
``it is clear that the President lied when he testified before 
the grand jury.'' Congressman Meehan stated that the President 
engaged in a ``dangerous game of verbal Twister.'' Indeed, the 
President made false statements to the grand jury, and then 
that same evening spoke to the Nation and criticized all 
attempts to show that he had done so as invasive and 
irrelevant. The President's approach appeared to contravene the 
oath that he took at the start of the grand jury proceedings. 
It also disregarded the admonitions of those Members of 
Congress who warned that lying to a grand jury would not be 
tolerated. It also discounted Judge Susan Webber Wright's many 
orders in which she had ruled that this kind of evidence was 
relevant in the Jones case.
    And thus ended the over 8-month journey that had begun on 
December 5, 1997, when Monica Lewinsky's name appeared on the 
witness list. The evidence suggests that the 8 months included 
false statements under oath, false statements to the American 
people, false statements to the President's Cabinet and his 
aides, witness tampering, obstruction of justice, and the use 
of Presidential authority and power in an effort to conceal the 
truth of the relationship and to delay the investigation.
    Given the serious nature of perjury and obstruction of 
justice regardless of its setting, it is obvious that the 
actions of the President and Ms. Lewinsky to conceal the truth 
warranted criminal investigation. Let me explain how the 
investigation came to be handled by our office rather than by 
the Department of Justice, or by some other independent 
counsel. That explanation is straightforward.
    On January 8, an attorney in our office was informed that a 
witness, who was Linda Tripp, who had been a witness in prior 
investigations in our office, had information that she wanted 
to provide. A message was conveyed back that she should provide 
her information directly. Ms. Tripp called our office on 
January 12. In that conversation and later, she provided us a 
substantial amount of information.
    Let me pause here and emphasize that our office, like most 
law enforcement agencies, has received innumerable tips about a 
wide variety of matters over the past 4 years, from Swiss bank 
accounts to drug smuggling. You name it, we have heard it. In 
each case, we must make an initial assessment, whether it is a 
serious tip or a crank call, as well as an assessment of 
jurisdictional issues.
    We handled the information from Ms. Tripp in this same 
manner. When we confirmed that the information appeared 
credible, we reached out to the Department of Justice, as we 
have done regularly during my tenure as Independent Counsel. We 
contacted Deputy Attorney General Eric Holder within 48 hours 
after Ms. Tripp provided us information, and we found him 
appropriately at a basketball game in the evening hours of that 
day. The next day we fully informed the Deputy Attorney General 
about Ms. Tripp's information, about Ms. Tripp's tapes and the 
questions concerning their legality under State law. About the 
consensual FBI recording of Ms. Tripp and Ms. Lewinsky. About 
the indications that Vernon Jordan was providing employment 
assistance to a witness who had the potential to harm the 
President, a fact pattern that we had seen in the Webster 
Hubbell investigation, which I shall describe presently.
    We discussed jurisdiction. We noted that it is in 
everyone's interest to avoid time-consuming jurisdictional 
challenges. We stated that the Lewinsky investigation could be 
considered outside our jurisdiction, as then constituted. We 
stressed that someone needed to work the case: The Justice 
Department or an independent counsel.
    Later that evening, the Deputy Attorney General telephoned 
and reported that the Attorney General had tentatively decided 
to assign the matter to us. Before her decision was final, we 
reviewed the evidence in detail with two experienced career 
prosecutors in the Justice Department. One senior Justice 
Department prosecutor listened to portions of the FBI tape, the 
consensual recording. The Attorney General made her final 
decision on Friday, January 16. That day, through a senior 
career prosecutor, the Attorney General asked the three-judge 
Special Division to expand our office's jurisdiction. The 
Special Division granted the request that day.
    In short, our entry into this investigation was a standard, 
albeit an expedited, procedure.
    Seven months later, after conducting the factual 
investigation, and after the President's grand jury testimony, 
the question we faced was what to do with the evidence. The 
chairman referred to Section 595(c) of the independent counsel 
statute, which requires an independent counsel, investigating 
possible crimes, to provide to the House of Representatives, in 
the words of the statute, substantial and credible information 
that may constitute grounds for an impeachment.
    This reporting provision suggests a statutory preference 
that possible criminal wrongdoing by a President be addressed 
in the first instance by the House of Representatives. It also 
requires an analysis of the law of impeachment. You have had 
hearings on that subject, but let me say that as we understood 
the text of the Constitution, its history and relevant 
precedents, it was clear to us that obstruction of justice, in 
its various forms, including perjury, may constitute grounds 
for an impeachment, the language of the statute.
    Even apart from any abuses of presidential authority and 
power, the evidence of perjury and obstruction of justice 
required us to refer the information to the House. Perjury and 
obstruction of justice are, of course, serious crimes. In 1790, 
the first Congress, sitting in New York, passed a criminal law 
that banned perjury. A violator was subject to 3 years' 
imprisonment. Today, Federal criminal law makes perjury a 
felony punishable by 5 years' imprisonment.
    In cases involving public officials, courts treat false 
statements with special condemnation. United States District 
Judge Royce Lamberth, here in Washington, recently sentenced 
Ronald Blackley, the former chief of staff to the former 
Secretary of Agriculture, to 37 months imprisonment for false 
statements.
    The District Court, Judge Lamberth, stated, in his words, 
the Court ``has a duty to send a message to other high level 
government officials that there is a severe penalty to be paid 
for providing false information under oath.'' Although perjury 
and obstruction of justice are serious Federal crimes, some 
have suggested that they are not high crimes or misdemeanors 
when the underlying events concern the President's private 
actions.
    Under this theory, a President's obstruction and perjury 
must involve concealment of official actions. This 
interpretation does not appear in the Constitution itself. 
Moreover, the Constitution lists bribery as a high crime or 
misdemeanor and if a President involved in a civil suit bribed 
the judge to rule in his favor, or bribed a witness to provide 
favorable testimony, there could be no textual question that 
the President had committed a high crime or misdemeanor under 
the plain language of Article II, even though the underlying 
events would not have involved his official duties.
    In addition, virtually everyone agrees that serious crimes, 
such as murder and rape, would be impeachable even though they 
do not involve official duties. Justice Story, in the last 
century, stated in his famous commentaries that there is not a 
syllable in the Constitution which confines impeachment to 
official acts. With all respect, an absolute and inflexible 
requirement of a connection to official duties appears, fairly 
viewed, to be an incorrect interpretation of the Constitution.
    History and practice support the conclusion that perjury in 
particular is a high crime and misdemeanor. Perjury has been 
the basis, as the committee knows, for the removal of several 
judges. As far as we know, no one has questioned whether 
perjury was a high crime or misdemeanor in those cases. In 
addition, as several of the scholars who appeared before you 
testified and to whom the chairman referred, perjury seems to 
have been recognized as a high crime or misdemeanor at the time 
of the founding of our republic. And the House Manager's report 
in the impeachment of Judge Walter Nixon, for perjury, stated, 
``It is difficult to imagine an act more subversive to the 
legal process than lying from the witness stand.''
    Finally, I note that the Federal Sentencing Guidelines 
include bribery and perjury in the same guideline, reflecting 
the common sense conclusion that bribery and perjury are 
equivalent means of interfering with the governmental process. 
For these reasons, we concluded that perjury and obstruction of 
justice, like bribery, may constitute grounds for an 
impeachment.
    Having said that, let me again emphasize my role here. We 
had a judgment to make, but whether the President's actions 
are, in fact, grounds for an impeachment or some other sanction 
is a decision in the sole discretion of the Congress.
    A final point warrants mention in this respect. Criminal 
prosecution and punishment are not the same as or a substitute 
for congressionally imposed sanctions. As the Supreme Court 
stated in a 1993 case, ``the Framers recognized that most 
likely there would be two sets of proceedings for individuals 
who commit impeachable offenses, the impeachment trial and a 
separate criminal trial. In fact, the Constitution explicitly 
provides for two separate proceedings. The Framers deliberately 
separated the two forums to avoid raising the specter of bias 
and to ensure independent judgment.''
    Our task over the past several years has involved far more 
than simply the Lewinsky matter. The pattern of obstruction of 
justice, false statements and misuse of executive authority in 
the Lewinsky investigation did not occur in a vacuum. In August 
1994----
    Ms. Jackson Lee. Mr. Chairman, I seek a ruling of the 
Chair. Mr. Chairman, I seek a ruling of the Chair.
    Mr. Hyde. Well, all right. I take it the gentlelady has a 
point of order?
    Ms. Jackson Lee. Yes, I do, Mr. Chairman.
    Mr. Hyde. State your point.
    Ms. Jackson Lee. Mr. Chairman, I respectfully raise this 
point of order with the understanding that we have not received 
nor are we receiving any referral on the issues dealing with 
Madison Guaranty, Whitewater, Travelgate or Filegate and, in 
fact, as I understand, there is an announcement today that the 
findings of guilt against the President on the issues of 
Travelgate or Filegate do not exist, referred to in pages 46 
and 47 of the statement of Mr. Starr.
    I therefore ask, Mr. Chairman, whether Mr. Starr's remarks, 
as he begins them at this point, are germane, and secondly, 
whether or not the President is being denied his Fifth 
Amendment rights by lack of notice and a denial of liberty by 
not having been noticed of any presentations being made on 
Whitewater, Madison Guaranty, Filegate and Travelgate. I 
believe Mr. Starr's remarks are now out of order and I believe 
that there should be a ruling that his remarks are not germane 
and, that if he proceeds he will be denying the President and 
any other parties the constitutional right of due process and 
the Fifth Amendment.
    And, Mr. Chairman, as you well recognized, I raised the 
question when we began some 2 or 3 months ago, as to whether or 
not this committee would abide by the constitutional provision 
of the Fifth Amendment. I offered an amendment to that point. I 
was told by the Chair at that time that under the Rules of the 
House we would be guided by the Fifth Amendment, and I believe 
that the due process rights of the President and other parties 
are being denied with the representations that Mr. Starr is 
about to make. I would ask the Chair for his ruling.
    Mr. Hyde. Well, the Chair overrules the gentlelady's point 
of order and the witness will continue.
    Mr. Starr. Thank you.
    Ms. Jackson Lee. I thank the Chair.
    Mr. Starr. Thank you, Mr. Chairman.
    I had said that it was in August of 1994 that I took over 
the Madison Guaranty investigation from Robert Fiske. Over the 
ensuing years, I have essentially become Independent Counsel 
for five distinct investigations: For Madison Guaranty and 
Whitewater, for Foster-related matters, for the Travel Office, 
for the FBI files matter and for the Lewinsky investigation, as 
well as for a variety of obstruction and related matters that 
arose out of those five major investigations.
    A very brief overview of those investigations may assist 
the committee in its assessment of the President's conduct. 
First, some statistics. The chairman noted that the 
investigation has resulted in the conviction of 14 individuals, 
including the former Associate Attorney General of the United 
States, Webster Hubbell, the then sitting Governor of Arkansas, 
Jim Guy Tucker, and the Clintons' two business partners, Jim 
and Susan McDougal.
    We are proud not only of the cases that we have won but of 
our decisions not to indict. To take one well-known example, 
the Senate Whitewater Committee sent our office public criminal 
referrals on several individuals. The committee stated in its 
June 21, 1996, public letter that the testimony of Susan 
Thomases was particularly troubling and suggests a possible 
violation of law. But this office did not seek charges against 
her.
    Apart from indictments and convictions, this office has 
also faced an extraordinary number of legal disputes on issues 
of privilege, on jurisdiction, substantive criminal law and the 
like. By my count at least 17 of our cases have been decided by 
the Federal Courts of Appeals, and we have been fortunate in 
prevailing in all 17. One privilege case arising in our Travel 
Office investigation went to the D.C. Circuit, where we 
prevailed by a 2-to-1 decision, and then to the Supreme Court, 
where we lost by a 6-to-3 decision.
    We had to litigate in the courts as our investigation ran 
into roadblocks and hurdles that slowed us down. It is true 
that the administration produced a great amount of information, 
but unlike the prosecutors in the investigations involving 
Presidents Carter and Reagan, we have been forced to go to 
court time and time again to seek information from the 
executive branch, and to fight a multitude of privilege claims 
asserted by the administration, every single one of which we 
have won.
    In sum, the office where I serve has achieved a superb 
record in courts of law of significant and hard fought 
convictions, of fair and wise decisions not to charge, of 
thorough and accurate reports on the Vincent Foster death and 
the Monica Lewinsky matters, of legal victories in various 
courts. We go to court and not on the talk-show circuit, and 
our record shows that there is a bright line between law and 
politics, between courts and polls. It leaves the polls to the 
politicians and the spin doctors. We are officers of the court 
who live in the world of law. We have presented our cases in 
court and with very rare exception we have won.
    The center of all of this, the core of our Arkansas-based 
investigation, was Madison Guaranty Savings and Loan. Madison 
was a federally insured savings and loan in Little Rock, 
Arkansas, run by Jim and Susan McDougal. Like many savings and 
loans in the 1980s, Madison was fraudulently operated. Mrs. 
Clinton and other lawyers at the Rose Law Firm in Little Rock 
performed legal work for Madison in the 1980s. Madison first 
received attention in March 1992, when a New York Times report 
raised several issues about the relationships between the 
Clintons and the McDougals in connection with Madison Guaranty.
    Federal bank examiners examined Madison in 1992 and 1993, 
and the regulators sent criminal referrals to the Justice 
Department, and the Justice Department then launched a criminal 
investigation of Madison Guaranty in November 1993. In part, 
because of the relationship of the Clintons to the McDougals, 
Attorney General Reno appointed Bob Fiske in January 1994. I 
was appointed Independent Counsel in August 1994 to continue 
the investigation.
    Madison exemplified the troubled practices of savings and 
loans in the 1980s. The failure of the institution ultimately 
cost Federal taxpayers approximately $65 million. Congresswoman 
Waters put it this way in a 1995 hearing: ``By any standard, 
Madison Guaranty was a disaster. It gambled with investments, 
cooked the books and ultimately bilked the taxpayers of the 
United States.'' Madison, she went on, ``is a metaphor for the 
S&L crisis.''
    The McDougals' operation of Madison raised serious 
questions whether bank funds had been used illegally to assist 
business and political figures in Arkansas, such as Jim Guy 
Tucker, the Governor to be, and the then Governor, Governor 
Clinton. As to the Clintons, the question arose primarily 
because they were partners with the McDougals in the Whitewater 
Development Company. The Whitewater Corporation initially 
controlled and developed approximately 230 acres of property on 
the White River in northern Arkansas. Given Jim McDougal's role 
at the center of both institutions, and given Whitewater's 
constant financial difficulties, there were two important 
questions: Were Madison funds diverted to benefit Whitewater? 
If so, were the Clintons either involved in or knowledgeable of 
that diversion of funds? Those questions were not idle 
speculation.
    In early 1994, a Little Rock judge and businessman, David 
Hale, pled guilty to certain unrelated Federal crimes. As part 
of his plea, David Hale told Mr. Fiske's team that he had 
received money as a result of a loan from Madison in 1986 and 
that his company loaned it to others as part of a scheme to 
help some members of the Arkansas political establishment.
    One loan of $300,000 went to Susan McDougal's make-believe 
company, which she called Master Marketing. Based on our 
investigation, we now know that some $50,000 of the proceeds of 
that loan went to benefit the Whitewater Corporation. David 
Hale stated that he had discussed the Susan McDougal loan with 
then Governor Clinton, including at a meeting in 1986 with Jim 
McDougal and the Governor.
    In August 1994, when I first arrived in Little Rock and, 
building on Mr. Fiske's work, we devised a plan. First, based 
on the testimony of David Hale and others, as well as 
documentary evidence, we would take steps, if appropriate, if 
the evidence warranted, to seek an indictment of Jim and Susan 
McDougal and others involved in what clearly appeared to be 
criminal transactions. If a Little Rock jury convicted the 
McDougals or others, we would then obtain their testimony and 
determine whether they had other relevant information, 
including, of course, whether the McDougals possessed 
information that would either exonerate or incriminate the 
Clintons as to Madison and Whitewater matters. This approach 
was the time honored and professional way to conduct an 
investigation.
    We garnered a number of guilty pleas in my first year. One 
was from Webster Hubbell, who had worked at the Rose Law Firm 
and was knowledgeable about its work with Madison, including 
that of Mrs. Clinton as a lawyer at the Rose Firm. In addition, 
Robert Palmer, a real estate appraiser, pled guilty to 
fraudulently doctoring Madison documents to deceive Federal 
bank examiners. Three other associates of McDougal pled guilty 
and agreed to cooperate.
    In August 1995, a year after I was appointed by the Special 
Division, a Federal grand jury in Little Rock indicted Jim and 
Susan McDougal and the then sitting Governor of Arkansas, Jim 
Guy Tucker. The case went to trial in March of 1996, amid 
charges by all three defendants and their allies that the case 
was a political witch-hunt. Some predicted that an Arkansas 
jury would never convict the sitting Governor. These 
expectations were heightened when Governor--excuse me, when 
President Clinton was subpoenaed as a defense witness in 
Governor Tucker's trial.
    The President testified for the defense from the Map Room 
of the White House. During his sworn testimony, the President 
testified, as a defense witness, that he did not know about the 
Susan McDougal loan, nor had he ever been in a meeting with 
Hale and McDougal about the loan. He also testified that he had 
never received a loan from Madison. This was important 
testimony. Its truth or falsity went to the core issues of our 
investigation.
    On May 28, 1996, all three defendants were convicted; Jim 
McDougal of 18 felonies, Susan McDougal of 4 felonies and 
Governor Tucker of 2 felonies. Governor Tucker announced his 
resignation that day.
    After his conviction, Jim McDougal began cooperating with 
our investigation. We spent many hours with him, gaining 
additional insights and facts. He informed our career 
investigators and prosecutors that David Hale was accurate. 
According to Jim McDougal, President Clinton had testified 
falsely at the McDougal-Tucker trial. Jim McDougal testified 
that he had been at a meeting with David Hale and Governor 
Clinton about the Master Marketing loan, and Jim McDougal 
testified that Governor Clinton had received a loan from 
Madison. Jim McDougal said on one of the first sessions with 
our office, following his conviction, that the President's 
trial testimony was, in his words, at variance with the truth. 
In late 1997----
    Ms. Jackson Lee. Mr. Chairman, I have a point of order.
    Mr. Hyde. The gentlelady, I would appreciate it if she 
wouldn't interrupt, but go ahead and state your point.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. And I 
appreciate the need for us to proceed, and to proceed fairly. 
That's all I am asking for.
    Mr. Hyde. I am sure you do.
    Ms. Jackson Lee. Mr. Chairman, I have stated earlier my 
objections to the direction of the testimony. Frankly, I raise 
again the question of germaneness with respect to 
representations related to Whitewater, Madison Guaranty and due 
process, Mr. Chairman. I think this testimony is inappropriate. 
There is not an attempt to cover up, but I do not have before 
me a referral from Mr. Starr or any of his deputies on the 
question of Whitewater, Filegate or Travelgate. Mr. Chairman, 
this testimony is not germane and it is a denial of due 
process.
    Mr. Hyde. I thank the gentlelady. This committee hearing is 
being conducted pursuant to notice, pursuant to House 
Resolution 581. That resolution directs the committee to, and I 
quote, ``investigate fully and completely whether sufficient 
grounds exist for the House of Representatives to exercise its 
constitutional power to impeach William Jefferson Clinton, 
President of the United States of America.'' That is the wide 
open range that we have given ourselves in this resolution in 
contradistinction to the Democratic resolution which wanted a 
narrow inquiry. That very issue was debated and voted on.
    So the gentleman's, the witness', testimony is perfectly 
germane and consonant with House Resolution 581 and, therefore, 
the gentlelady's point of order is overruled and the witness 
will continue.
    Ms. Jackson Lee. Mr. Chairman, I would like to appeal the 
ruling of the Chair.
    Mr. Bryant. Mr. Chairman.
    Mr. Hyde. Would you consult with your ranking minority 
member and see if----
    Mr. Bryant. Mr. Chairman, I would like a vote on that 
ruling.
    Ms. Jackson Lee. I would make my objection.
    Mr. Bryant. I would ask for a vote on that.
    Mr. Hyde. Please, we are trying to move along, and I 
appreciate the----
    Ms. Jackson Lee. In the sense of comity, Mr. Chairman, I 
withdraw my desire for a vote.
    Mr. Bryant. I just asked for a vote, that's all.
    Mr. Hyde. I am going to deny my friend Mr. Bryant's 
request, and then you and I can struggle over the noon hour. 
But I would like to move ahead. Thank you.
    Ms. Jackson Lee. Mr. Chairman, is my objection registered?
    Mr. Hyde. Indeed it is registered, twice.
    Ms. Jackson Lee. Thank you.
    Mr. Hyde. We will register it every half-hour, if you would 
like.
    Ms. Jackson Lee. Thank you.
    Mr. Hyde. The witness will continue, please.
    Mr. Starr. Thank you, Mr. Chairman.
    In late 1997, we, in our office, considered whether this 
evidence that I have just described, justified a referral to 
Congress. We drafted a report. But we concluded that it would 
be inconsistent with the statutory standard because of the 
difficulty of establishing the truth with a sufficient degree 
of confidence. We also weighed a prudential factor in reaching 
that decision. There were still two outstanding witnesses who 
might later corroborate or contradict the McDougal and Hale 
accounts: Jim Guy Tucker and Susan McDougal.
    In 1998, we were finally able to obtain information from 
Governor Tucker. It had taken 4 long years to hear from the 
Governor. He pled guilty in a tax conspiracy case, and he 
ultimately testified before the Little Rock grand jury in March 
and April of this year, but he had little knowledge of the loan 
to Susan McDougal's fictitious company and the President's 
possible involvement in it. He did shed light on the overall 
transactions involving Castle Grande and Madison. Importantly, 
as to one subject, Governor Tucker exonerated the President 
regarding long-standing questions whether the President and 
Governor Tucker had a conversation about the Madison referrals 
in the White House in October 1993. The Governor exonerated the 
President.
    The remaining witness who perhaps could shed light on the 
issue was Susan McDougal, and therein lies a story that has 
caused literally years of delay and added expense to the 
investigation.
    Because the proceeds from the fraudulent loan that Susan 
McDougal received had benefitted the Clintons, the proceeds 
were used to pay off obligations of the Whitewater Development 
Company for which the Clintons were potentially personally 
liable, Susan McDougal was subpoenaed to testify before the 
grand jury in Little Rock in August 1996. She was asked several 
questions going to the very heart of the investigation, 
including these: Did you ever discuss your loan from David Hale 
with William Jefferson Clinton? To your knowledge, did William 
Jefferson Clinton testify truthfully during the course of your 
trial?
    Susan McDougal refused to answer any questions. District 
Judge Susan Webber Wright, in Little Rock, then held her in 
civil contempt, a decision later upheld unanimously by the 
United States Court of Appeals in St. Louis.
    The month of September 1996 was thus a crucial time for our 
office in its attempt to obtain Susan McDougal's lawful 
testimony.
    On September 23, 1996, just two weeks after Ms. McDougal 
had been found in contempt by Judge Wright, President Clinton 
was interviewed on PBS. The President said, ``There is a lot of 
evidence to support,'' his words, various charges that Susan 
McDougal had made against our office, but the President cited 
no evidence.
    The President's comments can reasonably be described as 
supportive of Ms. McDougal's decision to disobey the Court 
order. So far as we are aware, no sitting President ever has 
publicly indicated his agreement with a convicted felon's 
stated reason for refusing to obey a Federal court order to 
testify. Essentially, the President of the United States, the 
Chief Executive, sided with a convicted felon against the 
United States as represented by United States District Court 
Judge, now Chief Judge, Susan Webber Wright, the United States 
Court of Appeals for the Eighth Circuit, and our office.
    The President was also asked in the interview whether he 
would consider pardoning Ms. McDougal. The President refused to 
rule out a pardon.
    The President's answers to these questions were roundly 
criticized. A New York Times editorial captured the point well, 
stating that the President's remarks undercut a legal process 
that is going forward in an orderly way.
    A separate area of our original investigation concerned the 
Rose Law Firm's work in 1985 and 1986 for Madison. It appeared 
that Rose may have assisted Madison Guaranty in performing 
legal work concerning a piece of property known alternatively 
as IDC, or Castle Grande, which involved McDougal, Madison 
Guaranty and fraudulent transactions. The complicated real 
estate deal known as Castle Grande was structured to avoid 
state banking regulatory requirements and involved violations 
of Federal criminal law.
    Grand jury subpoenas were issued in 1994 and 1995 to the 
Rose Law Firm and to the President and to Mrs. Clinton, seeking 
all documents relating to Madison and Castle Grande. We 
ultimately learned that Mrs. Clinton had performed some legal 
work related to Madison's Castle Grande/IDC transactions, but 
the whole issue remained partially enshrouded in mystery as our 
office and the Senate Whitewater Committee investigated the 
issue in 1995.
    The problem was that some of the best evidence regarding 
Mrs. Clinton's work, her Rose Law Firm billing records and her 
time sheets for 1985 and 1986 at the Rose Firm, could not be 
found. The missing records raised suspicions by late 1995 and 
became a public issue. Webster Hubbell and Vincent Foster, Jr., 
had been responsible, during the 1992 campaign, for gathering 
information about Mrs. Clinton's work for Madison Guaranty, yet 
the billing records could not be found. The Rose Firm's work 
for Madison Guaranty could not be fully pieced together. The 
Rose Firm no longer had the records.
    On January 5, 1996, the records of Mrs. Clinton's 
activities, her legal work for Madison, were finally produced 
under unusual circumstances. The records detail Mrs. Clinton's 
work on a variety of Madison issues, including the preparation 
of an option agreement that Madison Guaranty used to deceive 
Federal bank examiners as part of the Castle Grande deal. After 
a thorough investigation, we have found no explanation how the 
billing records got where they were or why they were not 
discovered and produced earlier. It remains a mystery to this 
day.
    Then in the summer of 1997, a second set of these billing 
records was found in the attic of the late Vincent Foster, 
Jr.'s house in Little Rock. The time sheets for Rose's work in 
1985 and 1986 for Madison Guaranty have never been found. We 
should note that Webster Hubbell may have additional 
information pertaining to Castle Grande, whether exculpatory or 
inculpatory, that we have been unable to obtain. Mr. Hubbell 
was at the Rose Law Firm at the relevant time in 1985 and 1986. 
He gathered information about the Madison Guaranty issue in 
1992 and his father-in-law was involved in the Castle Grande 
deal.
    Two other important facts suggest that Mr. Hubbell may have 
additional information. First, on March 13, 1994, after a 
meeting at the White House where it had been discussed that Mr. 
Hubbell would resign from the Justice Department, then Chief of 
Staff Mack McLarty told Mrs. Clinton that, in his words, ``we 
are going to be supportive of Webb.''
    As this criminal investigation was beginning in 1994, under 
Bob Fiske and then later my office, Mr. Hubbell received 
payments totaling nearly $550,000 from several companies and 
individuals. Many were campaign contributors. These individuals 
had been contacted through the White House Chief of Staff, Mr. 
McLarty, and others. In June, 1994, during a week in which he 
made several visits to the White House, Indonesian businessman 
James Riady met with Webster Hubbell and then wired him 
$100,000. One of the individuals who arranged for Mr. Hubbell 
to receive a consulting contract was Vernon Jordan. The company 
that Mr. Jordan convinced to hire, to engage Mr. Hubbell, was 
MacAndrews & Forbes, the parent company of Revlon. This is the 
same company that hired Monica Lewinsky upon Mr. Jordan's 
recommendation.
    As he was destined later to do with Monica Lewinsky, Mr. 
Jordan personally informed the President about his, Mr. 
Jordan's, assistance to Mr. Hubbell.
    Most of the $550,000 was given to Mr. Hubbell for little or 
no work. This rush of generosity obviously gives rise to an 
inference that the money was essentially a gift. And if it was 
a gift, why was it given? This money was given despite the fact 
that Mr. Hubbell was under criminal investigation for 
fraudulent billing and was a key witness in the Madison 
Guaranty investigation.
    Second, as is known to the public, on certain prison tapes 
while Mr. Hubbell was in prison, he said to his wife, ``I won't 
raise those allegations that might open it up on Hillary.''
    On another tape, Mr. Hubbell said to White House employee 
Marsha Scott that he might have to roll over one more time.
    Mr. Hubbell's statements, when combined with the amount of 
money he received and the information he was in a position to 
know, raise very troubling questions. Mr. Hubbell is currently 
under Federal indictment. There is a presumption of innocence 
and it would be inappropriate to say more about that at this 
time.
    Let me add a few brief words about the Travel Office 
matter. This phase of our work arose out of investigations by 
others of the 1993 firings of Billy Dale and six career co-
workers. As has already been indicated, in comments from a 
member, we do not anticipate that any evidence gathered in that 
investigation will be relevant to the committee's current task. 
The President was not involved in our Travel Office 
investigation. As to the status of that investigation, it was 
on hold for quite a while, in part because of litigation. The 
investigation is not terminated but we expect to announce any 
actions and decisions soon.
    As to the FBI files matter, there are outstanding issues 
that we are attempting to resolve with respect to one 
individual, but I can address two issues of relevance to the 
committee's work. First, our investigation, which has been 
thorough, found no evidence that anyone higher than Mr. 
Livingstone or Mr. Marceca was in any way involved in ordering 
the FBI files from the FBI. Second, we have found no evidence 
that information contained in the files of former officials was 
actually used for an improper purpose.
    Let me now mention a few words about our personnel, our 
process and our reflections. The character and the conduct of 
the men and women of our office, largely career professionals 
who take their jobs and their oaths very seriously, have been 
badly distorted. Perhaps that is inevitable, given the nature 
of the issues involved, given the fact that the President of 
the United States is the subject of a criminal investigation, 
but it is regrettable and so let me offer some truth about our 
office.
    I will start with our personnel. During the Lewinsky 
investigation, my staff has included skilled and experienced 
prosecutors from around the country. They have brought an 
enormous amount of experience and expertise to the office. My 
colleagues during this past year have included a former United 
States Attorney--several members of this committee are former 
United States Attorneys--the Chief of the Public Corruption 
Unit of the United States Attorney's Office in Los Angeles; the 
Chief of the Public Corruption Unit of the United States 
Attorney's Office in Miami; the Chief of the Bank Fraud Unit of 
the United States Attorney's Office in San Antonio; prosecutors 
with lengthy experience in the Public Integrity Section of the 
Department of Justice; seasoned Federal prosecutors from 10 
different States and the District of Columbia; and veteran 
state prosecutors from Maryland and Oregon.
    The office has also benefitted from the assistance of Sam 
Dash, chief counsel of the Senate Watergate Committee, who has 
offered great wisdom during my tenure. Professor Ronald 
Rotunda, constitutional law scholar from the University of 
Illinois, has likewise provided advice on a variety of issues.
    The office has received assistance from professors at the 
University of Michigan, the University of Illinois, Notre Dame 
and George Washington. Moreover, former law clerks for six 
different Supreme Court Justices have served on my staff during 
the past year.
    During the Lewinsky investigation, the office also relied 
on many talented investigators with extensive service in the 
FBI and in law enforcement agencies, and the FBI laboratory yet 
again provided superb assistance to us, as it has throughout 
the Madison/Whitewater investigation, with the strong support 
of Judge Freeh.
    In addition, let me express my appreciation, and it is 
great, for the grand jurors who devoted much time and energy to 
examining the witnesses and considering the evidence. Those 23 
citizens of the District of Columbia have performed an 
invaluable service, and I publicly thank them. This is the rare 
case where grand jury transcripts become publicly scrutinized, 
and as the committee members now know, these grand jurors were 
active, they were knowledgeable, they were fair and they were 
completely dedicated to uncovering and understanding the truth.
    In all of our investigations, difficult decisions have been 
taken through our office's deliberative process, and that's 
what we call it. That process calls upon each attorney, drawing 
upon his or her background and experience, to offer views on 
issues in question. This deliberative process is laborious, 
sometimes tedious, but it is an attempt to ensure that our 
office makes the best decisions it can.
    I have drawn upon a vast array of experienced prosecutors 
and investigators because I was sensitive to and am sensitive 
to the fact that an independent counsel exists outside the 
Justice Department and is an unusual entity within our 
constitutional system.
    Throughout this investigation, we have made every effort to 
follow Department of Justice policy and practice and to utilize 
time honored law enforcement and investigative techniques. Of 
course, with their vast experience in the department and the 
FBI, our prosecutors and investigators embody such policy and 
practice. Nonetheless, it was often the case during an all-
attorneys meeting that we would repair to the United States 
Attorney's Manual to be sure that we had it right.
    It is true, and Mr. Conyers' comments raised the issue, 
that some law enforcement procedures may not be entirely 
comfortable for some witnesses, but the procedures have been 
refined over decades of practice in which society's right to 
detect and prosecute crime has been balanced against individual 
liberty and a balance struck. It was not our place to reinvent 
the investigative wheel. Nor is it our place to discard law 
enforcement practices that are used every day by prosecutors 
and by police throughout the country.
    With that, let me be the first to say that the Lewinsky 
investigation in particular presented some of the most 
challenging issues that any lawyer or investigator could face. 
We had to make numerous decisions and to make them very 
quickly. Those included factual judgments: Is witness X or 
witness Y telling us the whole truth? As one of my prosecutors 
has frequently said, we can deal with the truth but we cannot 
deal with lies. Only give us the truth. And we have to make 
that assessment. Strategic choices: Do we provide immunity to 
Ms. Lewinsky in order to obtain her testimony? Is it 
appropriate to subpoena the President? Legal decisions: Do we 
accept the assertion of executive privilege for Bruce Lindsey 
or do we go to district court to challenge it? What about the 
Secret Service privilege, and historic constitutional 
judgments? What is the meaning of Section 595(c) of this 
statute, the independent counsel statute, and how do we prepare 
a referral that satisfies its requirements? It had never been 
done before.
    Major decisions during the Lewinsky investigation have not 
been easy, and given the hurricane-force winds swirling about 
us we were well aware that no matter what decision we made, 
criticism would come from somewhere. As Attorney General Reno 
has said, in high profile cases like these, not referring to 
this case but in high profile cases, you are, in her words, 
damned if you do and damned if you don't. So you had better 
just do what you think is the right and proper thing.
    We also attempted to be thorough, but we did not invent 
that approach, being thorough with the Lewinsky case. To take 
just one previous example, in investigating matters relating to 
the death of Vincent Foster, Jr., we were painstaking in 
examining evidence, in questioning witnesses and in calling 
upon experts in homicide and suicide. We were criticized 
throughout that investigation for being too thorough, for 
taking too long, but time has proved the correctness of that 
approach. After an extensive investigation, the office produced 
a report that addressed the many questions that confronted the 
difficult issues. It laid out new evidence and it reached a 
definitive conclusion.
    Over time, the controversy over the Foster tragedy has 
dissipated, because we insisted on being uncompromisingly 
thorough, both in our investigation and in our report. After 
the Attorney General and the Court of Appeals assigned us the 
Lewinsky investigation, the office again received criticism for 
being too thorough. But the Lewinsky investigation could not 
properly be conducted in a slapdash manner. It was our duty to 
be meticulous, to be careful. We were. And in the process, we 
uncovered substantial and credible evidence of serious legal 
wrongdoing by the President.
    Some then suggested, and it has been suggested this 
morning, that the report we submitted to Congress was too 
thorough. But bear in mind, we submitted the referral, as we 
were required to do, to the House of Representatives and not to 
the public. And we must respectfully dispute the suggestion 
that a report to the House suggesting possible impeachable 
offenses committed by the President of the United States should 
tell something less than the full story. The facts, the story, 
are critical. They affect credibility. They are necessary to 
avoid a distorted picture, and they are ultimately the basis 
for a just conclusion.
    As a result, just as the jurors found the details of 
specific land deals critically important in our trial of 
Governor Jim Guy Tucker and of the McDougals, just as the 
Supreme Court of the United States includes the details of 
grisly murders in its death penalty cases, so, too, the details 
of the President's relationship with Ms. Lewinsky became 
relevant. Indeed, they became critical in determining whether 
and the extent to which the President made false statements 
under oath and otherwise obstructed justice in
    Jones v. Clinton, in both that case and then again in his 
grand jury testimony. And as you know, by an overwhelming 
bipartisan vote, the House immediately disclosed our referral 
to the public. But I want to be clear, as a matter of fairness, 
that the public disclosure or nondisclosure of the referral and 
the backup materials was a decision that our office did not 
make and lawfully could not make. We had no way of knowing in 
advance of submitting the referral, and we did not know, 
whether the House would publicly release both the report and 
the backup materials; would release portions of one or both; 
would release redacted versions of the report and backup 
documents; would prepare and release a summary akin to Mr. 
Schippers' oral presentation; or would simply keep the referral 
and backup materials under seal just as Special Prosecutor Leon 
Jaworski's submission in 1974 remained under seal.
    As a result, we respectfully but we firmly reject the 
notion that our office was trying to inflame the public. We are 
professionals and we were trying to get the relevant facts, the 
full story, to the House of Representatives. That was our task 
and that is what we did.
    In fact, the referral has served a good purpose. There has 
been virtually no dispute about a good many of the factual 
conclusions in the report. In the wake of the referral, for 
example, few have ventured that the President told the truth, 
the whole truth and nothing but the truth in his civil case and 
before the grand jury. A key reason, we submit, is that we 
insisted, as we have in our other investigations, that we be 
exhaustive in the investigation and that we document the facts 
and conclusions in our report.
    I want to be absolutely clear on one point, however. Any 
suggestion that the men and women of our office, with whom I am 
privileged to serve, enjoyed or relished this investigation is 
wrong. It is nonsense. In at least three ways, the Lewinsky 
investigation caused all of us considerable dismay and 
continues to do so. First, none of us has any interest 
whatsoever in investigating the factual details underlying the 
allegations of perjury and obstruction of justice in this case. 
My staff and I agree with the sentiments expressed by the 
chairman in the November 9 hearing when he said, ``I would like 
to forget all of this. I mean, who needs it?'' But the 
Constitution and the criminal law do not have exceptions for 
unseemly or unpleasant or difficult cases. The Attorney General 
of the United States and the Court of Appeals Special Division 
assigned us a duty to pursue the facts, and we did so.
    Second, this investigation has proved difficult for us 
because it is centered on legal wrongdoing by the President of 
the United States. The Presidency is an office that we, like 
all Americans, revere and respect. No prosecutor is comfortable 
when he or she reports wrongdoing by the President. All of us 
want to believe that our President has at all times acted with 
integrity and certainly that he has not violated the criminal 
law.
    Everyone in my office therefore envies the position years 
ago of Paul Curran, who was the distinguished counsel appointed 
by Attorney General Griffin Bell to investigate certain 
financial transactions involving President Carter. Mr. Curran, 
by his account, received complete cooperation from President 
Carter, found no wrongdoing by the President and promptly 
returned to private life. Mr. Chairman, I would like to do the 
same.
    Third, this investigation was unpleasant because our office 
knew that some Americans, for a variety of reasons, would be 
opposed to our work. But we would not, could not, allow 
ourselves to be deterred from doing our work. As I have said, 
our office was assigned a specific duty by the Attorney General 
and the Special Division to gather the facts and then, if 
appropriate, to make decisions and to report the facts as 
quickly as we possibly could. In the end, we tried to adhere to 
the principle Congressman Graham discussed on October 5. Thirty 
years from now, not 30 days from now, we want to be able to say 
that we did the right thing.
    At the end of the day I and no one else was responsible for 
our key decisions, and my background warrants a very brief 
note, if you will indulge me. The chairman was kind enough to 
indicate as much.
    I began my legal career in 1973 as a law clerk, first for a 
judge, Judge David Dyer, on the Fifth Circuit Court of Appeals, 
who passed away earlier this year; and then for 2 years for 
Chief Justice Burger. Following clerkships, I was in private 
law practice in Los Angeles and Washington. After William 
French Smith took office as Attorney General in January 1981, I 
served as counselor to the Attorney General from 1981 to 1983. 
In that capacity, I experienced firsthand the varied and 
difficult judgment calls that the Attorney General faces every 
day, whether it was dealing with the aftermath of the attempted 
assassination of the President or selecting a Supreme Court 
nominee, in that case Justice Sandra Day O'Connor. I took away 
from that experience an admiration that has continued to this 
day for the career Justice Department lawyers and prosecutors 
and the law enforcement officials who toil without fanfare, and 
for whom the guiding principles are fairness and a respect for 
the law.
    In 1983, President Reagan nominated me, and the Senate was 
kind enough to confirm me, as a judge on the United States 
Court of Appeals for this circuit. I became a colleague on a 
court with truly great judges, from J. Skelley Wright to 
Antonin Scalia, from Ruth Ginsburg to Robert Bork, and tackled 
the issues that come before the D.C. Circuit. This included 
issues as diverse as the constitutional right of a military 
serviceman to wear a yarmulke, a right I supported in vain, and 
the right of a newspaper to be free under the First Amendment 
from the threat of liability under the libel laws.
    In 1989, I accepted appointment as Solicitor General of the 
United States and was confirmed by the Senate. The Solicitor 
General, as you know and have pointed out, is the lawyer who 
represents the United States in arguments before the Supreme 
Court. A distinguished predecessor before whom I was privileged 
to argue, Justice Thurgood Marshall, often stated that being 
Solicitor General was the greatest job a lawyer could have, bar 
none.
    Justice Marshall was right. As Solicitor General, I had the 
privilege of arguing 25 cases before the Supreme Court on 
behalf the United States. The arguments covered the spectrum of 
our law, whether flag burning is a protected right under the 
Constitution, other issues, and whether the Senate's decision 
to convict and remove an impeached judge is subject to judicial 
review.
    While I was Solicitor General, my overarching goal was to 
run an office faithful to the law and not to political or 
ideological opinion, and I think the record shows that I did 
just that.
    In 1993, I left my second tour of duty in the Justice 
Department and returned to private practice and teaching 
constitutional law. In the period before I was named 
Independent Counsel in August 1994, I was not, however, 
completely absent from public service.
    In late 1993, I was asked by the Senate Ethics Committee, 
chaired at the time by Nevada Senator Richard Bryan, to review 
Senator Packwood's diaries as part of the Ethics Committee's 
investigation and to resolve various issues pertaining to those 
diaries.
    Every person is, of course, deeply affected by his or her 
experiences, but for my part, my experience, is in the law and 
in the courts. I am not a man of politics, of public relations, 
or of polls, which I suppose is patently obvious by now. I am 
not experienced in political campaigns. Rather, as a product of 
the law and of the courts, I have come to an unyielding faith 
in our court system: our system of judicial review, the 
independence of our judges, our jury system, the integrity of 
the oath, and the sanctity, yes, the sanctity of the judicial 
process.
    The phrase on the facade of the Supreme Court, ``Equal 
Justice Under Law,'' the description inside the Justice 
Department's corridors, in the Attorney General's own chambers, 
``The United States wins its point when justice is done its 
citizens in the courts,'' those are more than slogans. They are 
not slogans. They are principles that the courts in this 
country apply every day. Our office saw that firsthand in the 
trial of Governor Jim Guy Tucker, of Jim McDougal and Susan 
McDougal. A juror said afterwards that they fought hard for the 
individuals' liberty, but they were overwhelmed by the 
evidence.
    It is our judicial process that helps make this country 
distinct, and my background, my instincts, my beliefs, have 
instilled in me a deep respect for the legal process that is at 
the foundation of our Republic.
    President Lincoln asked that, in his words, reverence for 
the laws, ``reverence for the laws, be proclaimed in 
legislative halls and enforced in courts of justice.'' Mr. 
Chairman, members, I revere the law. I am proud of what we have 
accomplished. We were assigned a difficult job. We have done it 
to the best of our abilities. We have tried to be both fair and 
thorough.
    I thank the Chairman, I thank the committee and the 
American people for their attention.
    Mr. Hyde. Thank you very much, Judge Starr.
    [The statement of Mr. Starr follows:]
 Prepared Statement of Hon. Kenneth Starr, Independent Counsel, Office 
               of the Independent Counsel, Washington, DC
    Thank you, Mr. Chairman. I welcome this opportunity to appear 
before the Committee and to provide information relating to the 
committee's inquiry into possible impeachable offenses by the President 
of the United States. This is my first opportunity to publicly report 
on certain issues related to our investigation. I look forward to doing 
so and assisting the Committee.
                            i. introduction
    I appreciate both the seriousness of the Committee's work and the 
gravity of its assignment. I have reviewed the statements made by the 
37 committee members in the October 5 hearing. Any citizen who watched 
that hearing would have been impressed by the depth and breadth of the 
discussion that day, and proud of the diligence with which members of 
this committee are approaching this extraordinarily difficult and 
unwelcome task. I appear before you today, therefore, fully recognizing 
the solemnity and importance of this process.
    As you know, in January of this year, Attorney General Reno 
petitioned the three-Judge panel that oversees independent counsels to 
authorize our Office to investigate whether Monica Lewinsky or others 
committed Federal crimes relating to the sexual harassment lawsuit 
brought by Paula Jones against President Clinton. Our Office conducted 
a swift yet thorough investigation. We completed the primary factual 
investigation in under eight months, notwithstanding a number of 
obstacles in our path.
    The law requires an independent counsel to report to the House of 
Representatives substantial and credible information that may 
constitute grounds for an impeachment. On September 9, pursuant to our 
statutory duty, we submitted a referral and backup documentation to the 
House. I am here today at your invitation in furtherance of our 
statutory obligation.
    I recognize that the House of Representatives--not an independent 
counsel--has the sole power to impeach. My role here today is to 
discuss our referral and our investigation.
                       ii. lewinsky investigation
A. Overview
    Let me begin with an overview. As our referral explains, the 
evidence suggests that the President made false statements under oath 
and otherwise thwarted the search for truth in the Jones v. Clinton 
case. The evidence further suggests that the President made false 
statements under oath to the grand jury on August 17.
    That same night, the President publicly acknowledged an 
inappropriate relationship, but maintained that his testimony had been 
legally accurate. The President also declared that all inquiries into 
the matter should end because, he said, it was private.
    Shortly after the President's August 17 speech, Senators Lieberman, 
Kerrey, and Moynihan stated that the President's actions were not a 
private matter. In our view, they were correct. Indeed, the evidence 
suggests that the President repeatedly tried to thwart the legal 
process in the Jones case and the grand jury investigation. That is not 
a private matter. The evidence further suggests that the President, in 
the course of these efforts, misused his authority and power as 
President and contravened his duty to faithfully execute the laws. 
That, too, is not a private matter.
    The evidence suggests that the misuse of Presidential authority 
occurred in the following ten ways:
    First. The evidence suggests that the President made a series of 
premeditated false statements under oath in his civil deposition on 
January 17, 1998. The President had taken an oath to tell the truth, 
the whole truth, and nothing but the truth. By making false statements 
under oath, the President, the Chief Executive of our Nation, failed to 
adhere to that oath and to his Presidential oath to faithfully execute 
the laws.
    Second. The evidence suggests that, apart from making false 
statements under oath, the President engaged in a pattern of behavior 
during the Jones litigation to thwart the judicial process. The 
President reached an agreement with Ms. Lewinsky that each would make 
false statements under oath. He provided job assistance to Ms. Lewinsky 
at a time when the Jones case was proceeding and Ms. Lewinsky's 
truthful testimony would have been harmful. He engaged in an apparent 
scheme to conceal gifts that had been subpoenaed from Ms. Lewinsky. He 
coached a potential witness, his own secretary Betty Currie, with a 
false account of relevant events.
    Those acts constitute a pattern of obstruction that is 
fundamentally inconsistent with the President's duty to faithfully 
execute the laws.
    Third. The evidence suggests that the President participated in a 
scheme at his deposition in which his attorney, in his presence, 
deceived a United States District Judge in an effort to cut off 
questioning about Ms. Lewinsky. The President did not correct his 
attorney's false statement. A false statement to a federal judge in 
order to prevent relevant questioning is an obstruction of the judicial 
process.
    Fourth. The evidence suggests that on January 23, 1998, after the 
criminal investigation had become public, the President made false 
statements to his Cabinet and used his Cabinet as unwitting surrogates 
to publicly support the President's false story.
    Fifth. The evidence suggests that the President, acting in a 
premeditated and calculated fashion, deceived the American people on 
January 26 and on other occasions when he denied a relationship with 
Ms. Lewinsky.
    Sixth. The evidence suggests that the President, after the criminal 
investigation became public, made false statements to his aides and 
concocted false alibis that these government employees repeated to the 
grand jury. As a result, the grand jury received inaccurate 
information.
    Seventh. Having promised the American people to cooperate with the 
investigation, the President refused six invitations to testify to the 
grand jury. Refusing to cooperate with a duly authorized federal 
criminal investigation is inconsistent with the general statutory duty 
imposed on all executive branch employees to cooperate with criminal 
investigations. It also is inconsistent with the President's duty to 
faithfully execute the laws.
    Eighth. The President and his Administration asserted three 
different governmental privileges to conceal relevant information from 
the federal grand jury. The privilege assertions were legally baseless 
in these circumstances. They were inconsistent with the actions of 
Presidents Carter and Reagan in similar circumstances. And they delayed 
and impeded the investigation.
    Ninth. The President made false statements under oath to the grand 
jury on August 17, 1998. The President again took an oath to tell the 
truth, the whole truth, and nothing but the truth. The evidence 
demonstrates that the President failed to adhere to that oath and thus 
to his Presidential oath to faithfully execute the laws.
    Tenth. The evidence suggests that the President deceived the 
American people in his speech on August 17 by stating that his 
testimony had been legally accurate.
    In addition to those ten points, it bears mention that well before 
January 1998, the President used government resources and prerogatives 
to pursue his relationship with Monica Lewinsky. The evidence suggests 
that the President used his secretary Betty Currie, a government 
employee, to facilitate and conceal the relationship with Monica 
Lewinsky. The President used White House aides and the United States 
Ambassador to the United Nations in his effort to find Ms. Lewinsky a 
job at a time when it was foreseeable--even likely--that she would be a 
witness in the Jones case. And the President used a government 
attorney--Bruce Lindsey--to assist his personal legal defense during 
the Jones case.
    In short, the evidence suggests that the President repeatedly used 
the machinery of government and the powers of his Office to conceal his 
relationship with Monica Lewinsky from the American people, from the 
judicial process in the Jones case, and from the grand jury.
B. Sexual Harassment Law
    Let me turn, then, to the legal context in which the Lewinsky 
issues first arose. At the outset, I want to emphasize that our 
referral never suggests that the relationship between the President and 
Ms. Lewinsky in and of itself could be a high crime or misdemeanor. 
Indeed, the referral never passes judgment on the President's 
relationship with Ms. Lewinsky. The propriety of a relationship is not 
the concern of our Office.
    The referral is instead about obstruction of justice, lying under 
oath, tampering with witnesses, and misuse of power. The referral 
cannot be understood without appreciating this vital distinction.
    This case raises the following initial question: Is a plaintiff in 
a sexual harassment lawsuit entitled to obtain truthful evidence from 
the defendant, and from associates of the defendant, in order to 
support her claim? That should be easy to answer. No citizen who finds 
himself accused in a sexual harassment case, or in any other kind of 
case, can lie under oath or otherwise obstruct justice and thereby 
prevent the plaintiff from discovering evidence and proving her case.
    Paula Jones, a former Arkansas state employee, filed a federal 
sexual harassment suit against President Clinton in 1994. The President 
denied those allegations. We will never know whether a jury would have 
credited Ms. Jones's allegations. We also will never know whether the 
ultimate decisionmaker would have found that the alleged facts, if 
true, constitute sexual harassment. When the President and Ms. Jones 
settled the case last week, the Eighth Circuit Court of Appeals was 
still considering the preliminary legal question whether the facts as 
alleged could constitute sexual harassment.
    After the suit was first filed in 1994, the President attempted to 
delay the trial until his Presidency was over. The President claimed a 
temporary Presidential immunity from civil suit. The case proceeded to 
the Supreme Court. At oral argument, the President's attorney 
specifically warned our Nation's highest Court that if Ms. Jones won, 
her lawyers would be able to investigate the President's relationships 
with other women, as is common in sexual harassment cases. The Supreme 
Court rejected the President's constitutional claim--and did so by a 
nine to zero vote. The Court concluded that the Constitution did not 
provide such a temporary immunity from suit.
    The idea was simple and powerful: No one is above the law. The 
Supreme Court sent the case back for trial with words that warrant 
emphasis: ``Like every other citizen who invokes'' the District Court's 
jurisdiction, Ms. Jones ``has a right to an orderly disposition of her 
claims.''
    After the Supreme Court's decision, the parties started to gather 
the facts. The parties questioned relevant witnesses in depositions. 
They submitted written questions. They made requests for documents.
    Sexual harassment cases are often ``he said-she said'' disputes. 
Evidence reflecting the behavior of both parties can be critical--
including the defendant's relationships with other employees in the 
workplace.
    Such questions can be uncomfortable, but they occur every day in 
courts and law offices around the country. Individuals take an oath to 
tell the truth, the whole truth, and nothing but the truth. And no one 
is entitled to lie under oath simply because he or she does not like 
the questions or because he believes the case is frivolous or 
financially motivated or politically motivated. The Supreme Court has 
emphatically and repeatedly rejected the notion that there is ever a 
privilege to lie. The Court has stated that there are ways to object to 
questions; lying under oath is not one of them.
    During the fact-gathering process, Judge Susan Webber Wright 
followed the standard principles of sexual harassment cases. Over 
repeated objection from the President's attorneys, the Judge permitted 
inquiries into the President's relationships with government employees. 
On January 8, 1998, for example, Judge Wright stated that questions as 
to the President's relationships with other employees ``are within the 
scope of the issues in this case.''
    In making these rulings, Judge Wright recognized that the questions 
might prove embarrassing. She stated that ``I have never had a sexual 
harassment case where there was not some embarrassment.'' She also 
stated that she could not protect the parties from embarrassment.
    Let me summarize the five points that explain how the President's 
relationship with Ms. Lewinsky--what was otherwise private conduct--
became a matter of concern to the courts. This is critical to fully 
understand the nature of the committee's inquiry.
    One. The President was sued for sexual harassment, and the Supreme 
Court ruled that the case should go forward.
    Two. The law of sexual harassment and the law of evidence allow the 
plaintiff to inquire into the defendant's relationships with other 
women in the workplace, which in this case included President Clinton's 
relationship with Ms. Lewinsky.
    Three. Applying those settled legal principles, Judge Susan Webber 
Wright repeatedly rejected the President's objections to such 
inquiries. The Judge, instead, ordered the President to answer the 
questions.
    Four. It is a federal crime to commit perjury and obstruct justice 
in civil cases, including sexual harassment cases. Violators are 
subject to a sentence of up to ten years imprisonment for obstruction 
and up to five years for perjury.
    Five. The evidence suggests that the President and Ms. Lewinsky 
made false statements under oath and obstructed the judicial process in 
the Jones case by preventing the court from obtaining the truth about 
their relationship.
    At his grand jury appearance, the President invoked a Supreme Court 
Justice's confirmation hearings as a comparison to his current 
situation. The President's use of the analogy did not fit the facts in 
the Monica Lewinsky matter, however. The President's having raised the 
analogy, let me make it more fitting to the case here.
    Suppose that there is a nominee for a high government position. 
Assume that there is an allegation of sexual harassment. Suppose that 
several women other than the accuser who have worked with the nominee 
testify before the Senate Judiciary Committee. Suppose that the nominee 
confers with one of those women ahead of time, and that they agree that 
they will both lie to the Judiciary Committee about their relationship. 
Assume further that they both do lie under oath about their 
relationship. And suppose further that a criminal investigation 
develops and the nominee again lies under oath to the grand jury. If 
that were proved to have happened, what would the Senate Judiciary 
Committee do?
    Suppose that the lying under oath and obstruction of justice occurs 
in a sexual harassment suit brought against the nominee. Suppose 
further that the false statements and obstruction continue into a 
subsequent criminal investigation. What would this committee do with 
compelling evidence of perjury and obstruction of justice committed by, 
for example, a Justice of the Supreme Court in a sexual harassment suit 
in which he was the defendant?
    Those hypotheticals--which track the facts of this case--put in 
relief the issue before the committee. Let me again stress that the 
House, not an independent counsel, has the sole power to impeach. I am 
suggesting that consideration of our referral be focused on the issues 
actually presented by the referral.
C. The President's Actions: December 5--January 17
    I will next turn to some of the essentials of the referral. That 
will include the specifics of Ms. Lewinsky's involvement in the Jones 
case and the President's actions in response to that involvement.
    The key point about the President's conduct is this. On at least 
six different occasions--from December 17, 1997, through August 17, 
1998--the President had to make a decision. He could choose truth, or 
he could choose deception. On all six occasions, the President chose 
deception--a pattern of calculated behavior over a span of months.
    On December 5, 1997, Ms. Jones's attorneys identified Ms. Lewinsky 
as a potential witness. Within a day, the President learned that Ms. 
Lewinsky's name was on the witness list.
    After learning this, the President faced his first critical 
decision. Would he and Monica Lewinsky tell the truth about their 
relationship? Or would they provide false information--not just to a 
spouse or to loved ones--but under oath in a court of law?
    Eleven months ago, the President made his decision. At 
approximately 2:00 a.m. on December 17, 1997, he called Ms. Lewinsky at 
her Watergate apartment and told her that she was on the witness list. 
This was news to Ms. Lewinsky. And it bears noting that the President--
not his lawyer--made this call to the witness.
    During this 2:00 a.m. conversation, which lasted approximately half 
an hour, the President could have told Ms. Lewinsky that they must tell 
the truth under oath. The President could have explained that they 
might face embarrassment but that, as a citizen and as President, he 
could not lie under oath and he could not sit by while Monica did so. 
The President did not say anything like that.
    On the contrary, according to Ms. Lewinsky, the President suggested 
that she could sign an affidavit and use--under oath--deceptive cover 
stories that they had devised long ago to explain why Ms. Lewinsky had 
visited the Oval Office area. The President did not explicitly instruct 
Ms. Lewinsky to lie. He did not have to. Ms. Lewinsky testified that 
the President's suggestion that they use the pre-existing cover stories 
amounted to a continuation of their pattern of concealing their 
intimate relationship. Starting with this conversation, the President 
and Ms. Lewinsky understood, according to Ms. Lewinsky, that they were 
both going to make false statements under oath.
    The conversation between the President and Ms. Lewinsky on December 
17 was a critical turning point. The evidence suggests that the 
President chose to engage in a criminal act--to reach an understanding 
with Ms. Lewinsky that they would both make false statements under 
oath. At that moment, the President's intimate relationship with a 
subordinate employee was transformed into an unlawful effort to thwart 
the judicial process. This was no longer an issue of private conduct.
    Recall that the Supreme Court had concluded that Paula Jones was 
entitled to an ``orderly disposition'' of her claims. The President's 
action on December 17 was his first direct effort to thwart the Supreme 
Court's mandate.
    The story continued: The President faced a second choice. On 
December 23, 1997, the President submitted under oath a written answer 
to an interrogatory. The request stated in relevant part: ``Please 
state the name . . . of [federal employees] with whom you had sexual 
relations when you [were] . . . President of the United States.'' In 
his sworn answer, the President stated ``None.''
    On December 28, the President faced a third critical choice. On 
that day, the President met with Ms. Lewinsky at the White House. They 
discussed the fact that Ms. Lewinsky had been subpoenaed for gifts she 
had received from the President. According to Ms. Lewinsky, she raised 
the question of what she should do with the gifts. Later that day, the 
President's personal secretary, Betty Currie, drove to Ms. Lewinsky's 
Watergate home. Ms. Lewinsky gave Ms. Currie a sealed box that 
contained some of the subpoenaed gifts. Ms. Currie then stored the box 
under her bed at home.
    In her written proffer on February 1, four weeks after the fact, 
Ms. Lewinsky stated that Ms. Currie had called her to retrieve the 
gifts. If so, that necessarily meant that the President had asked Ms. 
Currie to call. It would directly and undeniably implicate him in an 
obstruction of justice. Ms. Lewinsky later repeated that statement in 
testimony under oath. Ms. Currie, for her part, recalls Ms. Lewinsky 
calling her. But even if Ms. Lewinsky called Ms. Currie, common sense 
and the evidence suggest some Presidential knowledge or involvement, as 
the referral explains.
    Let me add another point about the gifts. In his grand jury 
appearance in August, the President testified that he had no particular 
concern about the gifts in December 1997 when he had talked to Ms. 
Lewinsky about them. And he thus suggested that he would have had no 
reason to take part in December in a plan to conceal the gifts. But 
there is a serious problem with the President's explanation. If it were 
true that the President in December was unconcerned about the gifts, he 
presumably would have told the truth under oath in his January 
deposition about the large number of gifts that he and Ms. Lewinsky had 
exchanged. But he did not tell the truth. At that deposition, when 
asked whether he had ever given gifts to Monica Lewinsky, and he had 
given her several on December 28, the President stated ``I don't 
recall. Do you know what they were?''
    In short, the critical facts to emphasize about the transfer of 
gifts are these: First, the President and Ms. Lewinsky met and 
discussed what should be done with the gifts subpoenaed from Ms. 
Lewinsky. Second, the President's personal secretary Ms. Currie drove 
later that day to Ms. Lewinsky's home to pick up the gifts. Third, Ms. 
Currie stored the box under her bed.
    Meanwhile, the legal process continued to unfold, and the President 
took other actions that had the forseeable effect of keeping Ms. 
Lewinsky ``on the team.'' The President helped Ms. Lewinsky obtain a 
job in New York. His efforts began after the Supreme Court's decision 
in May 1997--at a time when it had become foreseeable that she could be 
an adverse witness against the President. These job-related efforts 
intensified in December 1997 after Ms. Lewinsky's name appeared on the 
witness list.
    Vernon Jordan, who had been enlisted in the job search for Ms. 
Lewinsky, testified that he kept the President informed of the status 
of Ms. Lewinsky's job search and her affidavit. On January 7, 1998, Mr. 
Jordan told the President that Ms. Lewinsky had signed the affidavit. 
Mr. Jordan stated to the President that he was still working on getting 
her a job. The President replied, ``Good.'' In other words, the 
President, knowing that a witness had just signed a false affidavit, 
encouraged his friend to continue trying to find her a job. After Ms. 
Lewinsky received a job offer from Revlon on January 12, Vernon Jordan 
called the President and said: ``Mission accomplished.''
    As is often the situation in cases involving this kind of financial 
assistance, no direct evidence reveals the President's intent in 
assisting Ms. Lewinsky. Ms. Lewinsky testified that no one promised her 
a job for silence; of course, crimes ordinarily do not take place with 
such explicit discussion. But federal courts instruct juries that 
circumstantial evidence is just as probative as direct evidence. And 
the circumstantial evidence here is strong. At a bare minimum, the 
evidence suggests that the President's job assistance efforts stemmed 
from his desire to placate Ms. Lewinsky so that she would not be 
tempted--under the burden of an oath--to tell the truth about the 
relationship. Monica Lewinsky herself recognized that at the time, 
saying to a friend, ``Somebody could construe or say, `Well, they gave 
her a job to shut her up. They made her happy.' ''
    And given that the President's plan to testify falsely could 
succeed only if Ms. Lewinsky went along, the President naturally had to 
be concerned that Ms. Lewinsky at any time might turn around and decide 
to tell the truth. Indeed, some wanted her to tell the truth. For 
example, one friend talked to Ms. Lewinsky about the December 28 
meeting with the President. The friend stated that she was concerned 
because she ``didn't want to see [Monica] being like Susan McDougal'' 
and did not want Monica ``to lie to protect the President.'' Needless 
to say, any sudden decision by Ms. Lewinsky to tell the truth, whether 
out of anger at the President or simple desire to be law-abiding, would 
have been very harmful to the President. That helps to explain his 
motive in providing job assistance.
    In mid-January, Ms. Lewinsky finalized her false affidavit with her 
attorney, who sent it to Judge Wright's Court. The affidavit falsely 
denied a sexual relationship with the President and essentially 
recounted the cover stories they had discussed in their middle-of-the-
night conversation on December 17.
    Let me turn to the President's January 17 deposition. Some have 
suggested that the President might have been surprised or ambushed at 
his deposition. Those suggestions are wrong. The President had clear 
warning that there would be questions about Monica Lewinsky. She had 
been named on the December 5 witness list. On January 12, only five 
days before the deposition, Ms. Jones's attorneys identified Ms. 
Lewinsky as a trial witness. In response, Judge Wright approved her as 
a witness. Two days later, on January 14, the President's private 
attorney asked Ms. Lewinsky's attorney to fax Ms. Lewinsky's affidavit. 
During the deposition itself, the President's attorney stated that the 
President was ``fully familiar'' with Ms. Lewinsky's affidavit.
    At the outset of his January 17 deposition, therefore, the 
President faced a fourth critical decision. Fully aware that he would 
likely receive questions about Ms. Lewinsky, would the President 
continue to make false statements under oath--this time in the presence 
of a United States District Judge?
    At the start of the deposition, Judge Susan Webber Wright 
administered the oath. The President swore to tell the truth, the whole 
truth, and nothing but the truth. As his testimony began, the 
President, in response to a question from Ms. Jones's attorneys, stated 
that he understood he was providing his testimony under the penalty of 
perjury.
    The President was asked a series of questions about Ms. Lewinsky. 
After a few questions, the President's attorney--Mr. Bennett--objected 
to the questioning about Ms. Lewinsky, referring to it as ``innuendo.'' 
Mr. Bennett produced Ms. Lewinsky's false affidavit. Mr. Bennett stated 
to Judge Wright that Ms. Lewinsky's affidavit indicated that ``there is 
absolutely no sex of any kind in any manner, shape, or form.'' Mr. 
Bennett stated that the President was ``fully aware of Ms. Lewinsky's 
affidavit.'' During Mr. Bennett's statements, the President sat back 
and let his attorney mislead Judge Wright. The President said not a 
word--to the Judge or, so far as we are aware, to his attorney.
    Judge Wright overruled Mr. Bennett's objection. The questioning 
continued. In response, the President made false statements not only 
about his intimate relationship with Ms. Lewinsky, but about a whole 
host of matters. The President testified that he did not know that 
Vernon Jordan had met with Ms. Lewinsky and talked about the Jones 
case. That was untrue.
    He testified that he could not recall being alone with Ms. 
Lewinsky. That was untrue. He testified that he could not recall ever 
being in the Oval Office hallway with Ms. Lewinsky except perhaps when 
she was delivering pizza. That was untrue. He testified that he could 
not recall gifts exchanged between Ms. Lewinsky and him. That was 
untrue. He testified--after a 14-second pause--that he was ``not sure'' 
whether he had ever talked to Ms. Lewinsky about the possibility that 
she might be asked to testify in the lawsuit. That was untrue. The 
President testified that he did not know whether Ms. Lewinsky had been 
served a subpoena at the time he last saw her in December 1997. That 
was untrue. When his attorney read Ms. Lewinsky's affidavit denying a 
sexual relationship, the President stated that the affidavit was 
``absolutely true.'' That was untrue.
    The evidence thus suggests that the President--long aware that Ms. 
Lewinsky was a likely topic of questioning at his deposition--made not 
one or two, but a series of false statements under oath. The President 
further allowed his attorney to use Ms. Lewinsky's affidavit, which the 
President knew to be false, to deceive the Court. This evidence 
suggests that the President directly contravened the oath he had 
taken--as well as the Supreme Court's mandate, in which the Court had 
stated that Ms. Jones was entitled, like every other citizen, to a 
lawful disposition of her case.
D. The President's Actions: January 17-21
    As our referral outlines, the President's deposition did not mark 
the end of the scheme to conceal. During his deposition testimony, the 
President referred to his secretary Betty Currie. The President 
testified, for example, that Ms. Lewinsky had come to the White House 
to see Ms. Currie, not him; that Ms. Currie had been involved in 
assisting Ms. Lewinsky in her job search; and that Ms. Currie had 
communicated with Vernon Jordan about Mr. Jordan's assistance to Ms. 
Lewinsky. In response to one question at the deposition, the President 
said he did not know the answer and ``you'd have to ask Betty.''
    Given the President's repeated references to Ms. Currie and his 
suggestion to Ms. Jones's attorneys that they contact her, the 
President had to know that Ms. Jones's attorneys might want to question 
Ms. Currie. Shortly after 7:00 p.m. on Saturday, January 17--just two 
and a half hours after the deposition--the President attempted to 
contact Ms. Currie at her home. The President asked Ms. Currie to come 
to the White House the next day, which she did, although it was unusual 
for her to come in on a Sunday. According to Ms. Currie, the President 
appeared concerned and made a number of statements about Ms. Lewinsky 
to Ms. Currie. The statements included:
    ``You were always there when she was there, right? We were never 
really alone.''
    ``You could see and hear everything.''
    Ms. Currie concluded that the President wanted her to agree with 
him when he made these statements. Ms. Currie stated that she did in 
fact indicate her agreement--although she knew that the President and 
Ms. Lewinsky had been alone and that she could not hear or see them 
when they were alone.
    Ms. Currie further testified that the President ran through the 
same basic statements with her again on January 20 or 21.
    What is important with respect to these two episodes is that at the 
time the President made these statements, he knew that they were false. 
He knew he had been alone with Ms. Lewinsky. He knew Ms. Currie could 
not see or hear everything. The President thus could not have been 
trying to refresh his recollection, as he subsequently suggested. That 
raises the question: Is there a legitimate explanation for the 
President to have said those things in that manner to Ms. Currie? The 
circumstances suggest not. The facts suggest that the President was 
attempting to improperly coach Ms. Currie, at a time when he could 
foresee that she was a potential witness in Jones v. Clinton.
E. The President's Actions: January 21-August 17
    The President's next major decision came in the days immediately 
after January 21. On the 21st, the ashington Post publicly reported the 
story of Ms. Lewinsky's relationship with the President. After the 
public disclosure of his relationship with Ms. Lewinsky and the ongoing 
criminal investigation, the President faced a decision. Would he admit 
the relationship publicly, correct his testimony in Ms. Jones's case, 
and ask for the indulgence of the American people? Or would he continue 
to deny the truth?
    For this question, the President consulted others. According to 
Dick Morris, the President and he talked on January 21. Mr. Morris 
suggested that the President publicly confess. The President replied 
``But what about the legal thing? You know, the legal thing? You know, 
Starr and perjury and all.'' Mr. Morris suggested they take a poll. The 
President agreed. Mr. Morris called with the results. He stated that 
the American people were willing to forgive adultery but not perjury or 
obstruction of justice. The President replied, ``Well, we just have to 
win, then.''
    Over the next several months, it became apparent that the strategy 
to win had many prongs. First, the President denied the truth publicly 
and emphatically. Second, he publicly promised to cooperate with the 
investigation. Third, the President deflected and diverted the 
investigation by telling aides false stories that were then relayed to 
the grand jury. Fourth, he refused invitations to testify to the grand 
jury for over six months. Fifth, his Administration delayed the 
investigation through multiple privilege claims, each of which has been 
rejected by the Federal courts. Sixth, surrogates of the President 
attacked the credibility and legitimacy of the grand jury 
investigation. Seventh, surrogates of the President attempted to 
convince the Congress and the American people that the matter was 
unimportant.
    The first step was for the President to deny the truth publicly. 
For this, political polling led to Hollywood staging. The President's 
California friend and producer Harry Thomason flew to Washington and 
advised that the President needed to be very forceful in denying the 
relationship. On Monday, January 26, in the Roosevelt Room, before 
Members of Congress and other citizens, the President provided a clear 
and emphatic public statement denying the relationship.
    The President also made false statements to his Cabinet and aides. 
They then spoke publicly and professed their belief in the President.
    The second step was to promise cooperation. The President told the 
American people on several television and radio shows on January 21 and 
22 that ``I'm going to do my best to cooperate with the 
investigation.''
    The third step was the President's refusal to provide testimony to 
the grand jury despite six invitations to do so and despite his public 
promise to cooperate. Refusing invitations to provide information to a 
grand jury in a Federal criminal investigation authorized by the 
Attorney General of the United States--and one in which there is a high 
national interest in prompt completion--was inconsistent with the 
President's initial January promise to cooperate and with the general 
statutory duty of all government officials to cooperate with Federal 
criminal investigations.
    As a fourth step, the President not only refused to testify 
himself, but he authorized the use of various governmental privileges 
to delay the testimony of many of his taxpayer-paid assistants. The 
extensive use of governmental privileges against grand jury and 
criminal investigations has, of course, been a pattern throughout the 
Administration. Most notably, the White House cited privilege in 1993 
to prevent Justice Department and Park Police officials from reviewing 
documents in Vincent Foster's office in the days after his death.
    In the Lewinsky investigation, the President asserted two 
privileges, Executive Privilege and a government attorney-client 
privilege. A subordinate Administration official, without objection 
from the President, claimed a previously unheard-of privilege that was 
called the protective function privilege. The privileges were asserted 
to prevent the full testimony of several White House aides and the full 
testimony of the sworn law enforcement officers of the Secret Service.
    In asserting Executive Privilege, the President was plowing 
headlong into the Supreme Court's unanimous decision 24 years ago in 
United States v. Nixon. There, the Supreme Court ruled that Executive 
Privilege was overcome by the need for relevant evidence in criminal 
proceedings. And thus, it came as no surprise that Chief Judge Norma 
Holloway Johnson rejected President Clinton's effort to use Executive 
Privilege to prevent disclosure of relevant evidence.
    In asserting protective function and government attorney-client 
privileges, the Administration was asking the Federal courts to make up 
one new privilege out of whole cloth and to apply another privilege in 
a context in which no Federal court had ever applied it before. And 
thus it again came as little surprise that the Federal courts rejected 
the Administration's claims. Indeed, as to the government attorney-
client claim, the D.C. Circuit and the District Court, like the Eighth 
Circuit a year ago, stated that the President's position not only was 
wrong but would authorize a ``gross misuse of public assets.'' The 
Supreme Court refused to grant review of the cases notwithstanding the 
Administration's two strongly worded petitions.
    This point bears emphasis: The Administration justified its many 
privilege claims by claiming an interest in protecting the Presidency, 
not the President personally. But that justification is dubious for two 
reasons. First, Presidents Carter and Reagan waived all government 
privileges at the outset of criminal investigations in which they were 
involved. The examples set by those two Presidents demonstrate that 
such privilege claims in criminal investigations are manifestly 
unnecessary to protect the Presidency. Second, these novel privilege 
claims were quite weak as a matter of law.
    And that raises a question: What was it about the Monica Lewinsky 
matter that generated the Administration's particularly aggressive 
approach to privileges? The circumstantial evidence suggests an answer: 
delay. Indeed, when this Office sought to have the Supreme Court decide 
all three privilege claims at once this past June, the Administration 
opposed expedited consideration.
    Not only did the Administration invoke these three losing 
privileges, but the President publicly suggested that he had not 
invoked Executive Privilege when in fact he had. On March 24, 1998, 
while travailing in Africa, the President was asked about Executive 
Privilege. He stated in response: ``You should ask someone who knows. . 
. . I haven't discussed that with the lawyers. I don't know.'' But 
White House Counsel Charles Ruff had filed an affidavit in Federal 
court only seven days earlier in which he swore that he had discussed 
the assertion of Executive Privilege with the President and the 
President had approved its invocation.
    After Chief Judge Johnson ruled against the President, the 
President dropped the Executive Privilege claim in the Supreme Court. 
In August, the President explained to the grand jury why he dropped it. 
The President stated: ``I didn't really want to advance an executive 
privilege claim in this case beyond having it litigated.''
    But this statement--to the grand jury--was inaccurate. In truth, 
the President had again asserted Executive Privilege only a few days 
earlier. And a few days after his grand jury testimony, the President 
again asserted Executive Privilege to prevent the testimony of Bruce 
Lindsey. These Executive Privilege cases continue to this day; indeed, 
one case is now pending in the D.C. Circuit.
    When the President and the Administration assert privileges in a 
context involving the President's personal issues; when the President 
pretends publicly that he knows nothing about the Executive Privilege 
assertion; when the President and the Administration rebuff our 
Office's efforts to expedite the cases to the Supreme Court; when the 
President contends in the grand jury that he never really wanted to 
assert Executive Privilege beyond having it litigated--despite the fact 
that he had asserted it six days earlier and did so again eleven days 
afterwards, there is substantial and credible evidence that the 
President has misused the privileges available to his Office. And the 
misuse delayed and impeded the Federal grand jury's investigation.
    The fifth tactic was diversion and deflection. The President made 
false statements to his aides and associates about the nature of the 
relationship--with knowledge that they could testify to that effect to 
the grand jury sitting here in Washington. The President did not simply 
say to his associates that the allegations were false or that the issue 
was a private matter that he did not want to discuss. Instead, the 
President concocted alternative scenarios that were then repeated to 
the grand jury.
    The final two tactics were related: (i) to attack the grand jury 
investigation, including the Justice Department prosecutors in my 
Office--to declare war, in the words of one Presidential ally--and (ii) 
to shape public opinion about the proper resolution of the entire 
matter. It is best that I leave it to someone outside our Office to 
elaborate on the war against our Office. But no one really disputes 
that those tactics were employed--and continue to be employed to this 
day.
F. The President's Actions: August 17
    This strategy proceeded for nearly 7 months. It changed course in 
August after Monica Lewinsky reached an immunity agreement with our 
Office, and the grand jury, after deliberation, issued a subpoena to 
the President.
    The President testified to the grand jury on August 17. Beforehand, 
many in Congress and the public advised that the President should tell 
the whole truth. They cautioned that the President could not lie to the 
grand jury. Senator Hatch, for example, stated that ``So help me, if he 
lies before the grand jury, that will be grounds for impeachment.'' 
Senator Moynihan stated simply that perjury before the grand jury was, 
in his view, an impeachable offense.
    The evidence suggests that the President did not heed this 
Senatorial advice. Although admitting to an ambiguously defined 
inappropriate relationship, the President denied that he had lied under 
oath at his civil deposition. He also denied any conduct that would 
establish that he had lied under oath at his civil deposition. The 
President thus denied certain conduct with Ms. Lewinsky and devised a 
variety of tortured and false definitions.
    The President's answers have not been well received. Congressman 
Schumer, for one, stated that ``it is clear that the President lied 
when he testified before the grand jury.'' Congressman Meehan stated 
that the President engaged in a ``dangerous game of verbal Twister.'' 
Indeed, the President made false statements to the grand jury and then 
that same evening spoke to the Nation and criticized all attempts to 
show that he had done so as invasive and irrelevant. The President's 
approach appeared to contravene the oath he took at the start of the 
grand jury proceedings. It also disregarded the admonitions of those 
Members of Congress who warned that lying to the grand jury would not 
be tolerated. It also discounted Judge Wright's many orders in which 
she had ruled that this kind of evidence was relevant in the Jones 
case.
    And thus ended the over-eight-month journey that had begun on 
December 5, 1997, when Monica Lewinsky's name appeared on the witness 
list. The evidence suggests that the eight months included false 
statements under oath, false statements to the American people, false 
statements to the President's Cabinet and aides, witness tampering, 
obstruction of justice, and the use of Presidential authority and power 
in an effort to conceal the truth of the relationship and to delay the 
investigation.
                           iii. jurisdiction
    Given the serious nature of perjury and obstruction of justice, 
regardless of its setting, it is obvious that the actions of the 
President and Ms. Lewinsky to conceal the truth warranted criminal 
investigation. Let me explain how the investigation came to be handled 
by our Office rather than by the Department of Justice or some new 
independent counsel. The explanation is straightforward.
    On January 8, an attorney in my Office was informed that a witness 
(who was Linda Tripp, a witness in prior investigations), had 
information she wanted to provide. A message was conveyed back that she 
should provide her information directly. Ms. Tripp called our Office on 
January 12. In that conversation and later, she provided us a 
substantial amount of information.
    Let me pause here and emphasize that our Office, like most law 
enforcement agencies, has received innumerable tips about a wide 
variety of matters over the past four years--from Swiss bank accounts 
to drug smuggling. You name it. We have heard it. In each case, we must 
make an initial assessment whether it is a serious tip or a crank call, 
as well as an assessment of jurisdictional issues.
    We handled the information from Ms. Tripp in this same manner. When 
we confirmed that the information appeared credible, we reached out to 
the Department of Justice, as we have done regularly during my tenure 
as independent counsel. We contacted Deputy Attorney General Eric 
Holder within 48 hours after Ms. Tripp provided us information. The 
next day, we fully informed the Deputy Attorney General about Ms. 
Tripp's information. About Ms. Tripp's tapes and the questions 
concerning their legality under state law. About the consensual FBI 
recording of Ms. Tripp and Ms. Lewinsky. About the indications that 
Vernon Jordan was providing employment assistance to a witness who had 
the potential to harm the President--a fact pattern that we had seen in 
the Webster Hubbell investigation, as I shall describe presently.
    We discussed jurisdiction. We noted that it is in everyone's 
interest to avoid time-consuming jurisdictional challenges. We stated 
that the Lewinsky investigation could be considered outside our 
jurisdiction as then constituted. We stressed that someone needed to 
work the case: the Justice Department or an independent counsel.
    Later that evening, the Deputy Attorney General telephoned and 
reported that the Attorney General had tentatively decided to assign 
the matter to us. Before her decision was final, we reviewed the 
evidence in detail with two experienced career prosecutors in the 
Department. One senior Justice Department prosecutor listened to 
portions of the FBI tape. The Attorney General made her final decision 
on Friday, January 16. That day, through a senior career prosecutor, 
the Attorney General asked the three-Judge Special Division to expand 
our jurisdiction. The Special Division granted the request that day.
    In short, our entry into this investigation was standard, albeit 
expedited, procedure.
                         iv. referral standards
    Seven months later, after conducting the factual investigation and 
after the President's grand jury testimony, the question we faced was 
what to do with the evidence. Section 595(c) of Title 28 in the 
independent counsel statute requires an independent counsel 
investigating possible crimes to provide to the House of 
Representatives--in the words of the statute--``substantial and 
credible information that may constitute grounds for an impeachment.''
    This reporting provision suggests a statutory preference that 
possible criminal wrongdoing by the President be addressed in the first 
instance by the House of Representatives. It also requires an analysis 
of the law of impeachment.
    As we understood the text of the Constitution, its history, and 
relevant precedents, it was clear that obstruction of justice in its 
various forms, including perjury, ``may constitute grounds for an 
impeachment.'' Even apart from any abuses of Presidential authority and 
power, the evidence of perjury and obstruction of justice required us 
to refer this information to the House.
    Perjury and obstruction of justice are, of course, serious crimes. 
In 1790, the First Congress passed a criminal law that banned perjury. 
A violator was subject to three years' imprisonment. Today, Federal 
criminal law makes perjury a felony punishable by five years' 
imprisonment.
    In cases involving public officials, courts treat false statements 
with special condemnation. United States District Judge Royce Lamberth 
recently sentenced Ronald Blackley, former Chief of Staff to the former 
Secretary of Agriculture, to 37 months' imprisonment for false 
statements. The Court stated that it ``has a duty to send a message to 
other high-level government officials that there is a severe penalty to 
be paid for providing false information under oath.''
    Although perjury and obstruction of justice are serious Federal 
crimes, some have suggested that they are not high crimes or 
misdemeanors when the underlying events concern the President's private 
actions. Under this theory, a President's obstruction and perjury must 
involve concealment of official actions. This interpretation does not 
appear in the Constitution itself. Moreover, the Constitution lists 
bribery as a high crime or misdemeanor. And if a President involved in 
a civil suit bribed the judge to rule in his favor or bribed a witness 
to provide favorable testimony, there could be no textual question that 
he had committed a high crime or misdemeanor under the plain language 
of Article II--even though the underlying events would not have 
involved his official duties. In addition, virtually everyone agrees 
that serious crimes such as murder and rape would be impeachable even 
though they do not involve official duties.
    Justice Story stated in his famous Commentaries that there is not a 
syllable in the Constitution which confines impeachment to official 
acts. With respect, an absolute and inflexible requirement of a 
connection to official duties appears, fairly viewed, to be an 
incorrect interpretation of the Constitution.
    History and practice support the conclusion that perjury, in 
particular, is a high crime or misdemeanor. Perjury has been the basis 
for the removal of several judges. As far as we know, no one questioned 
whether perjury was a high crime or misdemeanor in those cases. In 
addition, as several of the scholars who appeared before you testified, 
perjury seems to have been recognized as a high crime or misdemeanor at 
the time of the Founding. And the House Manager's report in the 
impeachment of Judge Walter Nixon for perjury stated, ``It is difficult 
to imagine an act more subversive to the legal process than lying from 
the witness stand.'' And finally, I note that the Federal Sentencing 
Guidelines include bribery and perjury in the same Guideline (2J1.3), 
reflecting the common-sense conclusion that bribery and perjury are 
equivalent means of interfering with the governmental process.
    For these reasons, we concluded that perjury and obstruction of 
justice, like bribery, ``may constitute grounds for an impeachment.'' 
Having said that, let me again emphasize my role here. Whether the 
President's actions are, in fact, grounds for an impeachment or some 
other congressional sanction is a decision in the sole discretion of 
the Congress.
    A final point warrants mention in this respect. Criminal 
prosecution and punishment are not the same as--or a substitute for--
congressionally imposed sanctions. As the Supreme Court stated in a 
1993 case, ``the Framers recognized that most likely there would be two 
sets of proceedings for individuals who commit impeachable offenses--
the impeachment trial and a separate criminal trial. In fact, the 
Constitution explicitly provides for two separate proceedings. The 
Framers deliberately separated the two forums to avoid raising the 
specter of bias and to ensure independent judgment.''
            v. the office of independent counsel: 1994-1998
    Our job over the past several years has involved far more than 
simply the Monica Lewinsky matter. The pattern of obstruction of 
justice, false statements, and misuse of executive authority in the 
Lewinsky investigation did not occur in a vacuum.
A. Overview
    In August 1994, I took over the Madison Guaranty investigation from 
Bob Fiske. Over the ensuing years, I have essentially become 
independent counsel for five distinct investigations: for Madison and 
Whitewater, for Foster-related matters, for the Travel Office, for the 
FBI Files matter, and for the Monica Lewinsky investigation--as well as 
for a variety of obstruction and related matters arising from those 
five major investigations. A brief overview of those investigations may 
assist the Committee in its assessment of the President's conduct.
    First, some statistics. Our investigation has resulted in 
conviction of fourteen individuals, including the former Associate 
Attorney General of the United States Webster Hubbell, the then-sitting 
Governor of Arkansas Jim Guy Tucker, and the Clintons' two business 
partners Jim and Susan McDougal.
    We are proud not only of the cases we have won, but also of our 
decisions not to indict. To take one well-known example, the Senate 
Whitewater Committee sent our Office public criminal referrals on 
several individuals. The Committee stated in its June 21, 1996, public 
letter that the testimony of Susan Thomases was ``particularly 
troubling and suggests a possible violation of law.'' But this Office 
did not seek charges against her.
    Apart from our indictments and convictions, this Office also has 
faced an extraordinary number of legal disputes--on issues of 
privilege, jurisdiction, substantive criminal law, and the like. By my 
count, at least seventeen of our cases have been decided by the federal 
courts of appeals, and we have won all seventeen. One privilege case 
arising in our Travel Office investigation went to the D.C. Circuit 
where we prevailed 2-1 and then to the Supreme Court where we lost 6-3.
    We had to litigate in the courts as our investigation ran into 
roadblocks and hurdles that slowed us down. It is true that the 
Administration produced a great amount of information. But unlike the 
prosecutors in the investigations involving Presidents Reagan and 
Carter, we have been forced to go to court time and again to seek 
information from the Executive Branch and to fight a multitude of 
privilege claims asserted by the Administration--every single one of 
which we have won.
    In sum, this Office has achieved a superb record in courts of law--
of significant and hard-fought convictions, of fair and wise decisions 
not to charge, of thorough and accurate reports on the Vincent Foster 
and Monica Lewinsky matters, of legal victories in various courts. We 
go to court and not on the talkshow circuit. And our record shows that 
there is a bright line between law and politics, between courts and 
polls. It leaves the polls to the politicians and spin doctors. We are 
officers of the court who live in the world of the law. We have 
presented our cases in court, and with very rare exception, we have 
won.
B. Madison Guaranty: President Clinton and Susan McDougal
    The center of all of this--the core of our Arkansas-based 
investigation--was Madison Guaranty Savings and Loan. Madison was a 
federally insured savings and loan in Little Rock, Arkansas, run by Jim 
and Susan McDougal. Like many savings and loans in the 1980's, Madison 
was fraudulently operated. Mrs. Clinton and other lawyers at the Rose 
Law Firm in Little Rock performed legal work for Madison in the 1980's.
    Madison first received national attention in March 1992 when a New 
York Times report raised several issues about the relationship between 
the Clintons and the McDougals in connection with Madison. Federal bank 
regulators examined Madison in 1992 and 1993. The regulators sent 
criminal referrals to the Justice Department, and the Justice 
Department launched a criminal investigation of Madison in November 
1993. In part because of the relationship of the Clintons to the 
McDougals, Attorney General Reno appointed Bob Fiske in January 1994. I 
was appointed Independent Counsel in August 1994 to continue the 
investigation.
    Madison exemplified the troubled practices of savings and loans in 
the 1980's. The failure of the institution ultimately cost federal 
taxpayers approximately $65 million. Congresswoman Waters put it this 
way in a 1995 hearing: ``By any standard, Madison Guaranty was a 
disaster. . . . It gambled with investments, cooked the books and 
ultimately bilked the taxpayers of the United States. Madison is a 
metaphor for the S&L crisis.''
    The McDougals' operation of Madison raised serious questions 
whether bank funds had been used illegally to assist business and 
political figures in Arkansas such as Jim Guy Tucker and then Governor 
Clinton. As to the Clintons, the question arose primarily because they 
were partners with the McDougals in the Whitewater Development Company. 
The Whitewater corporation initially controlled and developed 
approximately 230 acres of property on the White River in Northern 
Arkansas. Given Jim McDougal's role at the center of both institutions 
and given Whitewater's constant financial difficulties, there were two 
important questions: Were Madison funds diverted to benefit Whitewater? 
If so, were the Clintons either involved in or knowledgeable of that 
diversion of funds?
    These questions were not idle speculation. In early 1994, a Little 
Rock Judge and businessman David Hale pled guilty to certain unrelated 
Federal crimes. As part of his plea, David Hale told Mr. Fiske's team 
that he had received money as a result of a loan from Madison in 1986 
and that his company loaned it to others as part of a scheme to help 
some members of the Arkansas political establishment.
    One loan of $300,000 went to Susan McDougal's make-believe company, 
Master Marketing. Based on our investigation, we now know that some 
$50,000 of the proceeds of that loan went to benefit the Whitewater 
corporation. David Hale stated that he had discussed the Susan McDougal 
loan with Governor Clinton, including at a meeting in 1986 with Jim 
McDougal and the Governor.
    In August 1994, when I first arrived in Little Rock, we devised a 
plan. First, based on the testimony of David Hale and others, as well 
as documentary evidence, we would take steps, if appropriate, to seek 
an indictment of Jim and Susan McDougal and others involved in what 
clearly appeared to be criminal transactions. If a Little Rock jury 
convicted the McDougals or others, we would then obtain their testimony 
and determine whether they had other relevant information--including, 
of course, whether the McDougals possessed information that would 
either exonerate or incriminate the Clintons as to Madison and 
Whitewater matters.
    This approach was the time-honored and professional way to conduct 
the investigation. We garnered a number of guilty pleas in my first 
year, including from Webster Hubbell, who had worked at the Rose Law 
Firm and was knowledgeable about its work with Madison, including that 
of Mrs. Clinton. In addition, Robert Palmer, a real estate appraiser, 
pled guilty to fraudulently doctoring Madison documents to deceive 
federal bank examiners. Three other associates of McDougal pled guilty 
and agreed to cooperate.
    In August 1995, a year after I was appointed, a federal grand jury 
in Little Rock indicted Jim and Susan McDougal and the then-sitting 
Governor of Arkansas Jim Guy Tucker. The case went to trial in March 
1996 amid charges by all three defendants--and their allies--that the 
case was a political witch hunt. Some predicted that an Arkansas jury 
would never convict the sitting Governor. Those expectations were 
heightened when President Clinton was subpoenaed as a defense witness. 
The President testified for the defense from the Map Room of the White 
House. During his sworn testimony, the President testified that he did 
not know about the Susan McDougal loan nor had he ever been in a 
meeting with Hale and McDougal about the loan. He also testified that 
he had never received a loan from Madison. This was important 
testimony. Its truth--or falsity--went to the core issue of our 
investigation.
    On May 28, 1996, all three defendants were convicted--Jim McDougal 
of 18 felonies, Susan McDougal of four felonies, and Governor Tucker of 
two felonies. Governor Tucker announced his resignation that day.
    After his conviction, Jim McDougal began cooperating with our 
investigation. We spent many hours with him gaining additional insights 
and facts. He informed our career investigators and prosecutors that 
David Hale was accurate. According to Jim McDougal, President Clinton 
had testified falsely at the McDougal-Tucker trial. Jim McDougal 
testified he had been at a meeting with David Hale and Governor Clinton 
about the Master Marketing loan. And Jim McDougal testified that 
Governor Clinton had received a loan from Madison. Jim McDougal said on 
one of his first sessions with our Office that the President's trial 
testimony was, in his words, ``at variance with the truth.''
    In late 1997, we considered whether this evidence justified a 
referral to Congress. We drafted a report. But we concluded that it 
would be inconsistent with the statutory standard because of the 
difficulty of establishing the truth with a sufficient degree of 
confidence. We also weighed a prudential factor in reaching that 
conclusion. There were still two outstanding witnesses who might later 
corroborate--or contradict--the McDougal and Hale accounts: Jim Guy 
Tucker and Susan McDougal.
    In 1998, we were finally able to obtain information from Governor 
Tucker. It had taken four long years to hear from the Governor. He pled 
guilty in a tax conspiracy case. When Governor Tucker ultimately 
testified before the Little Rock grand jury in March and April of this 
year, he had little knowledge of the loan to Susan McDougal's 
fictitious company and the President's possible involvement in it. He 
did shed light on the overall transactions involving Castle Grande and 
Madison. Importantly, as to one subject, Governor Tucker exonerated the 
President regarding longstanding questions whether the President and 
Governor Tucker had a conversation about the Madison referrals in the 
White House in October 1993.
    The remaining witness who perhaps could shed light on the issue was 
Susan McDougal. And therein lies a story that has caused literally 
years of delay and added expense to the investigation.
    Because the proceeds from the fraudulent loan Susan McDougal 
received had benefitted the Clintons--the proceeds were used to pay 
obligations of the Whitewater Development Company for which the 
Clintons were potentially personally liable--Susan McDougal was 
subpoenaed to testify before the grand jury in August 1996 and asked 
several questions at the heart of the investigation, including:

          Did you ever discuss your loan from David Hale with William 
        Jefferson Clinton?
          To your knowledge, did William Jefferson Clinton testify 
        truthfully during the course of your trial?

Susan McDougal refused to answer any of the questions. District Judge 
Susan Webber Wright then held her in civil contempt, a decision later 
upheld by the United States Court of Appeals.
    The month of September 1996 thus was a crucial time for our Office 
in its attempt to obtain Susan McDougal's truthful testimony. On 
September 23, 1996, just two weeks after Ms. McDougal had been found in 
contempt by Judge Wright, President Clinton was interviewed on PBS. The 
President said, ``There's a lot of evidence to support'' various 
charges that Susan McDougal had made against this Office. But the 
President cited no evidence.
    The President's comments can reasonably be described as supportive 
of Ms. McDougal's decision to disobey the court order. So far as we are 
aware, no sitting President has ever publicly indicated his agreement 
with a convicted felon's stated reason for refusing to obey a Federal 
court order to testify. Essentially, the President of the United 
States, the Chief Executive, sided with a convicted felon against the 
United States, as represented by United States District Judge Susan 
Webber Wright, the United States Court of Appeals for the Eighth 
Circuit, and the Office of Independent Counsel.
    The President was also asked in this interview whether he would 
consider pardoning Ms. McDougal. The President refused to rule out a 
pardon.
    The President's answers to these questions were roundly criticized. 
A New York Times editorial captured the point well, stating that the 
President's remarks ``undercut a legal process that is going forward in 
an orderly way.''
C. Madison Guaranty: Mrs. Clinton and Webster Hubbell
    A separate area of our original investigation concerned the Rose 
Law Firm's work in 1985 and 1986 for Madison. It appeared that Rose may 
have assisted Madison in performing legal work concerning a piece of 
property (IDC/Castle Grande), which involved McDougal, Madison, and 
fraudulent transactions. The complicated real estate deal known as 
Castle Grande was structured to avoid state banking regulatory 
requirements and involved violations of federal criminal law.
    Grand jury subpoenas were issued in 1994 and 1995 to the Rose Law 
Firm and to the President and Mrs. Clinton seeking all documents 
relating to Madison and Castle Grande. We ultimately learned that Mrs. 
Clinton had performed some work related to Madison's IDC/Castle Grande 
transactions, but the whole issue remained partially enshrouded in 
mystery as our Office and the Senate Whitewater Committee investigated 
the issue in 1995.
    The problem was that some of the best evidence regarding Mrs. 
Clinton's work--her Rose Law Firm billing records and her time sheets 
for 1985 and 1986--could not be found. The missing records raised 
suspicions by late 1995 and became a public issue. Webster Hubbell and 
Vincent Foster had been responsible during the 1992 campaign for 
gathering information about Mrs. Clinton's work for Madison. Yet the 
billing records could not be found. The Rose Firm's work for Madison 
could not be fully pieced together. The Rose Firm no longer had the 
records.
    On January 5, 1996, the records of Mrs. Clinton's activities at 
Madison were finally produced under unusual circumstances. The records 
detailed Mrs. Clinton's work on a variety of Madison issues, including 
the preparation of an option agreement that Madison used to deceive 
federal bank examiners as part of the Castle Grande deal. After a 
thorough investigation, we have found no explanation how the billing 
records got where they were or why they were not discovered and 
produced earlier. It remains a mystery to this day. Then, in the summer 
of 1997, a second set of these billing records was found in the attic 
of the late Vincent Foster's house in Little Rock. The time sheets for 
Rose's 1985-86 Madison work have never been found.
    We should note that Webster Hubbell may have additional information 
pertaining to Castle Grande--whether exculpatory or inculpatory--that 
we have been unable to obtain. Mr. Hubbell was at the Rose Firm at the 
relevant time in 1985 and 1986, he gathered information about the 
Madison issue in the 1992 campaign, and his father-in-law Seth Ward was 
involved in the Castle Grande deal.
    Two other important facts suggest that Mr. Hubbell may have 
additional information. First, on March 13, 1994, after a meeting at 
the White House where it had been discussed that Mr. Hubbell would 
resign from the Justice Department, then-Chief of Staff Mack McLarty 
told Mrs. Clinton that ``We're going to be supportive of Webb.''
    As this criminal investigation was beginning in 1994 under Bob 
Fiske and later my Office, Mr. Hubbell received payments totalling 
nearly $550,000 from several companies and individuals. Many were 
campaign contributors. These individuals had been contacted through the 
White House Chief of Staff Mr. McLarty. In June 1994, during a week in 
which he made several visits to the White House, Indonesian businessman 
James Riady met with Webster Hubbell and then wired him $100,000. One 
of the individuals who arranged for Mr. Hubbell to receive a consulting 
contract was Vernon Jordan. The company that he convinced to hire 
Hubbell was MacAndrews & Forbes, parent company of Revlon--the same 
company that later hired Monica Lewinsky upon Mr. Jordan's 
recommendation. As he was destined later to do with Monica Lewinsky, 
Mr. Jordan personally informed the President about his assistance to 
Mr. Hubbell.
    Most of the $550,000 was given to Mr. Hubbell for little or no 
work. This rush of generosity obviously gives rise to an inference that 
the money was essentially a gift. And if it was a gift, why was it 
given? This money was given despite the fact that Mr. Hubbell was under 
criminal investigation for fraudulent billing and was a key witness in 
the Madison Guaranty investigation.
    Second, as is known to the public, on certain prison tapes while 
Mr. Hubbell was in prison, he said to his wife: ``I won't raise those 
allegations that might open it up to Hillary.'' On another tape, Mr. 
Hubbell said to White House employee Marsha Scott that he might ``have 
to roll over one more time.''
    Mr. Hubbell's statements--when combined with the amount of money he 
received and the information he was in a position to know--raise very 
troubling questions. Mr. Hubbell is currently under federal indictment, 
and it would be inappropriate to say more about that at this time.
D. Travel Office
    Let me add a few brief words about the Travel Office matter. This 
phase of work arose out of investigations by others of the 1993 firings 
of Billy Dale and six career co-workers. We do not anticipate that any 
evidence gathered in that investigation will be relevant to the 
committee's current task. The President was not involved in our Travel 
Office investigation.
    As to the status of that investigation, it was on hold for quite a 
while, in part because of litigation. The investigation is not 
terminated, but we expect to announce any decisions and actions soon.
E. FBI Files
    As to the FBI files matter, there are outstanding issues that we 
are attempting to resolve with respect to one individual. But I can 
address two issues of relevance to the Committee's work. First, our 
investigation, which has been thorough, found no evidence that anyone 
higher than Mr. Livingstone or Mr. Marceca was in any way involved in 
ordering the files from the FBI. Second, we have found no evidence that 
information contained in the files of former officials was used for an 
improper purpose.
                 vi. the office of independent counsel
A. Staff
    Let me now mention a few words about our personnel, about our 
process, and about our reflections on this investigation. The character 
and conduct of the men and women of our Office--career professionals 
who take their jobs and their oaths very seriously--have been badly 
distorted. Perhaps that is inevitable given the nature of the issues 
involved in this case and the fact that the President of the United 
States is the subject of a criminal investigation. But it is 
regrettable. And so let me offer some truth about the Office.
    I will start with our personnel. During the Lewinsky investigation, 
my staff has included skilled and experienced prosecutors from around 
the country. They have brought an enormous amount of experience and 
expertise to the Office. My colleagues during the past year have 
included a former United States Attorney; the Chief of the Public 
Corruption unit of the United States Attorney's Office in Los Angeles; 
the Chief of the Public Corruption unit of the United States Attorney's 
Office in Miami; the chief of the bank fraud unit of the United States 
Attorney's office in San Antonio; prosecutors with lengthy experience 
in the Public Integrity Section of the Department of Justice; seasoned 
federal prosecutors from ten different States and the District of 
Columbia; and veteran state prosecutors from Maryland and Oregon.
    The Office also has benefitted from the assistance of Sam Dash, 
Chief Counsel to the Senate Watergate Committee, who has offered great 
wisdom throughout my tenure as independent counsel. Professor Ronald 
Rotunda, constitutional law scholar from the University of Illinois, 
similarly has provided important advice on a variety of issues. The 
Office also has received assistance from professors at the University 
of Michigan, the University of Illinois, Notre Dame, and George 
Washington. Moreover, former law clerks for six different Supreme Court 
Justices have served on my staff during the past year.
    During the Lewinsky investigation, the Office also relied on many 
talented investigators with extensive service in the FBI and other law 
enforcement agencies. And the FBI Laboratory yet again provided superb 
assistance, as it has throughout the Madison/Whitewater investigation.
    In addition, let me express my great appreciation for the grand 
jurors who devoted much time and energy to examining the witnesses and 
considering the evidence. Those 23 citizens of the District of Columbia 
have performed invaluable service, and I publicly thank them. This is 
the rare case where grand jury transcripts become publicly scrutinized, 
and as you now know, these grand jurors were active, knowledgeable, 
fair, and completely dedicated to uncovering and understanding the 
truth.
B. The Process
    In all of our investigations, difficult decisions have been taken 
through our Office's deliberative process. The process calls upon each 
attorney--drawing upon his or her background and experience--to offer 
views on issues in question. This deliberative process is laborious, 
sometimes tedious. But it is an attempt to ensure that our Office makes 
the best decisions it can. I have drawn upon a vast array of 
experienced prosecutors and investigators because I was sensitive to--
and am sensitive to--the fact that an independent counsel exists 
outside the Justice Department and is an unusual entity within our 
constitutional system.
    Throughout this investigation, we have made every effort to follow 
Department of Justice practice and policy and to utilize time-honored 
law enforcement techniques. Of course, with their vast experience in 
the Department and FBI, my prosecutors and investigators embody such 
policy and practice. Nonetheless, it was often the case during an all-
attorneys meeting that we would repair to the United States Attorney's 
Manual to be sure we had it right. It is true that some traditional law 
enforcement procedures may not be entirely comfortable for some 
witnesses. But the procedures have been refined over decades of 
practice in which society's right to detect and prosecute crime has 
been balanced against individual liberty. It was not our place to 
reinvent the investigative wheel. Nor was it our place to discard law 
enforcement practices that are used every day by prosecutors and police 
throughout the country.
C. Decisions During the Investigation
    With that, let me be the first to say that the Lewinsky 
investigation, in particular, presented some of the most challenging 
issues any lawyer could face. We had to make numerous difficult 
decisions--and often had to do so quickly. Those included factual 
judgments (is witness X or witness Y telling us the whole truth?), 
strategic choices (do we provide immunity to Ms. Lewinsky in order to 
obtain her testimony? Is it appropriate to subpoena the President?), 
legal decisions (Do we accept the assertion of Executive Privilege for 
Bruce Lindsey or do we go to court to challenge it? What about the 
asserted Secret Service privilege?), and historic constitutional 
judgments (what is the meaning of Section 595(c) of the independent 
counsel statute and how do we write a referral that satisfies its 
requirements?).
    Major decisions during-the Lewinsky investigation have not been 
easy. And given the hurricane-force political winds swirling about us, 
we were well aware that, no matter what decision we made, criticism 
would come from somewhere. As Attorney General Reno has said, in high-
profile cases like these, you are damned if you do and damned if you 
don't, so you'd better just do what you think is the right and fair 
thing.
    We also attempted to be thorough. But we did not invent that 
approach just for the Lewinsky case. To take just one previous example, 
in investigating matters relating to the death of Vincent Foster, we 
were painstaking in examining evidence, questioning witnesses, and 
calling upon experts in homicide and suicide. We were criticized during 
that investigation for being too thorough, taking too long. But time 
has proved the correctness of our approach. After an extensive 
investigation, the Office produced a report that addressed the many 
questions, confronted the difficult issues, laid out new evidence, and 
reached a definitive conclusion. Over time, the controversy over the 
Foster tragedy has dissipated because we insisted on being 
uncompromisingly thorough both in the investigation and in our report.
    After the Attorney General and the Court of Appeals assigned us the 
Lewinsky investigation, the Office again received criticism for being 
too thorough. But the Lewinsky investigation could not be properly 
conducted in a slapdash manner. It was our duty to be meticulous, to be 
careful. We were. And in the process, we uncovered substantial and 
credible evidence of serious legal wrongdoing by the President.
    Some then suggested that the report we submitted to Congress was 
too thorough. But bear in mind that we submitted the referral, as we 
were required by statute, to the House of Representatives, not to the 
public. And we must dispute the suggestion that a report to the House 
suggesting possible impeachable offenses committed by the President of 
the United States should tell something less than the full story. The 
facts, the story are critical--they affect credibility, they are 
necessary to avoid a distorted picture, they ultimately are the basis 
for a just conclusion. As a result, just as the jurors found the 
details of specific land deals critical in our trial of Governor Jim 
Guy Tucker and the McDougals, just as the Supreme Court includes the 
details of grisly murders in its death penalty cases, so too the 
details of the President's relationship with Ms. Lewinsky became 
relevant--indeed, critical--in determining whether and the extent to 
which the President made false statements under oath and otherwise 
obstructed justice in both the Jones v. Clinton case and then again in 
his grand jury testimony.
    As you know, by an overwhelming bipartisan vote, the House 
immediately disclosed our referral to the public. But I want to be 
clear that the public disclosure or non-disclosure of the referral and 
the backup materials was a decision our Office did not make--and 
lawfully could not make. We had no way of knowing in advance of 
submitting the referral, and we did not know, whether the House would 
publicly release both the report and the backup materials; would 
release portions of one or both; would release redacted versions of the 
report and backup documents; would prepare and release a summary akin 
to Mr. Schippers' oral presentation; or would simply keep the referral 
and backup materials under seal just as Special Prosecutor Jaworski's 
submission in 1974 remained under seal. As a result, we respectfully 
but firmly reject the notion that our Office was trying to inflame the 
public. We are professionals, and we were trying to get the relevant 
facts, the full story, to the House of Representatives. That was our 
task. And that is what we did.
    In fact, the referral has served a purpose. There has been 
virtually no dispute about a good many of the factual conclusions in 
the report. In the wake of the referral, for example, few have ventured 
that the President told the truth, the whole truth, and nothing but the 
truth in his civil case and before the grand jury. A key reason, we 
submit, is that we insisted--as we have in our other investigations--
that we be exhaustive in the investigation and that we document the 
facts and conclusions in our report.
D. Reflections
    I want to be absolutely clear on one point, however. Any suggestion 
that the men and women of our Office enjoyed or relished this 
investigation is wrong. It is nonsense. In at least three ways, the 
Lewinsky investigation caused all of us considerable dismay--and 
continues to do so.
    First, none of us has any interest whatsoever in investigating the 
factual details underlying the allegations of perjury and obstruction 
of justice in this case. My staff and I agree with the sentiments 
expressed by Chairman Hyde in the November 9 hearing when he said ``I'd 
like to forget all of this. I mean, who needs it?'' But the 
Constitution and the criminal law do not have exceptions for unseemly 
or unpleasant or difficult cases. The Attorney General and the Court of 
Appeals assigned us a duty to pursue the facts. And we did so.
    Second, this investigation has proved difficult for us because it 
centered on legal wrongdoing by the President of the United States. The 
Presidency is an Office that we--like all Americans--revere and 
respect. No prosecutor is comfortable when he or she reports wrongdoing 
by the President. All of us want to believe that our President has at 
all times acted with integrity--and certainly that he has not violated 
the criminal law.
    Everyone in my Office therefore envies the position years ago of 
Paul Curran, the distinguished counsel appointed by Attorney General 
Griffin Bell to investigate certain financial transactions involving 
President Carter. Mr. Curran received complete cooperation from 
President Carter, found no wrongdoing, and promptly returned to private 
life. I would like to do the same.
    Third, this investigation was unpleasant because our Office knew 
that some Americans, for a variety of reasons, would be opposed to our 
work. But we would not, could not, allow ourselves to be deterred from 
doing our work. As I have said, our Office was assigned a specific duty 
to gather the facts--and then, if appropriate, to make decisions and 
report the facts as quickly as we possibly could. In the end, we tried 
to adhere to the principle Congressman Graham discussed on October 5: 
30 years from now, not 30 days from now, we want to be able to say that 
we did the right thing.
E. The Independent Counsel
    At the end of the day, I--and no one else--was responsible for our 
key decisions. And my background thus warrants brief note.
    I came to this job as a product of the judicial process, of the 
courts. I began my legal career in 1973 as a law clerk, first for Judge 
David Dyer on the Fifth Circuit Court of Appeals and then for 2 years 
for Chief Justice Warren Burger. Following my clerkships, I was in 
private law practice in Los Angeles and Washington, during which time I 
worked on all manner of litigation matters--civil, administrative, and 
criminal.
    After William French Smith took office as Attorney General in 
January 1981, I served as Counselor to the Attorney General from 1981 
to 1983. In that capacity, I experienced firsthand the varied and 
difficult judgment calls that faced the Attorney General every day--
whether it was dealing with the aftermath of the attempted 
assassination of President Reagan or selecting a Supreme Court nominee, 
in that case Justice Sandra Day O'Connor. I took away from the 
experience an admiration that has continued to this day for the career 
Justice Department lawyers, prosecutors, and law enforcement officials 
who toil without fanfare, and for whom the guiding principles are 
fairness and respect for the law.
    In 1983, President Reagan nominated and the Senate confirmed me to 
be a Judge on the United States Court of Appeals for the District of 
Columbia Circuit. I became a colleague on a Court with truly great 
Judges--from J. Skelley Wright to Antonin Scalia, from Ruth Ginsburg to 
Robert Bork--and tackled the important and intricate issues that came 
before the D.C. Circuit. The cases included issues as diverse as the 
constitutional right of a military serviceman to wear a yarmulke (a 
right I supported in vain) and the right of a newspaper, in that case 
The Washington Post, to be free under the First Amendment from the 
crushing threat of liability under the libel laws.
    In 1989, I accepted appointment as Solicitor General of the United 
States. The Solicitor General is, as you know, the lawyer who 
represents the United States in arguments before the Supreme Court. A 
distinguished predecessor, Thurgood Marshall, often stated that being 
Solicitor General was the greatest job a lawyer could have, bar none. 
Justice Marshall had it right. As Solicitor General, I argued 25 cases 
before the Supreme Court. The arguments covered the spectrum of our law 
including whether flag burning is a protected right under the 
Constitution, whether there is a constitutional right to refuse 
unwanted medical treatment near the end of one's life, and whether the 
Senate's decision to convict and remove an impeached Judge is subject 
to judicial review. While I was Solicitor General, my overarching goal 
was to run an Office faithful to the law, not to political or 
ideological opinion. And I think the record shows that I did just that.
    In 1993, I left my second tour of duty in the Justice Department 
and returned to private practice and teaching constitutional law. In 
the period before I was named independent counsel in August 1994, I was 
not completely absent from public service, however. In late 1993, I was 
asked by the Senate Ethics Committee, chaired by Nevada's Democratic 
Senator Richard Bryan, to review Senator Packwood's diaries as part of 
the Ethics Committee's investigation.
    Every person is, of course, deeply affected by his or her 
experiences. For my part, my experience is in the law and the courts. I 
am not a man of polls, public relations, or politics--which I suppose 
is obvious at this point. I am not experienced in political campaigns.
    As a product of the law and the courts, I have come to an 
unyielding faith in our court system--our system of judicial review, 
the independence of our judges, our jury system, the integrity of the 
oath, the sanctity of the judicial process. The phrase on the facade of 
the Supreme Court ``Equal Justice Under Law,'' the inscription inside 
the Justice Department building, ``the United States wins its point 
when justice is done its citizens in the courts,'' are more than 
slogans. They are principles that the courts in this country apply 
every day. Office saw that firsthand in the trial of Governor Jim Guy 
Tucker, Jim McDougal, and Susan McDougal. A juror said afterwards that 
they fought for the defendants' liberty, but were overwhelmed by the 
evidence. It is our judicial process that helps make this country 
distinct. And my background, my instincts, my beliefs have instilled in 
me a deep respect for the legal process that is at the foundation of 
our Republic.
    President Lincoln asked that ``reverence for the laws . . . be 
proclaimed in legislative halls and enforced in courts of justice.'' 
Mr. Chairman, my Office and I revere the law. I am proud of what we 
have accomplished. We were assigned a difficult job. We have done it to 
the very best of our abilities. We have tried to be both fair and 
thorough.
    I thank the Committee and the American people for their attention.

    Mr. Hyde. The committee will stand in recess until 1:45 
p.m., and I would ask everyone to remain in the room in their 
seats until Judge Starr has exited the room. It will just be a 
few seconds. We will see you back at 1:45 p.m.
    [Whereupon at 1:03 p.m. the committee recessed to reconvene 
at 1:45 p.m. the same day.]
    Mr. Hyde. The committee will come to order. I would 
appreciate it if we could get the doors closed.
    The Chair now recognizes minority counsel, Mr. Lowell, to 
question the witness for 30 minutes.
    Mr. Lowell. Thank you, Mr. Chairman.
    Good afternoon, Mr. Starr.
    Mr. Starr. Good afternoon, Mr. Lowell.
    Mr. Lowell. Chairman Hyde has again this morning announced 
his desire to conclude the inquiry by the end of this year. 
With that in mind, it appears that you may be the principal 
witness that the committee hears and that yours will most 
certainly be the primary evidence considered.
    Given this, Mr. Starr, isn't it true that on September 25, 
1998, without any request by this committee to do so, you sent 
the committee a letter which agreed that once questions about 
your conduct were raised, those questions were not incidental 
or tangential, but they were ``appearing to bear on the 
substantiality and credibility of the information you provided 
to the House in our referral.''
    Mr. Starr. Well, Mr. Lowell, the letter, and I believe I am 
recalling the one that you are speaking to, we have had a lot 
of correspondence back and forth, as you know. But the letter, 
if my recollection serves me, goes to the circumstances with 
respect to the events of the evening of January 16th, and there 
were certain allegations being made about the circumstances by 
which we approached Ms. Lewinsky, what was said and the like, 
and that is what we were talking about or what we were 
addressing in that letter, if it again is the letter you are 
indicating.
    But may I take, I must say, gentle issue with the idea that 
this [indicating referral] is not the information that is 
before you. This is the information, and the supplemental 
materials and the appendices reflect the hard work of the grand 
jury who has evaluated the witnesses. I am the Independent 
Counsel. My colleagues and I have gathered the information.
    But, no, a witness not in the sense of a fact witness, 
except to the extent, obviously, that members want to inquire 
into the activities of our office, and I am obviously going to 
try to be responsive.
    Mr. Lowell. If you look at tab 1, Mr. Starr, of the exhibit 
book in front of you, just so that we are clear, indeed it is 
the September 25th letter in which you write to the committee 
and state that the conduct, in this case, of how you dealt with 
Ms. Lewinsky, goes to the substantiality and the credibility of 
the evidence you sent. That is the letter; is it not?
    Mr. Starr. Yes, it is.
    Mr. Lowell. With that in mind, Mr. Starr, the Members and I 
have a series of questions that, as you indicated, will 
elucidate the substantiality and the credibility of the 
evidence.
    To begin with, in your testimony, and if you look at your 
testimony, it would be on pages 31 and 50, you acknowledged 
that you had a number of choices to make with respect to 
sending a referral to Congress. To quote from your morning's 
testimony, you stated that one of the questions you needed to 
decide was ``what to do with the evidence.'' And then you said 
we needed to decide ``how do you write a referral?''
    You recall your statements with those choices, correct?
    Mr. Starr. Yes.
    Mr. Lowell. With respect to the choices you made, Mr. 
Starr, you have to agree, I take it, that there are substantial 
differences between the referral that you sent to Congress on 
September 9, 1998, and the one that was sent by Watergate 
Special Prosecutor Leon Jaworski, to whom you referred, in 
1974. You would not, would you?
    Mr. Starr. I am not sure I understand.
    Mr. Lowell. You would agree your methodology, the 
procedures and the decisions that you made, differed 
substantially to the ones that he made 24 years ago?
    Mr. Starr. Well, I understood the question. The answer is 
yes in that our referral--your question had a number of 
elements, so I want to be precise. Our referral did indeed 
differ, and if I may explain why.
    Mr. Cox and then his successor Mr. Jaworski were dealing 
not in an environment controlled by a law, and the assurance I 
want to give this committee is that we studied the law, namely 
595(c), very carefully. Mr. Cox, Mr. Jaworski never had 
occasion to look at 595(c) because it did not exist.
    So we examined that law, we examined the background, and we 
went through the process that I described this morning, and we 
determined, for example, that with respect to some of the 
matters, that in my effort to provide assistance to the 
committee, some of the events with respect to the Whitewater 
investigation, we were not satisfied in December of 1997 that 
that information that we had at that time, standing alone, met 
the threshold.
    That has been what has governed us, and indeed, if I could 
just add this, the statute was framed in terms of grounds that 
may constitute grounds for an impeachment. The very language 
that Congress used suggests to me a process of judgment, and we 
came to a judgment as opposed to the situation absent the 
statute with respect to Mr. Jaworski in 1974.
    Mr. Lowell. On that point, Mr. Starr, as I understand it, 
and I think in referring to the differences, this is how Mr. 
Jaworski's report has been characterized by Federal Judge John 
Sirica, who reviewed it in order to send it to Congress. Judge 
Sirica wrote, Mr. Jaworski's report draws no accusatory 
conclusions. It contains no recommendations, advice or 
statements that infringe on the prerogatives of the other 
branches of government. It renders no moral or social 
judgments. It is a simple and straightforward compilation of 
information, and it contains no objectionable features.
    This is how your report has been described: It is a report 
that marshals and characterizes the information into an 
aggressive piece of legal advocacy. It is one where there are 
few of the factual assertions left to speak for themselves. In 
short, it is a document with an attitude. It is notable for its 
failure to acknowledge that there might be more than one way to 
view at least some of the evidence.
    That was from the Supreme Court reporter of the New York 
Times, Linda Greenhouse, on September 12, 1998.
    It cannot be your testimony, is it, Mr. Starr, that the 
595(c) background material that you cite to this committee, 
which was involved in reviewing that statute that you 
mentioned, required you to make the accusations, conclusions, 
in short, have a referral with an attitude, is it?
    Mr. Starr. My opinion of the statute or my reading and 
interpretation of the statute, Mr. Lowell, is that I am called 
upon to establish the reason that in the Independent Counsel's 
view the matters that I send before you may constitute a 
grounds for impeachment. That is a very serious and weighty 
matter, and we approached it in a very serious and weighty 
manner.
    I have the highest regard for the late John Sirica. I 
served with Judge Sirica. But he was addressing, in all 
fairness, a totally different set of circumstances, because--
and it may be we have different interpretations of the statute. 
But with respect to any particular reporter's evaluation or 
description, I stand behind this referral, and I am sure there 
will be questions about it.
    What we tried to do in this referral was to assemble in an 
organized form, rather than sending you simply truckloads of 
unorganized information; give it coherence, and then it is your 
judgment. And, thus, if it is the judgment that this referral 
has not, in fact, stood the test of your close examination, did 
we get the facts wrong, then, of course, you should come to 
your own judgment and your own assessment.
    But this reflects, just so the committee knows, the views 
of some of the most experienced prosecutors in the country. I 
stand behind it because it is mine. I stand behind each word of 
it. It is my ultimate judgment.
    But this is a professional product, it is not the product 
of one single person.
    Mr. Lowell. Whether it be your judgment, Mr. Starr, or the 
judgments of your entire staff, one thing I think you will 
agree with is that it was your and your staff's decisions to 
include the words ``premeditated,'' ``concocted false alibis,'' 
``deceived,'' ``pattern of obstruction,'' ``lying under oath,'' 
``perjury,'' which words you will never find in the report of 
Leon Jaworski when he was reporting the same kind of evidence 
to the Congress 24 years ago. Aren't I right about that?
    Mr. Starr. I don't think that--I have not reviewed all of 
the material that Mr. Jaworski delivered, and I am not taking 
issue with the fact that this document is no doubt in many 
respects different than the very kind of environment and legal 
standard under which Mr. Jaworski was operating.
    But, Mr. Lowell, if I am going to--speaking through my 
voice--but if our office is going to inform the House of 
Representatives that there may be substantial grounds for an 
impeachment, that is so weighty, that is so serious that you 
need to have the benefit of our judgment and our assessment of 
the facts informed by our watching the witnesses, listening to 
the grand jury and the way the grand jury reacted to witnesses, 
the assessment of the grand jury, and then to give you our 
judgment. But obviously this body is entirely at liberty to 
reject this referral as not being substantial or credible. It 
is entirely your judgment.
    One of the points I did try to make in the opening 
statement is, I believe, and you may disagree, that I was 
called upon to give you my judgment and my assessment, and I 
have done that. But it is the responsibility of the House of 
Representatives to use this [indicating referral] to the extent 
that it wants, to discard it, to do whatever it thinks is 
necessary to come to its judgment as to whether there should be 
any proceeding, some sort of proceeding, or not.
    This is a tool. This is only a tool for you to use as you 
see fit. But I don't think that it is fair to criticize my 
office for not following a pattern that was not governed by a 
statute, and Mr. Jaworski is not here to tell us what he would 
think if he went through the same process under the statutory 
regime that our professional colleagues went through.
    Mr. Lowell. Let me conclude this area, because you invited 
it. I know Mr. Jaworski----
    Mr. Starr. I am sorry. I am having a little bit of trouble 
hearing you.
    Mr. Lowell. I am sorry. You have raised something that I 
think bears some note when you were talking about Mr. Jaworski 
not being here, but he did leave us his words. And these are 
the words that Mr. Jaworski left us. I think you must have 
known this when you were considering what to do with your 
referral. In talking about his decisions, the way you have 
talked about your decisions, in talking about how to send 
material to Congress, about the grave and serious matter of 
Presidential wrongdoing, Mr. Jaworski wrote as follows.
    Mr. Barr. Can we have counsel identify the document?
    Mr. Lowell. I am sorry, you can find this in tab 4 of the 
exhibits in front of you. I apologize, Mr. Barr.
    Mr. Starr. Tab 4.
    Mr. Barr. Thank you, Mr. Lowell.
    Mr. Lowell. Mr. Jaworski, who left us his words said, ``the 
central key to the entire success was not accusing anyone. What 
we did is simply carried forward what the facts were, passed 
them on, not making an effort to interpret them, not making any 
sort of an effort to construe them or to say what we thought it 
showed, and let it be completely nonaccusative.''
    So we don't have Mr. Jaworski, but we do have his words, 
correct?
    Mr. Starr. Absolutely. And if I--I am sorry, may I just 
comment in light of your quotation?
    Mr. Lowell. Go ahead.
    Mr. Starr. We did go through an evaluative process, as I 
described, and while we did not have the benefit of Col. 
Jaworski, except that which he has left us, I do think it is 
important for the committee to know that in light of the sober 
judgment, you are free to disagree with that judgment, but it 
is our professional judgment that the President engaged in 
abuse of his authority with respect to executive privilege. We 
were guided by Sam Dash, who had very strong views on that, who 
expressed those views, and who felt that we had to use certain 
kinds of language that I think, Mr. Lowell, and I respect your 
views, you would disagree with.
    Mr. Lowell. I would like to move to an area that will, I 
hope, reflect to the members some of the other choices you had 
to make about the evidence.
    As I understand your testimony this morning, after the 4 
years and however many dollars you have now spent, your 
testimony confirms apparently that your office has not and is 
not sending an impeachment referral to the Congress on what has 
been affectionately or not so affectionately called Travelgate, 
nor on what has been called Filegate, and I think on page 141--
--
    Mr. Starr. I'm sorry?
    Mr. Lowell. Page 141 of your testimony, you are not sending 
a referral on the original Whitewater land deal, and pointed 
out in some of your investigation you have now learned that 
former Governor Tucker actually exonerated the President on 
some of the questions that you had.
    Mr. Starr. Yes.
    Mr. Lowell. The referral you sent then, Mr. Starr, refers 
apparently only to the issues about the Paula Jones case and 
the questions of the President's conduct in dealing with that 
case. That is correct; is it not?
    Mr. Starr. The referral itself does. We do, of course--if I 
may, the referral does in other respects indicate the ties that 
we saw to earlier phases of our investigation and why we, in 
fact, were choosing to assess this.
    But you are quite right both with respect to the two 
matters you indicated, as well as the specific testimony by 
Governor Tucker, that those matters will, in fact, not be 
coming to you.
    Mr. Lowell. Mr. Starr, part of the word, the key word, in 
your title ``Independent Counsel,'' is ``independent''?
    Mr. Starr. Yes.
    Mr. Lowell. Part of being ``independent,'' I think you 
would agree with me, is being free of conflicts of interest 
that might bias your investigation, correct?
    Mr. Starr. Yes.
    Mr. Lowell. And as I understand it, your testimony this 
morning indicated that on January 15, 1998, the Office of the 
Independent Counsel met with Deputy Attorney General Eric 
Holder to discuss your jurisdiction over the matter that has 
now been presented in the referral. Am I right about that?
    Mr. Starr. I believe the date is correct, yes. Our contact 
with the Department and those initial meetings was with the 
Deputy Attorney General.
    Mr. Lowell. In your testimony, Mr. Starr, you stated, and I 
quote, on page 30 of your testimony, that you ``fully informed 
the Deputy Attorney General about the matters under 
investigation.'' I take it it was because they had to make a 
decision about jurisdiction, correct?
    Mr. Starr. Yes. We were there to discuss jurisdiction.
    Mr. Lowell. The independent counsel law, as you explained 
to the committee on pages 29 and 30 of your testimony, 
indicated that at the day that you were making your 
presentation, the Attorney General had a choice as to whether 
to recommend that you conduct the investigation or to give that 
responsibility to someone else. Isn't that also true?
    Mr. Starr. Yes.
    Mr. Lowell. In that case, I suspect that you and your 
office would have provided the Deputy Attorney General and the 
Attorney General all of the information that she and he would 
have needed to make that important choice; am I also correct 
about that?
    Mr. Starr. Well, certainly that which in our judgment was 
relevant to the decision, by all means.
    Mr. Lowell. Mr. Starr, though, isn't it then true that, in 
fact, neither the Deputy Attorney General nor the Attorney 
General had the facts that they needed because not once in any 
presentation you or your office made to them about the material 
that you were now asking their jurisdiction over, that you did 
not ever mention the substantial contacts that you had already 
had in the Paula Jones case, the very subject about which you 
were seeking authority to investigate?
    Mr. Starr. Mr. Lowell, let me address two aspects. You were 
asking about the jurisdiction, and then let me come to the 
Paula Jones contacts that I had.
    We did not go to the Department, Mr. Lowell, to say we must 
have jurisdiction. We took to the Department an issue, because 
we view the Department as that entity of government to whom we 
look, to the Attorney General of the United States ultimately, 
to make jurisdictional decisions. And I was not in attendance 
at the meetings, but I can give you my impression or 
understanding, and I will make this very brief.
    We made it very clear that there was--the information we 
had was that there was inchoate criminality, which is a fancy 
way of saying something is afoot. It is breaking now. It is 
fast-moving, and we need to bring this to your attention, and 
you make the determination. We think there is a jurisdictional 
justification for what we have done thus far, but we think 
there are serious jurisdictional issues.
    Now, it will be the Attorney General's decision.
    Now, what should the Attorney General have been informed?
    Mr. Lowell. Can I go over those with you? If you would turn 
to tab 5 of the book, I think you and I and the members will be 
able to go through the issues that we might either agree or 
disagree the Attorney General should have been informed about.
    Mr. Starr, on that page you will see that it appears that 
neither you nor any of the officials in your office told the 
Attorney General that before you became the Independent 
Counsel, your law firm, Kirkland & Ellis, was actually 
contacted to represent Paula Jones and eventually helped her 
attorneys to find the lawyers she chose. That was not mentioned 
to the Attorney General that day or at any other time you were 
seeking jurisdiction or asking her about jurisdiction, was it?
    Mr. Starr. Well, you are assuming that I had the benefit of 
all of this information.
    Mr. Lowell. Whether your law firm had been asked?
    Mr. Starr. Yes, in terms of--because I certainly had had 
personal communications with Mr. Davis, but I would have to 
reconstruct what others may have done in other offices. It is a 
large law firm. So if I could just say what I, in fact, knew at 
the time that this activity was under way, the reaching out to 
the Attorney General when these events were first unfolding, 
was that I had, in fact, been contacted by, among others, Mr. 
Davis with respect to an amicus brief or some participation on 
the constitutional immunity issue in 1994, and those had been 
publicly reported. It was all in the public domain. I indeed 
debated that very issue against Lloyd Cutler and Susan Bloch.
    Mr. Lowell. I am sorry to interrupt you. The question I 
asked, and I am sorry to do it, was not whether you had had 
contacts with Mr. Davis, which had been reported at some 
earlier point, I asked whether you had or any of your office 
members told the Attorney General that your law firm that you 
were still a member of and getting a salary from had indeed 
been sought out to be Paula Jones's lawyers. I understood you 
to say you might not have known that.
    My question is you told me that Richard Porter, your 
partner, did not inform you that he had been asked to consider 
representing Paula Jones and had, in fact, assisted her in 
getting the attorneys she ultimately chose. Is that what you 
are saying?
    Mr. Starr. Well, my best recollection is no. I know Richard 
Porter, I have had communications with him from time to time, 
but in terms of a specific discussion with respect to what the 
law firm may be doing or may not be doing, I am not recalling 
that specifically, no.
    Mr. Lowell. You do recall, though, that it was a matter 
that you admit that on at least six occasions, you personally 
had had conversations with Paula Jones's attorneys over legal 
issues in the Paula Jones case.
    Mr. Starr. I am not sure. I had had conversations with 
them, just as I had conversations with others, including them, 
and I think the record of these proceedings should reflect 
that.
    If I could be permitted, my position on the constitutional 
immunity that the President enjoyed was very clear and was 
open. I was contacted before I was appointed as Independent 
Counsel by Bob Fiske. Bob Fiske was the Independent Counsel in 
Little Rock, Arkansas, and Mr. Fiske asked me whether I would 
be willing to consider writing an amicus brief on behalf of the 
Office of Independent Counsel, which, of course, he was 
appointed to by the Attorney General. And we had conversations, 
but no final decision was made, but he engaged me in 
discussions with respect to that. We talked about the issues 
and so forth.
    So, Mr. Lowell, I want to make a point: It did not occur to 
me, that issue with respect to constitutional immunity, it just 
did not occur to me, and fault me for my inability to issue 
spot. That is what we do in the law, we try to spot issues. But 
I never spotted the issue that my conversations with Bob Fiske, 
Gil Davis, my debating Lawrence Tribe on National Public Radio 
had the foggiest connection with issues that were unfolding at 
the time. Fault my judgment, if you will, but it just, frankly, 
did not occur to me, as I think happens to a lot of us in life, 
that you just don't view that as relevant information.
    And, if I may say so, especially since my position had been 
so well-known and including the contacts with Ms. Jones's 
attorneys, who reached out to me with respect to the 
constitutional immunity issue solely, exclusively, the only 
thing I would say in response to your question----
    Mr. Lowell. I am going to be cut off, Mr. Chairman, from 
time.
    Mr. Starr. You said six conversations, and you made a very 
specific point, and I am not trying to interrupt you, but you 
made a specific point, and I think it is only fair to say I 
don't know whether there were six conversations. I know there 
were several, but they were only conversations, and it never 
ripened--I am talking about with Mr. Davis--and it never 
ripened into an arrangement, an agreement, to the best of my 
recollection, to do anything because of the circumstances that 
then occurred.
    Mr. Lowell. To use your phrase, did it not occur to you 
that you should tell the Attorney General, who was making a 
decision about whether you were an independent counsel, that 
your law firm, Kirkland & Ellis, in addition to being asked to 
be Paula Jones's attorney, was providing legal advice, free 
legal advice, to a conservative woman's group called the 
Independent Women's Forum, who were thinking about 
participating in the Paula Jones case itself? Did that not 
occur to you either?
    Mr. Starr. Well, again, it is not whether it occurs or not. 
I did have discussions with I think it is called the 
Independent Women's Forum as to whether they would, in fact, 
file an amicus brief again, strictly on the constitutional 
issue, not taking a position on the merits.
    But the President, through his very able lawyers, had 
raised a very important question: Does the President of the 
United States enjoy immunity? Everyone was talking about it, 
and no one was talking about it particularly quietly. It was a 
matter of vigorous debate. And the fact that I had these 
discussions had all been, to the best of my knowledge, part of 
the public domain, that is to say, they were reported, and by 
virtue of that, I do think it is unfair, I really do, to 
suggest that someone should, when circumstances were moving so 
quickly, go do a Nexis search, making sure that everything is 
in the public domain and the like, especially under 
circumstances that were not only fast-moving, but it was very 
clear that what we were investigating were serious crimes of 
perjury that had nothing to do with the constitutional immunity 
of the President.
    Mr. Lowell. Mr. Starr, are you suggesting that when you 
told the Deputy Attorney General that he had to move with haste 
because this investigation was fast-moving, that you had no 
responsibility to also inform the Attorney General about these 
contacts that you and I are talking about which might make the 
Attorney General, as you pointed out, have a choice to make 
between giving the investigation to you or giving it to 
somebody whose independence, bias, and involvement in the case 
was not questioned?
    Mr. Starr. Well, I utterly disagree, with all respect, with 
your premise that to be involved on an issue of civil law and 
constitutional law in any way suggests a predisposition more 
generally. I would take the position that the President of the 
United States does not enjoy constitutional immunity from suit 
regardless of who the President is. It has nothing to do with 
the identity of the occupant of the office. It has everything 
to do with what the Presidency is, and the nature of our 
relationship to one another as individuals and whether we are 
all equal under the law.
    So it did not occur to--and one factual correction: You 
suggested in your conversations--I did not have conversations 
with the Deputy Attorney General. They were by others in my 
office who were reporting to the Deputy Attorney General on the 
information that was coming to us and then saying, ``what is 
your judgment? We are looking to you for guidance, and, more 
than that, we are looking to you for a decision.'' And these 
issues did not, in fact, arise.
    Mr. Lowell. Did they, to your knowledge, then, Mr. Starr, 
on that night where you were asking the Attorney General to 
make a decision whether you were the Independent Counsel she 
was looking for, tell them that while you were the Independent 
Counsel and still a member of your firm, your law firm obtained 
a nonpublic affidavit in the Paula Jones case and then sent 
that affidavit on to the Chicago Tribune, and that, Mr. Starr, 
happened while you were the Independent Counsel and a member of 
your firm? Wasn't that something the Attorney General should 
have known?
    Mr. Starr. I don't know--I am not saying she should not, 
but these are judgment calls that one makes, and it also 
assumes, shall I say, a computerlike ability to recall each and 
every thing that has ever occurred or information that has come 
to you.
    And so, let me say this: The fact of my involvement with 
the Jones matter, my personal involvement as opposed to what 
issues one or more members of my firm may have been involved 
in, I think was known publicly and thus did not occur to me as 
something that was appropriate or was something that I focused 
on. As to whether I should have focused on it, you may come to 
a different judgment.
    Mr. Lowell. Mr. Chairman, it appears to me that my 
questions, as short as I am going to try to make them, might 
elicit answers that are a little longer than I expected. I was 
hoping I would get the committee's indulgence.
    Mr. Hyde. I will tell the gentleman that when your time is 
up, I will grant you another 30 minutes.
    Mr. Lowell. Thank you, Mr. Chairman. It is about to happen, 
I thought.
    Mr. Starr, while we are on the subject of the Jones case, I 
think it is now, from the material you sent to Congress, pretty 
clear that your office did absolutely nothing to stop Linda 
Tripp from meeting with Paula Jones's attorneys to help them 
set up for the January 17 deposition of the President, and the 
fact is, is it not, that you had the power at that moment and 
the reason at that moment to forbid her from having those 
meetings, but your office chose not to do so. Isn't that right?
    Mr. Starr. That is, I think, an unfair characterization. 
That is to say it is once again assuming that there was 
information as to communications that she may or may not have 
been having. We did not--to the best of my knowledge, we did 
not have any information that she was, in fact, communicating 
with the Jones attorneys, and indeed the record will show we 
began working almost instantly at cross-purposes with the Jones 
attorneys in order to protect this investigation. And we 
actually told Ms. Tripp when it became obvious that she was 
talking to someone in New York, who apparently in turn was 
talking to someone at Newsweek, that she did have to protect 
the confidentiality of these matters that were ongoing.
    Mr. Lowell. I would like to get to the date, though, and 
see if you and I can agree that there was a moment that you had 
not only the motive, but you also had the ability to stop her 
from doing what we now learned she has done. You went to see 
the Deputy Attorney General on January 15. Prior to that, on an 
occasion or two, your officials in your office had met with 
her, and when you went to see the Deputy Attorney General, it 
is true, is it not, that one of the things that you told him, 
or your office told him, was that this was likely to start 
getting leaked; that there was a reporter that was onto this 
investigation and he needed to move quickly; isn't that a fact?
    Mr. Starr. Yes. We made--it is my understanding that we 
made the Deputy Attorney General aware that there was a 
reporter from Newsweek. We had not known about that initially 
when the information first came to us, but it became very 
quickly apparent that there was, in fact, a Newsweek reporter 
who was on the story, unbeknownst to us. So, yes, we said to 
the Deputy Attorney General, this is another factor, this is 
another consideration, and I believe--I don't know, but I 
believe that that was brought to the Attorney General's 
attention.
    Mr. Lowell. So you knew that there were press people onto 
the investigation, and at the same time you also knew that 
Linda Tripp had illegally obtained information that she needed 
some form of immunity for, and, in fact, in your meeting with 
her, your officials said to her, we will give you immunity for 
giving us that illegally-obtained information. That happened, 
too, before you met the Attorney General, right?
    Mr. Starr. Well, with respect to Federal offenses, we were 
aware that there might be an issue under Maryland law, but 
obviously we could not confer immunity that she might have with 
respect to State law. And what we did know is that this was a 
witness who told us a very important fact. She said, I was a 
witness in the Whitewater--excuse me, the White House Travel 
Office investigation, and I have additional information that I 
did not give you, and she was being asked, Mr. Lowell, to 
commit perjury.
    And so, yes, we moved very quickly, and there was a very 
important reason for moving very quickly to bring it to the 
Attorney General's attention through the Deputy, which was that 
a witness who was involved in one of our ongoing investigations 
was being asked to perjure herself and otherwise participate in 
unlawful activity.
    Mr. Lowell. If I could put these steps together, Linda 
Tripp came to your office with information, that is a correct 
fact; you were worried that there was somebody talking to the 
press that required the Attorney General to act quickly, that 
is a fact; you knew that Linda Tripp had obtained information, 
including the very tapes that provided the evidence that you 
sought to get permission to investigate from the Attorney 
General, and you didn't put those three things together to say 
to her, and, by the way, we are worried about the press? You 
were worried enough about it to ask the Deputy Attorney General 
to move quick. You are saying you didn't tell Linda Tripp not 
to be talking about that stuff to anybody?
    Mr. Starr. No, I think that is an unfair characterization. 
We did, in fact, promptly tell her--and events were moving very 
quickly--within a short time when it became evident to us, 
because things are not immediately evident when matters are 
first developing, and so you have to assess the facts. So, when 
it did become evident we instructed her. It is my understanding 
that my colleagues who were dealing with her, who were 
experienced, career prosecutors, made it very clear that she 
should stop communicating with someone who we felt was, in 
fact, or at least potentially was, a source for Newsweek. And 
indeed it is my understanding that the witness in question 
proceeded to change her phone number so that she could, in 
fact, carry out our desire, our instruction, which was--and we 
had no interest, Mr. Lowell, we had no interest in this matter 
being made public. We had no interest whatsoever in doing 
anything other than our duties as honorable prosecutors to 
bring information to the Attorney General, let her assess it, 
and let her make her judgment as to whether it should be 
investigated, and, if so, by whom.
    Now, you can say, you should have told her X, Y and Z, and 
I would say that is Monday-morning quarterbacking.
    Mr. Lowell. It is not exactly Monday-morning quarterback, 
Mr. Starr. If you will turn to tab 16, you will see the 
agreement that you actually engaged Ms. Lewinsky herself in 
when you decided to give her immunity, as your officials had 
already indicated to Linda Tripp on January 12th that she would 
be getting immunity for her taping, and you will notice in tab 
16 that it wasn't Monday-morning quarterbacking for you and 
your officials to give Monica Lewinsky not only immunity, but 
to make a condition of her immunity that she not talk to 
witnesses, that she not disclose information, and, in fact, 
that she not do the things that you now know Linda Tripp did. 
Why didn't you put the same restriction on Linda Tripp?
    Mr. Starr. What you see is the result of a very careful 
discussion, negotiation, with very able lawyers. This was not 
done--the immunity agreement that you have before you was not 
prepared under exigent circumstances with things moving so 
quickly. We did have to move quickly, in our judgment, with the 
information that came to us from Ms. Tripp.
    So one handles different situations in a variety of ways. 
But I relied on my professional prosecutors to come to a 
judgment about what should, in fact, be done and how it should 
be done, and to--in fact, when it became, as I say, evident 
that there was an issue, I think they brought it promptly to 
the Deputy Attorney General's attention and also sought to take 
what they viewed at the time--these are judgment calls----
    Mr. Lowell. You are not suggesting to the committee that 
while it might have taken a lot of time to negotiate the actual 
clauses of an immunity agreement with Ms. Tripp, that on the 
day that she said she was in trouble and asked for immunity, 
your people could have not said to her, well, if these tapes 
are illegal, don't give them to anybody, don't talk to anybody 
about them, keep them to yourself. You didn't need an immunity 
agreement to tell her that?
    Mr. Starr. Well, I think that is right, because one of the 
things--and I should clarify that what we entered into with Ms. 
Lewinsky, and I think this does need to be clear, was a 
transactional immunity agreement. She was going to enjoy 
immunity from prosecution. What we were giving Ms. Tripp at the 
time was something that was much more limited, an act of 
production kind of immunity. At least that is my understanding, 
that we were at that point in our discussions with her, simply 
saying give us the information, because she had come to us with 
very serious allegations, and--we didn't ask her to come in, 
she came in, she comes in, she provides this very serious 
information that raised potentially very serious offenses, and 
we wanted, in fact, to gather information as quickly as we 
could that would either corroborate or disprove the truth of 
that.
    So the decision that was being made initially was what we 
call act of production immunity.
    Mr. Lowell. I am understanding you. I am also understanding 
you to say you are not contesting on the day she came in, you 
had the conversation, she showed you the tapes or told you 
about the tapes, you did have the authority to give her 
immunity and the authority to tell her not to talk. You did the 
first. You didn't do the second, did you?
    Mr. Starr. Well, I would have to double-check to see 
exactly what we did tell her, but, no, what I am trying to make 
as clear as I possibly can is what we were saying to Ms. Tripp, 
you have given us this remarkable information, allegations. 
They are extraordinarily explosive, they perhaps go to the 
President of the United States. We need backup. And she was 
coming to us as a witness, and this information was not, at the 
time that it was first coming to us, in the public domain.
    So we took the steps that we thought--my colleagues who 
were making these decisions on the spot took the steps that we 
did. But if the suggestion is that we wanted her to go public, 
the suggestion is absolutely wrong.
    Mr. Lowell. I think you misunderstand my question. I could 
well understand why people in Linda Tripp's position and your 
staff working with her didn't want the investigation to become 
public. But I can also understand why Linda Tripp wanted the 
information she had to go into the Paula Jones camp, and I can 
understand that you had the authority to stop that, but didn't 
do it.
    Mr. Starr. But what we did do, Mr. Lowell, in fairness, and 
this isn't the glass is half full versus half empty, what we 
did once it became clear that there was a following by the 
Jones lawyers of our investigation and the subpoenaing of 
witnesses in our investigation, we took prompt remedial action. 
We went to Judge Susan Webber Wright and we said, stop it. 
Please have them stop it. And that is extraordinarily 
important, because that is what action we took deliberatively 
as opposed to under the exigencies of the time.
    Mr. Lowell. Under the exigencies of the time, one last 
question. You are not suggesting that you and your staff that 
were talking to Linda Tripp and then going to see the Deputy 
Attorney General were not aware that on that following 
Saturday, January 17th, the President of the United States was 
already noticed for his deposition? You are not telling us 
that, are you?
    Mr. Starr. No, we did know that, and indeed the Deputy 
Attorney General and then the Attorney General of the United 
States, Mr. Lowell, knew that there were serious allegations. 
This was days--several days--before the deposition. The 
deposition was on Saturday, the 17th. The Attorney General made 
her decision knowing the information that we had, and we were 
transparent. We shared the information, Mr. Lowell, that we had 
fully with the Justice Department.
    Our concern----
    Mr. Lowell. The information you had about what Linda Tripp 
gave you, not the information that you had about the Kirkland & 
Ellis involvement.
    Mr. Starr. Yes, I am sorry. The information that had come 
to us with respect to the investigation we shared fully with 
senior career prosecutors at the Justice Department operating 
under the direction of the Deputy Attorney General, and she 
then, the Attorney General, made her decision that the matter 
should, in fact, be investigated. So that was the first 
judgment; and secondly, that the Department of Justice did not 
want to do it.
    Mr. Lowell. Let me turn our attention to some of the other 
aspects of gathering evidence, because I know many people will 
have additional questions.
    I know you don't disagree that independent counsels, 
although not in the Department of Justice, are required under 
the rules and under the law to follow the law that applies to 
Federal Justice Department officials, prosecutors and 
investigators. I know you have said as much in your speeches, 
that you are bound by the same rules with very few exceptions, 
correct?
    Mr. Starr. The statute speaks specifically to the question 
of the applicability of DOJ policies and practices and says to 
the fullest extent practicable.
    Mr. Lowell. This morning you told the committee that, and 
this is on 49 and 50 of your own testimony, we have made every 
effort to follow the Department of Justice practice and 
policies, to utilize time-honored law enforcement techniques, 
and even on occasion that you and your staff, to use your 
phrase, would repair to the U.S. Attorney's manual for 
guidance. You stated that this morning.
    Mr. Starr. I did.
    Mr. Lowell. With these statements in mind, I would like to 
turn to the issue of your involvement with Monica Lewinsky on 
the first occasion that you had that meeting, because so much 
of the evidence that the Congress has received comes from that 
first incident.
    It is true, I take it, Mr. Starr, that when press accounts 
of your interaction with Monica Lewinsky first arose, you made 
a statement to the press on January 23, 1998, responding to 
those allegations, and you can find that statement to confirm 
its date on tab 20.
    Mr. Starr. Tab 20.
    Mr. Lowell. Do you see that?
    Mr. Starr. I do.
    Mr. Lowell. You made that statement on January 23rd; isn't 
that a fact?
    Mr. Starr. Yes, I believe that is correct. This is dated 
January 24th, but I think it would have been the preceding day.
    Mr. Lowell. Mr. Starr, in your testimony this morning you 
talked about the President's ability to provide misinformation, 
and you also said that one of the concerns of your office was 
that the President and his lawyers, on page 52 of your 
testimony, didn't give a ``distorted picture'' of the facts.
    With your own quotes in mind, I would like to ask, don't 
you think your statement to the press, to the Congress and to 
the American people gave a very ``distorted picture'' of the 
facts of the night and the day that you first confronted Monica 
Lewinsky?
    Mr. Starr. Well, I think not, and we can obviously discuss 
it.
    Mr. Lowell. Let's do that line by line, because it will be 
short, but I think it will be elucidative.
    If you look at the first line of your press statement, it 
states, ``Monica Lewinsky consented to meet with several FBI 
agents.'' Do you see your statement?
    Mr. Starr. Yes, I do.
    Mr. Lowell. In Monica Lewinsky's sworn testimony, which, if 
you like, you can follow in tab 21 to compare it back and 
forth, she testified under oath that she was there to have 
lunch with Linda Tripp. She was then accosted by agents who 
flashed their badges at her. She asked to see her attorney. She 
was told that was not such a good idea. She was then asked to 
go upstairs to discuss how much trouble she was in, and then 
she reluctantly went upstairs to meet with your staff.
    Do you think your statement that Monica Lewinsky consented 
to meet with several agents doesn't distort the picture of what 
really happened that day?
    Mr. Starr. Well, I think it was consensual. That is, we 
made it clear that she was not under arrest and that she was, 
in fact, at liberty to make a decision as to what she wanted to 
do.
    Mr. Lowell. If you look at the second line of your press 
statement, you said, ``during the five hours while awaiting her 
mother's arrival, Ms. Lewinsky drank juice and coffee, ate 
dinner at a restaurant, strolled around the Pentagon City Mall 
and watched television.'' Do you remember making that statement 
to the press?
    Mr. Starr. Yes, I do.
    Mr. Lowell. But your statement to the press, Mr. Starr, 
doesn't include the fact that Ms. Lewinsky swore to that she 
was scared and crying a lot of the time. When she asked to see 
her attorney, ``she would not be able to help herself with her 
attorney there,'' she was told. She was threatened to going to 
jail for ``27 years''; that she was not there for the 5 hours 
that your press statement says, but was there for over 10 
hours; and that when she asked to call her mother to discuss 
what you were discussing with her, your deputy Jackie Bennett 
said, ``You are 24. You are smart. You are old enough. You 
don't need to call your mommy.''
    That wasn't in your statement to the press that day, was 
it?
    Mr. Starr. No, it wasn't, Mr. Lowell, and let me explain 
what press statements are designed to do. This was not designed 
to provide a verbatim transcript of commentary. They are 
designed to respond to what we were, in fact, being accused of 
or charged with. And what we were being accused of and charged 
with was improper conduct with a witness.
    Now, the facts of the matter are these: We did, in fact, 
use a traditional technique that law enforcement always uses. 
We were waiting patiently for her mother to arrive. She chose 
not to make a decision before her mother arrived. And at the 
conclusion of her time with us, she had established a legal 
relationship which we fully recognized and always honored, and 
she and her mother indicated--I was not there, but I am told 
they indicated their appreciation for the way in which she was 
being treated.
    Now, this press statement was in response--this was in 
response, Mr. Lowell, to allegations that she was being 
subjected to the kinds of conditions that would overbear the 
will. We then--and the purpose of this was to say, here is, in 
fact, material that the public should, in fact, know, and all 
of this is absolutely true.
    Mr. Lowell. When you say the public should have known that, 
and you state in your press statement that ``she was repeatedly 
told she was free to leave,'' and that she did so several 
times, do you not think it would have not been a less 
``distorted picture,'' to use your words, to know when she left 
the room she was followed by agents, and that she swore under 
oath that she ``felt threatened that when she left, she would 
be arrested''? Don't you think that completes the picture a 
little bit?
    Mr. Starr. I think her perception was incorrect. We made it 
clear to the witness that she was, in fact, free to leave. The 
Ritz Carlton, shall I say, is a fairly comfortable and 
commodious place. We will show you, I am sure you have them, 
telephone records that indicate she reached out to Mr. Carter, 
her attorney, in a totally different matter. She called her 
mother. She, in fact, went for a walk. She had--she went to a 
restaurant and the like, and all these were important, because, 
Mr. Lowell, what the office was being accused of was somehow 
overbearing her will.
    And she didn't need to make a decision, because here is the 
other side of the picture. She was encouraging others to join 
her in committing perjury. She was, as the information came to 
us, a felon in the middle of committing another felony.
    Mr. Lowell. She wasn't likely, after being brought up to 
your room for 10 hours, to be committing any felonies anymore 
after that, was she? You said you needed to do this because she 
was in the middle of committing a felony. You don't think she 
was going to leave the hotel room, go back and continue to do 
that which you brought her to the hotel room to do? You can't 
be meaning that?
    Mr. Starr. Of course, we did not know; we had no way of 
knowing what she was going to do. What we did do was this: We 
had a consensual recording. We shared the results of that 
consensual recording with the Justice Department. We informed 
the Justice Department of what our intention was at the Ritz 
Carlton. We then proceeded in a very professional way. And then 
we were being met, as is not atypically the case, with charges 
of improper conduct.
    We then said we should respond to that, especially when--
and this doesn't speak to that either--we were going to the 
conditions of confinement as opposed to whether we had 
communicated with the Justice Department. There was nothing in 
here about the Justice Department knowing that we were going to 
go, have exactly this kind of encounter to ask this individual, 
``Are you willing to help us?'' We viewed her as culpable. But 
in discussions with the Justice Department, the culpability, we 
thought, might be outweighed by the culpability of others.
    Mr. Lowell. As you have delivered to this committee the 
principal evidence that the committee is going to get, and as 
you have agreed with me that the choices you have made bear on 
the substantiality and credibility, my questions were trying to 
go to whether or not when you make statements, when you provide 
information, you provide the complete picture, not just whether 
Ms. Lewinsky was about to commit a crime. But I think you and I 
have established some of the facts that I want the committee to 
understand.
    One last point about your statement. Your statement to the 
press, as you alluded, indicated that when she was done with 
this ordeal--I am sorry, when she was done, she told the 
agents, and I think you said ``they thanked the FBI agents and 
attorneys for their courtesy,'' but you didn't put in that, and 
you didn't put in your referral that she thanked them for their 
courtesy after, quote, ``They told me they were planning to 
prosecute my mother for the things that she had said she did.'' 
You didn't include the notion in your report to the press or 
even in the material in the referral that is later in the 
transcripts that part of her courtesy to her mother was 
threatening her prosecution, and that wasn't there either.
    Mr. Starr. Mr. Lowell, the information that we had 
suggested that her mother may have been involved in serious 
activity, in serious criminal offenses. That was an issue, and 
she wanted to reach out to her mother to discuss the questions 
with her mother. We honored that. And no, I don't think that 
one would expect, if you are talking about the press release as 
opposed to the referral, that a press release, which is 
responding to charges by her lawyers, that when she was being 
held, I don't want to put words in their mouth. But the 
substance of what was being conveyed by the very loquacious Mr. 
Ginsburg was that she was being held incommunicado. That was 
wrong. It was unfair to us, unfair to our agents, it was unfair 
to the Justice Department. But you don't see anything in the 
press release about the Justice Department either.
    The purpose of this press release which you have identified 
as tab 20, and you have been kind enough to underscore it, was 
to respond to specific allegations, and I see you do not 
include the allegations to which we were responding. I think in 
order to fairly assess this you would have to say, what was it 
that the Independent Counsel's office was having to respond to? 
What we were responding to were allegations that were utterly 
unmeritorious.
    Mr. Lowell. Those allegations to start with were that you 
were overbearing, that she wasn't free to make a decision on 
her own, she was put in a position where her judgment would be 
questioned, and you are saying to the committee that the facts 
as sworn to by Ms. Lewinsky don't bear on whether or not those 
allegations were indeed exactly accurate?
    Mr. Starr. Oh, Mr. Lowell, surely you don't think that a 
witness is going to say, ``Thank you, law enforcement, for 
finding out that I am in the middle of committing a felony.'' 
Surely you are not going to say, surely you are not going to 
take the position that the witness should say, ``Oh, I can't 
imagine why you are asking me any questions. I can't imagine 
why you are bothering me.''
    The reason that she was being approached, Mr. Lowell, was 
that she was trying to get Linda Tripp to commit perjury, and 
since you have inquired about this, her mother had made it 
clear that she was willing to help finance an operation for 
Linda Tripp so she could leave the jurisdiction and thereby 
avoid being confronted in the Jones deposition. That is what 
this was all about. So you are focusing on a press release as 
opposed to a court document.
    Can I say one other thing? In fairness, in fairness, the 
issues with respect to our conduct that evening have been 
litigated. You can ask obviously all of the questions that you 
want, but usually, if a witness believes that he or she has 
been mistreated, if her rights have been violated, there is a 
place to go, and it is called the courthouse. And that is where 
these issues have been resolved, and they have been resolved 
favorably to us. We conducted ourselves professionally.
    Mr. Lowell. I take it sitting here today you are completely 
satisfied that the picture of your involvement with Ms. 
Lewinsky, as you stated to the American people and the effects 
it had on the evidence, were accurately depicted in the press 
statement you made, even given the full sworn testimony of Ms. 
Lewinsky and her mother. You are satisfied about that?
    Mr. Starr. About this press statement being----
    Mr. Lowell. About----
    Mr. Starr. No, no, because this was written from--and 
perhaps I have been inartful in my response. This was a 
response to specific allegations being made by her attorney. It 
was not based on an interview of Ms. Lewinsky. We had no basis 
for knowing, in terms of our talking with Ms. Lewinsky, what 
her perception was. We couldn't. Her lawyer declined to allow 
us, and we honored that, once she engaged Mr. Ginsburg. So the 
mission or the purpose of this press statement was simply to be 
as responsive as we should be at the time.
    Mr. Lowell. Just so that the record is clear, Mr. Ginsburg 
is the lawyer you keep referring to. We know from the evidence 
that she contacted Mr. Ginsburg only after her mother arrived 
about however many hours later in the middle of the night, and 
the very first thing she said when approached by your agents in 
the lobby was, I want to talk to my attorney, Frank Carter. You 
don't mean to suggest to the committee that you and the agents 
and the people in your office were encouraging her to talk to 
her lawyer between the time that she was first accosted and the 
time that she got on the phone with Mr. Ginsburg. You are not 
making that statement, are you?
    Mr. Starr. That is correct. We would not encourage someone 
who was involved in felonies, as we thought at the time, to in 
fact reach out to a lawyer, especially a lawyer who had 
assisted her in crafting a perjurious affidavit. Why would we 
possibly do that?
    Mr. Lowell. Well, one reason would be because the rules of 
the Department of Justice, the law of the land as decided by 
the Supreme Court and the Code of Federal Regulations require 
it.
    Let me turn your attention to tab 23. On tab 23, as I 
understand it, Mr. Starr, one of the people that were in the 
room asking questions of Monica Lewinsky was a deputy of yours 
by the name of Michael Emmick, is that right?
    Mr. Starr. That is correct.
    Mr. Lowell. Michael Emmick came from the Department of 
Justice, U.S. Attorney's Office in Los Angeles, California, and 
had had the opportunity 3 or 4 years before the Monica Lewinsky 
incident to give a speech or give a presentation to the 
Department of Justice about what the law requires, and this is 
what Mr. Emmick said about questioning a witness represented by 
counsel. He said, ``It is rarely okay to contact the person, 
find out about representation, and ask if he is willing to talk 
anyway,'' and then Mr. Emmick went on to state, ``It is never 
okay to continue to ask questions after the person has said he 
wants his attorney there.''
    In light of what the transcripts show happened that night 
to Ms. Lewinsky, it appears, does it not, Mr. Starr, that the 
deputy involved violated his own words in his effort to get Ms. 
Lewinsky that night?
    Mr. Starr. No, because you are assuming something and you 
are, with all respect, incorrect. She was not represented for 
purposes of this analysis, and the reason that she wasn't, and 
you may disagree with this, but here is our analysis, and our 
belief that her rights were not violated has been upheld by the 
district court. Let me approach it this way. If one has a 
bankruptcy lawyer, one cannot--one cannot say if an FBI agent 
comes up to one, well, I am represented by, or the FBI agent 
must assume that I am represented by, or the person is 
represented by the bankruptcy lawyer.
    The point is, there is a very clear distinction in the law, 
and in the rules of ethics between civil matters and criminal, 
and Mr. Carter was representing her in the civil matter.
    Mr. Lowell. When she--I realize up to that point she had no 
criminal problems, she only had civil problems which she had a 
lawyer for. So you're saying it is the prosecutor who tells a 
witness whether or not she or he has the right to call a 
lawyer, based on the prosecutor's decision as to whether or not 
the matter is civil and criminal in the prosecutor's view of 
how the proceedings are going to go. Do you think that is what 
the law states?
    Mr. Starr. Well, I think the prosecutor has to make a 
judgment as to whether the nature of the representation is 
civil or criminal so that the person does have to know whether, 
in fact, the party is a represented party. That is a judgment.
    Now, even if you disagree with that, Mr. Lowell, let me say 
these two things very briefly. One, she did, in fact, call, or 
we sought to call Mr. Carter's office from the Ritz Carlton. 
That is a very important fact. She did, in fact, reach out to 
his office. Also, we tried to get her to reach out to legal aid 
so that she could have counsel. She later got, of course, Mr. 
Ginsburg. So the idea that she was not in fact permitted the 
opportunity to try to consult with counsel is incorrect.
    Mr. Lowell. Mr. Chairman, I am on my last area of 
questions, and I would appreciate the committee's indulgence.
    Mr. Hyde. How much more time do you anticipate?
    Mr. Lowell. I know my questions take 5 or 10 minutes, the 
answers always take twice as long. I suspect----
    Mr. Hyde. You ask such complicated questions.
    Mr. Lowell. Mr. Chairman, I have one more area to get into 
and I would appreciate the committee's indulgence to get there.
    Mr. Hyde. Well, I will yield you 5 more minutes and see 
what you can do in 5, and I will ask Mr. Starr if you can be 
concise, although I am enjoying your answers myself.
    Mr. Lowell for 5 minutes.
    Mr. Lowell. Thank you, Mr. Chairman.
    In the end, Mr. Starr, you have said that these are serious 
matters that the committee has to consider, and that you have 
come here today and you presented again what you deem to be the 
evidence and the conclusions in your referral. I just want to, 
if I can, with you and with the committee's indulgence, go 
through the principal charges that you made in bringing this 
matter before the committee.
    In the first matter you say that in your referral, in your 
testimony today that the President lied under oath on a variety 
of occasions having to do with the Paula Jones case. I noticed 
on pages 8 and 9 of your testimony, you spoke about Judge 
Webber Wright's rulings in the Paula Jones case. But in your 
testimony you did not also include, did you, that Judge Wright 
had ruled as to Monica Lewinsky's significance in the Paula 
Jones case, that it was quote, ``not essential to the core 
issues in the case.'' She ruled indeed later on that the 
evidence, quote, ``simply was not essential to the core 
issues'' of whether Paula Jones was the victim of a quid pro 
quo sexual harassment, and she finally threw out the case on 
the grounds that Ms. Jones had not proven what the law 
requires.
    I wanted just the record to be complete that when you 
talked about what Judge Webber Wright had ruled in your 
testimony, you never mentioned that on three occasions Judge 
Wright made rulings indicating that the significance of 
whatever it was between Monica Lewinsky and the President did 
not bear on her decision. That's a fact, isn't it?
    Mr. Starr. Well, I disagree with the characterization of 
what she ruled, and I refer, and I will simply refer to her two 
opinions, including her analysis under Rule 403 under the 
Federal Rules of Evidence. I don't think that is a fair and 
accurate characterization of what she ruled. We may have a 
different opinion of how she adjudicated the matter.
    Mr. Lowell. And as to the issue of the false affidavit 
which you state was something the President was complicit in, 
to the extent that it was a ground for impeachment, your 
evidence also includes, does it not, Mr. Starr, that Ms. 
Lewinsky gave you a statement in which she said, quote, 
``neither the President nor Mr. Jordan or anyone on their 
behalf asked or encouraged her to lie,'' and you can find that 
in tab 35.
    Mr. Starr. Tab?
    Mr. Lowell. Thirty-five.
    Mr. Starr. Thirty-five, thank you.
    Mr. Lowell. You are aware that she has made the statement 
that way by now I assume, right?
    Mr. Starr. Yes, yes.
    Mr. Lowell. You also must be aware that she also said that 
she offered to show her affidavit to the President, but he 
didn't even want to see it. You are aware that that's the 
testimony she has given as well, correct?
    Mr. Starr. Yes.
    Mr. Lowell. You must also be aware that she explained to 
you that the President and she had obviously used cover stories 
from the beginning of their relationship long before she was 
ever listed as a Paula Jones witness. You are aware of that as 
well, aren't you?
    Mr. Starr. Yes. And our referral makes that point clear.
    Mr. Lowell. As to the issue of whether or not she was given 
a job in some way to keep her happy, you know that the evidence 
that you sent Congress includes the fact that the job search 
for her began long before she was listed as a Paula Jones 
witness, correct?
    Mr. Starr. Yes, absolutely. We make that clear in the 
referral.
    Mr. Lowell. And you are also aware that she told the 
President in July, months before the Paula Jones----
    Mr. Starr. In July of?
    Mr. Lowell. 1997.
    Mr. Starr. Yes, thank you.
    Mr. Lowell. Months before the Paula Jones case was an issue 
that she was going to look for a job in New York.
    Mr. Starr. Yes, she did.
    Mr. Lowell. And you are aware as well that it was Ms. 
Tripp, not the President, Ms. Tripp, who suggested to Ms. 
Lewinsky that she bring Vernon Jordan into the process. You 
know the evidence says that, don't you?
    Mr. Starr. I am aware of the evidence with respect to that, 
but yes, go right ahead. I am sorry.
    Mr. Lowell. You are aware as well that the evidence you 
sent Congress indicates that on that crucial issue, as others 
have stated and I have no doubt will state again, Ms. Lewinsky, 
unequivocally, even though never asked the question, stated to 
you that no one ever asked her to lie, no one promised me a job 
for her silence. You understand that she swore to that as well?
    Mr. Starr. Yes. Mr. Chairman, may I respond? I am trying to 
be brief, but Mr. Lowell, as you also know, at page 174 of our 
referral we specifically say, Ms. Lewinsky has stated that the 
President never explicitly told her to lie.
    Mr. Lowell. And you say explicitly. I would say that Ms. 
Lewinsky's statement that quote, ``no one told me to lie, no 
one offered me a job for my silence,'' is not equivocal, would 
you?
    Mr. Starr. I would say that it is utterly incomplete and 
grossly misleading. We tried to capture that, and I am of 
course staying right now with respect to the--her 
representation with respect to ``no one told me to lie.'' Her 
entire testimony is to the effect, and I think this is a fair 
characterization of it, is that the cover stories were in fact 
going to continue, that that was the understanding. But yes, no 
one explicitly said, you know, ``you will lie,'' using the L 
word. Rather, it was ``we will continue with cover stories'' 
which were not true.
    Mr. Lowell. I have one last question, Mr. Starr, given the 
limited time.
    Mr. Hyde. I am going to have a surly bunch of Republicans.
    Mr. Lowell. This is my last question, Mr. Chairman.
    Mr. Hyde. Go ahead, ask your last question. Please, go 
ahead.
    Mr. Frank. Didn't you feed them?
    Mr. Starr. It was a very short lunch break.
    Mr. Hyde. Did I hear Schumer here?
    Mr. Lowell. Mr. Starr, I don't have the time to get into 
the complete areas, but I will ask you the last question. It is 
the one I started with.
    When you suggested to the committee that what you did, the 
choices you made have to be looked at to determine the 
substantiality and the credibility of the evidence, I want to 
ask you whether or not you don't now see, based on the things 
that we have discussed, that the manner in which you decided to 
write the referral as one with attitude, your contacts between 
you, your law firm and Paula Jones' attorneys, the questions 
that have been raised about whether or not you got into this 
case with proper jurisdiction, the way you dealt with Monica 
Lewinsky and the evidence that came from that, Judge Johnson's 
orders, which some others will talk to you about, about whether 
your office has been responsible for leaks, and the 
contradictions in the evidence between your referral and the 
statements you agree are in the evidence, doesn't that 
undermine the substantiality and credibility of the evidence on 
something as weighty as impeaching a President of the United 
States?
    Mr. Starr. Mr. Lowell, nothing that you have said, and with 
all respect, what you have done is go into characterizations as 
opposed to dealing with facts. The facts are as we have found 
them to be, and not one of your questions suggests that the 
President was not involved in serious offenses that it is now 
your responsibility to evaluate. In terms of the letter, I 
believe with all due respect that you have overread the letter. 
I do think if there were any suggestion that we had compelled a 
confession from her on the evening of January 16, that would go 
forcefully and powerfully to whether any such statement by her 
should be used. But Mr. Lowell, she was treated in such a way 
that she did not make a statement to the officers.
    Mr. Lowell. Thank you, Mr. Chairman.
    Mr. Hyde. Thank you.
    We will now move to the members' questioning, and the Chair 
recognizes under the 5-minute rule, and we will try to adhere 
to it, but again I will be liberal, but I would like you to 
make your questions concise.
    Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. Let 
me say that the clock does not run slower on this side of the 
table as apparently it does over on the other side.
    I was struck, Mr. Chairman, that for the first hour plus, 
Mr. Lowell's questions completely avoided and evaded the 
principal charges that have been in your referral, Judge Starr, 
and only after his second extension in the last 5 or 6 minutes 
did he get to the charges that specifically allege misconduct 
by the President of the United States.
    I would hope that during these proceedings, the rule of law 
is not on trial. That is something that has served our country 
well for over 200 years. The rule of law I think is paramount, 
and with the rule of law goes the notion that everybody stands 
before the law equally, whether they be President or pauper, 
whether they be powerful or poor.
    So having said that, let me ask you, Judge Starr, whether 
you believe that there is any difference in the law of perjury 
and the law of making false statements to a grand jury, just 
because they happen to relate to sexual matters.
    Mr. Starr. There is not, Mr. Sensenbrenner. As I have tried 
to indicate in the opening statement, as we have indicated in 
the referral, perjury is extraordinarily serious business. It 
is insidious. The courthouse cannot operate if perjury is 
allowed to either be excused or to be minimized. And why should 
we in fact go through the process of saying, there is an oath? 
We want you to tell--we want your honesty. That is what we ask 
in court. We want your honesty. And it does not matter whether 
the issue has to do with sexual harassment, or bankruptcy, or 
the criminal law. It is all dreadfully serious, and in my 
reading, I know that there is scholarly commentary to the 
opposite effect, perjury would, in fact, have been viewed as an 
impeachable offense at the time of the founding of the 
republic. And courts from that time on have taken perjury as 
extraordinarily serious, regardless of the kind of case.
    Mr. Sensenbrenner. Judge Starr, folks back home have come 
up to me and said, why don't you drop this whole impeachment 
thing because everybody lies about sex, and the President ought 
to have the opportunity to lie about sex just like everybody 
else.
    I am concerned about the impact of that attitude if it ends 
up being adopted around the country, on a lot of essential 
protections that the law provides, particularly for women. For 
example, every sexual harassment suit is about sex. That is of 
its very nature. And much of our litigation, both civil and 
criminal, of domestic violence has at least some element of sex 
involved in it. If people can perjure themselves in court about 
sex, don't you think that that makes our sexual harassment laws 
and our domestic violence laws less meaningful and in many 
cases unenforceable?
    Mr. Starr. Yes. It certainly makes them, I agree fully that 
it would make them less meaningful, and it would certainly make 
it much more difficult to enforce if we did not take acts of 
perjury or obstruction seriously in this particular category of 
case.
    Mr. Sensenbrenner. I have one further question, which has 
been referred to before. There are some that have said that the 
testimony about Monica Lewinsky and the President's civil 
deposition in the Paula Jones case was not material as a result 
of an order which you obtained from Judge Wright right after 
the expansion of your jurisdiction into the Lewinsky matter.
    Could you please describe what that order did and why you 
sought it and what its effect was on those allegations of 
perjury and false statements that you made in your referral, 
relative to the Jones civil deposition?
    Mr. Starr. Yes. Number one, we tried to put a stop quickly, 
immediately to the Jones lawyers' efforts to notice depositions 
of witnesses in our grand jury matter. Mr. Chairman, may I 
just--I will make this very brief.
    Mr. Hyde. Surely. There is more a restriction on the 
questioner than the questionee.
    Mr. Starr. You may regret that, because I----
    Mr. Hyde. Please.
    Mr. Starr. Yes. Thank you. Thank you, Mr. Chairman. But we 
went to the judge and the judge--and we asked for a stay of 
discovery, and the judge in response to our request for a stay 
then went on to determine, under an analysis that I was trying 
to describe to Mr. Lowell's apparent irritation, rule 403, but 
it was the issue that Judge Wright was wrestling with, which is 
a weighing or balancing process, and she determined that this 
evidence, although possibly admissible, should be excluded 
because of the dangers to the criminal justice process, I mean 
her order should speak for itself, and I shouldn't be 
paraphrasing the judge's order.
    The point is, she responded to our concern when we were 
trying to vindicate the integrity of our criminal justice 
investigation. But that has no--I am sorry. That was point one. 
Point two: that had no effect whatsoever on materiality, which 
was the second part of your question, because that is a legal 
concept that fortunately is very consistent with common sense. 
Materiality is measured at the time that the statement is made. 
It doesn't matter what eventually happens in the lawsuit.
    Mr. Hyde. The gentleman's time has expired.
    The gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you very much.
    Mr. Starr, it is very clear under this process which many 
of us did not agree to that trying to question you for 5 
minutes is an ambitious and hopeful undertaking that doesn't 
quite achieve our objectives.
    Would you be willing to respond to additional questions 
that might be put to you in written form should time run out on 
us?
    Mr. Starr. We are trying to be as helpful as we can, so if 
there are written questions, depending on the Chair's ruling, 
whatever the Chair determines is appropriate.
    Mr. Sensenbrenner [Presiding.] Without objection, Members 
may submit written questions for the record. I would like to 
establish a deadline for the questions and for the responses by 
Judge Starr so that the questions and answers may be included 
in the record before our authority runs out.
    Mr. Conyers. Thank you very much.
    Mr. Sensenbrenner. What deadline would the gentleman from 
Michigan suggest?
    Mr. Conyers. I don't have one right now, but could we agree 
on one very shortly? A week.
    Mr. Sensenbrenner. Okay. Without objection, questions shall 
be submitted in a week, which happens to be Thanksgiving, and 
the responses within a week. Is there objection by members of 
the committee? Hearing none, so ordered.
    Mr. Rogan. Mr. Chairman, reserving the right to object. If 
I may address the reservation? My only concern at this point is 
that the request as phrased by my friend from Michigan 
theoretically could be an invitation to an open-ended 
encyclopedic presentation of questions to Judge Starr that 
neither he nor his office will have the appropriate amount of 
time to respond. I am assuming that if questions are propounded 
to Judge Starr's office----
    Mr. Conyers. Could I allay my friend from California's 
problems and his reservation by saying that all I seek is a 
full record so that no member will be denied the answer to a 
question that was asked within the 5-minute rule on an inquiry 
on the impeachment of a President of the United States.
    Mr. Rogan. I thank my colleague for his clarification. My 
assumption, Mr. Chairman, is that in requesting unanimous 
consent, it comes with an assumption reasonableness, and if 
there is a problem with Judge Starr being able to answer in a 
timely fashion, he would be able to notify the committee and we 
would be able to review the questions.
    Mr. Sensenbrenner. Absolutely. And the acting Chair would 
request that members funnel their questions either through 
Chairman Hyde or Ranking Minority Member Conyers, rather than 
firing them off directly to Judge Starr.
    Mr. Conyers. Exactly. I thank you for the order.
    Mr. Barr. Mr. Chairman, I think we should ask, for 
unanimous consent, what exactly are we being asked for 
unanimous consent on? I am not sure I understand. To allow 
written questions to the Independent Counsel and he has to 
answer them within a week?
    Mr. Conyers. A week, yes.
    Mr. Barr. I object.
    Mr. Sensenbrenner. Objection is heard.
    I have held your 5 minutes, so the gentleman is recognized 
for 5 minutes now.
    Mr. Conyers. Well, we just went through a process for which 
we had, I thought, agreement. What we are doing here then, 
ladies and gentlemen, is saying that within a 5-minute period, 
16 members have 5 minutes, including Mr. Starr's response, to 
ask him anything that they want. I think that this is patently 
unworkable, and all I suggested was an additional method of 
communicating with Mr. Starr in writing, sir.
    Mr. Sensenbrenner. Well, if the Chair can respond to that, 
the Rules of the House of Representatives in these instances 
provide for recognition of members for 5 minutes apiece, and 
the Chair at the beginning of this hearing today said that 
members would be recognized under the 5-minute rule.
    So far, there have been only two people who have spoken, 
Mr. Lowell who received two extensions, and yours truly, who 
got his questions in within 5 minutes.
    Now, I don't think we want to be staying here until 
midnight. I would hope that the 5-minute rule which seems to 
have worked well for decades can be adhered to, and members can 
be concise.
    So again, I will move the clock back to zero, and the 
gentleman from Michigan is recognized for 5 minutes.
    Mr. Conyers. All right. It is clear to me that some Members 
do not want a full and open discussion with the witness, the 
only witness here today.
    So let me just propose--no, I was going to my questions, 
but I will yield to you if you would like.
    Ms. Waters. No. It is just that the chairman is back, and I 
am not sure that he was privy to your request.
    Mr. Hyde [Presiding.] Have you yielded to her? Because this 
is your time. Okay. That's all right. You want to submit 
written questions to the witness?
    Mr. Conyers. That's the only point, sir.
    Mr. Hyde. Well, I have no objection, if he has no 
objection, but I would like them--they would be returned when 
we hear from the President. How's that? A simultaneous return 
of questions. Is that a good idea?
    Mr. Conyers. Well, I don't know if we should condition our 
questions to Mr. Starr on whether the President and his counsel 
have chosen to answer whatever questions you have with him.
    Mr. Nadler. Would the gentleman yield?
    Mr. Conyers. I yield, yes.
    Mr. Nadler. I would simply point out that the request for 
the ability to submit written questions is made on behalf of 
Members of the House on this side, and presumably the other 
side of the aisle. We have no control over whether the 
President testifies, it is up to him, and the two subjects are 
separate.
    Mr. Hyde. You do see the fairness, though.
    Mr. Nadler. No, I don't. I don't see the fairness, frankly.
    Mr. Hyde. You don't.
    Mr. Nadler. If the President testifies, it is his 
determination in this proceeding. The ranking minority member 
suggested that it would be helpful to the members of this 
committee in ascertaining the facts and in having a full and 
fair proceeding that we have the opportunity to submit written 
questions in addition to 5 minutes. I think that is reasonable, 
but it is either reasonable or not reasonable, regardless of 
what the President chooses to do in his own capacity.
    Mr. Conyers. Well, Mr. Nadler, I thank you very much. The 
chairman has made it clear that conditionally, we can send Mr. 
Starr questions. The other--another member on the other side 
has made it clear that he doesn't want any questions and 
answers whatever in writing. So I think the point has been 
made. I would like to just go ahead and try to utilize my 
questions and answers within the period of time that I have.
    Mr. Starr, I am concerned about the potential conflicts of 
interest between your public position of seeking to impeach the 
President and your private position representing numerous 
clients whose agendas are aligned directly against the 
President. Can you assure this committee that you will provide 
for our information a complete list of the clients in your 
distinguished law firm, or the law firm that you were a member 
of, that you have represented since accepting the position of 
Independent Counsel?
    Mr. Starr. Yes.
    Mr. Conyers. Thank you very much.
    Mr. Conyers. I am particularly interested in, of course, in 
the matters with the Brown & Williamson Tobacco Company, 
General Motors, Hughes Aircraft, United Airlines, Bell 
Atlantic, and a number of others. But thank you so much. I can 
go to a second question.
    The grand jury leaks. In reviewing your statements 
concerning this subject, we have two reports. I can ask you 
about them now; you didn't mention them in your reference to 
us.
    Namely, once in the Washington Times you were quoted as 
having said, ``The release of any investigative information by 
a member of this office or any other law enforcement agency 
would constitute a serious breach of confidentiality.''
    This summer it became clear that your office had spoken to 
reporters on background developed by a different standard 
telling Stephen Brill, ``nothing improper about leaking if you 
are talking about what witnesses tell FBI agents.'' This to me 
is quite important. Is there a distinction or a compatibility 
with both of those statements, sir?
    Mr. Starr. Yes, in this sense. I will be very brief. We 
have responded in detail to the article that you mentioned, and 
I would be happy to provide that to you. I think it is all laid 
out there. My position is this: we do not issue or release that 
kind of information. That is our position.
    Now, what does the law reach? The rule of 6(e) is an issue 
that I am sure we will be discussing later today.
    Mr. Conyers. Yes. Well, and the 5-minute rule, we may or 
may not discuss it. I mean that's the problem.
    Doesn't your sense of fairness in the courts extend to 
congressional hearings where you have 16 members with 5 minutes 
to ask and be answered questions? Isn't that--doesn't that 
strike you as somewhat constricting, somewhat limiting, 
somewhat hard for us to take advantage of your appearance 
before us as the witness of the day?
    Mr. Starr. Mr. Conyers, I do not want to speak to the Rules 
of the House. Let me answer--may I answer 6(e), because I 
gather that my answers do not count against your time quite in 
the same way. But I will be guided by you.
    Mr. Conyers. Well, let me ask you about the Travelgate and 
FBI files, which you did not mention the exoneration of the 
President in your reference.
    Why--did you include any exculpatory information in your 
reference, and why didn't you put it in there instead of 
putting it in your statement here?
    Mr. Starr. We put the statement--you are right, we did not 
include that in the referral because of my view of what the 
referral was supposed to do. What I viewed this invitation as 
being was to try to--because I was invited, and pursuant to 
that invitation, we reflected on what is the information that 
you might need, because we had been told, Mr. Conyers, by the 
Congress, you know, don't hold things back. If you have 
information that could be relevant, provide it. And that is 
what we have in fact been trying to do.
    Now, if there is a sense that we are providing too much 
information, we will be guided by that, because we are trying 
to be helpful.
    Mr. Conyers. Well, I thank you very much for that response.
    Finally, sir, the failure to rule out pardon of Susan 
McDougal, is that a very strong or personally-held sentiment on 
your part? We had President Bush pardon 6 defendants in Iran 
Contra, and I was a little bit dismayed that you would deem fit 
to blow out of proportion the fact that the President refused 
to comment on the possibility of pardoning Ms. McDougal. Did I 
read more into that about your attitude about her than I ought 
to have?
    Mr. Starr. No, Mr. Conyers, I think you read it fairly and 
accurately, and you might very well have a different view that 
my view is quite wrong, but our view at the time was that the 
President did not help the situation of our trying to get to 
the truth as quickly as possible by his comments. But that is 
your judgment. We have brought that to your attention for you 
to assess, and if it is your judgment that that is not an 
appropriate matter to consider, or your judgment is different, 
obviously, it is your judgment that controls and governs here.
    Mr. Conyers. Well, I am glad to know that that is the case, 
that I still have my judgment intact. Thank you very much.
    Mr. Hyde. The gentleman's time has expired.
    I might say on the 5-minute rule, that is pursuant to the 
Rules of the House, and the Republicans get 5 minutes just like 
the Democrats, so there is an equal burden. We have been 
extremely generous in questioning, and I don't intend to shut 
anybody down, but I hope the seating arrangement suits you. 
That's about all that hasn't been complained of today, and I 
just hope it's okay. We will change it if you want.
    Mr. Frank. Could we get hassocks, Mr. Chairman?
    Mr. Hyde. Hassocks. Very good. I like that.
    The gentleman from Florida, Mr. McCollum.
    Mr. McCollum. Thank you very much, Mr. Chairman.
    Judge Starr, I am sure in light of that, you should be 
fully aware that Chairman Hyde keeps the time. You answer the 
questions as fully as you want when we ask them. We will get 
our bell rung, but don't worry about your bell.
    Mr. Starr. Thank you.
    Mr. McCollum. Let me ask you a couple of things just to 
follow up quickly. At any time, did you ever represent anybody 
in the Paula Jones sexual harassment case?
    Mr. Starr. No. Well, I shouldn't be so quick. I did not 
ever represent Ms. Jones or even seriously contemplate anything 
other than a role with respect to the constitutional immunity 
issue. But I believe, and I can check this but I will just give 
you my belief, that my firm did, in fact, represent the 
Independent Women's Forum.
    Mr. McCollum. Right. But you never personally represented 
anybody in the Paula Jones sexual harassment litigation, per 
se?
    Mr. Starr. Not per se.
    Mr. McCollum. That's all I wanted to clarify. You engaged 
us very fully on the immunity issue during your complete 
testimony.
    I have another question that is related. I heard you 
describe this morning a compelling picture of President 
Clinton, a compelling picture of him acting in a cold, 
calculated, methodical, well thought-out method; a scheme, if 
you will, to lie under oath, to commit perjury, if you will, 
with regard to his involvement with Ms. Lewinsky before the 
Jones case, in the Jones case in the deposition, and before the 
grand jury, to convince Monica Lewinsky and Betty Currie to 
also commit perjury, lie under oath in that Jones case; to work 
to get others perhaps, but certainly in concert with him, to 
conceal and not produce the gifts that you mentioned in a 
subpoena situation in the Jones case where they were subpoenaed 
of Monica Lewinsky; and to try to get Monica Lewinsky a job in 
at least, it appears from circumstantial evidence you 
described, in a compelling way, in large measure because the 
President wanted to keep her from turning on him, and to keep 
her from going ahead and telling the truth at some point.
    Now, that is a picture you painted. It was very compelling.
    Now, the latter part interests me. Section 201 of Title 
XVIII of the United States Code is the bribery section of the 
code and it reads in part, ``Whoever directly or indirectly 
gives, offers or promises anything of value to any person for 
or because of the testimony under oath or affirmation given or 
to be given by such person as a witness upon a trial, hearing 
or other proceeding,'' et cetera.
    Couldn't a reasonable person, Judge Starr, listening to 
what you described, particularly with regard to the job offer 
of the circumstantial evidence the President has of obstructing 
justice in that instance as you described it, couldn't a 
reasonable person, a reasonable member like me, conclude that 
there may as well as being obstruction of justice, there may be 
an act of bribery the President committed in this case? Could I 
not conclude that as well?
    Mr. Starr. Well, Mr. McCollum, I would not want to join in 
a particular judgment beyond that which we have set forth in 
the referral. But you will obviously go through your analysis. 
I think on the other side of the equation, the circumstances 
when the job search began and so forth. But I have frankly not 
taken the specific issue you have identified, and it is a fair 
issue, through the kind of elements analysis that a lawyer and 
a prosecutor would need to do.
    So I think in fairness, I would say I would just want to 
examine that question more closely before opining on it.
    Mr. McCollum. When you actually--you testified this 
morning, all of that went through my mind, I pulled out the 
statute book, I have walked through it, and while you didn't 
allege it and you are not here today, it seems pretty darn 
clear. I think that is important, because in the context of 
this picture you are painting of the President, you are 
painting perjury and bribery, as you said, of the same whole 
cloth. We are dealing with a similar pattern and an involvement 
overall that is very grave.
    I would like to conclude with a question that clarifies and 
gets you to amplify one other thing that Mr. Sensenbrenner 
asked you about regarding the issue of perjury itself. In this 
particular case, a number of our colleagues on this panel have 
suggested that because the Paula Jones case was dismissed and 
ultimately settled, or because there was, indeed, a throwing 
out by the judge, albeit appealed, of the underlying question 
of whether or not there was any relevance to the testimony 
about other people being sexually harassed as being relevant to 
that case, that somehow, therefore, if the President lied in 
that case, it is immaterial.
    Now, you started to say something about that. I don't think 
you really fully put the nail into this, and I would like for 
you to tell us, in your judgment, based upon what you presented 
us today, were the elements of perjury present when the 
President lied under oath as you have described it in that 
Paula Jones case and, particularly, was materiality present?
    Mr. Starr. Materiality is not affected. It is a totally 
bogus argument to suggest that because the lawsuit is 
eventually settled or dismissed that an act, let's call it 
perjury, we have said, you know, a false statement under oath, 
that is the way we presented it to you. That is simply and 
utterably and demonstrably wrong as a matter of law.
    Mr. Hyde. The gentleman's time has expired.
    Mr. McCollum. May I just clarify one thing, Mr. Chairman?
    The false statement under oath you presented and the way 
you described it with all of the elements there, you have 
described all of the elements of perjury; have you not, Judge 
Starr? You may have distinguished it the way you presented it, 
but aren't all the elements there you just described?
    Mr. Starr. I am not quarreling with what you just said.
    Mr. McCollum. Thank you.
    Mr. Hyde. The gentleman from Massachusetts, Mr. Frank.
    Mr. Frank. Mr. Starr, Judge Johnson has found 24 instances 
of prima facie violation by your office of rule 6(e). That is 
not determinative of whether or not they happened, but I 
thought I would ask you. Are you aware of any member of your 
staff who, in fact, committed a violation as defined by Judge 
Johnson? Are you aware of in those 24 instances whether or not 
a member of your staff in fact was guilty of what Judge Johnson 
has found to be a prima facie violation?
    Mr. Starr. We do not think that we have violated 6(e) at 
all.
    Mr. Frank. Specifically on the 24 instances, because you 
may differ with the report about how you define 6(e), but as 
she defined 6(e), are you aware of any member of your staff who 
committed a violation as she defined it?
    Mr. Starr. Well, with all respect, I think that is an 
unfair question, and the reason I do----
    Mr. Frank. All right, then I will withdraw it. Mr. Starr, 
you are the expert on unfair questions. If you tell me it is an 
unfair question, I will withdraw it.
    Let me ask you again, did anybody on your staff, to your 
knowledge, do the things which Judge Johnson has included in 
her list of the 24 items? Understanding that you may think that 
if they did, they weren't violations, but did anybody on your 
staff give out that information on any of those 24 instances?
    Mr. Starr. There are a couple of issues or instances in 
which we issued a press release where we do have--you know, we 
clearly issued a press release with respect to certain matters. 
But may I say this. I am operating under a sealed litigation 
proceeding, and what I am trying to suggest is, I am happy to 
answer as fully as I can, except----
    Mr. Frank. To the extent that you can't answer under this 
particular proceeding, it is sealed at your request to the 
extent that it is sealed at all. That is, Judge Johnson granted 
a motion for an open procedure. You appealed to the circuit 
court, and they closed it up, so if you didn't object, nobody 
else will. If you didn't do anything, why not just tell us if 
it is wrong factually. On the other hand, you are going to say 
well, you successfully got the circuit court to seal it, so I 
suppose I can't do much, but I don't understand why you don't 
just tell us.
    Mr. Starr. Let me make very briefly these points. We 
believe that we have completely complied with our obligations.
    Mr. Frank. That wasn't my questions.
    Mr. Starr. Under 6(e).
    Mr. Frank. My question is, Judge Johnson set it forward, 
and they did this. They could differ as to the law. I am not 
debating the law, I am trying to elicit a factual response.
    Mr. Starr. The second point that I was trying to make is 
that I am operating under a sealed proceeding.
    Mr. Frank. Sealed at your request, correct?
    Mr. Starr. No, Mr. Frank. It is sealed by the Chief Judge 
based upon her determination of----
    Mr. Frank. She granted a much more open proceeding and you 
appealed that and got a circuit court to severely restrict the 
procedure on the grounds that hers was too open. Isn't that 
true?
    Mr. Starr. Congressman Frank, what she did was to provide 
for a procedure that didn't provide quote, ``openness,'' it 
provided for an adversarial process, and this is all in the 
public domain. But from this point forward, no, she is the 
custodian and the guide with respect----
    Mr. Frank. Would you ask her to release that? I think this 
is severe for public interest in dealing with this leak 
question. It goes to the credibility of a lot of what you have 
done. Would you then join, maybe everybody would join, maybe 
the White House would join, and others, in asking Judge Johnson 
to relax that so we could get the answers publicly, because I 
think there is a lot of public interest, legitimate interest in 
this.
    Mr. Starr. I am happy to consider that, but I am not going 
to make, with all respect, a legal judgment right on the spot 
with respect to appropriateness----
    Mr. Frank. Well, then let me--I just have a couple other 
questions.
    You say in page 9 of the referral that 595 says, suggests 
that you send us information based on a referral as soon as it 
becomes clear to you. That is what bothers me about the FBI 
file on Travel Office issues. You say on page 47 of the 
testimony, our investigation found no evidence that anyone 
hired by Mr. Livingstone or Mr. Marceca was involved. When did 
your investigation determine that?
    Mr. Starr. Well, under 595(c)----
    Mr. Frank. Excuse me. That is a simple, factual yes, Mr. 
Starr. When did you determine that, that nobody hired by either 
Mr. Livingston or Mr. Marceca was involved.
    Mr. Starr. We determined that some months ago.
    Mr. Frank. Okay. Well before the election. You also have 
with regard to the Travel Office a statement that the President 
is not involved. When did you determine with regard to the 
Travel Office that the President was not involved? That is just 
factual, Mr. Starr. When?
    Mr. Starr. It is not a date certain. We have no information 
with respect to----
    Mr. Frank. I will take a date ambiguous. Give me an 
approximate.
    Mr. Starr. First of all, there is an investigation that is 
continuing, and as of this date of reporting, we do not have 
any information----
    Mr. Frank. Let me just say, here is what disturbs me 
greatly. You say on page 9 that yes, you should send us this 
information. Before the election you sent us a lot of 
information about the President that was to his discredit in 
some cases, and you found it very derogatory in other cases. 
You also have been studying for far longer than the Lewinsky 
case the FBI and the Travel Office. You tell us that months ago 
you concluded that no--that the President was not involved in 
the FBI files and you have never had the evidence you developed 
in the Travel Office, yet now, several weeks after the election 
is the first time you are saying that.
    Why did you withhold that before the election when you were 
sending us a referral with a lot of negative stuff about the 
President and only now, despite your saying that the statute 
suggests you tell us as soon as possible, you give us this 
exoneration of the President several weeks after the election?
    Mr. Starr. Mr. Frank, what we have tried to do is be 
responsive to Congress, which has said, provide us with 
information, and is there any other additional information that 
would be useful----
    Mr. Frank. Why didn't you tell us before the election about 
this, according to your reading of the statute?
    Mr. Starr. Congressman Frank, the reason is because what we 
provided you in the referral is substantial and credible 
information of possible potential offenses. The silence with 
respect to anything else means necessarily that we had not 
concluded----
    Mr. Frank. In other words, don't have anything to say 
unless you have something bad to say. You concluded in the FBI 
file, your conclusions about the FBI involving the President, 
why didn't you tell us?
    Mr. Hyde. The gentleman's time has expired. However, I 
would yield to the witness such time as you need to answer the 
many questions Mr. Frank has put to you.
    Mr. Starr. Well, again, there is a process question. The 
purpose of this referral was to provide you with what we had 
found substantial and credible information. That is point one. 
And the FBI files and the Travel Office matter were not 
relevant to the 595(c) substantial and credible information in 
terms of providing this to you for you then to determine, do 
you want any additional information.
    The final point I would say is we still have an 
investigation, as I indicated, underway, and with respect to 
both FBI files, we have indicated that, and the Travel Office. 
I have drawn a distinction between the two matters, but I am 
reporting to you so you know that as of this time we do not 
believe that there is any information in either of those 
matters, Congressman Frank, that would be relevant to you.
    Mr. Hyde. The gentleman from Pennsylvania, Mr. Gekas.
    Mr. Gekas. I thank the Chair.
    Isn't it true, Judge Starr, that you did release before the 
election, months before the election, what amounts to the 
exoneration of the President with respect to the Vince Foster 
matter; is that correct?
    Mr. Starr. Yes.
    Mr. Gekas. Months before the election. Let me ask you this: 
in what form did you exonerate the President? What formal step 
did you take in the Vince Foster matter to end that case? Did 
you report back to the Attorney General?
    Mr. Starr. In that particular instance, we issued a report, 
we filed it with the Special Division, and then made the report 
public so that it could address what we saw as these lingering 
questions with respect to the cause of death. It was a suicide 
by Mr. Foster.
    Mr. Gekas. You felt comfortable in exonerating the 
President?
    Mr. Starr. Oh, yes.
    Mr. Gekas. Mr. Conyers, my friend John Conyers from 
Michigan, went through a litany of tremendous clients that your 
law firm represents. In fact, when I finish my tour in 
Congress, I would like to talk with you. But may I ask you 
this: was your law firm--were you a part of that law firm that 
represented these clients when you exonerated the President in 
the Vince Foster matter?
    Mr. Starr. Yes.
    Mr. Gekas. Were these clients still on the books of your 
firm when you came to the conclusion that there was no 
connection in the Filegate matter to the President?
    Mr. Starr. Yes.
    Mr. Gekas. Was your law firm and you involved in these 
tremendous clients that were mentioned at the time that you 
made a decision that there is probably no connection in 
Travelgate directly on the President?
    Mr. Starr. Yes.
    Mr. Gekas. I thought you answered that.
    I am disturbed about something, though, that I found right 
from the first moment that I reviewed your referral, and that 
was the emphasis you put on with respect to the, what you would 
characterize as the misuse of executive privilege by the 
President. On page 204 of your--of this version of the 
referral, you make a separate allegation that the President's 
actions were inconsistent with his constitutional duty to 
faithfully execute the laws, and you put in there that he did 
so, did fail in that regard because he continuously used 
executive privilege.
    The first thing that I thought was, and I have not been 
disabused of it since then, is that the mere assertion by the 
President of a right like that, even if it objectively could be 
said that he knew what the result would be ultimately by the 
Supreme Court or appellate courts, I do not find that 
automatically or prima facie, or even now at this latter stage 
of the proceedings, to be something that the President should 
debited on this case. But then my mind was settled a little bit 
when you said in your testimony that even apart from the 
matters concerning executive privilege and the like, you did 
feel very strongly about the questions of perjury. And just 
like many of us, it is going to be very difficult for us to set 
aside that deep emotional feeling that we have about the 
construct of law enforcement and the judicial system in our 
country. I can set aside any abuses of power if they are called 
that with respect to the assertion of executive privilege, and 
I ask you now, didn't you sort of prioritize in that regard 
when you said, setting apart the questions of executive 
privilege, you too feel strongly about perjury as an element in 
your referral.
    Mr. Starr. Yes. Congressman, I would say these things. One, 
we believe the issues with respect to false statements under 
oath and the like are very serious, and the facts are there for 
you to evaluate, and you are evaluating those. With respect to 
the abuse of power, it is a judgment call, and you have come to 
at least your tentative judgment, obviously, as I said, to 
Congressman Conyers. It is now your prerogative to come to your 
own considered judgment as to what is right. May I say very 
briefly on executive privilege, I do think that it is an abuse 
of a very important constitutional principle for such a special 
principle, executive privilege, which I strongly believe in, 
and I defend the concept of executive privilege, to be invoked 
with respect to the nonofficial activities of the President of 
the United States. I think it is improper. But it is your 
judgment that controls, and not mine.
    Mr. Gekas. I ask unanimous consent for 30 seconds.
    Mr. Hyde. Without objection, much.
    Mr. Gekas. Without much objection.
    But can we not come to the conclusion in evaluating the 
executive privilege asserted by the President that he might 
have felt on any one of them where he exerted it that to give 
him the extreme benefit of the doubt, that he felt that the 
office of the presidency had to be protected, even in mundane 
or so, they are matters which you find could be a misuse of 
power?
    Mr. Starr. I am sure that is the view of the President, and 
we came to a different view, but as I say, it is now your 
judgment.
    Mr. Gekas. I yield back the balance of my nontime.
    Mr. Hyde. I thank the gentleman.
    The Chair will declare a very short recess until 5 minutes 
after 4 to give everyone a little stretch. And if you will 
please wait and let Judge Starr leave the room first, and then 
we will be back at 5 after 4.
    [Brief recess.]
    Mr. Hyde. The committee will come to order. A couple of 
little commentaries, if I may. When you watch a football game 
on Saturday or Sunday, you notice they have a 2-minute warning 
and these scheduled interruptions. Well, now congressional 
committees have the same situation. We have to give a 2-minute 
warning to the network television, and so that is why we seem 
to be suspended up here doing nothing. We are waiting for the 
appropriate time.
    The Chair would like to announce we are going to finish 
this evening. Some of you may be wondering how long we are 
going to go. I have no idea, but rather than come back 
tomorrow, we are going to do the job today. So I plead with my 
fellow members, if you have to ask a question, I hope it is a 
burning issue with you and not something just of idle 
curiosity. I am looking at you, Mr. Delahunt.
    Mr. Delahunt. I am not idle. Will we take a supper break?
    Mr. Hyde. No, we won't take a supper break. We will go 
straight through. We will keep the jury locked up without food 
and water. Right? You may send out for pizza.
    There will be a meeting after Judge Starr has completed his 
testimony. We will then have a full meeting of the committee to 
do some business on subpoenas. So just be advised.
    Mr. Frank. Can we have a walk around the Mall?
    Mr. Hyde. If you are walking around the Mall, I would want 
two police officers.
    It is now a--well, a mixed pleasure to ask the Senator-
elect from the great State of New York and one of our very 
valuable members, whom we will miss, Charles Schumer, to 
interrogate--question our witness. Mr. Schumer, for 5 minutes.
    Mr. Schumer. Thank you, Mr. Chairman. And I will miss you 
and this committee, not so much today, but for many of the 
other things that we have done together.
    Today, Mr. Starr, today after nearly 5 years of 
investigation, we conduct today's impeachment hearing having 
just received boxes of new documents from your office 
concerning Webster Hubbell, and have just learned from the 
chairman that we will be voting on deposing new witnesses 
involving the Kathleen Willey matter.
    Mr. Chairman, I would say this to all of us on this 
committee: Maybe we should hang a sign outside the Judiciary 
Committee that says, ``Out to lunch, gone fishing.'' We were 
out to lunch because we are so far afield of what the American 
people want us to do. We have gone fishing because despite a 5-
year fishing expedition, which has yielded nothing more than 
allegations revolving around a tawdry sex scandal, this 
committee is still trying to bait the hook.
    What has disturbed me about the twists and turns of this 
investigation and these proceedings is that instead of seeking 
justice, too many are intent on winning the war. So when there 
is not enough evidence for impeachment, you bring in John 
Huang's name or Kathleen Willey to prop up the case. And I say 
to my Republican colleagues that the irony is that the harder 
you try to win the war, the more you lose the hearts and minds 
of the American people.
    Now, for Mr. Starr, the OIC has basically made three 
allegations against the President, three types of allegations: 
Perjury, obstruction of justice, and abuse of power, all 
stemming from the President's admitted improper relationship 
with Monica Lewinsky.
    To me, as I have said, and you have stated in your report, 
it is clear that the President lied when he testified before 
the grand jury not to cover a crime, but to cover embarrassing 
personal behavior. And as I have said before, the President's 
actions deserve to be punished, not as a political denouement, 
but because what the President has done is a serious matter 
that cannot go unanswered.
    However, it is clear to me that if this case, as it seems 
to be, and as it seems clear to me, is only about sex and lying 
about sex, that it will never be found impeachable by Congress. 
Nor should it be.
    As I interpret the Constitution and the Federalist Papers, 
an interpretation that is diametrically opposed to yours, Mr. 
Starr, it is obvious that this does not reach the standard of 
high crimes and misdemeanors as set forth in the Constitution.
    The innate and sound wisdom of the American people that 
lying about an extramarital affair should not lead to the 
removal of a duly-elected President from office is far more in 
keeping with the Founding Fathers' visions of impeachment than 
your legalistic arguments, Mr. Starr.
    So thus, it seems to me that if the charges of abuse of 
power and obstruction of justice lack compelling evidence, then 
the vast majority of Americans and a strong majority in this 
House will not vote for impeachment.
    So I would like to ask you a few questions on the 
obstruction charge--charges. I am not asking you about abuse of 
power because that has already been rejected out of hand by 
even the President's harshest critics in the Republican Party. 
And I am going to ask you three sets of short questions for you 
to answer together, and that will be the end of my questioning, 
so you will have the rest of the time to answer.
    First, on August 20, 1998, Ms. Lewinsky testified that, 
``No one ever asked me to lie, and I was never promised a job 
for my silence.'' That was in response to a question by a grand 
juror.
    Let me ask you, again, because I know Mr. Lowell asked 
this, but I didn't find the answer adequate, why wasn't this 
statement directly included in your 455-page referral to 
Congress, not in a footnote and not paraphrased? Isn't that 
relevant, trenchantly relevant information, about what we are 
doing? And if you are so dispassionate about simply producing 
the facts, why wouldn't you have included the statement 
verbatim and in quotes, particularly on a matter as important 
as impeachment?
    Second, regarding the Lewinsky job search, if the President 
and his staff began to find Monica Lewinsky a job sometime 
after December 5, 1997, the date she first appeared on the 
witness list, that might lead one to your conclusion that there 
was an attempt to influence her testimony. But since the job 
search began more than 18 months prior, doesn't that cast into 
serious doubt an obstruction argument?
    You are assuming that once the White House knew of the 
deposition of Lewinsky, their reason for getting her a job 
totally changed; when it seems at least as logical that the 
reasons remained the same, mainly that they wanted to get her 
away from the White House for the obvious--same reason that 
they did before they knew of any deposition.
    And again, shouldn't we set an impeachment bar high enough 
so that a 50/50 proposition like this does not set off a 
constitutional crisis?
    And third and finally, on January the 18th, the President 
had the conversation with Betty Currie. Isn't it true that on 
that date, she was not listed as a deposition or a trial 
witness in the Jones case or any other case?
    For obstruction or subornation, the President would have to 
know that she was to be called as a witness. There is another 
logical reason that he didn't want Betty Currie to talk about 
this. He may not have wanted the press to know. He may not have 
wanted his family to know.
    Mr. Hyde. Can you wind up, Mr. Schumer?
    Mr. Schumer. Yes. And again, given the weighty matter of 
impeachment, shouldn't there be more evidence than just your 
surmise that the President knew that Currie would be called as 
a witness? It is your answers, Mr. Starr.
    Mr. Starr. Senator-elect and Congressman Schumer, question 
one, we did supply the information. The reason that you are 
having, of course, these questions with respect to the referral 
is because we produced everything that was relevant to your 
assessment of Ms. Lewinsky. And I stand by what we said on page 
174 of the referral. I think it is fair, in light of our 
assessment, but your assessment, of course, may very well be 
different with respect to that one item.
    Mr. Schumer. I asked why you didn't put it in the report, 
in full, fully quoted?
    Mr. Starr. Because we do not think that that is consistent 
with the truth, and it would be misleading to say, in our 
judgment, and I understand you may disagree with this, but we 
specifically said at page 174, not in a footnote, Ms. Lewinsky 
has stated that the President never explicitly told her to lie.
    If one finds that inadequate, then one finds it inadequate. 
It is your judgment. But we were holding nothing back. The 
referral contains the information. You have also the grand jury 
transcripts.
    I will be very brief. With respect to the December 5, 1997, 
matter, and again this is an assessment of facts, our 
professional assessment of the facts included such significant 
things as a great stepping up of the efforts to get her a job, 
especially once the witness list issued. And the referral 
speaks to that in fairly elaborate detail and how Mr. Jordan 
became very active in that effort.
    Again, it is our assessment of the facts.
    Mr. Schumer. There could be a reasonable assessment the 
other way, I presume?
    Mr. Starr. Well, I have come to my assessment based upon my 
colleagues', who are professional prosecutors, assessment of 
the facts.
    Mr. Schumer. Is it beyond a reasonable doubt?
    Mr. Starr. By no means is that our standard, because----
    Mr. Schumer. Thank you.
    Mr. Starr. --as you quite rightly note, the question is 
substantial and credible.
    And with respect to Betty Currie, I would simply guide the 
Congress again, the House again, to the substance of the 
President's testimony and how she was injected into the matter 
by the President in his testimony, and we think that does 
have----
    Mr. Schumer. With all due respect, sir, that doesn't answer 
my question----
    Mr. Starr. I am sorry.
    Mr. Schumer. --which is not how she was injected or what 
the substance was.
    Please, Mr. Chairman, because he didn't answer my question 
directly.
    But how did you come to realize that the President knew 
that she would be called as a witness when there was no mention 
of it at that time? Is this just surmise, or do you have any 
factual evidence that the President knew that she would be 
called as a witness?
    We understand he wanted her not to tell the truth, but we 
don't know to whom. Where is your evidence?
    Mr. Starr. The evidence is not that she was on a witness 
list. You are quite right, she was not on a witness list, and 
we have never said that she was. What we did say is that the 
transcript of the President--of the President's January 17 
deposition shows that he was injecting Betty Currie into the 
matter and saying--may I finish?
    Mr. Hyde. Sure.
    Mr. Starr. And saying specifically, you will have to ask 
Betty. That raises----
    Mr. Schumer. But nothing to do with the legal proceedings, 
sir, and that is the heart of subornation.
    Mr. Hyde. All right. The gentleman's time has finally 
expired.
    The gentleman from North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Judge Starr, you have become the bull's eye of the target 
upon which several aspiring political gunslingers have fired.
    A recent AP story quoted a Democrat member of this Congress 
saying the House Judiciary Committee Republicans are looking 
for a way to wiggle out of this mess.
    Now let me get this straight. President Clinton was 
involved in illicit sexual affairs in the White House with a 
young intern of tender years. President Clinton subsequently 
assured all America that he did not have an improper 
relationship with that woman.
    President Clinton, continuing his denial, spoke 
untruthfully in a deposition or interrogatory and before a 
Federal grand jury, causing perjury to rear its ugly head. And 
for all this, you are the bull's eye of the target, and the 
House Republicans are trying to wiggle a way out of the mess.
    I obviously missed class that day because as I review my 
material and notes, common sense and reality are conspicuously 
absent.
    Judge Starr, if one-half of the unfavorable comments 
leveled at you are true, you probably should be keelhauled. I 
am inclined to dismiss most of them, and as evidenced by your 
demeanor today, I think most of that trashing was probably just 
that, trashing.
    Now, I will admit I am not happy with the cost of this 
investigation, but some of that must be attributed to the 
President's delaying and deceptive and evasive tactics.
    Let me go to page 21, Judge Starr. That is what you 
referred to earlier, where it says the facts suggest that the 
President was attempting to improperly coach Ms. Currie at a 
time when she was not a potential witness.
    Shouldn't the word ``not'' be deleted there?
    Mr. Starr. Yes. Thank you, Congressman. In fact, I think 
the corrected version, which should have come up this morning, 
should make it clear that she was a potential witness.
    Mr. Coble. Very well. I am sorry. That should read she was 
a potential witness?
    Mr. Starr. Yes. And I must say, because you have been kind 
enough to raise that, I would just say in response to issues 
about potential witnesses, that Federal law is clear that these 
prohibitions against importuning and coaching a witness do 
indeed go to a potential witness.
    Mr. Coble. And I think the word ``not'' does appear in many 
of these of our scripts.
    Mr. Starr. I apologize for that.
    Mr. Coble. Judge Starr, what evidence did you find to 
support your conclusion that President Clinton's action 
involved public misconduct as opposed to private misconduct, A? 
And B, what evidence, if any, is there that President Clinton 
breached the public trust?
    Mr. Starr. Congressman, I will be as brief as I can. In 
terms of the public nature of the conduct, it seemed to me, as 
I sought to set out both in the referral and this morning, that 
the key is that this was no longer--and I respectfully 
disagree--but it is not my judgment that governs here--I 
respectfully disagree with the suggestion that this is ``lying 
about a private sexual relationship.'' Rather, this is the 
integrity of the judicial process.
    These are courts we are now talking about. These are 
judges, and a district judge is sitting and presiding. And that 
is, it seems to me, what made that dimension of it very public.
    But the other aspect, which we do enumerate in counts or 
grounds 10 and 11 which are before you, is that, in a variety 
of ways, the President used the powers and influence of the 
Presidency to carry out this continued effort to deny and to 
delay, including, I believe, and this goes back to an earlier 
comment, when one looks at the pattern of activity that we 
summarize in grounds 10 and 11, one will see a course of 
conduct that I believe does, in fact, go to your point--both of 
your points.
    Mr. Coble. Chairman Hyde, it can be done in 5 minutes. The 
red light has not yet illuminated, and I yield back the balance 
of my time.
    Mr. Hyde. I thank the gentleman.
    The distinguished gentleman from Los Angeles, Mr. Berman.
    Mr. Berman. Thank you, Mr. Chairman.
    I have read the referral, and I have listened to the 
testimony. With one possible exception, Judge Starr has 
answered the 595(c) issues that I had concerns about, and I 
would like to reserve the balance of my time at this point.
    Mr. Hyde. I am sorry?
    Mr. Berman. I would like to reserve the balance of my time.
    Mr. Hyde. You certainly may.
    Well, you say he can't, but I am going to let him do it. He 
is a good man. We will let him do it. But I have a short 
memory.
    The gentleman from Texas, Lamar Smith.
    Mr. Smith of Texas. Thank you, Mr. Chairman.
    Judge Starr, your friends know you to be a dedicated 
husband and father and an individual of impeccable integrity. 
On a professional level you have served with distinction as a 
U.S. circuit court judge, as Solicitor General of the United 
States, and as an advisor to the Senate Ethics Committee. Those 
qualities of personal integrity and professional respectability 
haven't changed, but the rules of engagement have.
    As a practicing attorney, you are accustomed to legal 
procedures that put you on an equal footing with the other 
side, but as Independent Counsel you were prohibited from 
commenting publicly on the details of the case, even as you 
were unfairly savaged on a daily basis. So I understand why you 
welcome the opportunity today to testify and to respond to our 
questions, as you have done so well.
    Judge Starr, during your investigation, the President 
claimed executive privilege to withhold information from you 
and prevent witnesses from testifying. While his claims were 
ultimately overruled by the courts, they did cause long-term 
delays and, in fact, as you said, obstructed your 
investigation.
    Executive privilege only allows the President to protect 
national security secrets. It cannot be used to interfere with 
a criminal investigation. Since President Clinton and his 
lawyers knew the law, they also knew that their claims of 
executive privilege were not legal.
    President Clinton's claims were thrown out by the courts, 
but not before they delayed your investigation by many months 
and perhaps over a year. Meanwhile, the White House complained 
that your investigation was taking too long.
    In short, the President took executive privilege, which is 
supposed to safeguard our country's national security, and 
misused it to obstruct the investigation. As you said in your 
opening statement, this is arguably an abuse of power.
    Judge Starr, my first question is this: In your referral, 
you said the President had a pattern of invoking and then 
withdrawing executive privilege to delay your investigation. 
Could you give us examples of this?
    Mr. Starr. Yes. The President would, in fact, through his 
attorneys, invoke executive privilege with respect to one or 
more witnesses, and when we would take the issue to litigation, 
I will be very specific, the President invoked--or the witness, 
I should say, but had to do it at the direction of the 
President, namely Nancy Hernreich. Nancy Hernreich does not 
carry on, by her own admission, a policy role at the White 
House. She does have an important function at the White House. 
She manages the Oval Office operations. It is a very important 
function, but that is not the kind of function that the 
principle of executive privilege was meant to protect.
    When we then, shall I say, called the lawyers on that, then 
it was withdrawn. That has happened to us before. It happened 
to us in the Arkansas phase of the litigation as well.
    Moreover, as we point out, the President told the grand 
jury on August 17 that he had no interest in this, and I am 
roughly paraphrasing here, having the matter litigated. So it 
was as if it was to preserve the Presidency and Presidential 
prerogative.
    The history, when one then analyzes the facts, does not 
support that conclusion.
    Mr. Smith of Texas. Thank you, Judge Starr.
    Another question: President Clinton told the American 
people several times that he supported the public release of 
the court documents he used to claim executive privilege. Is 
that accurate?
    Mr. Starr. The answer is, partially--I would want to review 
the facts because I want to be fair, but there was, in fact, 
not, shall I say, a ready willingness to allow, for example, 
public access to the executive privilege hearings and so forth. 
So I don't want to be condemnatory, but I would say that the 
President did not show a strong interest in having this 
released quickly.
    Mr. Smith of Texas. Judge Starr, a few minutes ago, counsel 
for the committee read an excerpt from a book written by Leon 
Jaworski. Let me read some other words that Leon Jaworski wrote 
in a book called The Right and the Power, which was about his 
experience as a special prosecutor during the Nixon impeachment 
proceedings.
    ``No government office, not even the highest office in the 
land, carries with it the right to ignore the law's command any 
more than the orders of a superior can be used by government 
officers to justify illegal behavior. . . . There was evidence 
that the President conspired with others to violate 18 United 
States Code, page 1623, perjury, which included the President's 
direct and personal efforts to encourage and facilitate the 
giving of misleading and false testimony by aides. . . . For 
the number one law enforcement officer of the country, it was, 
in my opinion, as demeaning an act as could be imagined.''
    Do you think that passage from Leon Jaworski's book has 
application to the case at hand?
    Mr. Starr. I do. My own view is Colonel Jaworski, were he 
here, would say, it is your judgment, but these matters are 
serious and clearly deserve to be analyzed in terms of the 
importance to our system of truthfulness and taking the oath of 
office seriously and the oath of a witness seriously. And, yes, 
I do think that Mr. Jaworski, were he alive today, would say, 
if lying to the American people is grounds for impeachment, as 
he thought it was, I believe, he would say lying under oath is 
as well. But, again, it is your judgment.
    Mr. Smith of Texas. Thank you, Judge Starr.
    Mr. Hyde. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Boucher.
    Mr. Boucher. Thank you very much, Mr. Chairman.
    Mr. Starr, while you were not a witness to the facts which 
are at the base of your investigation and also your September 
referral to the House, I note that for a number of years you 
served as the Solicitor General of the United States and in 
that capacity represented the United States Government in a 
variety of cases before the U.S. Supreme Court.
    I know a number of those cases, during that period, 
involved constitutional issues. So, in my opinion, that 
experience well qualifies you to answer questions on some of 
the broad matters of constitutional dimension that it will now 
be the responsibility of this committee to consider.
    Since your referral was received by the House in September, 
there has been a great deal of discussion about the importance 
of the rule of law and about the importance of the principle 
that no individual, including the President of the United 
States, should be above the law.
    It has also been suggested by some that the rule of law is 
only observed and that principle only honored if it is found 
that the President has committed a criminal offense while in 
office; that he must then be impeached and removed from office. 
But my readings on the Constitution suggest that impeachment 
was never intended to be a punishment for individual 
misconduct. Instead, it was intended to protect the country. It 
was designed to advance the public interest and to remove a 
Chief Executive whose conduct was so severe that it 
fundamentally impairs the functioning of his Presidential 
office.
    Punishment for the individual can occur in the normal 
course and through the normal functioning of the criminal 
justice process.
    So I have three questions for you. I will pose these, and 
then you will have the balance of the time in which to provide 
your answer.
    First, Mr. Starr, do you believe that the President would 
be vulnerable to the criminal law process for whatever crimes, 
if any, he may have committed while in office after he leaves 
the office? Would he be subject to the criminal law process 
after he leaves the office, assuming that the statute of 
limitations for that particular conduct has not expired at the 
time that an indictment is brought?
    And in answering that question, I would refer you to the 
provisions of Article 1, Section 3 of the Constitution, which 
states as follows: Judgment in cases of impeachment shall not 
extend further than to removal from office and disqualification 
to hold and enjoy any office of honor, trust or profit, under 
the United States. But the party convicted shall nevertheless 
be liable and subject to indictment, trial, judgment and 
punishment according to law.
    And I would assume from that language that there would be 
no doubt that the President would be subjected to the normal 
criminal justice process once he leaves office, and I would 
appreciate your concurrence or, if you choose, difference with 
that conclusion.
    Secondly, am I correct in assuming that the Federal 
criminal statute of limitations for the perjury and the other 
offenses that are stated in your September referral is 5 years, 
and, therefore, that the statute will not have expired by the 
time this President leaves office in the year 2001?
    And third, if you agree that the President could be 
subjected to the regular process of the criminal law upon his 
normal departure from office in 2001, just as any other person 
could be subjected to that process, would you not also agree 
that in subjecting the President to the criminal law process, 
the rule of law itself would be well served? And that would 
also well serve the principle that no person, including the 
President, is above the law?
    So there are three questions that I have for you.
    First, is a President subject to criminal prosecution when 
he leaves office for offenses committed while in the office? 
Secondly, would there be sufficient time within the statute of 
limitations for prosecution of the perjury and other offenses 
suggested in your referral of September after the President 
leaves office? And third, does not that process well serve as a 
complete assurance that the rule of law will be fully observed?
    Your answers, please.
    Mr. Starr. As to question one, I agree with your reading. I 
think the plain language suggests exactly that, that the 
Framers did intend for there to be separate proceedings. And I 
also agree with your comment, if I could just add this, that it 
was not intended to be a sanction in the sense of the criminal 
law serving the deterrent purposes and the like that the 
criminal law, at its best, is designed to serve.
    I also would answer yes to your second question, in terms 
of our--my reading, I should say, of the statute of 
limitations.
    In terms of rule of law values, I certainly think that 
there is strength in the proposition that no person should be 
above the law, but I would also say that there is a fundamental 
fairness question, in my mind, charged as I am as an 
independent counsel, with opining in any way that could be 
interpreted as sort of a call as to what the appropriate 
disposition would be of a particular matter.
    I know what my duty is. One may disagree with my reading of 
my duty, but it was to send you this.
    And then I think in terms of fundamental fairness to all 
the individuals involved, one simply has to assess that after 
this body has done its duty and reached its judgment. But it 
would be, I think, wrong to answer that it would be right to 
vindicate the rule of law for criminal charges to be returned. 
I think that before we--let me be very--may I, Mr. Chairman?
    Mr. Hyde. Please, go ahead.
    Mr. Starr. Before we ever seek an indictment, we engage not 
only, and I would hope any prosecutor's office would do that, 
in a very careful assessment of the facts, the elements of the 
offense and the like. We go through each of the elements. We 
look at the witnesses and the documentary evidence and the 
like, and then we have to satisfy, following Justice Department 
standards, whether it is more likely than not that a fair-
minded jury would convict based on these facts, with the 
witnesses--and we take the witnesses as we find them--beyond a 
reasonable doubt?
    Those are judgment calls that I hope that you will excuse 
me, in terms of fairness, in not speaking so directly to in 
terms of your third question.
    Mr. Hyde. The gentleman's time has expired.
    The gentleman from California, Mr. Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    Judge Starr, this has been a long day, and we still have a 
long way to go before it is over, so I really appreciate your 
effort to address all of the concerns of this committee and 
thank you for being here.
    Mr. Starr. Thank you.
    Mr. Gallegly. I would like to speak briefly to the 
credibility of some of the witnesses that you interviewed 
during the course of the last several months. Several key 
witnesses provided important testimony under oath before the 
grand jury. In numerous instances, their version of events 
conflicted with the testimony of the President.
    Given your observation of the witnesses and your evaluation 
of the corroborating evidence, please assess the truthfulness 
of the witnesses, specifically Monica Lewinsky, Betty Currie 
and Vernon Jordan.
    Mr. Starr. It is with some reluctance that I answer this 
because of fundamental fairness concerns, but let me say this: 
With respect to Ms. Lewinsky, I think she desperately does not 
want to hurt the President, and at the same time she has a very 
considerable memory, a recollection, a memory bank of relevant 
facts that is quite significant.
    With respect to Betty Currie, as the----
    Mr. Hyde. Would the witness withhold for a moment?
    Those questions are tough questions. I wonder if it isn't 
awkward for the witness to assess.
    Mr. Gallegly. Perhaps if Judge Starr would prefer that I 
visit another area.
    Just as we speak, I was handed this pass-out that 
apparently is being handed out in the hall. There is actually 
no attribution, but I assume it is from our colleagues and 
friends on the other side of the aisle, and it references 
contradictory evidence as it relates to----
    Mr. Barrett. Would the gentleman yield? I don't have a copy 
of that, so I don't know that we have received it.
    Mr. Gallegly. Okay. Well, I will see that we get a copy of 
it.
    Mr. Barrett. I have never seen that document.
    Mr. Gallegly. I will be happy to do that. I am not going to 
ask specific questions relative to this document other than 
that there is something being handed out contradicting that the 
President made an attempt to hide evidence of the gifts that he 
may have presented to Miss Lewinsky. I ask that this be made a 
part of the record of the hearing.
    But briefly, Judge Starr, if we could revisit the Jones 
deposition, the President was asked whether he had ever given 
any gifts to Ms. Lewinsky. Does the evidence gathered indicate 
that the President gave false or misleading testimony when he 
answered, ``I don't recall''? I think that would address this 
handout that we are receiving.
    Mr. Starr. Yes. Our assessment, and this was an assessment 
shared by the very experienced and career prosecutors, was that 
the events of December 28, 1997, must have been so clear and 
vivid in any reasonable person's recollection that the 
President would naturally have recalled that on January 17, 
1998, less than 1 month later, given the nature of the events, 
which are undisputed, of what happened during that Oval Office 
visit by Ms. Lewinsky to the President over the holiday period.
    So the recollection was so clear--or the events were so 
clear that to suggest that one doesn't recall a Rockettes' 
blanket and the like, the various gifts that were shared 
between the two, just, in our view, defied credulity, 
especially in light of the fact that we did have testimony, 
which is now before you, that the President is blessed with one 
of the most powerful memories that many people who have come in 
contact with a wide variety of people have ever seen. So we are 
told the President's memory is extremely strong.
    Mr. Gallegly. Judge Starr, would you say that it would be 
reasonable to say that it might be selective recall?
    Mr. Starr. Well, I don't like to get into characterization, 
but I would simply say--I would not resist such a 
characterization.
    Mr. Gallegly. Mr. Chairman, I appreciate the opportunity to 
participate and yield back the balance of my time. I would like 
this to be made a part of the record of the hearing.
    Mr. Hyde. There is some objection to that. Can we discuss 
that?
    Mr. Gallegly. That's fine.
    Mr. Hyde. Thank you.
    Mr. Gallegly. I would withdraw that request, Mr. Chairman.
    Mr. Hyde. Thank you. The gentleman's time has expired.
Prepared Statement of Elton Gallegly, a Representative in Congress From 
                        the State of California
    Mr. Chairman, today we have a chance to begin the important process 
of testing the allegations of possible impeachable offenses by 
President Clinton that were contained in Judge Kenneth Starr's referral 
to the House in September. Judge Starr comes before us this morning to 
give a full airing of the evidence he believes constitutes impeachable 
offenses by the President. All members of the Committee, the Republican 
and Democratic attorneys, and the White House attorneys have an 
opportunity to challenge and scrutinize Judge Starr's version of events 
and rationalization for bringing these matters before the House.
    Today is an important step in the process, but it's important to 
note that the process will not end today. I am concerned by those who 
seemingly have already made up their minds as to the President's guilt 
or innocence, or whether any acts he may have committed rise to the 
level of impeachable offenses. We sit as a de facto grand jury. Our job 
is to hear all of the evidence, analyze all of the evidence, and then, 
and only then, through due deliberations should we reach our 
conclusions. Similar to the duty of grand jurors, if, at the end of 
inquiry, the facts do not support the charges, the President should be 
fully exonerated. On the other hand, if the facts support the 
allegations, we have a duty to move forward. However, either conclusion 
must be grounded on the facts and on the truth.
    We must ensure that whatever we do will stand up to historical 
scrutiny, for what we do in the next few weeks is likely to be used as 
a model in the future. How we comport ourselves, and how we resolve the 
question of whether or not to impeach the President, will have 
implications for our political system and for our nation for many 
generations to come.
    The issues before us are very serious. In its October 8 vote, the 
House directed this Committee to fully explore the allegations that the 
President committed perjury, witness tampering, obstruction of justice 
and abuse of power. Any additional information we are gathering is 
directly related to those core issues. If we fail to consider that 
information, we fail in our duty to give the evidence a full, fair and 
impartial hearing.
    I look forward to the day when we can put this matter behind us. 
Until then, our Constitutional duty requires us to concentrate on the 
facts, not the political spin of the moment.
    Thank you.

    Mr. Hyde.The distinguished gentleman from New York, Mr. 
Nadler.
    Mr. Nadler. Thank you.
    Mr. Starr, we all agree on the paramount importance of the 
rule of law. Now, section 594 of title 28 of the U.S. Code 
requires an independent counsel to comply with the written or 
other established policies of the Department of Justice. 
Section 77.5 of title 28 of the Code of Federal Regulations 
states in relevant part, and I quote, ``an attorney for the 
government may not communicate or cause another to communicate 
with a represented party who the attorney for the government 
knows is represented by an attorney concerning the subject 
matter of the representation without the consent of the lawyer 
representing such party.''
    And I would point out that with respect to Monica Lewinsky, 
her attorney was Frank Carter, who is a criminal as well as a 
civil attorney, who ran the public defender's program in the 
District of Columbia's criminal courts for a number of years, 
and the subject matter of the representation, he was the one 
who developed the affidavit in the Paula Jones case, which was 
one of the subjects that you were going to question her about, 
which was the subject of the investigation.
    Now, these regulations are intended to ensure that a 
person's right to counsel is respected. Under this policy, your 
office never should have contacted Monica Lewinsky directly on 
January 16th without the consent of her attorney Frank Carter.
    I have two questions. My first question, but I will ask you 
to withhold until my second is asked, is why did your office 
violate the law and the Justice Department guidelines by 
contacting her directly on January 16th since your answer to 
Mr. Lowell's question is obviously not correct, given what I 
just said about Mr. Carter's representation in the Jones affair 
and his being a criminal attorney?
    Second, under the Justice Department guidelines for all 
Federal prosecutors, it is unethical to keep criminal suspects 
from calling their lawyers. The evidence suggests that Lewinsky 
was told by your office not to contact her counsel and that 
your office, in fact, suggested that her immunity deal was 
contingent upon her not contacting him.
    Here are some excerpts from Lewinsky's grand jury 
testimony:
    ``Lewinsky: I said I wasn't going to talk to them without 
my lawyer. They told me that if my lawyer was there, they 
wouldn't give me as much information, and I couldn't help 
myself as much. So that----
    ``A Juror: Did they ever tell you that you could not call 
Mr. Carter?
    ``The Witness: No. What they told me was that if I called 
Mr. Carter, I wouldn't necessarily still be offered an immunity 
agreement.
    ``A Juror: Sounds as though they were actively discouraging 
you from talking to the attorney--to an attorney.
    ``The Witness: Yes.
    ``A Juror: Is that a fair characterization?
    ``Yes.
    ``Independent Counsel: Well, from Frank Carter----
    ``The Witness: From Frank Carter, who was my only attorney 
at that point. I didn't have another attorney, and this was my 
attorney for this case so----
    ``A Juror: And this is the attorney who had helped you with 
the affidavit?
    ``The Witness: Yes.
    ``And the affidavit wasn't even filed yet.''
    The right to counsel was not a trivial issue here. Lewinsky 
points out in her grand jury testimony that when your office 
confronted her on January 16th, her affidavit had not yet been 
filed in court. It was not, in fact, filed until 4 days later 
on January 20th.
    Isn't it a fact, sir, that had you allowed Ms. Lewinsky to 
contact her attorney Frank Carter on January 16th, he could 
have withdrawn the affidavit or amended it prior to filing it 
in court and in that way substantially weakened any criminal 
case against her? And isn't it a fact that the effect and 
perhaps the real reason for your office telling Ms. Lewinsky 
not to contact her counsel on January 16th was to prevent his 
withdrawing or amending it--was to prevent his withdrawing or 
amending her affidavit and thereby substantially weakening the 
criminal case against her and subsequently against the 
President?
    In other words, isn't it likely that if you had not 
violated the law, one of the foundation stones of all the 
alleged crimes in the Monica Lewinsky affair would never have 
occurred?
    Mr. Starr. Congressman----
    Mr. Nadler. That's my second question.
    Mr. Starr. You did ask what I took to be several questions, 
but I have to disagree with the premise. I disagree strongly 
with the premise.
    Mr. Nadler. Which premise?
    Mr. Starr. We did not violate the law, and if I might 
explain why. And it has been litigated, if I could answer.
    Mr. Hyde. Yes.
    Mr. Starr. These very issues, which you have very clearly 
stated, have been argued in a court of law. The Chief Judge of 
this district has addressed these issues with respect to 
whether there was a denial of counsel.
    Good lawyers can come up with good arguments. I don't know 
a single lawyer----
    Mr. Nadler. Can you tell us why this was not a denial of 
counsel?
    Mr. Starr. She concluded, based upon all the facts, that 
her right to counsel was not violated.
    Mr. Nadler. Excuse me. Eleven hours later, after she was 
held for 11 hours after your people told her that if she 
contacted Mr. Carter, that the immunity deal would not be on 
the table, after your people told her incorrectly that he was 
not a criminal attorney, after it was made very clear that she 
had better not keep him, she then----
    Mr. Hyde. Mr. Nadler, you had a 5-minute question.
    Mr. Nadler. You don't think that was intimidation?
    Mr. Hyde. Would you let him answer?
    Mr. Starr. Congressman, I disagree, with all respect, with 
virtually every premise that informed----
    Mr. Nadler. Let me ask one one-sentence question.
    Mr. Hyde. No, just a moment. Now be fair. Let him answer 
your question, will you? You don't have time for another 
question.
    Mr. Nadler. That's why I wanted to ask it before he 
answered.
    Mr. Hyde. I know that's why you wanted to ask it.
    Mr. Starr. Well, if I could be very brief. You stated a 
number of things, and, with all respect, they were virtually 
all incorrect. And let me begin by saying, to the extent that 
your concerns are, and anyone should be concerned with respect 
to issue of denial of counsel, the issue has been litigated, as 
I was just about to say, and resolved adversely to Ms. 
Lewinsky.
    She had very active lawyers. They knew how to make 
arguments. That is where we argue these things, in court. She 
lost, for reasons that I tried to explain in terms of my 
colloquy with Mr. Lowell.
    But let me also say, because there has been a number--and 
you began, as I recall your comments, with DOJ policy. Now, Mr. 
Nadler, the assurance that I want to give you is that we 
consulted with the Justice Department about the procedure that 
we were going to employ prior to the time that we engaged in 
the procedure, and the procedure that we engaged in is what law 
enforcement does all the time.
    As I said this morning, it is not our job to reinvent the 
investigative wheel. We followed traditions and traditional 
practices, and that is what we did in this instance. The 
Justice Department knew what we were going to do, and they knew 
specifically about the Frank Carter issue.
    Mr. Nadler. They knew you were going to threaten her not to 
keep Frank Carter as her attorney?
    Mr. Starr. I again disagree respectfully with the premise. 
What we--I will be very brief. What we put before Ms. Lewinsky 
was a choice. She had committed felonies. She was involved in 
the middle of committing additional felonies, and we said to 
her, you will be of assistance to us, or you have the potential 
to be of assistance to us, if you become a complete cooperating 
witness. Now, you have the right, and as I said earlier today 
in a colloquy--we, in fact, placed a phone call to--we, in 
fact, placed a phone call to Mr. Carter's office that evening. 
We scrupulously and assiduously abided by right to counsel. But 
we also had reservations at the time about Mr. Carter. We don't 
have those reservations anymore. I want the record of this 
proceeding to be absolutely clear. Mr. Carter was an unwitting 
participant in drafting a perjurious affidavit.
    But, Congressman Nadler, we did not know that at the time. 
We knew he had been engaged by Mr. Jordan, and we were looking 
into and telling the Justice Department, here are the issues 
that we want to look into. We want to see, is there something 
here that may involve criminality at a very high level? And we 
informed the Justice Department. We abided by Justice 
Department practice and policy. The issue was litigated, and 
the Chief Judge of this district has adjudicated the matter and 
has determined that there was no deprivation of the right to 
counsel.
    To me, it seems to me, that matter should be viewed as 
closed in terms of the legality of the process.
    Mr. Hyde. The gentleman from Florida, Mr. Canady.
    Mr. Canady. Thank you, Mr. Chairman.
    Mr. Starr, I want to thank you for coming today. I 
appreciate your testimony. As I have listened to the questions 
this afternoon, and as I have observed the response to your 
referral and the response to your investigation over the course 
of this year, and actually prior to this year, I have been 
reminded of something a lawyer said about 2,000 years ago. 
Giving advice to other lawyers, he said, and I paraphrase, if 
you don't have an argument, abuse the other side.
    Lawyers today, I think, are all familiar with advice that 
if the facts are against you, argue the law. If the law is 
against you, argue the facts. And if the law and the facts are 
against you, just argue like the devil. And I think what we are 
seeing here----
    Mr. Hyde. Would the gentleman yield?
    Mr. Canady. I would be glad to.
    Mr. Hyde. I think the punch line on that is beat up on the 
lawyer.
    Mr. Canady. That's a variation on the same theme.
    And I think what we are seeing here is a desperate attempt 
to get away from the facts of the case against the President.
    Now, I understand that because I find that the facts are 
particularly compelling. I think your referral sets forth, in 
great detail, a pattern of calculated and sustained misconduct 
by the President of the United States, and I understand why the 
President's friends would instinctively react to defend him. 
But what is going on in attacking your investigation is not 
right. It is not consistent with respect for the rule of law, 
and I believe that the attacks that have been launched against 
you are without substance. They don't have merit. And even if 
we could accept, for the purpose of argument, that some of 
these attacks have some merit, it is obvious that they do not 
bear in any way on the reliability or the credibility of the 
facts of the case against the President.
    Now, if someone could show me evidence of misconduct that 
actually went to the credibility of the evidence, if they could 
show me that the evidence was not reliable because of 
misconduct, and they could prove the misconduct, I think that 
would be appropriate for us to consider.
    But we are not hearing that. What we are hearing here is 
just a grab bag, anything that occurs, to try to undermine your 
credibility. And, of course, this committee's process has been 
attacked in the same way.
    Any time we come to the point of talking about the facts of 
the case with respect to the conduct of William Jefferson 
Clinton, some people cry, ``Unfair.'' I think it is fair to 
talk about his conduct. I think that is what we need to focus 
on. I think that is our responsibility. And it would be a 
dereliction of our responsibility if we allowed ourselves to be 
diverted from that fundamental task that has been given to us 
by the House of Representatives in the resolution that they 
adopted.
    So that I make by way of a general comment about what is 
going on. And I am struck by the concern that has been 
expressed about due process, and I think we should all be 
concerned about due process. I think that is very important. 
But I must ask, where is the concern for due process in a 
person who lies under oath in a deposition? Where is the 
concern for due process in a person who withholds evidence and 
attempts to encourage others to withhold evidence? Where is the 
respect for due process in someone who coaches a potential 
witness? Where is the concern for due process in the whole 
course of conduct, which you have outlined in your referral, 
with respect to the President of the United States?
    I see a stunning lack of respect for the due process of law 
in the conduct of the President of the United States, as it is 
set forth in your referral, and for which we seem to have no 
rebuttal, no significant rebuttal, offered.
    I want to know if there is going to be a rebuttal offered 
to these facts. So far we are not hearing that, and so far in 
the questions that are being directed to you, the focus is not 
on the facts of the case. Occasionally they will touch on that. 
But the focus is on other things diverted to--designed to 
divert attention from the facts of this case.
    Now, I felt compelled to say that because this is a process 
that needs to be on track, and all of us need to focus on the 
critical questions here: Did the President of the United States 
lie under oath in his deposition? Did the President of the 
United States lie to the grand jury? Did the President of the 
United States obstruct justice? And did the President of the 
United States engage in an abuse of his office in the way that 
you have outlined?
    Now, there is not time for you to respond to that and that 
is not really meant as a question to you. It is meant as an 
observation of where this proceeding should be going and on the 
attempts that are being made to divert this proceeding from its 
proper goal.
    Mr. Hyde. I thank the gentleman. His time is up.
    The gentleman from Virginia, Mr. Scott.
    Mr. Scott. Mr. Chairman, I have to first note that the 
witness today--Mr. Chairman, I first have to note that the 
witness today is the prosecutor in the case. Most prosecutors 
begin their presentations in court with an admonition that what 
they say and what defense counsel says is not evidence. 
Evidence will be heard from witnesses.
    As Mr. Conyers has said in his opening remarks, many of us 
have questions involving prosecutorial misconduct, illegal 
leaks, conflicts of interest, questions which are relevant to 
our oversight responsibility of the Justice Department and 
independent counsel, but irrelevant to the question of shall 
the President be impeached, which is the issue at today's 
hearing. So I would hope we don't have to discuss the 
unfairness and absurdity of basing an impeachment of the 
President of the United States on a presentation from the 
prosecutor and a review of written statements, many of which 
were not under oath, and none of which were subject to cross-
examination.
    So the fairness of these proceedings continues to be an 
issue. Fairness was an issue when we didn't give the President 
an advanced copy of the report so his response could appear on 
the Internet along with the allegations. Fairness was an issue 
when we voted to begin the inquiry of impeachment before we had 
had the hearing on what constitutes an impeachable offense. 
Fairness was an issue when we were denied the opportunity to 
take depositions so we could properly prepare for today's 
hearings. And you can see how difficult it is to get the--use 
the 5 minutes effectively when you don't know what the answers 
are. Fairness is an issue when the scope of the inquiry was 
expanded one night before the evidentiary hearing. So fairness 
has always been an issue.
    Mr. Chairman, I do want to thank you and Mr. Canady for 
finally convening a hearing on the history and background of 
impeachment so at least now we have a framework within which to 
review the allegations before us. That hearing was necessary 
because we heard from 400 historians and received a letter from 
400 constitutional authorities, and another letter from 200 
constitutional law professors, which warned us that not one of 
Mr. Starr's allegations constituted an impeachable offense.
    We heard discussion today about the rule of law. At the 
hearing, we heard that the Constitution restricts our legal 
authority to impeach the President to those offenses which 
constitute treason, bribery, or other high crimes and 
misdemeanors. At the hearing, we dealt with issues such as the 
historic difference between impeachment of judges and 
impeachment of Presidents. We addressed the question of when 
perjury can constitute an impeachable offense and when it 
should not constitute an impeachable offense, and we worked to 
evaluate a standard for impeachment and specifically considered 
whether the commission of a crime which would violate the 
presidential oath to faithfully execute the laws, whether that 
could be an appropriate measure.
    At our hearing, the entire first panel of witnesses, 
including the majority of which were invited by the 
Republicans, agreed that the phrase ``treason, bribery or other 
high Crimes and Misdemeanors'' does not cover all felonies, and 
that is that the Constitution does not give Congress the 
authority to remove a sitting President based on the standard 
that he committed a crime and therefore failed to faithfully 
execute the laws.
    Remember, as my colleague from Virginia said, that the 
President will be subject to criminal prosecution after he 
leaves office. But they all agreed that we do not have the 
legal authority to remove the President based on Mr. Starr's 
suggestion that he failed to faithfully execute the laws.
    So the rule of law restrains our impeachment authority to 
consideration of treason, bribery or other high crimes and 
misdemeanors, and therefore at the hearing, both Democrats and 
even many Republican witnesses, raised serious questions about 
our constitutional authority to use any or all of the charges 
as a basis for presidential impeachment.
    Mr. Van Alstyne, a Republican witness, described the 
allegations as low crimes and misdemeanors and further said the 
impeachment pursuit of Mr. Clinton may well not be particularly 
worthwhile. When I asked the entire second panel about the 
Starr referral, count 11A, executive privilege, the clear 
consensus on the panel was that the executive privilege charge 
was not an impeachable offense. For example, Mr. Cooper, a 
Republican witness, said that I do not think that invoking 
executive privilege even frivolously, and I believe it was 
frivolous in this circumstance, but I do not believe that 
constitutes an impeachable offense.
    So, some have said that none were impeachable offenses, but 
there is a clear consensus that at least some of the 
allegations are too flimsy to pursue. This sentiment was 
reflected in majority counsel's presentation last month which 
left out some of the allegations, the chairman's suggestion we 
should focus on two or three allegations, and several 
Republican members of this committee----
    Mr. Hyde. The gentleman's time has expired.
    Mr. Scott. May I have 30 seconds. Several members of this 
committee would have raised allegations that are actually worth 
pursuing. It is absurd to participate in fact finding when some 
allegations may well be dropped even if they are determined to 
be true. That is why I joined Ranking Minority Member Conyers 
in a letter requesting that we call an end to the confusion and 
determine which, if any, of the allegations before us even, if 
true, might constitute an impeachable offense. Unfortunately, 
that request was denied and now we have the situation in which 
we have an open-ended, never ending committee in search of high 
crimes and participating in the spectacle of having the 
prosecutor serve as our witness.
    Mr. Hyde. Are you awaiting an answer? Was that rhetorical?
    Mr. Scott. It was rhetorical.
    Mr. Hyde. Do you have anything you need to respond to that?
    Mr. Starr. No, I understood Mr. Scott's dissertation.
    Mr. Hyde. It was an interesting lecture.
    The gentleman from South Carolina, Mr. Inglis. I wonder if 
you would be kind enough to yield to me very briefly.
    Mr. Inglis. Certainly, Mr. Chairman.
    Mr. Hyde. I just want to sort of respond to what my friend 
from Virginia said. I don't characterize your office as an 
independent prosecutor. You are not a prosecutor, you are 
Independent Counsel. As a matter of fact, you have just given 
the President a pass on Filegate, on Travelgate, on all sorts 
of things, Whitewater. So as far as I am concerned, that is 
what an independent counsel should do, find where people are 
guilty, find where they are not guilty, and announce it. Let 
the chips fall where they may.
    Insofar as judges, we impeach judges also for perjury. We 
impeached Judge Claiborne. I participated in that, all the way 
through to the Senate floor. We impeached him for perjury. We 
impeached Judge Nixon for perjury. When you say judges are 
different, they have a different standard, I direct you to the 
Constitution that says the President, Vice President and all 
civil officers, that is judges, shall be removed from office on 
impeachment for and conviction of treason, bribery, or other 
high crimes and misdemeanors. I can tell you in the Judge Nixon 
case and in the Judge Claiborne case, it was perjury. Now, if 
perjury could get a Federal judge off the bench and the country 
can survive with a corrupt judge here and there, how much more 
one worries about the one man who is head of the executive 
department, the whole executive department, Commander-in-Chief, 
and all of that?
    So I just think that is a response that I would like to 
make to the gentleman. I thank the gentleman for yielding to 
me.
    Mr. Scott. I would ask the gentleman's time be restored 
after the 30 seconds.
    Mr. Hyde. You want 30 seconds? If the gentleman doesn't 
mind----
    Mr. Scott. I would ask that the full time be restored.
    Mr. Watt. It never started anyway.
    Mr. Scott. I think one of the questions we dealt with was 
the circumstances underlying the behavior. For example, some of 
the allegations, some of the people that were convicted or 
impeached for perjury, the perjury was lying about bribes and 
other serious and grievous abuses of their official powers. So 
I think I would like to continue the discussion, which I can't 
do in 30 seconds, but I think that was the reason we had the 
hearing, to flesh out all of those underlying situations.
    Mr. Hyde. All right. I thank Mr. Inglis. You get 5 minutes. 
Thank you.
    Mr. Inglis. Thank you, Mr. Chairman. Judge Starr, I have 
two things to thank you for, and then two things to ask you 
about. First of all, the two thank you's.
    As I have read and actually heard some of the things that 
various political figures have said about you, it makes me 
wonder why anyone would be willing to accept an appointment 
like you have accepted. Really it shows I think the tremendous 
service that you do to the country, and I certainly appreciate 
the fact that you have been willing to come out of a very 
successful law practice, to spend time doing this.
    Like you pointed out in your testimony, you would like to 
get back to private life. For people like you willing to serve 
our country in this way, it really is wonderful service, and we 
all should thank you. I hope that over the years, somehow all 
of that is forgotten, all of these things that have been said 
about you.
    I understand people wanting to defend the President, but 
they need not attack the accuser. They need not attack the 
prosecutor, the special Independent Counsel that is appointed 
here. As Mr. Canady was saying, that undermines the process, it 
seems to me.
    So first of all, thank you for your work.
    Mr. Starr. Thank you.
    Mr. Inglis. Second of all, thank you for your very 
passionate defense of the rule of law in the last three 
paragraphs of your testimony. I think it is just a very 
eloquent statement that I hope is studied for years to come in 
law schools and other schools in our country, because truly it 
is a great and passionate statement on the importance of the 
rule of law.
    That gives rise to my questions. We had a hearing here 
recently, and there is some discussion about this point, about 
what constitutes an impeachable offense in the context of 
whether there is a violation of the rule of law. It seems to me 
the rule of law has at least two components. One is an 
adherence to due process and the second is the adherence to the 
equal application of the law, which is something you expounded 
on in the last three paragraphs. I know there are some people 
that would say perjury is not an impeachable offense. We heard 
a rather erudite discussion of that a week or so ago, and a 
very sophisticated view that perjury is not an impeachable 
offense.
    Let me ask you, I think we know these things about the 
President. We know who the President is. The question is who 
are we? We know that the President has admitted to lying. He 
admitted to lying under oath.
    If he were here, I think he would say he has not 
technically committed the crime of perjury because it was not a 
material fact.
    Mr. Canady I believe it was elicited some response, no, it 
was Mr. Gallegly, elicited some responses to you about the 
deposition testimony.
    Let me ask you about the grand jury testimony. In your 
mind, were those material facts that the President was 
testifying to in the grand jury testimony, and are the elements 
of perjury met in the referral on the point of the testimony in 
the grand jury situation?
    Mr. Starr. Well, Congressman, again, I have been somewhat 
reluctant to go all the way to say in light of the purpose of 
the referral, to say that all elements of a crime have been 
satisfied. But let me say that in my own judgment, although 
this is a jury question, materiality the Supreme Court has held 
is a jury question, but I certainly think a reasonable person 
could very reasonably conclude that the elements were in fact 
present in the grand jury testimony by virtue of, as we have 
tried to outline in the referral, the number of statements that 
we believe were knowingly untrue, I think that is a reasonable 
conclusion to reach.
    Again, our mission or our responsibility in submitting this 
referral was to say that there is substantial and credible 
information that an impeachable offense may have been 
committed, and that, of course, is the state of the record as 
it comes to you. But, yes, I do think that a reasonable juror 
could come to that determination.
    Mr. Inglis. Let me ask, as to the rule of law and the issue 
of whether perjury is an impeachable offense, I gather from 
your testimony, and you would restate here, that in your mind 
perjury is an impeachable offense?
    Mr. Starr. Yes. I think with all due respect to scholarly 
commentary and the like, that perjury is not only an 
impeachable offense as a matter of theory and doctrine, and as 
a matter of common law--I think it is demonstrable at common 
law that it was viewed as a high crime or misdemeanor--but also 
as the chairman has indicated, the very practice. So the common 
law of the Congress of the United States suggests that it is in 
fact an impeachable offense, because judges have been removed.
    The offense is the despoiling and the attack on the 
integrity of the judicial system. The response may be on the 
other side, well, we want to find out what the perjury is about 
and we will take some perjuries more seriously than others, and 
that is a view, I will say as a former judge, any judge worth 
his or her judicial salt would say, ``Not in my court.'' 
Witnesses tell the truth. It doesn't matter what the underlying 
subject matter is. Once you are in court under oath, you tell 
the truth. That is the way judges look at the world, and 
perhaps that is why no judge being subjected to impeachment for 
perjury has dared suggest don't worry about it, it is not an 
impeachable offense.
    It is. It has been viewed that way by this very body.
    Mr. Hyde. The gentleman from North Carolina, Mr. Watt.
    Mr. Nadler. Mr. Chairman.
    Mr. Hyde. The gentleman from New York.
    Mr. Nadler. I don't know if this is a point of order or a 
point of information, but I will ask the indulgence of the 
Chair. Mr. Chairman, a few moments ago in response to my 
questions Mr. Starr referred to the court's rulings in In re 
Grand Jury Proceedings and In re Sealed Case, which he 
characterized as the judge okaying the propriety of what they 
had done in the subject matter we discussed.
    These cases are in the possession of the committee under 
seal, and I would like to be able to talk publicly about them, 
and I would like to be able to know publicly whether Mr. Starr 
correctly or incorrectly characterized this. So I would like to 
know, since Mr. Starr has now referred to them and 
characterized them, whether they are no longer under seal, and 
if they are still under seal I would like to move that they no 
longer be under seal.
    Mr. Hyde. I understand they are still under seal.
    Mr. Nadler. I would ask that the committee change that 
status.
    Mr. Buyer. Object.
    Mr. Hyde. Objection has been heard.
    Mr. Nadler. I didn't ask for unanimous consent. I made a 
motion, I think.
    Mr. Hyde. Well, I think it takes unanimous consent to take 
something out----
    Mr. Canady. I make a point of order that the motion is not 
in order.
    Mr. Hyde. I understand. If the gentleman has something to 
say, I want to hear it. We will talk about it later. It is 
really not your turn. You are not recognized for purposes of 
removing things from under seal.
    Mr. Frank. Parliamentary inquiry. We are going to have a 
session later to vote on subpoenas. Would it be in order to 
make that then?
    Mr. Hyde. Yes, it would.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Hyde. The gentleman from North Carolina will not hold 
against me the fact that Mr. Nadler intervened. I yield to the 
gentleman from North Carolina.
    Mr. Watt. I wanted to make a parliamentary inquiry before I 
start the 5 minutes. I have some questions to ask Mr. Starr 
about information that has been given to the committee and has 
not been released to the public.
    If I ask questions about that, would I be in violation of 
the rules?
    Mr. Hyde. The Parliamentarian tells me you can ask the 
question, but you can't refer to the material.
    Mr. Watt. Okay.
    Mr. Hyde. I don't know how you do that.
    Mr. Watt. I will tread very lightly.
    Mr. Frank. I think it means you don't say you are referring 
to the material. You just ask the question.
    Mr. Watt. I will tread very lightly, and if the chairman 
thinks I am outside the bounds, I am sure somebody will call it 
to my attention.
    Mr. Hyde. The gentleman is recognized for 5 minutes.
    Mr. Watt. Thank you, Mr. Chairman. I would like to thank 
Mr. Starr for coming over. I enjoyed your speech very, very 
much.
    Mr. Starr. Thank you.
    Mr. Watt. Let me just be clear on one thing though about 
this. On pages 55 to 57 of your testimony, you give us 
information that clearly is within your personal knowledge. 
That is your biographical information. I was following you 
through the rest of this, and I think it has been implicitly 
said, but not explicitly said, is it correct that you don't 
have personal knowledge of anything that is related--I mean, 
you have got some opinions, you have reviewed the stuff. I 
respect those. But as far as personal knowledge and your 
knowledge of this information as a person, I take it you would 
say you don't have any personal knowledge?
    Mr. Starr. In the main, you are absolutely right, 
Congressman Watt.
    Mr. Watt. Thank you.
    Mr. Starr. Could I--I am sorry.
    Mr. Watt. Let me go back then briefly to a point Mr. 
Gallegly raised, and I don't want to get into the credibility, 
you assessing the credibility of witnesses, because as the 
chairman pointed out when Mr. Gallegly tried to get you into 
that, that is not a place that you need to be, that is really a 
place for us, I take it, to assess the credibility of witnesses 
who know the facts.
    Would you agree that the credibility of the President and 
Betty Currie and Monica Lewinsky would be important for us to 
evaluate in this committee in any respect?
    Mr. Starr. Yes, Congressman Watt, it does seem to me----
    Mr. Watt. Then if you agree with that, there are a couple 
of things that you failed to include in your referral that seem 
to me to bear very directly on the credibility of Ms. Lewinsky, 
and these are the issues that I was concerned about because 
they are not public yet.
    Mr. Starr. I see.
    Mr. Watt. One is the testimony of a woman who works as a 
vice president apparently at Revlon, a woman by the name of 
Nancy Risdon, who said to your interviewers during her 
statement that Ms. Lewinsky had told her that she had lunch 
with Hillary Clinton the previous week and that Mrs. Clinton 
had offered her help in finding an apartment in New York.
    Are you familiar with that?
    Mr. Starr. Yes.
    Mr. Watt. You didn't send that information over with your 
referral. I take it that would have a major bearing on the 
credibility of Ms. Lewinsky's testimony, at least it would for 
me if she made that kind of representation, which I think is 
just completely off the reservation, so to speak.
    Mr. Starr. May I respond?
    Mr. Watt. I am going to give you a chance to respond. I 
want to ask the other one. The second occasion which you failed 
to give us in your referral was the interview of a woman named 
Kathryn Proffitt, who testified that Ms. Lewinsky had 
exaggerated to her the depth of her relationship, Ms. 
Lewinsky's relationship, with a young man at the Department of 
Defense. You are familiar with that, Mr. Starr?
    Mr. Starr. I am not familiar with that specific item----
    Mr. Watt. You take my word that it is in the information 
you sent over.
    Mr. Starr. I am not quarreling with that.
    Mr. Watt. That seems to me also would go directly to the 
credibility of Ms. Lewinsky as a witness. Yet neither one of 
those pieces of information was included with your referral. I 
am wondering how you went about picking and choosing the 
things. I mean, the chairman has referred to you as an 
independent counsel, not an independent prosecutor. There is 
some question about that. But what I am concerned about is why 
didn't we get the information that we need to make the kind of 
credibility judgments as members of this committee, a full 
evaluation of credibility from your office when you made this 
referral?
    Mr. Starr. Congressman Watt, I believe that you do have the 
information and we might assess the information, the relevancy 
of it, differently. Let me be very specific.
    Ms. Lewinsky made it quite clear that she knew how to lie. 
She was encouraging others to lie. She also says, and this is 
in the referral----
    Mr. Watt. So now you are impeaching your own witness now. I 
take it what you are doing, you have called her a liar on a 
couple of occasions, but a substantial portion of your case, 
isn't it, Mr. Starr, is based on the credibility of Ms. 
Lewinsky. She told you, this is the second time you have done 
that today, I would say, she told you under oath at the grand 
jury that nobody asked her to lie and nobody offered her a job 
in exchange for anything. You say that's a lie, you think she 
was lying then, so how are you picking and choosing what you 
believe from Ms. Lewinsky? And isn't that our job as members of 
this committee?
    Mr. Starr. I can answer with one word: Corroboration. She 
is vastly corroborated with her phenomenal memory. When she 
would say I was with the President of the United States, she 
could identify a phone call coming in with a Member of Congress 
with a nickname, she could recall a phone call coming in from 
someone from Florida who was a sugar grower, and tie it to a 
specific date. That gives you corroboration that the event that 
she is giving----
    Mr. Watt. What kind of corroboration would you have with a 
witness who says, ``nobody asked me to lie?''
    Mr. Hyde. The gentleman's time has expired. The gentleman 
from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. Judge Starr, thank 
you for appearing before the committee today. I think it is 
very helpful to the committee and the American people to have 
the opportunity to hear you respond to the questions from the 
other side regarding the conduct of this investigation. I agree 
wholeheartedly with the gentleman from Florida that they have 
not focused on the substance before this committee, which is 
whether or not the President of the United States committed 
offenses, including perjury, obstruction of justice, abuse of 
power and tampering with witnesses that may be impeachable 
offenses if proven to be true.
    I do think it is important to let people know how this 
investigation was conducted. Nonetheless, I think that it is 
important that we return back to those issues, and I would, Mr. 
Chairman, ask that an excerpt from the Congressional Record in 
1986 as a part of Judge Claiborne's impeachment trial in the 
Senate be made part of the record.
    Mr. Hyde. Without objection, so ordered.
    [The information follows:]
                   claims of governmental misconduct
    Claiborne has urged the Senate to permit him to call several dozen 
witnesses ranging from prosecutors and investigators to the trail judge 
in his criminal proceeding. He contends that their testimony will 
reveal a vendatta which led to his conviction, and an unwillingness of 
several dozen Federal judges to expose its illegality out of fear that 
public opinion would questionwhether the vendetta issue was a mere 
subterfuge erected to protect a fellow jurist.
    Even assuming all of Claiborne's allegations of governmental 
misconduct to be tyrue, the same conclusions as to his conduct obtain. 
No individual claim or combination of claims can or should detract from 
the conclusion that he willfully submitted false income tax rewturns in 
1979 and 1980. The Senate need go no further than it already has in 
assessing the merits of these claims. Although Claiborne views thes 
theories as the overarching issue in this proceeding, he is mistaken.
    His contention seems to be that but for a vast conspiratorial 
vendetta, his innocence would have been proven or the charges would 
never have been brought. Claiborne contends that full consideration of 
his claims on this score leads to several conclusions which will 
exonerate him. specifically, he suggests that Federal prosecutors 
pursue him so relentlessly and unscrupulously that they bargained for 
perjured testimony from a known criminal and spearheaded an illegal 
burglary of his home in search of inculpatory evidence. He claims that 
exculpatory evidence was withheld and that witnesses were either 
intimidated or unfairly coached. If accurate, these claims warrant 
serious scrutiny and I have cosponsored legislation to establish a 
special subcommittee to investigate the issue further. If the claims 
have merit, steps should be taken to rectify the wrong. Remedial 
measures, however, will in no way abrogate the finding that Claiborne 
engaged in impeachable conduct.
    He further asserts that he could not have had the requisite willful 
intent, given the predisposition of Federal prosecutors; that claim 
rests on the notion that no one whose every move is under intense 
scrutiny by Federal prosecutors would willfully violate the law or 
knowingly submit such faulty tax returns. This assertion is untenable, 
given the clear findings regarding Claiborne's conduct.
    Claiborne alleges that sympathy for prosecutors and fear of public 
criticism led several dozen Federal judges to gloss over his defenses. 
He points to two dissenting appellate opinions in his case suggesting 
that some of the members of the reviewing panel may have rendered their 
decision without fully examining the . . .

    Mr. Goodlatte. Thank you, Mr. Chairman. As many may recall, 
in 1986 Judge Claiborne, a Federal judge, was under 
investigation. This committee voted out articles of impeachment 
against him which were adopted by the full House of 
Representatives and he stood trial in the Senate. During that 
trial, he raised as a defense some very serious charges of 
prosecutorial misconduct, far, far more serious than anything 
that has been raised by folks on the other side of the aisle 
today, including that the prosecutor spearheaded an illegal 
burglary in his home, that exculpatory evidence was withheld, 
that witnesses were unfairly coached, and other serious 
charges.
    During the trial of that matter, one Senator reviewing 
these serious matters, in fact stating that if the claims have 
merit, steps should be taken to rectify the wrong; also noted 
that remedial measures would in no way abrogate the finding 
that Claiborne had ngaged in impeachable conduct.
    The Senator who made that statement is now the Vice 
President of the United States, Senator Al Gore, and I think it 
is important to note that in a sense of bipartisanship and in a 
sense of seeking justice and in a sense of upholding the rule 
of law, that that same type of demeanor and that same type of 
search for the truth should lead us today.
    Judge Starr, do you know what Judge Claiborne was charged 
with, what his impeachable conduct was?
    Mr. Starr. Tax offenses is my recollection.
    Mr. Goodlatte. Actually my understanding is it was perjury 
and lying under oath.
    Mr. Hyde. Would the gentleman yield? It was signing a false 
income tax return.
    Mr. Goodlatte. Lying under oath.
    Mr. Hyde. Yes.
    Mr. Starr. I stand corrected.
    Mr. Goodlatte. I thank the chairman. I would like to look 
at the obstruction of justice issue if I may, Mr. Starr. You 
have indicated that the evidence that you have gathered shows 
that the President tried to aid in obtaining a job for Ms. 
Lewinsky in order to prevent her from telling the truth in a 
judicial proceeding arising from a civil rights claim of sexual 
harassment in which she was the named defendant. There are 
those who have said, including some here today, on the other 
side of the aisle, that the President's efforts could be 
interpreted as merely helping an ex-intimate or ex-friend 
without concern for her testimony. I don't think you have been 
given the full opportunity to indicate why it is that you come 
to the first conclusion, rather than the second. I would like 
to give you that opportunity now.
    Mr. Starr. Yes, thank you. The effort to provide a job for 
her did, as has been noted, begin early on, an effort to assist 
her in a possible United Nations job. But Ms. Lewinsky made it 
very clear that she was not interested in that U.N. job and she 
in fact turned it down even though Ambassador Richardson 
offered it to her.
    She then made it quite clear that she wanted a job in the 
private sector. The early efforts with respect to that project 
did not go well. They did not go quickly in November of 1997, 
after she had made her decision, not to seek or not to take, I 
should say, the job that was offered to her by Ambassador 
Richardson.
    After that point, the evidence suggests that there was a 
significant uptick in activity, specifically by Mr. Jordan, to 
find her a job weighing in, including with Mr. Perelman (the 
chairman of the board, which was quite unorthodox and unusual, 
according to Mr. Perelman's testimony, which is before you), 
one of the most wealthy and powerful people in the country.
    Mr. Jordan reached out to Mr. Perelman only after it became 
clear as of December 5, 1997, that Ms. Lewinsky was on the 
witness list. Moreover, Mr. Jordan kept the President informed 
by his, Mr. Jordan's testimony, which could not be clearer that 
he was keeping the President apprised, not keeping Betty Currie 
apprised. His mission was to keep the President of the United 
States apprised of activity in two arenas: One, the affidavit, 
which was perjurious; and, secondly, the job. And when he 
secured the job for her at Revlon after her first interview at 
Revlon had not gone well, Mr. Jordan then interceded, all on 
behalf of the President's effort to find a place for Ms. 
Lewinsky. That second round of interviews resulted in, in fact, 
a job, and when it did, or a job offer. When that job offer was 
then extended, Mr. Jordan, according to his own testimony, 
indicated he called the President of the United States and 
said, ``Mission accomplished.''
    Now, to us that suggests, in light of the December 5 
witness list, her being subpoenaed and the like and the ongoing 
conversations with Ms. Lewinsky, that there is reason to 
believe that there is a relationship, a connection, between the 
job and what she was doing and what it was anticipated she 
would do in the litigation itself.
    Mr. Hyde. The gentlewoman from California, Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, there is no doubt that this is 
one of the most embarrassing chapters in American history. 
Certainly the President's sexual misconduct was embarrassing to 
him and his family, and it was embarrassing for all of us to be 
bombarded with what seemed to be limitless details about it. 
But also embarrassing has been the reaction of Congress to the 
referral made by Mr. Starr in September.
    What we should have done was this: Asked how these 
allegations, if true, could destroy our American constitutional 
system of government, something Mr. Starr did not address in 
the over 450 pages in his report. But it is the central--indeed 
it is the only question--that is before Congress, because 
impeachment is a constitutional remedy for constitutional 
threats.
    What have we had instead? We have seen the Independent 
Counsel investigating the sex life of the President. We have 
seen titillating details leaked to the press, leaks that were 
prejudicial and in stark contrast to the evidence 
confidentially submitted by the special prosecutor, Mr. 
Jaworski, 24 years ago. I would note that Mr. Starr is indeed 
prosecutor. Ms. McDougal was not ``counseled'' into a jail 
cell.
    After we tossed the Independent Counsel's X-rated material 
all over the airwaves and onto the Internet, this committee did 
hardly anything. The House acted to refer the report to this 
committee September 11th. Today, November 19th, over 2 months 
later, we are having our first and so far only noticed full 
committee hearing where we are hearing our only witness, the 
prosecutor. This would never be allowed in a court proceeding 
and there are ethical questions in my mind about the propriety 
in these proceedings as well.
    We have the chief prosecutor testifying as a fact witness. 
More than that, we have the prosecutor vouching for one witness 
over another. Ignored is testimony by witnesses that favors the 
President. Ms. Lewinsky's statement that she was never asked to 
lie, that there was no bargain for a job; Ms. Currie's 
exculpatory statements. We have cafeteria advocacy. Only those 
statements that fit getting the President, not anything that is 
exculpatory.
    We want to exalt justice and the rule of law, but there has 
not been a mention of the intimidation or abuse of witnesses to 
get statements damaging to the President. I agreed to listen 
this morning to Ms. Sarah Hawkins in my office, and she came in 
and she was obviously one of those uncomfortable people who 
have been addressed by the special prosecutor's office and she 
was repeatedly threatened with prosecution in an effort to get 
her to cooperate. Threats that were reinstated after she had 
spoken criticism to the press, after being told twice by the 
prosecutors that there wasn't evidence to prosecute her. She 
lost her business; her career is ruined; her family is hurt. 
She never had her day in court, and I wonder about the rule of 
law for her.
    Much of America believes this investigation is the living 
embodiment of what Justice Scalia warned against in his dissent 
in the case of Morrison v. Olson, in which the majority upheld 
the independent counsel statute. Justice Scalia warned that the 
independent counsel could be a foe of the President with a 
staff full of refugees from a defeated administration, the 
worst kinds of danger of abuse of prosecuting power.
    There is no question that the President did not tell the 
American people the truth about Ms. Lewinsky. He admitted that. 
You allege in the report that he lied under oath. But I note 
that you, Mr. Starr, are under oath yourself this morning, and 
on page 36 of your testimony you swear that you go to court, 
and do not appear on the talk show circuit. This very morning 
you appeared on Good Morning, America. Isn't that a false 
statement under oath? And shouldn't you be prosecuted for 
perjury because of this false statement? Given your answer to 
Mr. Inglis, I would think so. However, I would not urge that. I 
think that is preposterous. That cannot be what was meant by 
the Founding Fathers regarding impeachment.
    I wasn't going to ask any questions, but because you are 
here and you might have knowledge about this one thing, I do 
want to pose three quick questions.
    First, when did you first hear any information to the 
effect that a tape recording existed of a woman, any woman, who 
claimed to have had a sexual contact with President Clinton?
    Two, in or about November 1997, did you discuss with any 
person the possibility that a tape recording might exist on 
which a woman claimed to have had had sexual contact with 
President Clinton, yes or no.
    Finally, I know we all know that there is an investigation 
into leaks from your office to the press. Reporters promise 
confidentiality to sources and they are very serious about 
that. I am asking you today, will you release the press from 
their vow of confidentiality to you and your deputies so this 
can be fully investigated.
    Mr. Starr. Well, you have asked a number of questions. Let 
me go back to----
    Ms. Lofgren. Three.
    Mr. Starr. Yes. The second question I frankly did not 
understand. I honestly just did--I was trying to take notes.
    Ms. Lofgren. I will read it quickly. In or about November 
1997, did you discuss with any person the possibility that a 
tape recording might exist on which a woman claimed to have had 
sexual contact with President Clinton?
    Mr. Starr. I am not recalling that. The specificity of your 
question suggests that there may be information, and I am happy 
to respond to information if that is----
    Ms. Lofgren. Is there any possibility that the answer is 
yes?
    Mr. Starr. I have no recollection of it, but I am happy to 
search my recollection. This is the first time I think one has 
asked me such a question, and you are asking----
    Ms. Lofgren. It was possible it was before January then?
    Mr. Starr. Yes, but you said very specifically November of 
1997, and I will search----
    Mr. Sensenbrenner [presiding]. Does the gentlewoman have 
information that the Independent Counsel's Office had this 
information?
    Ms. Lofgren. I have asked these questions, and I think the 
gentleman is under oath and he can answer the question.
    Mr. Sensenbrenner. Does the gentlewoman have information to 
this effect?
    Ms. Lofgren. I am not a witness.
    Mr. Sensenbrenner. The witness will respond.
    Mr. Starr. I do not have a recollection of that, but I am 
happy to now search my recollection and to go back in light of 
the specificity of your question and to provide the committee 
with information.
    Ms. Lofgren. So you would agree to answer that under 
penalty of perjury if we followed up with a written request 
after you have had time to reflect upon it?
    Mr. Starr. Well, I am happy to consider any question, and 
if it is viewed as germane to--what is before you, if this is 
an effort to try to search my recollection and to see if there 
is something that perhaps I am not able to recall--excuse me, 
may I answer this question?
    Mr. Sensenbrenner. The gentlewoman from California will 
allow Judge Starr to answer the question without interruption.
    Ms. Lofgren. Certainly.
    Mr. Starr. I beg your pardon. Now, it does seem to me that 
if there is an issue that you view as germane, I am happy to 
consider it, and I will evaluate it. I have given you my best 
answer now.
    Now, with respect to----
    Ms. Lofgren. I believe it is germane, and I would like an 
answer to the question.
    Mr. Sensenbrenner. The gentlewoman from California asked 
Judge Starr three questions. Could she please give Judge Starr 
the courtesy of allowing him to answer the questions?
    Ms. Lofgren. I would love to get an answer.
    Mr. Starr. I have concluded what I need to say. Thank you.
    Mr. Sensenbrenner. The witness has concluded. The 
gentlewoman's time has expired.
    Mr. Frank. There was only one answer. There were three 
questions.
    Mr. Sensenbrenner. The witness will respond.
    Mr. Starr. What was the first question? I am sorry.
    Ms. Lofgren. The first question was when did you first hear 
any information to the effect that a tape recording existed of 
a woman, any woman, who claimed to have had a sexual contact 
with President Clinton?
    Mr. Starr. I am unable to answer that question without--I 
will have to--you are saying ``any information'' relating to 
``any.'' I would have to search my recollection. I am prepared 
today for questions that go to this referral, so I will have to 
search my recollection.
    Ms. Lofgren. We will look for an affidavit on that too. I 
think you did discuss the opening and expansion----
    Mr. Rogan. Point of order. The gentlewoman's time long ago 
expired. Those of us waiting to cross-examine the witness would 
appreciate the gentlewoman following the time schedule.
    Mr. Sensenbrenner. Everybody, regular order. Everybody will 
suspend. Does the witness have any furtherance to the questions 
that have been posed by the gentlewoman from California?
    Mr. Starr. Not at this time.
    Mr. Sensenbrenner. The gentlewoman's time has expired. The 
gentleman from Indiana, Mr. Buyer.
    Mr. Buyer. Thank you, Mr. Chairman. I have several thoughts 
I would like to convey, and then I have some specific questions 
for Judge Starr.
    Some of us here have also been prosecutors and some have 
served as defense lawyers. We recollect on our own experiences, 
but none of us has ever come close, not even close, to the 
attacks that have come upon you and your office and your 
character and the character of those in your office, by not 
only some of my own colleagues that are here, some associates 
of the President, some of the President's own criminal defense 
lawyers. It is unfortunate, but I suppose it is part of the 
process in America. But you have kept your head up high and you 
have maintained your intellect here today and I appreciate 
that.
    Mr. Starr. Thank you.
    Mr. Buyer. There are two things for which I also feel very 
strong about as I represent my constituents of Indiana, because 
they also take great pride in our heritage. One, that the 
Supreme Court has held consistently that no one is above the 
law. Secondly, that the courthouse door is open to everyone in 
our society. The courthouse in America is not meant just for 
the wealthy or the powerful; the courthouse door is also open 
to the powerless, to the needy, and to the poor.
    So when I look at this case that you have now referred to 
Congress, I say that the courts were never meant to be 
manipulated by the powerful over the powerless. And what do we 
have here in front of us?
    We had the most powerful individual on the face of the 
Earth of the greatest country this world has ever seen finds 
himself as a defendant in a civil rights case. I am amazed to 
hear some people who claim that they are true advocates of 
civil rights, now somehow claim that it is okay to lie in a 
civil rights case.
    So what do we have? The President took an oath to 
faithfully execute the laws of the land and has a 
constitutional duty to do just that. It is alleged that the 
President as a defendant in a sexual harassment civil rights 
case in Federal court, committed perjury in his deposition 
before a Federal judge.
    One of my questions to you is did Judge Susan Webber Wright 
ever discuss with your office a referral for perjury that was 
before her in person? Also the allegations of suborning of 
perjury of others, knowing that these government agents would 
be witnesses before your grand jury, and repeat these lies. 
This lying under oath before the grand jury is very serious. 
The tampering with witnesses who also gave testimony before 
your grand jury, the obstruction of justice by entering into a 
conspiracy with others to hide evidence, does that not corrupt 
the legal process? Doesn't that deny the powerless the 
opportunity to a fair trial in our system?
    I ask that as a question of you. I will keep on going.
    Mr. Starr. The courts take----
    Mr. Buyer. Can you hold that thought. We also have then the 
allegations of the abuse of power by the most powerful person 
in our country, by using government resources, his own staff, 
the Cabinet, and make these presidential privileges for his own 
personal gain because he was a defendant in a civil rights 
case, in a civil case, where he could lose money. So he chose 
deception and deceit because he wanted to protect his own 
wallet and image from further embarrassment.
    We had testimony by legal scholars who said impeachment of 
judges is also the same as the impeachment of Presidents.
    Here is another question I have for you. If truth and 
fairness are foundations of our justice system, if fairness is 
the bedrock of justice, and truth is the water that runs 
through it, and we want to make sure that never is the water in 
our advocacy of our legal system, polluted by those who seek to 
deceive, and if in fact the standard we have to go on, which is 
to defend the Constitution, if treason, bribery and other high 
crimes and misdemeanors in fact is our standard, is not bribery 
of such a felony of wickedness and deceit and willful 
corruption to manipulate others is contrary to the legitimacy 
of our judicial system, isn't it also polluting then to our 
bedrock of fairness and truth, and they are of similar 
character of bribery and therefore would warrant the serious 
capacity of this impeachment proceeding?
    Those are my three questions.
    Mr. Sensenbrenner. The witness will answer.
    Mr. Starr. I believe, Congressman, that perjury does take 
the same dimension in our law as bribery, because it is a 
corruption of the court system.
    In response to your second question, courts do indeed, as I 
was starting to say, take the truth very seriously, and they 
want the truth. That is the object of the process, so that the 
truth will come out, not because it is not the party with the 
most clever lawyer, but that the facts will come out. Our 
adversary system is based upon the truthful statement of 
testimony, under oath, and the compliance with court orders and 
the like.
    You asked, the first question, and I would prefer with 
respect to Judge Wright, to answer any question only in 
executive session.
    Mr. Buyer. Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the chairman very much, and I 
thank Mr. Starr for being here, and I acknowledge, Mr. Starr, 
and that this has been a long day.
    Mr. Starr. Thank you.
    Ms. Jackson Lee. I notice that you went to Duke University, 
and just having gone to law school just up the road, at the 
University of Virginia. But I have to disagree with some of my 
colleagues. Firstly, I want to restate the fact that we are not 
here to undermine you. I also would like to repeat the 
chairman's notice given that it appears that the President has 
been cleared, as to Whitewater, Filegate and Travelgate. I 
think that this is an important announcement today.
    But I do want to refer you to the words of Congressman 
Butler of Massachusetts, who indicated in defining the 
impeachable offenses of Andrew Johnson that high crimes and 
misdemeanors would be subversive of some fundamental principles 
of government and this may violate the Constitution. I am going 
to make some comments and then I have a brief question, if you 
would indulge me.
    I notice that you have brought to our attention your 
referral of September 11, 1998. In reflecting on what we are 
doing, I have read over and over our late colleague's comments 
in 1974, Barbara Jordan, who said my faith in the Constitution 
is whole, it is complete, and it is total.
    I understand her now even better. She was a child of a 
segregated South, and I understand what she meant. Felix 
Frankfurter said one who belongs to the most vilified and 
persecuted minority in history is not likely to be insensitive 
to the freedoms guaranteed by the Constitution.
    I ask you, Mr. Starr, do you believe that the President, as 
any other citizen, has the privilege of the Fifth Amendment?
    Mr. Starr. Yes.
    Ms. Jackson Lee. I just want a yes, yes. That would go for 
Monica Lewinsky and Sarah Hawkins, who happened to have 
appeared as a witness or was questioned, is that accurate?
    Mr. Starr. Yes.
    Ms. Jackson Lee. Monica Lewinsky's mother, Mrs. Lewis?
    Mr. Starr. Yes.
    Ms. Jackson Lee. And, of course, Susan McDougal?
    Mr. Starr. Yes.
    Ms. Jackson Lee. They would be subject to the rights and 
privileges of the Fifth Amendment?
    Mr. Starr. Yes.
    Ms. Jackson Lee. On page 30 of your testimony when you 
asked for expanded jurisdiction, on pages 30 and 31, I notice 
in that recounting there was not one time that you mentioned 
Paula Jones. Yet as I understand it, you had a lawyer at a law 
firm that you were associated with. Were you associated with 
the firm of Kirkland & Ellis?
    Mr. Starr. Yes.
    Ms. Jackson Lee. Was Mr. Richard Porter associated with the 
firm of Kirkland & Ellis?
    Mr. Starr. Yes.
    Ms. Jackson Lee. I note that Mr. Richard Porter was asked 
to serve as counsel to Ms. Jones. Now, he did not serve as 
that, as I understand. Further, I understand that Kirkland & 
Ellis prepared pro bono legal documents for what we call the 
Women's Legal Forum, is that correct?
    Mr. Starr. With respect to the latter question, yes. Very 
briefly----
    Ms. Jackson Lee. Very briefly, my time is short.
    Mr. Starr. That is the area I do have personal information 
and knowledge on, with respect to the Independent Women's 
Forum.
    Ms. Jackson Lee. I would simply say just in the answers 
that you have given today, and with the understanding of due 
process, I would say to you, Mr. Starr, that it seems quite 
shocking to me that in the course of seeking expanded 
jurisdiction, that you did not include those contacts, although 
you noted on the record today, although I thought it was so 
widely known that it would not need mentioning. Put yourself in 
a courtroom setting where the prosecutor did not divulge 
particularly devastating conflict of interest matters to a 
defendant, and I think due process will come into play.
    Let me quickly move to my next question, keeping in mind 
the shortness of my time. Would you tell me, Mr. Starr, are you 
a member of the Virginia bar?
    Mr. Starr. Yes, I am an inactive member of the Virginia 
bar.
    Ms. Jackson Lee. But you are a member of the Virginia bar. 
I am likewise an inactive member of that bar. Have you ever 
been or are you a member of the American Bar Association?
    Mr. Starr. I am.
    Ms. Jackson Lee. With that in mind, let me draw your 
attention to the Virginia code of ethics, and might I read it 
very quickly. If after undertaking employment in contemplated 
or pending litigation a lawyer learns or it is obvious that he 
or a lawyer in his firm is to be called as a witness on behalf 
of his client, he shall withdraw from the conduct of a trial 
and his firm. The ABA code of professional responsibility says 
in considering ethics, the roles of an advocate and of a 
witness are inconsistent. The function of an advocate is to 
advance or argue the cause of another, while that of a witness 
is to state facts objectively.
    A judge for example.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    Ms. Jackson Lee. I ask the chairman to indulge me 30 
seconds.
    Mr. Sensenbrenner. The Chair will time the gentlewoman.
    Ms. Jackson Lee. Let me paint the picture for you. I have 
served as a judge. I have been somewhat of a prosecutor on a 
select committee on assassinations. You have done a similar 
thing. How can you move from the prosecutor's chair to the 
judge's chair to the witness chair in any court in America, Mr. 
Starr? I cannot believe that any American would perceive any 
justice, as the Constitution so says, in having a prosecutor 
who acts as a judge and who acts as a witness.
    With that, Mr. Chairman, I have no further questions.
    Mr. Sensenbrenner. The gentlewoman's time has expired. The 
witness will answer the question.
    Mr. Starr. Both my office and myself, personally have, in 
fact, complied with applicable ethical codes, and I would be 
happy to focus on any specific issue under the Virginia code.
    Ms. Jackson Lee. Thank you, Mr. Witness.
    [The prepared statement of Ms. Jackson Lee follows:]
Prepared Statement of Sheila Jackson Lee, a Representative in Congress 
                        from the State of Texas
    I would like to thank Chairman Hyde and Ranking Member Conyers for 
giving me this opportunity to speak on this important subject.
    Yesterday, as I walked through the Capitol Building, I begin to 
think about this hearing, the November 3rd, election, my responsibility 
to uphold the Constitution, and my obligation to my constituents in 
Texas. As I turned to leave the building, I saw these words inscribed 
on the Capitol's ceiling in black letters, ``Here sir, the people 
govern.'' These words were used by Alexander Hamilton to refer to the 
House of Representatives at the New York federal Constitutional 
ratification convention. This is the people's house and they have 
spoken, their voices were heard loud and clear; it's time to put this 
divisive issue of impeachment in our past, it's time to prepare for 
America's future, it's time to move forward and develop solutions to 
America's problems, it's time to focus on healthcare, and it's time to 
direct our resources at our children's future.
    Unfortunately, there is a small group of individuals who are 
hellbent on continuing this divisive course of action under the guise 
of ``upholding their Constitutional duty.''
    Imagine a justice system where a prosecutor can present charges to 
a grand jury, obtain an indictment and then proceed to trial. During 
the trial, the prosecutor recognizes that he has a weak case and in 
desperation he calls himself as a witness, to testify about the 
defendant's prior bad acts and his rationale for charging the 
defendant. While testifying, he admits that individually and 
collectively, the charges are insufficient to meet the standard of 
crime, but he believes the defendant is guilty of a pattern of abuse to 
obstruct justice. Certainly, if this incident occurred and we lived in 
this state, we would be outraged at the waste of financial resources. 
In fact, we would call for this prosecutor to end this charade, 
immediately, because his conduct and abusive tactics would emasculate 
the system he is attempting to protect.
    Additionally, there is the risk that this testimony will not be 
objective; the prestige of his office will artificially enhance the 
testimony's credibility and the likelihood of confusion on the part of 
the jury. United States v. Birdman, 602 F.2d 547 (3rd Cir. 1979). 
Furthermore, the Virginia Code of Professional Responsibility Rule DR 
5-102(A), which states, ``If, after undertaking employment in 
contemplated or pending litigation, a lawyer learns or it is obvious 
that he or a lawyer in his firm ought to be called as a witness on 
behalf of his client, he shall withdraw from the conduct of the trial.
    More importantly, this prosecutor's conduct may violate the 
American Bar Association's Model Rules of Professional Responsibility. 
Rule 3.7 states, ``A lawyer shall not act as an advocate at a trial in 
which the lawyer is likely to be a necessary witness.'' The comment 
accompanying this Rule states,

          The roles of an advocate and of a witness are inconsistent; 
        the function of an advocate is to advance or argue the cause of 
        another, while that of a witness is to state facts objectively.

A prosecutor is not just an advocate, he is a ``minister of justice.'' 
Nowhere in the history of this country's system of jurisprudence have 
we allowed a prosecutor to take the witness stand to ``vouch for the 
credibility'' of the evidence presented during trial; to do so would be 
a miscarriage of justice.
    Simply put, an officer of the court is charged with preserving the 
public confidence in the process of justice. Ethical Canon 9 states, 
``A lawyer should avoid even the appearance of professional 
impropriety.'' The commentary accompanying this rule states:

          Integrity is the very breath of justice. Confidence in our 
        law, our courts, and in the administration of justice is our 
        primary concern. No practice must be permitted to prevail which 
        invites towards the administration of justice a doubt or 
        distrust of its integrity. Erwin M. Jennings Co. v. DiGenova, 
        141 A. 866 (1928).

    Likewise, allowing Independent Counsel Starr to come before the 
Judiciary Committee to testify for 2 hours ``about a pattern of abuse 
to obstruct justice'' will eviscerate the purpose of the Independent 
Counsel Act. This Act was designed to provide a mechanism to prevent 
inherent conflicts of interest which could arise where the Executive 
branch of government must supervise or conduct an investigation of an 
individual associated with its office.
    Richard Porter, a member of Mr. Starr's law firm, Kirkland & Ellis, 
was acting in an advisory position for the Paula Jones legal team on 
her sexual harassment suit against President Clinton. Moreover, Mr. 
Starr contemplated writing a brief in support of the Jones suit prior 
to becoming Independent Counsel. More importantly, this information was 
not disclosed to Attorney General Reno at the time of his appointment 
to this neutral non-partisan post. Mr. Starr had an obligation to fully 
disclose his biases, prejudices and any relationships between his firm, 
Kirkland & Ellis, and the Paula Jones legal advisors.
The Bible teaches,

          For where your treasure is, there will your heart be also. . 
        . . No man can serve two masters; for either he will hate the 
        one, and love the other; or else he will hold to the one, and 
        despise the other.

Mr. Starr, you cannot serve the interest of the tobacco companies while 
maintaining your ethical obligation under the Independent Counsel 
Statute. Under the statute you are permitted to continue your private 
law practice; however, working for the interest of tobacco calls into 
question your motivation for authoring this salacious referral and your 
continuous assault on the Presidency.
    The Office of the Independent Counsel was created to promote public 
confidence and integrity in the judicial system. Section 595(c) 
authorizes the Office of the Independent Counsel to submit a referral 
to Congress to guarantee that its findings would not be thwarted by 
internal sources within that individual's branch of government. This 
concept which is consistent with the separation of powers doctrine was 
instituted to prevent unfettered authority in a single branch of 
government. Accordingly, each branch is vested with the power to check 
and balance the others.
    Article I, section 2 of the Constitution grants the House of 
Representatives the sole Power of Impeachment, while Article I, section 
3, authorizes the Senate to try all Impeachments. Hence, the 
Legislative branch is charged with checking the Executive branch.
    Impeachable offenses are political, as they relate to injuries done 
immediately to society itself. The Framers never intended impeachment 
or the threat of impeachment to serve as a device for denouncing the 
President for private misbehavior or for transforming the United States 
into a parliamentary form of government in which Congress can vote ``no 
confidence'' in an executive whose behavior it dislikes. The President 
is elected by the people of the United States and it is not the 
prerogative nor duty of the House of Representatives to undo that 
election because of partisan politics.
    It is not the fate of a particular individual that is at stake, it 
is not about this existing President, but the institution of the 
Presidency and the Constitutional process that must rise above the 
arena of partisan politics. The purpose of Impeachment is to curb 
breaches and abuses of the public trust. The Framers realized that 
impeachment is final and non-appealable.
    Professor Charles Black stated in Impeachment: A Handbook, that 
impeachment should be invoked only against ``serious assaults on the 
integrity of the processes of government and such crimes as would so 
stain a President as to make his continuance in office dangerous to the 
public order.''
    During the impeachment trial of President Andrew Johnson, in 1867, 
Congressman Butler of Massachusetts, announced the following definition 
of impeachable high crimes and misdemeanors,

          . . . to be one in its nature or consequences subversive of 
        some fundamental or essential principle of government or highly 
        prejudicial to the public interest, and this may consist of a 
        violation of the Constitution.

    Certainly, everyone agrees that the President's conduct was wrong. 
In fact, it was morally reprehensible, but it does not rise to an 
impeachable level. Impeachment is reserved for serious public 
wrongdoing of official acts, not private matters. In 1792, Alexander 
Hamilton was investigated by Congress for alleged misconduct. It was 
discovered that Hamilton was making financial payments to conceal an 
adulterous affair. After Congress heard Hamilton's testimony, it was 
concluded that the matter was private, and not impeachable. Similarly, 
President Clinton's conduct, although improper, should not be regarded 
as an impeachable offense because it was not the product of an illegal 
use of power.
    Twenty-five years ago, the House Committee on the Judiciary faced a 
similar responsibility; the impeachment of President Richard Nixon. The 
Constitution imposes a grave and serious responsibility on Congress to 
protect its fabric and integrity. It would be a dereliction of duty if 
we embarked upon a path that would alter the constitutional threshold 
for impeachable offenses.
    Today, the Members of the House of Representatives consult no 
common Oracle or Starr, but the Constitution. More importantly, we 
respect the rights of individual citizens. It's time to move forward, 
it's time to put foolishness aside, it's time for America's business.

    Mr. Hyde. The gentleman from Tennessee, Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman, and thank you, Judge 
Starr. Quickly, let me refer to a column by David Broder in 
reference to this ``400 professors of history'' letter. Mr. 
Broder says: when academics decide to become activists, they 
sometimes bring badly needed wisdom and perspective to a raging 
political debate. But when they plunge in heedlessly, they risk 
looking ridiculous. He says the House is following the process 
set forth in the Constitution. This tenured trashing of 
Congress for meeting its responsibility says more about the 
state of the history profession than about the law of the land.
    I am glad that we can at times today return back to the 
facts in this case, and, Judge Starr, I want to commend you for 
setting forth a clear, documented, compelling case against the 
President. You have provided a road map for us to see how and 
when the President chose deception rather than truth at many 
important crossroads in our judicial system's search for the 
truth.
    I must say that I have seen this before, but you mention it 
again in your statement. I think one of the most chilling 
episodes I think I can imagine in American history occurred 
with Dick Morris, and again I will read from your statement and 
account of Mr. Morris's testimony. But this is one of the 
choices you referred to on page 21 that the President makes.
    After the public disclosure of the President's relationship 
with Ms. Lewinsky and the ongoing criminal investigation, the 
President faced a decision. Would he admit the relationship 
publicly, correct his testimony in the Jones case, and ask for 
the indulgence of the American people, or would he continue to 
deny the truth?
    On this question, the President consulted others. According 
to Dick Morris, the President and he talked on January 21st. 
Mr. Morris suggested that the President publicly confess. The 
President replied, but what about the legal thing, you know, 
the legal thing, you know, Starr and perjury and all. Mr. 
Morris suggested they take a poll. Mr. Morris suggested they 
take a poll. The President agreed. Mr. Morris called in with 
the results. He stated that the American people are willing to 
forgive adultery, but not perjury or obstruction of justice. 
And our President of the United States, the chief law 
enforcement officer of this country, the one who hires the 
Attorney General and 93 U.S. Attorneys who enforce all the 
Federal laws against you and me, this President said, well, we 
will just have to win then.
    That is chilling. That is absolutely scary that we have got 
that mentality in the position of being the chief law 
enforcement officer. As a former prosecutor, and I know you 
have tremendous credentials, I know it frightens me to have 
these circumstances existing.
    I have two questions for you. I don't know what the answer 
is to that, and I think that is one of the reasons we are here 
today.
    Two questions: I am not going to have the opportunity to 
perhaps cross-examine the President, I don't know if he is 
going to take our invitation, and I don't know if he is going 
to respond, and I don't think it is appropriate that I question 
his lawyers here today, but one thing that I have a question 
on, on this assertion of privilege they make the claim that 
this is private conduct that underlies this, but yet they go 
out and file documents asserting an executive privilege claim, 
which you and I both know is rooted in the Constitution, and it 
is meant to protect presidential communications regarding 
official decision making, in other words, public conduct.
    Is this not talking out of both sides of their mouth? How 
can they assert a privilege for public conduct while saying it 
is really private conduct?
    Let me get the second question so you can answer them both, 
as I will let you have the balance of the time. I have alluded 
to the fact that I feel your credentials are impeccable, and 
based upon your experience and the experience of the many 
prosecutors you have referred to today, it is tremendous, and 
based upon all this, I question you, do you have an opinion, 
not saying whether or not these are impeachable offenses, but 
as to the quality of this case in terms of criminal law 
violations? Is it a circumstantial case, but is it a weak case, 
or a strong case, or something in between?
    Mr. Starr. With respect to your first question on assertion 
of privilege, I do agree with you that it is odd, I think it is 
irregular, to both contend that this is entirely a matter 
involving personal conduct, and at the same time invoke 
executive privilege to protect fact witnesses who are being 
asked facts with respect to that matter. So I think there is an 
incoherence and inconsistency with the position.
    With respect to the quality of the case, my own judgment, 
Congressman Bryant, is that the evidence is strong.
    Mr. Sensenbrenner. The gentleman's time has expired. I 
think it now is proper to take a 10-minute recess. I would like 
to ask the audience to remain in the room until Judge Starr 
exits the room and ask the members of the committee either to 
stay in the room or not go too far away. The committee stands 
in recess until 6:10.
    [Recess.]
Prepared Statement of Ed Bryant, a Representative in Congress From the 
                           State of Tennessee
    As we embark on this important and solemn inquiry today, we must 
remind ourselves of what has brought-us to this point in our nation's 
history. We are here to look into allegations that our President has 
committed impeachable offenses by lying to a federal grand jury and 
obstructed a investigation into his alleged wrongdoing.
    There is no one in this room who would deny that our country is 
based on trust. The trust we have in our leaders, in our judicial 
system and our Constitution is what has made our country prosperous. 
Other countries have relied on our system of government to protect them 
from those who would break the laws for personal gain.
    When allegations of wrongdoing by the President are made, they need 
to be investigated for credible evidence. To ensure that process, we 
rely on the Attorney General to make the decision for an independent 
counsel and a three-judge panel to appoint the right person to begin an 
independent investigation.
    And what has been brought before this committee is a referral 
charging that the chief law enforcement officer of our country, who 
took a solemn oath to abide by the laws and by our Constitution, has 
committed perjury, obstruction of justice and abuse his power as 
President. These are not minor offenses, but rather go to the trust 
Americans have in our system of government and the rule of law.
    These allegations are not minor offenses. They are a breakdown in 
the trust we have in our leaders, our judicial system and the office of 
the President. We are now faced with the very real fact that our chief 
law enforcement officer can break the very laws he has sworn to protect 
for his own personal gain. As a result, we are sending a message to 
those who believe in our system of government that we will turn away 
from our legal responsibilities to benefit those who break our laws.
    Today, I anticipate that my colleagues on the other side of the 
aisle will use an old defense attorney tactic by shifting the focus of 
attention away from the President and on to the Independent Counsel. 
These questions will be brutal and accusatory, but in the end we must 
not lose sight of what our duty is in this hearing--to get to the truth 
of what the allegations are against the President.
    We also must remember that this hearing is to establish the facts 
in the case. We have established a fairness that gives the White House 
attorneys an opportunity to cross examine the Independent Counsel along 
with the Democrats' lead attorney. My hope is that all of the questions 
surrounding the referral can be answered and we can quickly come to a 
resolution on this matter.
    As I said before, we must remember that this is a hearing into 
allegations against the President and we must stay focused on that if 
there is to be any final conclusion to this matter. What is hanging in 
the balance is our system of government and the entire trust our nation 
has on our laws.
    I thank the chairman.

    Mr. Hyde. The committee will come to order. The committee 
will come to order, please.
    Now, ladies and gentlemen, I would just like to announce 
sort of a schedule; things are kind of ad hoc up here. We are 
going to finish with the members' questioning under the 5-
minute rule. Then when that happens, we are going to take a 
half-hour dinner break. It is unfortunate we just took a break, 
but maybe it was fortunate for some of you, but anyway, we 
will, at the end of the completion of the members' questioning, 
take a half-hour break, and then we will come back, and Mr. 
Kendall, I believe, will question Mr. Starr. We will start out 
with a half-hour, and then if Mr. Kendall needs more time, as I 
suspect, we will be liberal in allowing that so that he can ask 
what he wants to ask, or needs to ask, and then Mr. Schippers 
will question, if he desires to, and then we will let Mr. Starr 
go home with three medals and a Purple Heart. And then we go to 
a full committee meeting, but you needn't stay for that, 
although God knows you are welcome.
    So the next questioner is the distinguished gentlewoman 
from California, Ms. Waters.
    Ms. Waters. Thank you very much. Mr. Chairman, let me just 
start, before I get into the areas that I would like to pay 
attention to, I would like to help out my friend from 
California, Congresswoman Zoe Lofgren. She asked you, would you 
be willing to release the press from their confidentiality 
pledge to you and your office so that we can get the leaks 
investigated that are in question.
    Mr. Starr. I believe that it would, Congresswoman Waters, 
be unwise and inappropriate for me at this time in this 
setting, and I am delighted to pursue this in executive 
session.
    Ms. Waters. That's okay. Your answer today is you would be 
unwilling to do that?
    Mr. Starr. I believe it would be unwise at this time with 
litigation under seal still proceeding, but I am very 
respectful of the orderliness of that proceeding, and it seems 
to me that that----
    Ms. Waters. Okay. I just don't want to take up a lot of 
time with it. I just wondered if you would do it or not. The 
answer is no.
    Mr. Starr. Excuse me.
    Ms. Waters. Yes, I understand.
    Mr. Starr. At this time, because of the pendency of 
litigation----
    Ms. Waters. Let me just go on, because I have only 5 
minutes. I have been one of your harshest critics, and you know 
it. I have been appalled by what I consider the gross 
unfairness of the procedure, of the way in which you have 
conducted yourself. I have been very critical of my colleagues 
on the other side of the aisle because of the way that they 
received these referrals and then dumped them into the public 
domain without any opportunity for the administration or White 
House to review the information, so I make no bones about it. I 
think that some of the tactics that have been used are 
unacceptable. I think that the moment it was understood that 
you were going to remain, for example, on the payroll of your 
law firm where you would be representing the tobacco companies, 
for example, while the President of the United States had made 
them a number one target in his administration for dealing with 
trying to discontinue the smoking by youth in our society and 
dealing with all of the health risks, and I think that it is 
just totally unacceptable that as late as 1995, you were 
representing the tobacco interests in your law firm at the same 
time that you were working for us.
    How long did you work for your law firm representing the 
tobacco interests, and how much did it overlap with this 
investigation starting with Whitewater?
    Mr. Starr. I had two representations. One was an appeal on 
a class action, which was in the time frame, Congresswoman 
Waters, of 1995 and 1996, and prior to that time, I believe it 
was 1994, I would have to reconstruct this, I took on a 
specific representation, again an appeal, which, as you may 
know, is what I typically do. That was in the 1994 time frame.
    The issues that I took on were in one instance 
constitutional issues, and the second was a Federal civil 
procedure issue.
    Ms. Waters. Did you ever feel you were in conflict of 
interest by working for your law firm at the same time that you 
were working as Independent Counsel?
    Mr. Starr. Congresswoman Waters, I did not, and I had 
ethics advice, both at the law firm and in the Independent 
Counsel's Office, and our effort has always been in our office 
to make sure that we are addressing these issues carefully.
    Ms. Waters. You do normally seek the advice so that you 
will not get into ethical problems; is that right?
    Mr. Starr. Yes, we do.
    Ms. Waters. Let me just ask you, you did take the oath of 
office here today, and you mentioned in your testimony that the 
President took the oath of office to tell the truth. However, 
when you were asked about how you conducted yourself when you 
sought to expand your jurisdiction in this matter, you 
literally did not disclose information that may have caused the 
Attorney General to rule differently, and what is interesting 
about it, the way that you presented it today, when you were 
asked very specific questions, you said, I don't recall, I 
don't quite remember, I am not so sure, I will have to search 
my memory, those kinds of answers. Yet, when the President of 
the United States responded in that way, you outright called 
him a liar.
    Now, am I to assume that your inability to recollect your 
involvement--for example, how many hours did you spend on the 
brief that you did for the Independent Women's Forum?
    Mr. Starr. Congresswoman Waters, the answer to the question 
is I did no brief for the Independent Women's Forum, and I also 
respectfully, but firmly, disagree with your characterization. 
I tried to put before this committee the events with respect to 
January of 1998, and why it was that certain things that I had 
been involved with, such as the Independent Women's Forum----
    Ms. Waters. What did you do for them?
    Mr. Starr. I beg your pardon?
    Ms. Waters. What did you do for the Independent Women's 
Forum.
    Mr. Starr. I considered, as I did for Bob Fiske, doing an 
amicus brief solely limited to the proposition that the 
President of the United States is just like the rest of us in 
that as a private citizen he must, in fact, respond in court to 
lawsuits against him.
    Ms. Waters. You didn't consider that that was possible 
information that you should have disclosed to the Attorney 
General when you were seeking to expand your jurisdiction?
    Mr. Starr. May I respond briefly?
    Mr. Hyde. Please.
    Mr. Starr. As I indicated, that information with respect to 
the Independent Women's Forum was, I believed then and I 
continue to believe, publicly reported. What I have indicated 
today to the committee is the Bob Fiske inquiry had not been in 
the public domain, but I also did not think that was an issue 
of relevancy to the Attorney General, even though frankly, 
perhaps, I should have thought of that inasmuch as that was the 
Department of Justice through Bob Fiske, the Independent 
Counsel appointed by the Department of Justice.
    Mr. Hyde. The gentlewoman's time has expired.
    Ms. Waters. Yes, I do believe--Mr. Chairman, I would ask 
you for 30 seconds, just one issue I have to get in here about 
abuse of power.
    There is a whole list of items that I would like to discuss 
with you. Much has been said about what happened with Monica 
Lewinsky over in the shopping center at the hotel, but there 
are some others that I am very concerned about. Are you 
familiar with Ms. Steele and what she is alleging about what 
you are doing? Did your investigators ask for her tax records, 
her bank records, her credit report, her telephone records, and 
question the adoption of a child to try and find out whether it 
was legal? Did they treat her that way?
    Mr. Starr. Congresswoman Waters, the answer to the first 
question is--if I have the questions right, you asked a series 
of questions. What was your first question? I think the answer 
was yes.
    Ms. Waters. Tell me about Ms. Steele. What do you know 
about her? Did you know your investigators had asked for her 
tax records, her banks records, her credit records, telephone 
records, all because supposedly she was told something by one 
of the targeted witnesses in this case?
    Mr. Starr. I now understand the question. We have asked, 
through FBI investigators, a variety of questions to 
individuals that in the judgment of professional, experienced 
investigators have a bearing on the witness's credibility.
    Ms. Waters. Did you know she felt abused by you and your 
investigators?
    Mr. Starr. I am aware that there are issues that she has 
raised----
    Ms. Waters. Okay, fine. I just wanted to know if you knew. 
Finally----
    Mr. Hyde. The gentlewoman's time--if you are not going to 
give him a chance to answer, your time has expired.
    Ms. Waters. Let me just say this. He may take the time to 
answer, but there is one more, a 16-year-old boy who was 
subpoenaed at school that you sent your investigators to school 
to get because you were trying to get his father, and you know 
who I am talking about.
    Mr. Canady. Mr. Chairman, regular order.
    Mr. Hyde. The gentlewoman--really, give Mr. Starr a chance 
to answer, and please don't ask more questions.
    Ms. Waters. All right, okay.
    Mr. Starr. I can be brief. That was in the Arkansas phase 
of our investigation. The individual in question we believed 
had relevant information. No subpoena, as I understand it, was, 
in fact, served, but the agent in question did go to the 
school.
    In my judgment, that was a misjudgment. I don't think he 
should even have gone to the school. But it is my best 
understanding that he did not, in fact, effect the service of 
the subpoena on the young person there. If I am mistaken, then 
I will say this: No, we should not have gone to the school. But 
could I add this: We have had in this investigation 
jurisdiction granted to us in a wide variety of areas that has 
caused--when I took over for Bob Fiske, he had a presence of 
about 120 people in Little Rock.
    Congresswoman Waters, there may be steps along the way that 
you would say, well, why was that particular judgment made? 
Gosh, that wasn't a very wise thing to do. And I do think it is 
unwise to go to a school. I completely agree with that.
    Ms. Waters. What about the 80-year-old grandmother, the 
same woman who----
    Mr. Hyde. The gentlewoman's time has expired. Will you 
please follow the Chair?
    Mr. Chabot. Mr. Chabot is recognized.
    Mr. Chabot. Thank you, Mr. Chairman.
    It seems pretty clear to me that there is a strategy by 
Bill Clinton and his allies to demonize anybody who gets in 
their way: Paula Jones, Kathleen Willey, Henry Hyde, you, Judge 
Starr, this committee, even the press to some extent. It is 
everybody else's fault, and everybody else is to blame, 
everybody except Bill Clinton, except the President.
    Now, in criminal cases, and I think Mr. Canady referred to 
this, it is a pretty common practice to do this. If the facts 
of the case are against you, if your client is pretty clearly 
guilty, put the police on trial; they planted the evidence; the 
police are corrupt; they forced your client to sign the 
confession--anything to get your client off the hook.
    Judge Starr, my question to you is this: How difficult is 
it for you as an Independent Counsel to do your job when you 
are up against this onslaught, particularly when you are 
limited in your ability to defend yourself and to defend the 
other prosecutors under you, and to defend your staff in a 
public forum; limited, that is, until today?
    Mr. Starr. Well, I think it is inherently a challenge, and 
I must say that it does, in my judgment, raise questions about 
the relationship between the Independent Counsel, the Congress 
of the United States, and I am speaking generally, and also the 
Justice Department. But I can only give you my philosophy.
    I think it is my obligation to follow the rules, and that 
is what we seek to do. That is why I reached out and tried to 
get the right kind of ethics advice and the like to make sure 
that some of these difficult judgments were, in fact, done the 
right way. And that is all we can do.
    But, for example, we cannot set up a congressional liaison 
shop. We just don't have the resources to do that. We can't set 
up an effective public information apparatus the way the great 
departments of government do.
    So I think it is inherently a grave challenge for an 
independent counsel to be told, go set up shop, and you are out 
there on your own, and we just look eventually to some report 
or conclusion and the like, and you are a bit of the Lone 
Ranger, as it were, in terms of whether you are part of any 
entity or structure. And that is one of the reasons that, 
Congressman, what I tried to do was to create mechanisms 
whereby we had not only a deliberative process so that the 
kinds of issues that are being raised here today we can respond 
to and say, yes, we did have a process in place; yes, there 
were questions raised about what we did on January 16th at the 
Ritz Carlton. We consulted with the Justice Department. We had 
experienced prosecutors evaluating it. They were very familiar 
with the ethics rules, and they made judgments based upon good 
faith determinations of what the appropriate procedures were. 
But we had to create that mechanism all by ourselves, and I 
tried to do that to the best of my ability.
    Mr. Chabot. Early in the investigation of the Lewinsky 
matter, President Clinton promised to fully cooperate with the 
investigators, stating that he wanted to divulge more rather 
than less, and sooner rather than later. How cooperative has 
the administration been in your investigation?
    Mr. Starr. With respect to this phase of the investigation, 
the administration has been uncooperative. To the contrary, it 
has litigated numerous issues, although in fairness, in 
fairness, I think of the things that we have litigated, and in 
fairness, the administration has produced a goodly number of 
records and the like, and so I would say at a routine level, 
requests for subpoenas or documents and so forth, there 
certainly has been that, and I don't want to be unfair about 
saying that.
    But there is a marked distinction between the cooperation 
that we received, for example, in the FBI files matter and the 
cooperation, or lack thereof, that we received in this and in 
other phases of our investigations. And to me, one of the 
markers is the invocation of privileges. It may very well be 
that the considered judgment of this body is that any privilege 
can be invoked no matter how unmeritorious one thinks it is, 
and that that is not an abuse. Perhaps we live in such a 
litigious age that that is the new way of doing things.
    I disagree with that. I think if privileges are invoked for 
the purposes of delay and have the intended effect of delay--
and I think that is what happened here--they lose. I have heard 
complaints about the tactics of the investigation, and yet we 
go to court. And as I indicated earlier, 17 visits to the 
courts of appeals, thus far we have prevailed in each of those. 
That sounds like an investigation that is getting it right.
    Mr. Chabot. Let me just conclude by referring to your 
report towards the end of it where you stated, and I quote, 
``given the hurricane force political winds swirling about us, 
we were well aware that no matter what decision we made, 
criticism would come from somewhere. As Attorney General Reno 
had said, in a high profile case like this, you are damned if 
you do, and you are damned if you don't, so you better just do 
what you think is right, what is the right and the fair 
thing.''
    Mr. Hyde. The gentleman's time has expired. I thank the 
gentleman.
    The gentleman from Massachusetts, Mr. Meehan.
    Mr. Meehan. Mr. Starr, as a former judge and appellate 
litigator, I am sure you know how important your own 
credibility is to the decisions that this committee must make. 
The key fact-finding in this investigation has been done 
exclusively by you and your deputies. All of the important 
grand jury testimony of Monica Lewinsky, Linda Tripp, and 
President Clinton was elicited under your direction and never 
subject to cross-examination. You and you alone decided who to 
immunize and what to investigate. So if your credibility is 
tainted by bias or poor judgment on your part, this committee 
and the American people must at the very least treat the many 
inferences that you draw in your referral with extreme caution, 
and must question whether your referral is indeed the whole 
story.
    What do we see, Mr. Starr, when we look at your personal 
involvement in the issues before us? Well, we have heard a lot 
of them this afternoon. Among other things, we see that you 
consulted with Paula Jones' attorneys at least a half a dozen 
times in the summer of 1994 about how to frame an argument 
against presidential immunity, something you apparently failed 
to disclose to the Justice Department when you sought to expand 
your jurisdiction in January of 1998, and something that might 
have influenced the Attorney General to appoint someone other 
than you to carry out this part of the investigation.
    During the same summer, you appeared on PBS's ``News Hour'' 
to argue against the President's position in the Jones case. 
For most of your tenure, it has been indicated here, as 
Independent Counsel, you remained a partner in a private law 
firm, receiving $1.2 million in salary per year, while at the 
same time one of your law partners was leaking an affidavit in 
the Jones case to the Chicago Tribune in November of 1997, as 
well as steering Linda Tripp to you so that she could entrap 
the President without becoming entrapped herself in an illegal 
tape recording charge.
    You represented the Brown and Williamson Tobacco Company in 
1995 class action litigation, a company that had a major stake 
in the failure of the Clinton Administration, of its 
initiatives to keep kids from smoking, and the Justice 
Department's criminal investigation of big tobacco.
    You made a commitment in February of 1997 to become the 
dean of Pepperdine University's new School of Public Policy, a 
school whose creation owes in large part to a $250,000 donation 
from a newspaper publisher with a habit of funding anti-Clinton 
Administration publications, and also Arkansas-based dirt-
digging operations.
    You made a $1,750 contribution to your firm's political 
action committee in January of 1995, a PAC that in turn 
contributed to four Republican candidates for President who 
were running against President Clinton in 1996.
    You were hired as a consultant to the Bradley Foundation in 
the summer of 1995 on the issue of school vouchers, a 
foundation that provides funding to some of President Clinton's 
harshest critics.
    And now, Mr. Starr, when we read your referral, we see that 
you have found the time and the space to specifically mention 
that one of the days that the President and Monica Lewinsky got 
together was Easter Sunday, but you chose not to include the 
critical statement from Ms. Lewinsky's grand jury statement, 
quote: ``No one ever asked me to lie, and I was never promised 
a job for my silence.''
    Mr. Starr, your own ethics advisor, Sam Dash, is on the 
record stating that while your conduct in many of these 
respects violated no technical legal ethics rules, that 
conduct, and I quote, ``does have an odor to it.'' Further, Mr. 
Dash said on another occasion, quote, ``I can understand how 
responsible reporters and reasonable people could question 
Ken's judgment.''
    Mr. Starr, in light of these facts and opinions, is it your 
position that there is no basis whatsoever for the American 
people to question the credibility of your work?
    Mr. Starr. My answer is the credibility should be assessed 
by the evidence that is contained herein. This is an 
elaborately documented----
    Mr. Meehan. Excuse me. Mr. Starr, you made inferences, you 
are asking us to rely----
    Mr. Hyde. Mr. Meehan, your time has expired. Give the 
witness some time to answer the long----
    Mr. Meehan. But this isn't just about the evidence, this is 
about the credibility; wouldn't you agree?
    Mr. Hyde. Would you let the witness answer? Please, take 
such time as you need, Mr. Starr.
    Mr. Starr. Congressman, you may disagree, but what has been 
submitted to you is an elaborately documented product of 
professional prosecutors. These are professional prosecutors 
from around the country, some of whom are on detail from the 
Justice Department.
    Mr. Meehan. I am a former prosecutor myself.
    Mr. Starr. Yes, I am aware of that. With respect to the 
practice of law, I think that is a serious question, should 
independent counsels do it, and I know my judgment has been 
called into question by some. I think Sam was very honest. Sam 
said, I just don't think you should be practicing law at all.
    May I say this? The statute contemplates that independent 
counsels are going to be drawn out of private practice, and I 
have lost count, but at one time 17 of the 18 independent 
counsels did, in fact, carry on private practice. And if I may 
say, that was part of the original understanding that I was 
going to continue with my private law practice while giving 
this, as I have always sought to do, the top priority.
    With respect to issues about the firm, it is a very large 
firm with a large number of offices in several cities, and with 
a number of lawyers.
    Mr. Meehan. But you have a duty under the code----
    Mr. Hyde. Mr. Meehan, please. Mr. Meehan, will you please--
--
    Mr. Meehan. If you would recognize that----
    Mr. Hyde. Mr. Meehan, will you withhold, please.
    Ms. Waters. That is why we should have more than 5 minutes.
    Mr. Meehan. Mr. Chairman, these are complicated issues. You 
can't just get to it in 5 minutes.
    Mr. Hyde. Have you finished?
    Mr. Starr. I think I have concluded my answer, Mr. 
Chairman.
    Mr. Hyde. Thank you.
    The gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    As the day draws longer, the charges become more absurd. I 
think I heard, or maybe I was mistaken, that we were going in 
the direction of the last line of questioning with Monica 
entrapping the President. Now, there is a rich one. I suppose 
that is the same as the President being trapped into perjury.
    As a matter of law, is it not well established, Judge 
Starr, that there is no such thing as being trapped into 
perjury?
    Mr. Starr. Yes, that is true.
    Mr. Barr. One can never be forced to tell a lie before a 
grand jury or a Federal court; is that correct, legally?
    Mr. Starr. There is no excuse for telling a lie, you are 
correct; I mean, under oath.
    Mr. Barr. Let me offer up several presumptions and then ask 
you a question.
    Let's presume, Judge Starr, that Linda Tripp is a really 
nasty person. Let's presume further, Judge Starr, for purposes 
of a hypothetical, that Lucianne Goldberg is a crafty 
manipulator. Let's presume that Monica is an oversexed 
blabbermouth. Let's presume that there really is a vast right 
wing conspiracy out there somewhere, maybe at work here today. 
Let's presume that Paula Jones really was interested just in 
the money. Let's presume that the independent counsel statute 
is not a perfect statute, and let's presume that, horror of 
horrors, you use tobacco products. Let's presume all of those 
awful things.
    Would any of that, in your professional judgment, change 
the conclusions contained in your referral and in your 
testimony today that there is substantial and credible evidence 
that President William Jefferson Clinton may have committed 
impeachable offenses?
    Mr. Starr. It would not change it. The facts have a real 
power to them, and it was Justice Brandeis who said, ``facts, 
facts, facts; give me facts.'' And that is what we have sought 
to do, Congressman, in this referral.
    Mr. Barr. You have, and I commend you for standing up to 
the nonsense, and that is putting it mildly, that you have had 
to put up with today in questions by the other side, and in the 
last several years, and I really do commend you for your 
ability to stand up in the face of that and stick to the facts 
and stick to the law.
    Talking briefly about the law, Judge Starr, we are not 
limited here in this committee just to what you present to us, 
in considering whether or not pursuant to the House resolution 
directing that we look into the possible impeachment of William 
Jefferson Clinton, to just what you have presented, are we?
    Mr. Starr. Not at all. I have a statutory duty, but you 
have a constitutional duty.
    Mr. Barr. Thank you.
    I do have one quick question, and then I would like to, if 
we could have my paper distributed, please, to the members and 
Judge Starr. But before I refer to that, with regard to your 
reference to the FBI file case on page 47 of your written 
testimony, Judge Starr, has your office interviewed or deposed 
Mack McLarty with regard to Filegate?
    Mr. Starr. I cannot recall off the top of my head whether 
we conducted that particular interview or not. I will say this, 
and I can check and again get back to the committee, but my 
evaluation and assessment, based on the professional 
prosecutors who carried this out, is that it was thorough, but 
I have to check to that.
    Mr. Barr. I would appreciate it, because your conclusion 
there left me a little bit concerned, because I hear a great 
deal from the American people of concern about abuse by the FBI 
in Filegate, and it is my understanding that there are a number 
of people that have not yet been deposed or fully deposed in 
that case, and I really would appreciate it if you would check 
on that so we don't completely close the door on that.
    There is a document which I believe has been contributed. 
This is a document that I will introduce into the record with 
my written comments, by Jerome Zeifman, the former chief 
counsel of the House Judiciary Committee in 1973 and 1974, and 
it is rather extensive, and I have no--I am not going to make 
you read it today.
    [The information follows:]
 Prepared Statement of Bob Barr, a Representative in Congress From the 
                            State of Georgia
    Today's hearing may not change a single mind on this committee. We 
will spend the day asking Ken Starr questions, some of us motivated by 
a desire to learn, others motivated by a desire to score political 
points, and others driven by having a few minutes in the ever-shifting 
national limelight. When it's all over, those of us who think the 
President has committed impeachable conduct will continue to say so. 
Those of us who believe the President was the innocent victim of a vast 
conspiracy will continue to oppose impeachment.
    In many ways, this hearing is a paradigm for the illness ailing our 
Democracy. In the days of Thomas Jefferson, Alexander Hamilton, Henry 
Clay, and Daniel Webster, television cameras were absent. However, the 
words that soared in these chambers made their absence scarcely 
noticeable. These men were not forced to reach a distracted and 
disinterested public in the instantly vanishing banalities we call 
television sound bites. Their words were based on principles that 
sprang from their hearts, grew in their minds, and gained acceptance in 
the forge of debates that shaped an infant nation.
    Unlike the speeches many offer these days, the words of our 
predecessors had the power to persuade; because they were based on true 
ideas, and on an understanding of government and governing that is all 
but lost in most of what happens in the Congress of this last decade of 
the 20th Century. Debates mattered, and they actually swayed votes. 
Speeches enacted ideas.
    What has happened to us? Where has our capacity to think rationally 
gone? The report we have read, and that we will discuss today, remains 
unrebutted. Think about that. No one is questioning the facts.
    What do the facts in this case prove? They prove the President lied 
to the American people; and perjured himself before a federal court, 
and before a grand jury. They also prove he engaged in an effort to 
obstruct justice and tamper with witnesses. These un-rebutted facts 
conclusively prove that, as we begin this debate, a prosecutable felon 
sits in our nation's highest office.
    Additionally, I introduce into the record today a memo written by 
Jerry Zeifman, concluding the President has engaged in bribery. Mr. 
Zeifman, who served as counsel for Chairman Rodino in the Watergate 
hearings, is from a different political party than I am. We probably 
disagree on more than 90% of the major political questions. However, we 
share a reverence for the rule of law, and a desire to vindicate it.
    Sadly, I fear Jerry Zeifman may belong to another--vanishing--
generation of political leaders; a generation willing to put 
partisanship aside in order to preserve the Constitution. Another 
leader of years gone by put it this way:

          Americans are free to disagree with the law but not to 
        disobey it. For a government of laws and not of men, no man, 
        however prominent and powerful, and no mob, however unruly or 
        boisterous, is entitled to defy a court of law. If this country 
        should ever reach the point where any man or group of men, by 
        force or threat of force, could long defy the commands of our 
        courts and our Constitution, then no law would stand free from 
        doubt, no judge would be sure of his writ and no citizen would 
        be safe from his neighbors.

    These words were delivered to the Nation by President Kennedy on 
Sept. 30, 1962. The President made these remarks regarding one of the 
greatest moral questions we ever faced as a nation. That question was 
whether an American's skin color should void his ability to obtain 
equal justice under law. Fortunately for us, we answered that question 
the right way, beginning a successful fight for justice that forged the 
opinions of many in this room today.
    We face the same question today. President Kennedy's words are no 
less applicable now than they were then. Bill Clinton may not agree 
with sexual harassment laws, but he must follow them. Bill Clinton may 
be a prominent person, but that does not give him license to lie in 
court.
    We have a huge responsibility as a Nation. We can close our eyes. 
But when we open them, the problem will still be there, looming before 
us with a brooding darkness. We can answer this question the wrong way. 
And allow the President to hold his office with the knowledge that he 
has committed multiple felonies. Or, we can answer this question the 
right way. The only right answer to the question is to respond to 
presidential felonies with impeachment. Regardless of whether the 
President is ultimately removed by the Senate, we must take this step 
in the House, as directed by our Constitution, in order to establish a 
precedent that will prevent future Presidents from engaging in similar 
conduct.
                                 ______
                                 
MEMORANDUM to: Bob Barr, Member, House Judiciary Committee

FROM: Jerome M. Zeifman, Former Chief Counsel, House Judiciary 
        Committee (1973-1974)

DATE: November 18, 1998

SUBJECT: Memorandum of Law and Facts on Bribery as an Impeachable 
        Offense
                                preface
    As described in chapter 18 of my book, ``Without Honor: The 
Impeachment of President Nixon and the Crimes of Camelot,'' in the 
summer of 1974 the House Judiciary Committee reported out three 
articles of impeachment. As characterized by then-Committee member 
William Hungate, the drafting of the articles was ``[a] distillation of 
the thought of many members from many areas, and of differing 
philosophies.''
    As I also described in chapter 18, the actual drafting of the 
articles was done by two drafting teams of the members themselves. One 
team was comprised of Democrats, headed by Representative Jack Brooks 
of Texas and Don Edwards of California. The other was referred to in 
the press as the ``Swing Seven'' and was comprised of three 
conservative Democrats from the south, and three moderate Republicans. 
Although in my book I gave the members of both groups credit themselves 
as the draftsmen, Tom Mooney (your present General Counsel) was the 
drafting counsel for the Swing Seven, and I the drafting counsel for 
the Democrats.
    Tracking the language and format of the Nixon articles as closely 
as possible, I am submitting for your consideration the text of my 
recommendations for a proposed Article of Impeachment against President 
Clinton for bribery, which follows:
                                bribery
    In his conduct of the office of President of the United States, 
William J. Clinton has given or received bribes with respect to one or 
more of the following:

          (1) Approving, condoning, or acquiescing in the surreptitious 
        payment of bribes for the purpose of obtaining the silence or 
        influencing the testimony of Webster Hubbell as a witness or 
        potential witness in criminal proceedings;
          (2) Approving, condoning, or acquiescing in the use of 
        political influence by Vernon Jordan in obtaining employment 
        for the purpose of obtaining the silence or influencing the 
        testimony of Monica Lewinsky as a witness or potential witness 
        in civil or criminal proceedings; and
          (3) Approving, condoning or acquiescence in the receipt of 
        bribes in connection with the issuance of an executive order 
        which had the effect of giving Indonesia a monopoly on the sale 
        of certain types of coal.
                            legal authority
    Currently, the federal bribery statute, section 201 of the Criminal 
Code (Title 18), reaches the giving, receiving or acceptance of 
anything of value for contemplated acts by public officials or 
witnesses in judicial or congressional proceedings as well as for acts 
already performed. The essence of the offense is the giving, 
solicitation or receipt of the bribe. The giving, solicitation or 
receipt may be accomplished through an intermediary who need not be a 
public official. Conspiracy to commit bribery may be a separate 
criminal offense (18 U.S.C. 371).
    The crime of bribery consists of the voluntary giving or receipt of 
benefits in corrupt attempts to influence the actions of public 
officials or testimony of witnesses. The crime is completed on the 
giving, solicitation or receipt of the bribe itself, and there need be 
no delivery of the ``quid pro quo'' in order to convict.
    Under section 201 it is not necessary to show the official or 
witness who gave, solicited or received the bribe possessed criminal 
intent. Under a series of Supreme Court decisions, to obtain a 
conviction, it is only necessary to show the official or his 
intermediary or the witness gave, solicited, received or agreed to 
receive something of value with knowledge that the donor was 
compensating him or her for an official act or for testimony (or, non-
testimony) as a witness in a judicial or congressional proceeding.
    More recent decisions of the Supreme Court have imposed even 
stricter prohibitions on public officials than those in existence at 
the time of the Nixon impeachment inquiry. In its 1992 opinion, Evans 
v. United States, the Court interpreted section 1951 of the criminal 
code (the Hobbs Act), holding:

          Passive acceptance of a benefit by a public official is 
        sufficient to form the basis of a Hobbs Act violation if the 
        official knows that he is being offered the payment in exchange 
        for a specific requested exercise of his official power. The 
        official need not take any specific action to induce the 
        offering of the benefit. [HE483]

    In my view--based on several centuries of impeachment precedents 
which I analyzed and published as Chief Counsel to the House Judiciary 
Committee during the Nixon impeachment inquiry, as well as Supreme 
Court decisions relating both to bribery and the complicity of 
government officials in the abuse of political influence--there is now 
clearly sufficient evidence already on the public record to impeach 
President Clinton for giving and receiving bribes. My understanding of 
the facts already on the public record follows.
                                 facts
Bribery Involving Whitewater and Webster Hubbell
    When Bill Clinton first ran for President, Whitewater became a 
national political issue. On March 8, 1992 during the Democratic 
primary campaign, reporter Jeff Gerth of the New York Times revealed 
the Clintons had received improper loans and filed false income tax 
returns; claiming deductions for interest they had not paid. During the 
same period, referring to Bill Clinton as the ``scandal-a-week 
candidate,'' former California governor Jerry Brown made similar 
Whitewater-related charges.
    As was later learned by congressional investigators, to help the 
Clintons respond to inquiries from the press and charges from other 
candidates, Vincent Foster. Mrs. Clinton's then-law partner, who was 
soon to become Bernard Nussbaum's Deputy White House Counsel, assembled 
all the information he could on Whitewater. Webster Hubbell, who was 
then also Mrs. Clinton's law partner and Bill Clinton's closest friend, 
secretly removed the firm's only copies of files relating to Madison 
Guaranty as well other as Rose Law Firm clients for whom Mrs. Clinton 
performed legal services.
    The files, which were legally the property of the clients, were 
removed without the firm's consent and were later stored in Hubbell's 
Washington home after he was appointed Associate Attorney General. In 
addition, Hubbell and Foster were able to obtain computer print-outs of 
the Rose Law Firm's billing records relating to Hillary Clinton's 
representation of Madison Guaranty.
    The records were later subpoenaed by Independent Counsel Robert 
Fiske in early 1994, and by the Senate Whitewater Committee in October 
1995. But they were no longer to be found. As was noted in the report 
of the Whitewater Committee: ``At every important turn crucial files 
and documents `disappeared' or were withheld from scrutiny whenever 
questions were raised.'' [HE2 p. 40, 41]
    Among Hillary Clinton's billing records that ``disappeared'' were 
those relating to another questionable land deal and loan exchange 
scheme of McDougal's, known as Castle Grande. The project benefitted 
Webster Hubbell's father-in-law, Seth Ward. In 1988, bank regulators 
had charged Castle Grande was a ``sham'' that cost federal taxpayers $4 
million. [HE2 pp. 40, 41]
    In 1992 and 1993 Hillary Clinton had denied she had done any legal 
work for McDougal or Madison. In April 1994 it was learned some of the 
Rose Law Firm Whitewater-related documents had been shredded. When 
asked by reporters what she knew about the shredding, Mrs. Clinton 
said: ``Nothing . . . [It] didn't happen, and I know nothing about any 
other such stories . . . Absolutely not.''
    In May 1995, Mrs. Clinton provided federal investigators written 
responses under oath. She denied any knowledge of Castle Grande, 
stating she had ``no recollection'' of doing legal work for Seth Ward. 
[HE2 pp. 40, 41]
    In January 1996, the First Lady admitted in written answers to 
federal banking officials that in 1988--the year in which regulators 
first began investigating Castle Grande--she had ordered the shredding 
of three Castle Grande files, stating: ``It appears that I cooperated 
with this effort [to dispose of the files].''
    As for the files that had not been shredded, Hillary Clinton was 
eventually to state through her attorney she ``may have'' reviewed them 
during the 1992 campaign, but denied any knowledge of their 
whereabouts. Hubbell was later to testify he last saw the records 
during the 1992 presidential campaign in the possession of Vincent 
Foster.
    On July 17, 1993 Foster was found dead in Washington's Fort Marcy 
Park and had apparently committed suicide. On the same day in Little 
Rock, the FBI had obtained a warrant to search the office of David Hale 
as part of its investigation of Capital Management Services, the 
company through which Hale had loaned Susan McDougal $300,000 at the 
request of James McDougal and then-governor Clinton.
    Following the discovery of Foster's body, White House Counsel 
Bernard Nussbaum initially promised Deputy Attorney General Philip 
Heymann and Justice Department investigators full access to the files 
in Foster's office. However, the First Lady insisted investigators be 
denied ``unfettered access'' to Foster's files. After talking to one of 
Hillary Clinton's closest advisers, Susan Thomases, Nussbaum reversed 
himself, reneged on his promise to the Justice Department, and began to 
impede the investigation.
    Request by the Justice Department and Park Police to seal-off 
Foster's office were ignored, giving White House aides an opportunity 
to remove some of Foster's files. Nussbaum also asserted he alone would 
first examine Foster's files and decide which documents to make 
available to Justice Department investigators. He also asserted as 
White House Counsel he would be present at interrogations of witnesses 
by the FBI and the police.
    Congressional investigators learned that after Nussbaum had 
initially searched Foster's brief case he had declared it empty. Later 
one of Nussbaum's aides purportedly searched the brief case and found 
torn-up pieces of a note by Foster expressing bitterness about his life 
in Washington. When Nussbaum met with investigators and produced an 
envelope containing the pieces of the note the pieces fell out of the 
envelope on to the floor.
    Nussbaum and the White House soon clashed with Deputy Attorney 
General Heymann, who later quietly resigned to return to a teaching 
position at the Harvard Law School. Later, in sworn testimony to the 
Senate Whitewater Committee Heymman said he had objected to Nussbaum's 
conduct and asked him. ``Bernie, are you hiding something?'' Heymann 
also testified that, because of the obstruction of the investigation, 
he warned the Clinton White House of a ``major disaster brewing.''
    Heymann had argued Nussbaum ``should not decide . . . alone'' which 
papers in Foster's office could be reviewed by authorities, and that 
``White House lawyers should not sit in on interviews of witnesses.'' 
Explaining that ``the player with significant stakes in the process 
cannot be a referee.'' Heymann testified he was ``very angry and very 
adamant'' in telling Nussbaum that career Justice Department officials 
should review the documents.
    As congressional investigators continued to probe events related to 
Foster's death, they learned that in 1993 to Clintons were aware of a 
pending criminal investigation of McDougal's Madison Bank by the 
Resolution Trust Corporation, a federal regulatory agency that named 
Arkansas Governor Jim Guy Tucker as a target and the Clintons as 
witnesses to, and beneficiaries of, illegal actions. [3/roadmap]
    Foster was engaged in preparing responses to expected Whitewater 
questions. He was also given the responsibility for the preparation of 
the Clintons' tax returns for 1992 to reflect properly the sale of 
their shares in Whitewater.
    Congressional investigators were also able to obtain evidence that 
Nussbaum was not alone in searching Foster's unsealed office on the 
night of his death. Others included President Clinton's aide Patsy 
Thomasson, and Margaret Williams, Mrs. Clinton's Chief of Staff. 
Although each denied under oath they had removed any documents, Ms. 
Williams' testimony was contradicted by a Secret Service agent who 
testified he saw her leave Foster's office on the night of his death 
with a stack of thick file folders.
    Five days after Foster's death Nussbaum, without preparing an 
inventory, turned over a number of files to Ms. Williams who 
transferred them to the White House residence. In the ensuing effort to 
obtain the missing files, a number of subpoenas were issued by 
congressional committees and independent counsel Kenneth Starr. Under 
subpoena to produce her billing records relating to the Madison Bank, 
Mrs. Clinton stated through her personal counsel she ``may have'' seen 
them during the 1992 campaign but did not know their present 
whereabouts.
    In August 1995 the missing billing records were eventually found by 
presidential aide Carolyn Huber, in the ``book room'' next to Mrs. 
Clinton's office in the White House residence. Mrs. Huber was later to 
testify she did not realize what they were until she looked at them 
again five months later in sorting out several boxes of documents in 
her office. It was not until January 1996--two years after they were 
first subpoenaed--that the billing records were turned over by personal 
counsel for the President and Mrs. Clinton. Mrs. Clinton then denied 
knowing how the records got to the book room, where access was limited 
mostly to the Clintons and several selected friends.
    The billing records contain handwritten notes and questions to Mrs. 
Clinton from both Foster and Hubbell. They also contradict public 
statements and sworn testimony by Mrs. Clinton that she had done little 
or no legal work for Madison and had no knowledge of Castle Grande. The 
records show she billed Madison for at least 60 hours of legal services 
over 15 months, had numerous meeting, with Hubbell's father-in-law, 
Seth Ward, and talked with Ward on the phone at least 14 times.
    The complicity of Hillary Clinton, Nussbaum, and other aides to the 
President in the obstruction of the investigations of Whitewater by 
Congress and the independent counsel now has a sad irony. Twenty years 
earlier on the House Judiciary Committee's impeachment inquiry staff, 
both Hillary Rodham and Bernard Nussbaum were aware the role of Nixon's 
White House counsel, John Dean, in the cover-up of Watergate was a 
basis for charging Nixon with an impeachable offense.
    In 1972, following the arrest of Watergate burglar Howard Hunt and 
others, John Dean alone had personally examined the contents of Hunt's 
White House safe, and had sat in on the interrogation of witnesses by 
the Justice Department. For his acts, Dean was charged with the felony 
of obstructing justice and served a prison term. In 1993, as Dean's 
successor, Nussbaum similarly interposed himself between the Justice 
Department's investigation of the files in the White House office of 
Vincent Foster.
    At the time of Watergate, Nussbaum and Hillary Rodham were aware 
that for his complicity in Dean's acts and those of other White House 
aides, President Nixon was charged with an impeachable offense by the 
House Judiciary Committee and named as an ``unindicted co-conspirator'' 
by Watergate special prosecutor Leon Jaworski. They were also aware of 
the legal principles of complicity relied on both by the Judiciary 
Committee and by Watergate prosecutor Jaworski. Under those principles, 
if the President establishes a policy of obstructing investigations, he 
becomes accountable for the acts of his aides in the pursuit of that 
policy.
    Under the same principles, President Clinton now warrants 
impeachment for bribery; as well as for the cover-up of Whitewater by 
Bernard Nussbaum, Hillary Clinton, other White House aides, and the 
President's best friend, Webster Hubbell. As concluded in the 650-page 
final report of the Senate Whitewater Committee released on June 18, 
1996:

          By the time of Vincent Foster's death in July 1993, the 
        Clintons had established a pattern of concealing their 
        involvement with Whitewater and the McDougals' Madison Guaranty 
        S&L. The actions of senior White House officials and other 
        close Clinton associates in the days and weeks following Mr. 
        Foster's death . . . were but part of a pattern that began in 
        1988 of concealing, controlling and even destroying damaging 
        information concerning the Whitewater real estate investment 
        and the Clintons' ties to James and Susan McDougal and the 
        Madison Savings and Loan. Indeed, at the time of Mr. Foster's 
        death, the Clintons and their associates were aware that the 
        Clintons' involvement with Whitewater land deal, the McDougals, 
        and the Madison S&L might subject them to civil liability and 
        even criminal investigation.

    In 1997, further evidence came to light that was also reminiscent 
of the Nixon impeachment proceedings. Based in part on the arrangement 
by White House aides of payments of ``hush money'' to Howard Hunt and 
other Watergate burglars, the first article of impeachment adopted by 
the Judiciary Committee at the time of Watergate, charged President 
Nixon with nine offenses, two of which included:

          Approving, condoning, and acquiescing in the surreptitious 
        payment of substantial sums of money for the purpose of 
        obtaining the silence or influencing the testimony of 
        witnesses, potential witnesses, or individuals who participated 
        in . . . illegal activities; and
          Making false or misleading public statements for the purpose 
        of deceiving the people of the United States into believing 
        that . . . with respect to allegations of misconduct on the 
        part of personnel of the executive branch of the United States 
        and personnel of the Committee for the Re-election of the 
        President and that there was no involvement of such personnel 
        in such misconduct.''

    Similarly, there is now compelling evidence that, after Webster 
Hubbell resigned as Associate Attorney General to face criminal charges 
of fraud, President Clinton also acted through White House aides to 
arrange payments of ``hush money'' to Mr. Hubbell. There is likewise 
persuasive evidence that to deceive the public, President Clinton has 
made false statements.
    Early in 1994, then-Whitewater Independent Counsel Robert Fiske 
discovered Hubbell had overbilled his clients at the Rose law firm 
$482,410, and that he owed $143,437 in unpaid federal income taxes. 
[HE2 p. 24] Initially, it was reported that in the nine months between 
his resignation and his guilty plea, Hubbell received payments of 
$400,000, of which $100,000 came from the Riadys. Later, House 
investigators found evidence that Hubbell received $1 million or more, 
of which $300,000 came from the Riadys.
    When the first reports of the Riady payments to Hubbell appeared in 
the press in January 1997, President Clinton was asked at a White House 
news conference whether he found the Riady payment unusual or 
suspicious, and what steps he had taken to find out whether it had been 
hush money. His response was:

          I can't imagine who could have ever arranged to do something 
        improper like that and no one around here knew about it. We did 
        not know anything about it, and I can tell you categorically 
        that did not happen. I knew nothing about it. None of us did 
        before it happened. I didn't personally know anything about it 
        until I read about it in the press.'' [HE2 pp. 26, 27; 3/
        roadmap]

    On April 3, 1997, again commenting on White House knowledge of 
payments to Hubbell, President Clinton stated:

          Let me remind you of the critical fact. At the time that it 
        was done, no one had any idea about whether any--what the 
        nature of the allegations were against Mr. Hubbell or whether 
        they were true. Everybody thought there was some sort of 
        billing dispute with his law firm. And that's all anybody knew 
        about it. So no, I do not think they did anything improper.

    Several days afterwards, in a radio appearance Hillary Clinton 
stated that in resigning Hubbell had assured her and the President he 
had done nothing wrong, and that ``at the time we had no reason to 
disbelieve his denials of wrongdoing.'' Later, the public record was to 
include clear and convincing evidence the statements of the President 
and the First Lady were lies.
    It was later learned that after he resigned to face criminal 
charges Hubbell visited the White House on March 18, 1994. He had a 
private meeting with Hillary Clinton in the White House in July 1994. 
He also met at least 17 times with Associate White House Counsel 
William Kennedy, another former partner in the Rose Law Firm.
    In the summer of 1994, Hubbell made at least two trips to Camp 
David to visit the Clintons and had a golf match with the President and 
Texas oil man Truman Arnold, who made a payment to Hubbell during that 
period. He also met frequently with Gerald Stern, who was then in 
charge of the division of the Justice Department responsible for 
prosecuting financial institution fraud, and who later told the 
Washington Post his meetings with Hubbell were ``strictly social.''
    By May 5, 1997, the evidence the President had lied about his 
knowledge of the payments to Hubbell was already so compelling the New 
York Times--which had long tended to defend the Clintons against 
charges of wrong doing--published an article by its editor, A.M. 
Rosenthal, stating:

          It [is now] impossible for me to believe it happened the way 
        President Clinton and his wife said it had. I [have] rejected, 
        for myself, the story . . . that neither they nor anybody else 
        at the White House knew that when their good friend Webster L. 
        Hubbell resigned as Associate Attorney General in 1994 he was 
        facing the likelihood of criminal accusations that could land 
        him in jail. They did.
          If the President did know, then after the resignation he 
        opened himself to possible charges of obstructing justice by 
        approving White House job-hunting for Mr. Hubbell. It would not 
        take a particularly suspicious mind--let alone a prosecutor's--
        to see high-paying jobs as hush money to keep a defendant 
        silent. Why would he take that risk?
          In [this] paper Jeff Gerth and Stephen Labaton of the New 
        York Times Washington bureau reported that before Mr. Hubbell 
        resigned, David E. Kendall, the personal lawyer of the 
        Clintons, and James B. Blair, one of their closest Arkansas 
        confidants, received certain information form the Rose Law Firm 
        in Little Rock. . . . The information was that the firm had 
        ``pretty strong proof of wrongdoing'' by Mr. Hubbell while he 
        was a partner. The Times account said Mr. Blair then warned the 
        Clintons that Mr. Hubbell had to resign, fast. Mr. Kendall was 
        also involved in getting the resignation.
          Until the Times report, I found it hard to believe the 
        Clintons would take the risk of an obstruction of justice 
        charge, the accusation that led to Richard Nixon's 
        resignation--and down the same road of stonewalling.
          And like most Americans. I think, I was and remain sick at 
        the thought of the damage to the U.S. of the destruction in 
        office of another Presidency.

    The facts cited in the New York Times article were but a small 
portion of the evidence of obstruction of justice and false statements 
by the President. Congressional investigators and reporters have also 
amassed other compelling evidence, much of which the White House has 
subsequently confirmed.
    The White House eventually acknowledge that a campaign to give 
employment to Hubbell while criminal charges were pending against him 
was mounted by: Thomas F. McLarty, then Mr. Clinton's chief of staff; 
Mickey Kantor, then the U.S. Trade Representative; Erskine B. Bowles, 
then head of the Small Business Administration; Vernon Jordan, a 
Washington lawyer and close friend of President Clinton; and Truman 
Arnold, a Texas business man who is also a long-time friend of the 
President.
    The White House also admitted that in March 1994, President Clinton 
and Mrs. Clinton met with their advisers to discuss Hubbell's legal 
troubles and impending resignation. In later describing the meeting 
McLarty stated he told Mrs. Clinton, ``I'm going to try and help 
Webb.'' He also stated he remembered ``saying something to the 
President to the same effect.''
    Investigators also discovered a written ``task list'' prepared by 
then-White House Special Counsel Jane Sherburne, assigning a team of 
government lawyers to ``monitor his [Hubbell's] cooperation with 
Independent Counsel Kenneth Starr.'' It was also learned that after 
Hubbell's resignation Martha Scott, a White House aide and long time 
friend of President Clinton, kept in close touch with Hubbell. In 
addition, other White House aides closely monitored news reports and 
other available information relating to Hubbell's prosecution. By June 
1994, Hubbell reportedly was cooperating with the prosecutors. However, 
in late June he changed his policy and began withholding Whitewater-
related documents and personal financial records.
    During the same period in which Hubbell stopped cooperating, with 
the prosecutors James Riady had responded to a White House request to 
provide financial support for Hubbell. Secret Service records later 
obtained by investigators show he visited the White House every day 
from June 21st to June 25th, and saw President Clinton at least twice. 
On June 23rd, Riady had a breakfast meeting with Hubbell and then 
visited the White House. Later that day Hubbell and Riady then had a 
midday luncheon meeting at Washington's Hay-Adams Hotel.
    On Monday, June 27th, the first day of the new work week after 
Riady had visited Clinton, a Riady company, Hong Kong China Ltd., sent 
Hubbell $100,000. Hubbell had initially been expecting four quarterly 
installments of $25,000, but after Riady's meetings with Hubbell and 
the President, Riady decided to accelerate the payment into a lump sum.
    The next weekend, the Fourth of July holiday, the President and the 
First Lady went to Camp David and asked Hubbell to join them, as was 
later confirmed by the White House. According to Hubbell, ``The 
president asked me if I'd done something wrong, and I didn't tell him 
the truth.'' [AP] On Tuesday, July 5th, Hubbell wrote to one of Riady's 
top executives in Hong Kong, acknowledging the $100,000 he had received 
the previous week. [3/Hubbl5.nyt]
    In December 1994, Hubbell pleaded guilty to fraud and tax charges. 
Although he had previously entered into a plea bargain agreement to 
cooperate with the Whitewater prosecutors, at his sentencing 
prosecutors took no steps to have his sentence reduced--presumably 
because of his lack of cooperation. Prosecutors have been reportedly 
frustrated by Hubbell's inability to recall transactions involving Mrs. 
Clinton's role as a lawyer with Madison Guaranty Savings & Loan. [3/
roadmap]
    In the spring of 1995, a few months after his fraud conviction, at 
a dinner at Washington's Palm Restaurant, Hubbell and his wife asked 
Mark Middleton, a recently retired White House aide, whether the Riady 
family would be keeping him on its payroll even as he faced prison. 
According to Robert Luskin, Middleton's lawyer, Middleton told the 
Hubbells to take their question to the Riady family itself or to John 
Huang, who was then a trade official at the Commerce Department. It is 
not known whether Hubbell ever followed up on Middleton's suggestion.
    During the nine months between his resignation and his guilty plea, 
Hubbell received a total of more than $500,000 from a dozen 
enterprises, many of which were controlled by Clinton associates or 
major Democratic donors. In that period, White House chief of staff 
McLarty had talked to Truman Arnold, a leading fund-raiser for the DNC 
about hiring Hubbell. According to the New York Times. Arnold paid 
Hubbell an undisclosed sum to help arrange a dinner party for top fund-
raiser. President Clinton attended the dinner.
    Arnold also helped persuade three other Texans to hire Hubbell: 
Bernard Rapoport, an insurance executive, who paid Hubbell $18,000; 
Wayne Reaud, a lawyer; and C.W. Conn Jr., an appliance store owner. 
[gerth] During the same period, Hubbell was also hired at a salary of 
$8,500 per month for five months to do lobbying work for the Los 
Angeles Airport Commission, a job that put him in frequent contact with 
another top White House aide, John Emerson. [gerth; HE2 p. 25]
    Hubbell was likewise employed by the Consumer Support and Education 
Fund, a nonprofit Los Angeles foundation that paid Hubbell $45,000 to 
write essays on the ethics of public service, which Hubbell never 
wrote. After the payments were disclosed, Hubbell returned the money. 
[HE2 p. 25]
    While he was still under indictment, the Sprint Corporation hired 
Hubbell in November 1994 at a salary of $15,000 per month to help win 
federal approval for a European venture. According to Sprint official 
Bill White, Hubbell was paid ``less than $90,000'' in total. At the 
same time, in possible violation of American Bar Association rules 
against conflicts of interest, Hubbell was also employed by Pacific 
Telesis, a competitor of Sprint, for undisclosed duties and 
compensation. [HE2 p. 25] The Time-Warner corporation likewise hired 
Hubbell.
    The Mid-America Dairymen Association--whose political action 
committee contributes heavily to Democratic candidates--also hired 
Hubbell for unknown duties and compensation. The association's 
spokesman, Dan Reuwee, has told the Los Angeles Times  that it is 
``nobody's business what we hired him for.'' In addition, Sun America, 
Inc., a California financial services company run by Eli Broad, a 
friend of President Clinton, paid Hubbell an undisclosed sum to help 
promote a national retirement savings policy. [HE2 pp. 25, 26]
    While under indictment Hubbell also received other benefits from 
other persons with close ties to the Clinton White House. [HE2 p. 25] 
Michael Cardozo, executive director of the Presidential Legal Expense 
Trust, arranged to provide Hubbell with office space and a 
receptionist. In addition, former U.S. Trade Representative Mickey 
Kantor persuaded the Federal National Mortgage Association to hire 
Hubbell's son, Walter.
    As was later confirmed by the White House, Clinton administration 
official Erskine Bowles contacted still another company, Allied Capital 
Corporation, to hire Hubbell. At the time of the contact, Bowles was 
head of the Small Business Administration, which licensed Allied and 
had regulatory authority over the company. In 1997, Bowles became White 
House Chief of Staff.
    Faced with incontrovertible evidence that administration officials 
had solicited payments to Hubbell from a number of companies regulated 
by the federal government, President Clinton abandoned his earlier 
denials of January 1997. By the Spring of 1997 he no longer denied 
``categorically'' that they had been solicited by anyone at the White 
House; and no longer characterized such payments as ``improper.'' 
Instead, when asked again about the solicitation by his key aides of 
financial help for Hubbell the President's explanation became:

          From what I know about them, they were just--they were people 
        who were genuinely concerned that there was a man who was out 
        of work who had four children. And I understand it, they were 
        trying to help him for no other reason than just out of human 
        compassion. [Seper, WT, April]

    Even if President Clinton were correct that the solicitations by 
government official of payments to Hubbell were made out of compassion, 
such solicitations would nevertheless be improper. Since the persons 
and firms solicited were subject to regulation by the Clinton 
administration, each official had conflicts of interests, and 
participated in an unethical, if not criminal, act.
    That the solicitation of payments to Hubbell were the culmination 
of prolonged White House efforts to conceal evidence relating to 
Whitewater, provides even more compelling reasons for the impeachment 
of President Clinton. After the death of Foster, Hubbell was singularly 
in possession of evidence of wrongdoing by the President and Mrs. 
Clinton dating back to Arkansas; some of which still remains concealed.
    Just as Congress and the public was never to learn all the facts 
related to Watergate, so too the cover-up of Whitewater by President 
Clinton and his key aides may well remain at least partially 
successful. Yet, as in the case of President Nixon, there is now more 
than sufficient evidence on the public record to sustain an article of 
impeachment against President Clinton for the obstruction of justice.
Bribery Involving Monica Lewinsky
    Based on the same legal authority described above, in my view the 
facts alleged in Independent Counsel Kenneth Starr's referral to the 
Congress are substantial evidence that in approving acquiescing and 
condoning the use of political influence by Vernon Jordan to obtain 
employment for Ms. Lewinski, President Clinton has committed the 
impeachable offense of bribery as well as obstruction of justice.
Bribery of President Clinton by Asian Interests
    Of the more than $3 million of illegal or questionable campaign 
contributions that were refunded after the 1996 elections, most came 
from foreign donors with financial ties to Asian countries. There is 
compelling evidence on the public record of bribery with respect to a 
variety of policy decisions by the President which were influenced by 
campaign contributions. One example relates to contributions from the 
Riady family [2/lippo.lim], which was also involved in the payment of 
``hush money'' to Webster Hubbell.
    Under the umbrella of the Lippo Group, the Riady family owns mining 
rights to Indonesian deposits of so called ``clean-burning coal.'' The 
Indonesian coal has sufficiently low sulfur content to meet strict 
environmental standards promulgated during the Clinton administration 
by the Environmental Protection Agency. The Indonesian deposits of 
environmentally safe coal are the second largest in the world.
    The world's largest deposits of such coal are in the United States. 
They are located in southern Utah, include more than 62 billion tons of 
coal, and are estimated to have a value of $1.2 trillion. On September 
18, 1996, six weeks before the presidential election--under 
circumstances suggestive of influence by Riady--President Clinton 
signed an executive order converting 1.7 million acres in southwestern 
Utah that contain the coal into a park area the size of Connecticut. 
This was the ``Grand Staircase Escalante National Monument.''
    A few weeks after the signing of the executive order, a person 
inexplicably identified as an unemployed gardener, gave the Clinton 
campaign $400,000. It was not until the President's reelection that the 
Democratic National Committee promised to refund the money; after it 
was revealed it had come from Arief Wiriadinata and his wife Soraya, 
whose father is an executive of the Lippo Group. [verify, get dates, 
etc.]
    At a televised press conference in Utah six weeks before his 
election, President Clinton proclaimed the need to preserve the natural 
beauty of the remote area, describing it as a ``beautiful, exotic 
place.'' By election time the only published report suggesting the 
President's concerns might have been other than aesthetic appeared in 
an obscure mining newsletter, in which an unknown reporter, Susan 
Foster, wrote:

          With a stroke of his pen he wiped out the only significant 
        competition to Indonesian coal interests in the world market.

    On election day 1996, the public was still unaware the President's 
order permanently prohibited the mining of the most high quality clean-
burning coal in the world, and gave the Riady family's Indonesia-based 
Lippo Group a world-wide monopoly on the sale of such coal. It was not 
until after the President's re-election that an Associated Press 
reporter, Karen Gullo, was the first to break the story in the national 
media. In an article published December 26, 1996, Ms. Gullo noted that 
``Jakarta-based Lippo corporation has business interests related to 
coal'' and that in signing the Executive Order in Utah the President 
``dashed plans to tap a huge reserve of environmental-friendly coal.'' 
[3/coal.wt 3/coal2; 3/coal3]
    Subsequently, the public record became replete with evidence that 
the signing of the executive order by the President was influenced by 
the financial and political support of the Riady and the Lippo Group, 
which had previously contributed illegally more than $1.5 million to 
his campaign.
    Environmentalists and local residents of the area who had long 
urged protection for some lands in Utah dispute that the selection of 
the site specified in the executive order was to preserve ``a beautiful 
and exotic place.'' According to environmentalists, members of the 
Western States Coalition, and local residents, ordinary desert land 
with no significance or unique natural features was included in the 
order solely to prohibit mining of the coal deposits; while other 
important environmental sites that the local residents wanted protected 
were left outside the 1.7 million acre park. [3/coal2]
    The President's decision to issue the order was made without prior 
consultation with Utah Governor Michael Leavitt or any members of 
Utah's congressional delegation. It stunned Utah's lone congressional 
Democrat, Bill Orton, in whose district the clean-burning coal is 
found. It also came as a shock to Louise Liston, the commissioner from 
Escalante County, who asked:

          President Clinton has locked up a treasure house that could 
        be used for our children and to boost our economy. Why he would 
        want to do that: we don't know. Why would he put our nation at 
        risk? [also HE 6/18/97 p. 5]

    The adverse effects of the executive order on the economy are 
multiple and staggering. It has been estimated that $20 billion in 
federal revenue from mining Utah coal will never be realized. The 62 
billion tons of coal now locked permanently in the Utah desert land 
would provide enough environmentally safe coal to keep non-nuclear Utah 
power plants running for another 400 years. Coal mining, as a source of 
revenue and power for Utah, is virtually shut down and jobs that would 
have been available in coal mining no longer exist.
    Of particular concern to local educators and officials such as 
County Commissioner Liston, President Clinton's order cuts off major 
sources of revenues traditionally relied on to fund public education. 
When Utah was admitted to the Union, portions of the vast federal lands 
in the new state were placed permanently in trust to provide funds for 
education. In the words of County Commissioner Liston:

          When Utah became a state, under the enabling Act, the 
        government allowed them four sections out of every township so 
        that when they have all these federal lands, that school kids 
        would not be left without some way of funding the schools. So 
        they allowed those four sections out of every township to be 
        trust lands.

    Particularly distressed by the effects of the executive order on 
local schools that could no longer obtain revenues from mining, County 
Commissioner Liston added:

          We're still kind of reeling from the effects of it, and 
        sincerely feel like he has no idea what he has laid upon two 
        counties in Southern Utah.

    President Clinton's general response to environmentalists and 
government officials who were shocked by his executive order ignored 
the unique nature of the environmentally safe coal at the Utah site. 
Giving the impression that similar coal was available elsewhere in the 
United States, he said:

          I am concerned about a large coal mine proposed for the area. 
        Mining jobs are good jobs and mining is important to our 
        national economy and to our national security. But we can't 
        have mines everywhere and we shouldn't have mines that threaten 
        our national treasures.

    Respecting the concerns of Commissioner Liston and educators in 
Utah on the adverse effect on local schools, President Clinton has 
promised to trade the school trust land within the monument with 
comparable land in other parts of Utah, stating:

          I will say again--creating this national monument should not 
        and will not come at the expense of Utah's children.

That it is a promise he cannot keep, is indisputable. In that regard, 
the official who heads the project tasked with finding comparable land 
has stated:

          We can't find enough coal, in Utah, to compensate for the 
        school trusts, and if we start adding oil and gas fields, other 
        mineral deposits, we still have a tough time finding enough 
        federal resources in the entire state of Utah to trade for just 
        the school children's coal within the monument, let alone their 
        other resources.

    In June 1997 the Schools and Institution Trust Lands Association of 
Utah, which manages the trust fund, filed a lawsuit against the Clinton 
administration charging the executive order is illegal. In a separate 
lawsuit the Utah Association of Counties has claimed the executive 
order exceeds the powers granted to the President under the 1906 
Antiquities Act, which was first used by Theodore Roosevelt to set 
aside the Grand Canyon as a national monument. The lawsuit also charges 
President Clinton violated the National Environmental Policy Act and 
the Federal Land Management Policy Act, which require him to consult 
with state officials and obtain the approval of Congress; procedures he 
avoided. [HE 7/18/97 p. 5]
    That President Clinton may have simply made an unwise policy 
decision that has adverse economic effects on our economy is not, in 
itself an impeachable offense, even though Congress is not bound by the 
rules of evidence applied in the criminal courts. [See, Selected 
Materials, etc.] However, even if Congress were to comply with criminal 
rules of evidence, the fact that President Clinton signed the executive 
order under such questionable conditions is substantial circumstantial 
evidence that the Escalante National Monument is a ``quid pro quo'' 
related to the receipt of illegal canpaign contributions from the 
Riadys, the Lippo Group, and others with financial interests in 
Indonesia.
    More and more as President Clinton's fund-raising tactics have 
become exposed, he has asserted what is at best a political defense. He 
has blamed ``the system.'' Arguing that the election laws enacted after 
Watergate have created a corrupt system, some of the President's 
defenders now refer to campaign contributions as ``legalized bribery.'' 
[NY Times Editorial, 4/9/97]
    To suggest even metaphorically that President Clinton could legally 
receive bribes, overstates the case for fund-raising reform and 
trivializes the meaning of the term ``Bribery'' in the Constitution, 
which holds the President to a much higher standard than those spelled 
out under the election laws. As an act punishable only by removal from 
office and not by a fine or imprisonment, the Impeachment Clause was 
intended by the Founding Fathers to make it much easier for Congress to 
impeach a President for bribery than to convict a public official of 
bribery as a felony.
Constitutional History
    In 1787 the Founding Fathers had compelling reasons, based on 
English precedents, for defining ``Bribery'' as a specific ``High 
Crime.'' For several centuries under the English common law, bribery 
was among the highest crimes against the state (as was Perjury). [R. 
Berger, Impeachment, p. 62 et seq. 1973] At the very time the U.S. 
Constitution was being drafted, impeachment charges brought by Edmund 
Burke against King George III's minister, Warren Hastings, for both 
giving and receiving bribes from political leaders in India were 
pending in the House of Lords. Our Founding Fathers who previously had 
their own grievances against George III, noted Burke was chastising 
Hastings for giving the King a reputation as ``head of a robber band.''
    Also in the minds of the Founding Fathers, and noted in Madison's 
journal of 1787, was the bribery of George III's predecessor. Madison 
wrote:

          One would suppose that the King of England would be well 
        secured against bribery. He has as it were [the ownership of] a 
        fee simple in the whole Kingdom. Yet Charles II was bribed by 
        Louis XIV. [Selected Materials on Impeachment, 93rd Cong. 
        Committee Print, House Judiciary Committee, pp. 6, 11]

    Recalling that Charles I and other earlier corrupt kings had been 
beheaded, Alexander Hamilton noted that, in imposing no more punishment 
than the removal from office, the Madison-drafted Impeachment Clause 
``[s]ubstituted the gentle majesty of the law for the swift justice of 
the sword.''
    In his journal, Madison reiterated several times the concern of the 
founders, a future president might ``betray his trust'' through bribes. 
Explaining why Bribery as a High Crime had even more applicability to 
the President than to Members of Congress, he wrote:

          The case of the Executive Magistracy was very distinguishable 
        from that of the Legislative . . . It could not be presumed 
        that all or even a majority of an Assembly would be bribed to 
        betray their trust . . . And if one or a few members only 
        should be seduced the soundness of the remaining members would 
        maintain the integrity and fidelity of the body . . . In the 
        case of the Executive Magistracy which was to be administered 
        by a single man, corruption was more within the compass of 
        probable events, and might be fatal to the Republic.'' 
        [Selected Materials on Impeachment, 93rd Cong. Committee Print, 
        House Judiciary Committee, pp. 3-7]

    The constitutional standard for impeachment for Bribery as a ``High 
Crime,'' like all other ``High Crimes,'' does not require the 
commission of a felony; or proof of guilt beyond a reasonable doubt. 
Just as the standard imposed for Nixon's impeachment by the House 
Judiciary Committee was not based on the commission of a felony by the 
President himself, so too in 1989 the Committee relied on precedents 
that were more than 200 years old to bring impeachment charges for the 
High Crime of bribery against Judge Alcee Hastings, whose namesake, 
Warren Hastings, had been impeached for Bribery by Edmund Burke in the 
18th century.
    In 1983 Judge Hastings, who had been appointed by President Carter, 
was acquitted by a Florida jury of charges he had received a bribe of 
$150,000. In 1989, based on the same charges, he was impeached by the 
House, convicted by the Senate and removed from office.
                               conclusion
    Just as the House Judiciary Committee voted to impeach President 
Nixon--and later Judge Hastings-- for offenses that fell short of 
felonies, but which clearly involved evidence thereof, so too the 
current House of Representatives now has the authority to impeach 
President Clinton for Bribery as a High Crime without proof beyond a 
reasonable doubt. Moreover, it can, again similar to criminal cases, do 
so based on logical inferences from compelling circumstantial evidence.
    Impeachment of a President is a civil remedy and not a criminal 
one. As exemplified by the impeachment of Judge Hastings--and even more 
dramatically by the successful case against O.J. Simpson--the 
evidentiary standard of proof in civil proceedings is much less 
stringent than the beyond-a-reasonable-doubt standard applicable in our 
criminal courts. In the case of President Clinton, in constitutional 
terms, there is substantial evidence that he should be impeached for 
``Bribery'' and ``other high Crimes and Misdemeanors.''

    Mr. Barr. I would respectfully ask that you do take a look 
at it, because Mr. Zeifman raises a very interesting question, 
and that is something also that you touched on in your written 
testimony, and that is bribery.
    Under 18 USC 201, which you are very familiar with, one I 
think could very legitimately make the case that with regard to 
the Webb Hubbell payments of several hundred thousands of 
dollars involving--including from foreign sources, which is 
part of the pattern of activity that you talked about earlier, 
and which we see also in what appears to be an effort to buy 
either the silence of Monica Lewinsky, obviously unsuccessful, 
or her offering a job to have her shave her testimony in some 
way, is it not correct that if you do look at 18 USC 201, which 
is the bribery statute, that it would appear that many of the 
allegations concerning the payoffs and the evidence relating 
thereto could fall within 18 USC 201, and could also form the 
basis for an impeachment article?
    Mr. Starr. Well, again, we have given you our legal 
assessment, and I know that prosecutors and obviously Members 
of Congress can look at the law. We have not taken it through 
an analysis with respect to the bribery statute, and I think I 
should, if you would permit me to do that, withhold judgment in 
terms of the legal analysis so that I am not making an off-the-
cuff statement, notwithstanding my familiarity with the 
statute, in light of the various elements of the offense--or 
set forth in the bribery statute. But I do think that at a 
minimum, very serious questions are raised that are now here 
for you to evaluate in your own way.
    Mr. Barr. And this would also go to the----
    Mr. Hyde. The gentleman's time has expired.
    Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    Mr. Starr, you consider yourself a prosecutor now, don't 
you? You don't consider yourself an Independent Counsel?
    Mr. Starr. Um, I have never prosecuted----
    Mr. Delahunt. No, but I am saying in your current capacity, 
you consider yourself a prosecutor.
    Mr. Starr. We have to--that is certainly an important 
dimension of----
    Mr. Delahunt. Thank you. I want to get to another question, 
and you can see how the time is so limited, and I will try to 
be brief.
    I think it was Mr. Canady who talked about due process, and 
I dare say everyone in this room today is concerned about due 
process. My colleague from Massachusetts talked about the fact, 
and it is a reality, and I think it is important that the 
American people understand that the witnesses that you dealt 
with, none of them were subject to cross-examination, and you 
know that because you are a prosecutor, and because you have--
and you have referenced them many times today--career 
prosecutors in your office. So that in terms of their 
credibility, their memory, it has never been tested in an 
adversarial fashion. And you know, that really is a concept 
that is embedded in our American jurisprudence. Would you agree 
with that?
    Mr. Starr. Absolutely. Cross examination is very important.
    Mr. Delahunt. One other reference, I think it was my friend 
from Virginia, Mr. Goodlatte, who referred to Judge Claiborne 
being removed from office because of--and I think it was the 
chairman himself who elucidated for us, it was as a result of 
filing an income tax return under the pains and penalties of 
perjury, and I think that you agreed with that statement. But I 
think it is important to remember that this same committee back 
in 1974, when the laws and articles of impeachment presented 
before the committee regarding allegations against President 
Nixon concerning the very same offense, signing a tax return 
under the pains and penalties of perjury, it was this committee 
back then that voted against an article of impeachment on that 
particular matter. I think it is really important that the 
American people understand that.
    So there was a difference. There was a difference.
    I am just going to ask you one or two questions here, just 
to clarify some confusion in my own mind. You referred earlier 
to a letter dated June 16th that you directed to the editor of 
the Brill report.
    Mr. Starr. Yes.
    Mr. Delahunt. And on page 7 of your letter you noted that 
the Brill report stated, and I am quoting you here, ``They were 
also going to try to get Lewinsky to wire herself and get 
Jordan and maybe even the President on tape obstructing 
justice.'' And I think that's an accurate reading.
    In response, your letter went on to state, and I am 
quoting, ``This is false. This office never asked Ms. Lewinsky 
to agree to wire herself for a conversation with Mr. Jordan or 
the President.'' And again, I would suggest to you that that is 
an accurate reading of your letter, and I would hope that you 
would adopt it. I presume when you wrote that, you took great 
pains to be accurate, and particularly before you put such an 
unequivocal statement in writing. Do you stand by that 
statement?
    Mr. Starr. The specific statement on the wiring with 
respect to the President and Mr. Jordan?
    Mr. Delahunt. The statement that I just read to you. This 
office never had----
    Mr. Starr. Yes. I don't have the letter before me, and I am 
trying to follow it.
    Mr. Delahunt. Let me read it to you again, and I will read 
it slowly. ``This office never asked Ms. Lewinsky to agree to 
wire herself for a conversation with Mr. Jordan or the 
President.''
    Mr. Starr. Right. Yes.
    Mr. Delahunt. You stand by that statement?
    Mr. Starr. May I elaborate? Yes. What we--may I--these are 
serious questions, if I could----
    Mr. Hyde. You can try, Judge Starr. It is going to be 
tough. You can try to answer.
    Mr. Delahunt. If I could just go on, because----
    Mr. Canady. Mr. Chairman, I make a point of order that the 
witness should be allowed to answer the questions. This drive-
by questioning is not right.
    Mr. Delahunt. I would ask the chairman to allow me to 
continue.
    Mr. Hyde. Well, elementary fairness dictates an opportunity 
for the witness to answer your complex questions, and I think 
if you want to be fair, you will let him answer.
    Mr. Delahunt. I will be fair then, and I would ask the 
Chair to indulge me again----
    Mr. Hyde. I will indulge you for the answer.
    Mr. Starr. We explained to her at the Ritz Carlton what a 
cooperating witness would do. It is my understanding--I was not 
personally there, but it is my understanding that it was stated 
at a high level of generality with respect to what cooperating 
witnesses could be asked to do, and that that was one of the 
activities that could be included in what a cooperating witness 
would do, once the witness has been evaluated in terms of her 
credibility and the like.
    Mr. Delahunt. So the statement in your letter to Mr. Brill 
is inaccurate?
    Mr. Starr. No. It went with respect to the--and that is why 
I want to be careful that I understood exactly what the 
question was. And I hope that I have made clear that we talked 
at a high level of generality, not--as I understand it, not in 
a person-specific way with respect to what a cooperating 
witness would do.
    Mr. Delahunt. You realize that Ms. Lewinsky's testimony 
contradicts you.
    Mr. Starr. I am aware that there may be other perceptions, 
but that is what we, in fact, asked--it is my understanding 
that what we asked her to do was to consider being a 
cooperating witness, and it was stated by our people at a 
fairly high level of generality.
    Mr. Hyde. The gentleman's time has expired.
    The gentleman from Tennessee, Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Mr. Starr, I would like to thank you for being here, and I 
would like to thank you for being very patient over a long, 
difficult day, and I would like to say thanks for laboring 
diligently on behalf of the citizens of this country for many 
months at a very difficult task.
    Mr. Starr. Thank you.
    Mr. Jenkins. For the most part, I would compliment this 
committee insofar as they have talked about and asked about the 
Constitution, the law, the facts, and the testimony that 
surrounds this case. This committee is to be complimented. But 
there have been some occasional departures from these subjects, 
and I do not believe that those departures have necessarily 
been complimentary of this committee, and so I would like to go 
back to a line of questioning that Mr. Inglis started.
    On page 5 and paragraph 9 of your statement, you said that 
the President made false statements under oath to a grand jury 
on August the 17, 1998. As I understood the gentleman's 
testimony, Senator-elect Schumer agreed with that statement. 
And I noticed that you, in most of your characterizations of 
the evidence, you said that the evidence suggests, but in this 
particular instance you didn't even have that language in. You 
said that the President made false statements.
    Then you voiced an opinion in response to a question by Mr. 
Inglis that a reasonable person, or a reasonable juror, could 
find these statements to be material matter under the statute.
    Now, I would like to read a statute. It is Title XVIII, 
section 1621, and I would like to ask you if it is pertinent to 
this case, and an additional question or two.
    It reads in pertinent part, ``Whoever, having taken an oath 
before a competent tribunal that he will testify truly, 
willfully and contrary to such oath states any material fact, 
matter which he does not believe to be true is guilty of 
perjury.''
    Now, I know it is not your role to determine if a violation 
of that statute exists or did exist in this case, but let me 
ask you the same question Mr. Inglis did. Could a reasonable 
juror find that all of the elements were present in the 
evidence in this case, and that there had been a violation of 
that statute?
    Mr. Starr. It seems to me that a reasonable juror could, 
but obviously that would come at the conclusion of proceedings 
that would be a full trial. But it seems to be based on the 
evidence that is here, if that were the full body of evidence, 
that reasonable jurors could so conclude.
    Mr. Jenkins. And I understand that we are the reasonable 
jurors to make that determination in this case.
    Mr. Starr. It is your judgment.
    Mr. Jenkins. Or at least eventually in the United States 
Senate that decision is to be made.
    Now, there has been some mention and some characterization 
of the testimony of the 19 distinguished witnesses who appeared 
before this committee, 19 professors and historians. Did you 
happen to see or hear, or have you read the testimony of any of 
those witnesses?
    Mr. Starr. Some, but not all.
    Mr. Jenkins. Did you hear the characterization on the other 
side that very few felt that perjury is an impeachable offense?
    Mr. Starr. Yes, I did hear that.
    Mr. Jenkins. I personally heard differently when I heard 
those 19 witnesses. My recollection is that an overwhelming 
majority of them testified that perjury can be, or is, an 
impeachable offense. Was that your understanding from the 
testimony that they gave?
    Mr. Starr. Well, I did not--I am not sure. The testimony 
will speak for itself, but I certainly know that certain 
individuals, such as Professor McDowell with his elaborate 
common law analysis, did come to the conclusion, based on that 
history of the common law, and then the history of the founding 
of the American Republic, that to him and his scholarship, as 
in his studies at the University of London, that that was, in 
fact, clear in common law--which, of course, was transplanted 
to this country. But I did not have a chance to evaluate all of 
the 19 individuals.
    Mr. Jenkins. Thank you very much, Mr. Chairman.
    Mr. Hyde. The gentleman from Florida, Mr. Wexler.
    Mr. Wexler. Thank you, Mr. Chairman.
    The Founding Fathers had infinite choices when they 
conceived our government. They considered placing impeachment 
in the realm of the courts, but instead they decided that 
impeachment should be a political process as well as a legal 
one; that the House of Representatives was uniquely qualified 
to deliberate on the removal of an elected President because we 
would take into account the views of the President's ultimate 
jury: the people of the United States of America. And make no 
mistake about it, that jury rendered its judgment loud and 
clear on November 3rd, and this committee did not listen.
    This committee is ignoring the will of the American people, 
and instead following the lead of this so-called Independent 
Counsel who has conducted a politically-inspired witch-hunt in 
search of a crime to justify 5 years and $40 million of 
taxpayers' money.
    The American people do not approve, Mr. Starr. They know 
unfairness when they see it. They know injustice when they feel 
it. They know hypocrisy when they smell it. They know partisan 
politics when they are the victims of it. In their gut they 
have figured this thing out, and still this committee does not 
listen.
    Here is what the American people have concluded: The 
President had an affair. He lied about it. He didn't want 
anyone to know about it. But he didn't bribe anyone, he didn't 
obstruct justice, he didn't commit treason, he did not subvert 
the government. And yet, the committee continues, because, they 
say, they fear for the rule of law.
    But as I listen to the questions of my Republican 
colleagues today, I did not hear their concern for the rule of 
law regarding Linda Tripp's illegally recorded phone 
conversations. I do not hear their concern for the rule of law 
regarding the illegal leaking of grand jury testimony. And 
where is their concern for the rule of law about Ken Starr's 
team denying witnesses their basic and fundamental rights of 
due process?
    How we obtain information and conduct investigations in 
this country does matter. The President is not above the law, 
Mr. Starr, and neither are you. That is why I must ask you the 
following questions about your investigation. And please let me 
read my four questions before you respond.
    On January 16, 1998, do you admit or deny that your agents 
threatened Ms. Lewinsky with 27 years in prison if she 
contacted her attorney as she testified? Do you admit or deny 
that your agents threatened to prosecute her mother if Ms. 
Lewinsky called her attorney, as she testified? That your 
agents told Monica Lewinsky that she would be less likely to 
receive immunity if she contacted her attorney, as she 
testified? Do you admit or deny that your office threatened 
Julie Hiatt Steele, a witness in the Kathleen Willey matter, 
that they would raise questions about the legality of the 
adoption of her 8-year-old child unless she changed her 
testimony?
    If you would please, Mr. Starr, in the interest of time, 
please admit or deny. Have your agents--did your agents 
threaten Ms. Lewinsky with 27 years in prison?
    Mr. Starr. Before I engage in an admission or denial, I 
would want to see the question, and I would be delighted to 
receive the question, and then I would then give you a written 
admission or denial.
    Mr. Wexler. May I make it simple?
    Mr. Rogan. Mr. Chairman, parliamentary inquiry, please.
    Mr. Hyde. The gentleman will state his inquiry.
    Mr. Wexler. I assume it is not on my time.
    Mr. Hyde. Your time has almost expired, but I will give you 
another minute.
    Mr. Rogan. It is with respect to the procedures. Perhaps it 
is only me, but I am finding it very difficult to follow with 
this pattern of multiple questions being asked, and then 
inviting multiple answers at once. The answers ought to be in 
sync with the question, and I would suggest that the better 
practice would be to follow ``question, answer, question, 
answer.''
    Mr. Frank. Point of order, Mr. Chairman. That is not a 
parliamentary inquiry.
    Mr. Hyde. The Chair states that that is not a parliamentary 
inquiry.
    A member who has 5 minutes can ask or assert whatever they 
want. It is curious that they all use the 5 minutes, we have 
done it, too, and then Mr. Starr has difficulty answering 
because there are further interruptions. I don't think this has 
been at all a fair proceeding. It hasn't been the Chair's 
fault, but take what time you need to answer the speech of Mr. 
Wexler.
    Mr. Starr. Three of the questions went--and if you ask me 
in writing, I will be happy to follow up. Three of the 
questions went to the events of the evening of January 16th. I 
will say that we conducted ourselves properly and lawfully; 
that that determination has been made. These issues get 
litigated in court, and I think, if I could finish, that we 
conducted ourselves in a proper and professional way, saying 
that we want the witness to cooperate under the circumstances 
of her engaging in felonious conduct.
    With respect to your fourth question--and that is my 
response with respect to those.
    With respect to the fourth question on Ms. Steele, as I 
said earlier, I believe that our agents are going about their 
work in a way that is appropriate to test credibility, to 
inquire as to areas that, in their professional judgment, go to 
credibility, but if there are issues with respect to how a 
particular witness is handled, and I have heard a number of 
those questions, I think the right thing to do is for the 
individual, especially one, as Ms. Steele is, represented by 
counsel, to go to court and say they have been treated unfairly 
and to see what the remedy is. But for me to try to engage in 
almost an adjudicatory function here is somewhat odd to take 
certain selected ones and come to an ultimate
    judgment.
    Mr. Hyde. The gentleman's time has expired.
    Mr. Wexler. Mr. Chairman, you had indicated that I could 
have a minute before the other gentleman from California.
    Mr. Hyde. Well, don't you consider the time to answer your 
questions part of your time?
    Mr. Wexler. Mr. Chairman, I sat very diligently--I ask for 
15 seconds.
    Ms. Waters. It has been this way all day.
    Mr. Hyde. Mr. Wexler, you may have 15 seconds.
    Mr. Wexler. Thank you, Mr. Chairman.
    Mr. Starr, I did not ask you about the legality of the 
actions of your agents. All I asked you was a factual question. 
Did your agents or did they not threaten Ms. Lewinsky with 27 
years in prison? It is either yes or no, not the legality.
    Mr. Starr. I do not--I know what Ms. Lewinsky has said. I 
would have to conduct an interview with my agents to know what 
the position of the office is.
    Mr. Frank. The answer was yes.
    Mr. Hyde. The gentleman from Arkansas.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    Judge Starr, following up, am I correct that the 
appropriate district court judge reviewed the conduct of the 
agents at the time they initially interviewed Monica Lewinsky 
and found that no due process was violated?
    Mr. Starr. Well, it was put in terms of a right to counsel, 
and there apparently are issues with respect to the orders. I 
am doing my best to recall the judge's order, but the judge, in 
fact, determined that there was no violation of a 
constitutional right. That is my best recollection. But the 
order will speak for itself.
    Mr. Hutchinson. I want to thank you for your willingness to 
appear here today. Going back to earlier in the day when we had 
the dispute over how much time, I do hope the President's 
counsel will have equal time to make a presentation similar to 
what you have done today, and I trust that the President's 
counsel will graciously submit to questions by the Members of 
this body, as you have done.
    I wanted to go back to your testimony. On page 34 you 
testified that the Constitution provides for two separate 
proceedings, the impeachment trial and a separate criminal 
trial. And Mr. Boucher, I believe, asked some questions in 
regard to this. Would it be within your jurisdiction to pursue 
any criminal conduct for perjury or obstruction of justice?
    Mr. Starr. Yes, Congressman, I believe that under the grant 
by the Attorney General in the Special Division, there would be 
jurisdiction in our office.
    Mr. Hutchinson. In deciding to refer these charges to the 
Congress of United States as substantial and credible evidence 
that obstruction of justice and perjury occurred, I assume that 
there was consideration in your office as to whether criminal 
proceedings should be initiated?
    Mr. Starr. That is exactly correct.
    Mr. Hutchinson. You have to make a determination whether 
that can be done during the President's term of office or after 
he leaves office.
    Mr. Starr. That will certainly be an issue.
    Mr. Hutchinson. Do you have an opinion in that regard?
    If you feel uncomfortable answering that, feel free to say 
so.
    Mr. Starr. I feel uncomfortable answering that. I think it 
is an important issue on which there is a lot of difference of 
opinion in terms of what is appropriate in our constitutional 
order. So I am reluctant, without the most careful thought, to 
speak to that, if you would indulge me that.
    Mr. Hutchinson. Well, the point I am making is that 
everybody says that the country wants to get this behind us. 
And how do you get it behind us? We have had a gentleman from 
the other side of the aisle say that the President committed 
perjury, and he ought to be punished. Now, I haven't reached 
that conclusion yet, but if you reach the conclusion that he 
ought to be punished, and you don't believe this is an 
impeachable offense, that means that the only option is for the 
Independent Counsel to initiate criminal prosecution against 
the President of the United States, and I don't see how that 
gets it behind us. I think that is a heavy issue that I know 
you have to weigh, as well this committee has to weigh.
    Now, let me just go on to some other questions here. In 
your referral, you referred on pages 7, 8 and 9 to a pattern of 
conduct, and that was really the basis on which the Attorney 
General gave you an expanded jurisdiction in the Monica 
Lewinsky case. That pattern of conduct you referred to involved 
Webster Hubbell; am I correct?
    Mr. Starr. That is correct.
    Mr. Hutchinson. Then in your testimony today at page 45, 
you indicate that in June of 1994 $100,000 was paid to Webster 
Hubbell from James Riady. James Riady is represented in this 
country, by John Huang.
    There has been published reports that John Huang is a 
cooperating witness. So my question to you would be: Is John 
Huang a relevant witness in the pattern of conduct you referred 
to in the original report? And then I want to ask you this--
well, go ahead and answer that, if you could.
    Mr. Starr. I would prefer to reflect on that and answer 
that in a more sober way, if I could, as opposed to an 
impromptu response. In terms of the relevancy of a witness at 
this stage, and in light of, you know, our coming to judgment, 
which we reached after a lot of deliberation, we did not 
include him in the referral. So I would be happy to answer 
that.
    Mr. Hutchinson. Do we have all the material at the present 
time that is relevant to this referral and the pattern of 
conduct on which you based your jurisdiction?
    Mr. Starr. I believe that you do. I know there are still 
some issues, but I believe that you do, Congressman.
    Mr. Hutchinson. I think it is important, you know, that we 
have this information now and not at the conclusion of the 
hearing process. So I know that you are laboring diligently to 
that end, but I would certainly urge you to get everything over 
to us.
    And out of respect for the Chair, I will stop.
    Mr. Hyde. I love you, Mr. Hutchinson.
    The gentleman from New Jersey, Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman. I have a statement.
    We are here today to consider the rule of law in America. I 
am referring to the rule of law that should be applied fairly 
to everyone in America, including the President of the United 
States. That rule of law and fairness must also be applied by 
this committee and by you, Mr. Starr. Whether the President 
engaged in offensive conduct or deceptive conduct is not what 
we are here to decide. Whether the President can or will be 
brought up on civil or criminal charges is also not what we are 
here to decide. We are here to decide whether a United States 
President, for the first time in over 200 years of American 
history, should be judged to have committed treason, bribery or 
other high crime or misdemeanor, and whether it is necessary to 
remove our President from office.
    In yesterday's New York Times, Mr. Starr, your spokesman, 
Charles Bakaly, III, said, in describing your work, quote, ``We 
make no judgments. We have simply gathered the facts.''
    Well, Mr. Starr, that is not what your office has done. In 
truth, in your 450-page referral, you selected, for the most 
part, the facts that tended to show the President in the worst 
light and those that would bring condemnation to the President, 
instead of revealing all the facts and the contexts that might 
have exonerated the President, or shown the uncertainty and 
ambiguity of the evidence against the President.
    In fact, in my judgment, much of your legal case, Mr. 
Starr, as set forth to date rests on unfair innuendo and 
overreaching inference. For example, in your 450-page report, 
you dismissed and did not even quote Monica Lewinsky's 
statement to the grand jury when she said, quote, ``No one ever 
asked me to lie, and I was never promised a job for my 
silence.''
    And it was left to a grand juror, on his or her own 
initiative, to raise that question, because no one from your 
office pursued this obvious line of questioning, which would 
have been beneficial to the President.
    In your 450-page report, Mr. Starr, with respect, I believe 
you also failed the American people and this committee by 
omitting or misrepresenting the following facts that would have 
been favorable to the President, including that Betty Currie 
testified that taking back the President's gifts was her idea; 
that discussions about a job for Miss Lewinsky were made more 
than 5 months before Miss Lewinsky was even mentioned as a 
witness in the Paula Jones case; that Betty Currie was not a 
witness in any proceeding at the time you allege that President 
Clinton tried to influence her testimony; that it was the 
Secret Service and not the President who urged the Court to 
prevent their agents from being subpoenaed; and that both Miss 
Lewinsky and the President have said that the President never 
asked her to submit a false affidavit.
    Mr. Starr, you are, as you have said, an eyewitness to 
nothing relevant to your referral. You have heard nothing 
firsthand. You saw nothing firsthand. You have no direct 
knowledge of any facts relevant to your case for impeachment. 
You have simply provided us with a one-sided 450-page 
prosecutor's opening statement with unnecessary details of 
explicit sexual activity designed solely to humiliate and 
damage the President of the United States.
    What motives have driven you to pursue certain evidence 
only, to characterize that evidence, in my opinion, in a skewed 
way, and to make a legal case for impeachment founded on 
innuendo and inference and with whom you consulted in that 
process will not in the end determine whether or not I will 
vote for impeachment. But how you and your deputies have 
pursued this President and the case you have set forth for his 
impeachment does lead me to seriously question the facts you 
have alleged and to seriously question the conclusions you 
would have us come to.
    Mr. Chairman, may I have 30 seconds, please?
    Mr. Hyde. Thirty seconds more, surely.
    Mr. Rothman. Notwithstanding this, I will withhold my final 
judgment on impeachment until this inquiry is concluded.
    In the end, Mr. Starr, this committee's legacy will not be 
our decision regarding whether this President is the first in 
200 years to be impeached on a finding of treason or bribery or 
high crimes and misdemeanors. That is Mr. Clinton's legacy. Our 
legacy will be how we arrived at our decision in faith with the 
Constitution.
    Finally, Mr. Starr, you say in your statement today that 
you live in the world of the law, and you boast that you often 
win. But Mr. Starr, this is not about winning or losing in the 
courtroom. This is not some personal or professional 
competition between you and Bill Clinton. This is not a legal 
game or a sport to win or lose. This is about the Constitution 
of the United States that has kept America strong and free for 
more than 200 years.
    Mr. Hyde. I thank the gentleman.
    Do you choose to respond? You are welcome to.
    Mr. Starr. Well, let me say this, and I will be, I think, 
for me, extremely brief.
    I believe, Congressman, this is elaborately corroborated. 
If fair-minded people read it, they will see that the vast 
majority of facts are not in dispute. It is for you to assess, 
and this is where I think you are quite right. In terms of 
judgments, it is your judgment. It is your judgment as to the 
significance of this. That is entrusted to you.
    But we had an obligation to gather facts pursuant to a 
jurisdictional grant. We gathered them. We believe we were 
complete. And all the information from which the questions have 
been drawn with respect to why wasn't this there is all before 
you.
    In our judgment, to say--for example, to take the one 
example that you especially emphasized, about Ms. Lewinsky's 
statement, for me it is fair--and you may disagree with this, 
and we can agree agreeably to disagree--to say in this referral 
Miss Lewinsky has stated that the President never explicitly 
told her to lie, and to tell the entire story, not just a part 
of the story that she was interested in telling because of her 
understandable reluctance to in any way hurt the President of 
the United States. We told what we saw is the entirety of the 
relevant story, and we provided you with all of the additional 
information for you to evaluate.
    Mr. Hyde. The gentleman from Indiana, Mr. Pease.
    Mr. Pease. Thank you, Mr. Chairman.
    Mr. Starr, it has just recently been asserted that it was 
the Secret Service and not the President that asserted the 
novel notion of a protective privilege. But as I understand it, 
the President's personal attorney Mr. Bennett filed papers in 
the Jones case which said, among other things, quote, 
``President Clinton, through undersigned counsel, emphatically 
expresses his support, on behalf of himself, the office of the 
Presidency and all past and future Presidents for the motion 
for a protective order filed by the United States Secret 
Service in this matter.''
    I would appreciate your comment on that quote and whether 
that assertion of a privilege affected your pursuit of the 
facts in this matter.
    Mr. Starr. Yes. It is my understanding that there was, in 
fact, an embracing of the asserted privilege; and, yes, in our 
investigation, it was a source of material and considerable 
delay and an enormous amount of litigation that ultimately 
went, as we all know, to the Supreme Court of the United 
States; each judge who looked at it at the lower courts 
determined that there was no legal basis for the creation of 
the privilege under Rule 501.
    As I said in my opening statement, I think it was a very 
weak claim. It was not crafted--and I think this is important 
for the people to understand--it was not crafted as a 
constitutional privilege to protect the President. Rather, the 
privilege that was asserted was the protective function 
privilege under Rule 501 of the Federal Rules of Evidence, 
which looks to the common law, the experience of courts. It was 
a very broad and sweeping, but unmeritorious, claim. We had to 
litigate it. It also prevented our getting timely evidence from 
people whom we needed it from.
    Mr. Pease. Thank you, Mr. Starr.
    Earlier today, I believe it was my colleague from Tennessee 
who pointed out that in the case of the grand jury testimony, 
your referral probably made a stronger statement than it did in 
some of the other matters when it said categorically that the 
President gave false and misleading testimony under oath.
    Can you summarize for us the factual basis for that 
conclusion?
    Mr. Starr. Yes. I tried to do this in the opening 
statement. Considering, for example, the relationship with Ms. 
Lewinsky, their activities when they were together and the 
circumstances of their being together, the circumstances with 
respect to Mr. Jordan and the responses with respect to whether 
Mr. Jordan and the President had had conversations about 
certain subjects, as we outlined in the opening statement in 
specific detail after specific detail, there is very 
substantial reason to believe that the President did, in fact, 
not tell the truth under oath and is contradicted very 
substantially, we believe, by other undisputed evidence.
    Mr. Pease. One of the--thank you, Mr. Starr.
    One of the questions that was raised earlier and for 
reasons that I understand from the Chair that we didn't go 
into, our colleague from California raised the whole issue of 
credibility of witnesses as you drew your conclusions that were 
sent to us. But I would like to address, at least for a few 
moments, the issue of the credibility of Miss Lewinsky. And we 
know, from your statements and others, that she made false 
statements. She was granted immunity, then made other 
statements. Why is it that we should believe some of those 
statements on which you rely and we should not believe other 
statements that we know to have been false?
    Mr. Starr. Yes. The reason is corroboration. And I quite 
agree, a statement by a witness who has been known to lie 
should, in fact, be then examined and checked. So you look at 
other evidence and ask if the evidence corroborates it.
    Her evidence was very powerful and indeed we thought 
compelling, as I tried to mention earlier. When she could say 
that when she was alone with the President--he denied being 
alone--that he received a phone call from a Florida sugar 
grower whose name sounded like Fanjul, it was very close, 
including the time, so we would check telephone records and the 
like, and movement logs. We elaborately and thoroughly 
documented all of those issues for the very reason that a 
number of the witnesses in this matter had questions with 
respect to their credibility.
    That's why you don't go with a witness statement alone. You 
look to see what other evidence, if any, there is to 
corroborate, and here there was overwhelming evidence to 
corroborate.
    Mr. Pease. Thank you, Mr. Starr.
    Thank you, Mr. Chairman.
    Mr. Hyde. The gentleman from Wisconsin, Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman.
    Mr. Starr, I believe President Clinton's actions were 
wrong.
    Mr. Starr. I beg your pardon?
    Mr. Barrett. I believe President Clinton's actions were 
wrong, and we must decide as a Congress, as a country, how he 
should be held accountable. But I also believe that the 
ambivalence that this country feels and that I feel about this 
matter is colored in large part by the actions of your office 
and Linda Tripp.
    I am going to ask you a series of questions, most of which 
have been asked by Mr. Lowell and to which you have given 
longer answers, so I would ask that you give short answers. In 
fact, I believe every one of these questions can be answered 
with a yes or no, and I am going to ask you and let you answer 
right after each question.
    Prior to being named Independent Counsel, you gave your 
opinion publicly on several occasions that Paula Jones's 
lawsuit should be allowed to go forward. Is that correct?
    Mr. Starr. I--the implicit--the answer to that is yes.
    Mr. Barrett. It is an easy question, Mr. Starr.
    Mr. Starr. I think the answer to that is yes.
    Mr. Barrett. In fact, you even had several conversations 
with Gilbert Davis, Paula Jones' attorney, and discussed 
constitutional issues in this case, correct?
    Mr. Starr. That is correct.
    Mr. Barrett. Let's fast-forward to this hearing. Your 
office entered into a written immunity agreement with Monica 
Lewinsky; is that correct?
    Mr. Starr. That is correct.
    Mr. Barrett. And this written immunity agreement contained 
a secrecy provision that prohibited her from talking about her 
testimony, including talking to the media; is that correct?
    Mr. Starr. Yes, that is correct.
    Mr. Barrett. And your office also provided an immunity 
letter to Linda Tripp; is that correct?
    Mr. Starr. Yes, that is correct.
    Mr. Barrett. But Linda Tripp's immunity letter had no 
secrecy provisions, did it?
    Mr. Starr. I believe that is correct. I have not--
Congressman, may I be permitted to say just a word?
    Mr. Barrett. Yes.
    Mr. Starr. I have not reviewed the Linda Tripp letter in 
advance of this, but it is my understanding that it does not 
contain this. But that is my--that is my understanding, and 
that is my best recollection.
    Mr. Barrett. I will read it: This letter confirms the 
previous representations I have made to you regarding your 
client Linda R. Tripp. As we have discussed, we agree on behalf 
of the United States that coextensive with the provisions of 
Title 18 . . . no testimony or other information provided in 
this agreement or information directly or indirectly derived 
from such testimony or other information may be used against 
Ms. Tripp in any criminal case, except a prosecution for 
perjury.
    That is the essence of the letter.
    So nothing in this immunity letter prohibited Linda Tripp 
from talking to the media; is that correct?
    Mr. Starr. Again, that is correct, but if I can say just a 
word.
    Mr. Barrett. I think you have answered it. I just want to 
get through my questions, and I think you have answered it.
    Mr. Starr. But I need to get through my answer, and I 
simply need to say one sentence. This was a different kind of 
immunity than the immunity granted to Monica Lewinsky.
    Mr. Barrett. I understand. You explained that to Mr. 
Lowell.
    Mr. Starr. Yes. I am sorry.
    Mr. Barrett. Now, on January 13, 1998, your office sent 
Linda Tripp, wired for sound, to meet with Monica Lewinsky at 
the Ritz-Carlton Hotel; is that correct?
    Mr. Starr. That is correct.
    Mr. Barrett. Indeed, after Linda Tripp had been wired, a 
reporter for Newsweek called your deputy, Jackie Bennett, and 
made inquiries about these activities; isn't that correct?
    Mr. Starr. I believe the timing of that is correct.
    Mr. Barrett. And following that call, there was nothing put 
in writing to Linda Tripp or her attorney limiting her from 
talking to the media; is that correct?
    Mr. Starr. I think that is correct. I would have to review 
the record, but I think that your understanding is correct, 
subject to my review of the record.
    Mr. Barrett. And nothing in the written immunity agreement 
prohibited Linda Tripp from talking to or working with Paula 
Jones or her attorneys; is that correct?
    Mr. Starr. That is correct, and we then made it clear, when 
it was evident that the--I am sorry.
    Mr. Barrett. I am talking about the written agreement now. 
And on the eve of the President's deposition in the Jones suit, 
Linda Tripp met with Miss Jones's lawyers; is that correct?
    Mr. Starr. That is my understanding now. It was not our 
understanding or information at that time.
    Mr. Barrett. I understand. And at that point, on January 
16th, she was an agent for your office, and the same day she 
met with Paula Jones's attorneys. That is correct?
    Mr. Starr. Well, I would----
    Mr. Barrett. I am not asking whether you liked it or you 
approved of it. I am just asking factually whether that is 
true.
    Mr. Starr. That she was being a witness for us, and she 
was, in fact, providing certain information to us. What we were 
seeking under this immunity agreement was the information that 
she said existed.
    Mr. Barrett. I am asking whether it is true whether she had 
acted as an agent for you that day, and whether she met with 
Paula Jones's attorney that night.
    Mr. Starr. She had acted as a cooperating witness.
    Mr. Barrett. Fine, as a cooperating witness.
    Mr. Starr. Well, she was acting in collaboration with us, 
and if I could be permitted to answer that.
    Mr. Barrett. Let me just finish.
    Mr. Starr. Okay.
    Mr. Barrett. I would ask the chairman to give you a little 
time, if I could.
    But she was free to do that because there was nothing in 
the immunity agreement to prohibit her from doing that.
    Mr. Starr. Again, the purpose of the immunity agreement was 
different, and you are right.
    Mr. Barrett. Okay. I just want to know that.
    Mr. Starr. There was nothing in the immunity agreement 
because of the very nature.
    Mr. Barrett. The next day was, of course, the day that 
President Clinton was deposed. And there was a question asked 
of him about whether he had tried to bribe Monica Lewinsky or 
other things, and he was very surprised by this. And James 
Fisher, her attorney, responded, and this is from Time 
Magazine, ``I think this will come to light shortly, and you 
will understand.''
    Now, what this tells me, Mr. Starr, is that we start out, 
and 4 years earlier you have shown your support for not having 
the President be immune from lawsuit. And in the end we have 
the attorney for Paula Jones knowing exactly what your office 
is doing and having one of the key witnesses in your case 
cooperating not only with you, but with Paula Jones's 
attorneys. That is why this country feels as it does.
    Mr. Hyde. The gentleman's time is up. The witness may 
answer.
    Mr. Starr. Yes, if I could respond briefly. There are a 
number of premises in your last question that I just 
respectfully but fervently disagree with.
    I do not believe that my position with respect to the 
constitutional immunity of the President, which I discussed 
with a variety of persons, including Mr. Fiske, Mr. Davis, and 
others, has the slightest bearing or relevance on the questions 
that were before us in 1998. You may disagree with that, but 
that was my judgment.
    And I would simply say that the position that I took was 
vindicated by the Supreme Court 9 to 0. That suggests that 
the----
    Mr. Barrett. I don't quarrel with that at all. Just so you 
understand, I don't quarrel with that at all.
    Mr. Hyde. The gentleman is answering.
    Mr. Starr. But it is also because the issue that had 
engaged my attention, the possibility that Bob Fiske would file 
an amicus brief in the Paula Corbin Jones civil case, was 
likewise information that I did not think had a bearing on the 
issues that were before us in a criminal case, and that was my 
judgment. And what we did bring to the Justice Department, to 
make sure that the Department knew what we were doing, was the 
information that we had, and we said, we want to give all 
information that is available to you, and ask questions. And my 
involvement in 1994 had been very public, and indeed I had been 
on various news programs espousing that very position.
    Mr. Barrett. Again, Mr. Starr, I don't think----
    Mr. Hyde. The gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    Mr. Starr, this has been a long and very tough hearing, 
although I, for one, have thoroughly enjoyed your answers.
    Mr. Starr. Thank you.
    Mr. Cannon. Your name has been slandered around the country 
for a year and more, and there have been many factual bases for 
that slander. We have gone now through, I think, some of the 
best and brightest--allegedly slander, I should say--of the 
people in Congress, many of whom have participated in that, and 
what I would call the President's prodefamation league. And you 
know what, they have whiffed today. They have gotten nothing. 
Your answers have been so good that I don't think they have 
found even colorable impropriety on your part. The answers that 
you have given being relatively difficult for them, it is easy 
to see what they have reverted to.
    We have had a series of repeated unsubstantiated and 
frankly embarrassing bombast directed at you with great 
intensity, and one to four questions leveled at you, sometimes 
very complicated, with follow-up interruptions that have made 
your answers difficult. And I might say that--just point out 
that the Chair has been a lot more gracious with the Democrats 
than with the Republicans in this hearing today.
    I now see why the pit bulls of this administration have 
been unleashed on you. You have done a great job and, frankly, 
I believe that every pundit in America will believe and 
conclude that your presentation today has changed the nature of 
this debate from you to the President's acts.
    Let me just clear up a couple of things that I have heard 
today. You talked earlier about the civil perjury in the Jones 
deposition, and the issue of materiality came up, and you used 
the term ``bogus.'' Would you just clarify? Did you mean in 
that to say that the false statements made in the Paula Jones 
deposition were, in fact, material, and that any argument that 
they weren't material is bogus?
    Mr. Starr. Yes. I wasn't sure, and you will forgive me, I 
am not recalling in what specific or particular I used that 
term, and that is a strong term. But I do think that the 
matters that were there and that you have been analyzing do 
satisfy a reasonable juror's view with respect to the question 
of materiality, which, again, as I have said, is ultimately a 
jury question. And I think one of the issues, therefore, that 
you would assess is what would I, as a juror, do, although I 
hasten to note that your function, of course, here is 
ultimately a constitutional function and not an ultimate fact-
finding function, although obviously you have great and 
unbridled and unfettered discretion in terms of how you will 
define the project or the mission in order to fulfill your 
constitutional duty.
    Mr. Cannon. That is in the context of a civil action.
    Mr. Starr. Yes, and that is in the context of a civil 
action. I am sorry.
    Mr. Cannon. According to the sworn declaration of White 
House counsel Charles Ruff, the President personally directed 
him to assert executive privilege to prevent you from 
questioning some of his assistants.
    When he was in Africa, however, President Clinton denied 
knowing about the assertion of executive privilege. Which is 
it? Did Mr. Ruff ever amend his declaration, or is the 
President lying to the public on his Africa trip?
    Mr. Starr. To my knowledge, Congressman, there was never an 
amendment to the declaration, and the declaration was filed on 
March 17--the declaration may be dated March 17, and then the 
President's statement in Africa was on March 24th.
    So they both can't be right. Either the President had 
discussed with Mr. Ruff the invocation of executive privilege 
or he had not. Both cannot be true.
    Mr. Cannon. I understand that certain White House officials 
asserted executive privilege with respect to portions of 
conversations with Vernon Jordan, a private citizen. Is this 
true, and on what basis could such a claim be made?
    Mr. Starr. There was an invocation of executive privilege 
early on, and we believe--with respect to conversations with 
Vernon Jordan. They were withdrawn. But we believe that that is 
part of the pattern of the lavish and, we believe, unfounded 
invocation of executive privilege.
    How can a conversation with someone who is outside the 
government and relating to matters involving an affidavit in a 
private civil case and securing a job at Revlon for someone, 
how can that possibly justify a good faith invocation of 
executive privilege?
    Perhaps others disagree with me. I gather, from the 
testimony that you have heard, others do disagree with me. But 
to me, when you look at the totality of the invocation and the 
withdrawal of executive privilege, I conclude that there is a 
pattern of abuse.
    Mr. Cannon. Thank you, Mr. Starr. I think that 1998 is 
going to be the year of McGwire, Sosa and Starr.
    I yield back.
    Mr. Hyde. Thank you very much.
    The gentleman from California, Mr. Rogan.
    Mr. Rogan. My colleagues' characterization may be right. I 
just hate to guess what type of hall of fame you may end up in 
when this is all over, Judge Starr, but I do thank you for your 
staying power today and for joining us.
    I was particularly interested in the grave concern that has 
been repeatedly expressed by my colleagues across the aisle 
respecting your office's initial interview with Monica 
Lewinsky. I have been sitting here listening for several hours 
to the vigorous cross-examination that you have endured by 
those who are professing a desire to ensure that Monica 
Lewinsky was neither inconvenienced or intimidated by your 
office during your interview with her.
    I would note that if your office did violate any of her 
procedural due rights, there are legal remedies that she would 
enjoy to protect her from any legal liabilities or criminal 
liability.
    Mr. Starr. Yes. And could I just add one thing, 
Congressman, because this has arisen so frequently, that one of 
the reasons, in terms of reliability, whatever one thinks with 
respect to our activities on the evening of January 16th, not 
one piece of evidence in this referral relates to or depends 
upon what happened, because she chose at that time not to be a 
cooperating witness.
    Nothing in this referral is affected by the events at the 
Ritz-Carlton. So it is ultimately a very interesting academic 
question that embodies more a ``what can we attack the 
prosecutor?'' with than anything else. But ultimately, even the 
attacks on the prosecutor and the investigation are utterly 
without merit.
    Mr. Rogan. Judge, I want to take this----
    Mr. Starr. Yes, excuse me.
    Mr. Rogan. And I hate to interrupt, but my time is limited. 
I want to take this bipartisan concern over the potential 
victimization of Monica Lewinsky to the next step. Looking at 
the evidence, as Ms. Lewinsky testified to, that the President 
suggested she could sign an affidavit and use under oath 
deceptive cover stories. If, in fact, the President convinced 
Monica Lewinsky to engage in this pattern of conduct, what are 
the legal liabilities that Monica Lewinsky would face if this 
were uncovered and she were convicted?
    Mr. Starr. She would be facing possible criminal charges, 
at a minimum, for perjury, and additionally possibly 
subornation of perjury, and the penalty with respect to perjury 
alone is 5 years imprisonment maximum.
    Mr. Rogan. This goes beyond mere inconvenience in an 
interrogation. You are talking about incarceration for up to 5 
years? Is there a potential fine that is involved? Could she 
lose her voting rights in her home State? Are there other 
severe penalties that she could face?
    Mr. Starr. Yes, all those can flow. Fines can be imposed, 
and the sentencing guidelines guide this, and yes, there could 
be a loss of voting rights in her home State of California.
    Mr. Rogan. And I raise that, Mr. Chairman, and Judge Starr, 
because as much as I appreciate my colleagues on the other side 
rising up in indignation over the bare suggestion that Ms. 
Lewinsky was incommoded or intimidated during your interview, I 
am absolutely dumbfounded by their heretofore silence on the 
very real and very permanent threat to her liberty and her 
rights as a citizen if her characterization of President 
Clinton's conduct is true. And I hope that will be addressed 
perhaps by the President's attorney when he joins us in a few 
minutes.
    Moving to the President's deposition in Jones v. Clinton, 
when he said ``I don't recall'' if he had ever given any gifts 
to Monica Lewinsky, and when he said ``I have no specific 
recollection'' of ever being alone in any room of the White 
House. Looking at those two sorts of answers, ``I don't 
recall,'' and ``I have no specific recollection'': what is the 
legal significance in a deposition or in a trial for a witness 
who swears to tell the truth, the whole truth and nothing but 
the truth to give an answer such as, ``I don't recall, or, ``I 
have no recollection,'' when, in fact, they do recall and they 
do have a recollection?
    Mr. Starr. That can be proven up to be perjury. That is to 
say, you have to give under the oath the whole truth and 
nothing but the truth, and if one does recall but says one does 
not; that may be a difficult issue, but one then looks to the 
circumstantial evidence. Is it likely that one would recall 
being in this room at some time in 1998? It is likely that one 
would recall that, especially if one is asked that in 5 weeks?
    So what were the circumstances? And, yes, the circumstances 
were such that a reasonable human being, given our common human 
experience, would recall, and, yes, individuals have been 
prosecuted for the inability to recall that which is viewed as 
so straining credulity as simply to be a lie.
    Mr. Rogan. The mark of a freshman Congressman is they 
always stop talking, Mr. Chairman, when their time really is 
up. I hope to maintain that philosophy during my sophomore year 
with this committee.
    Mr. Hyde. Very well.
    The gentleman from California, Mr. Berman.
    Mr. Berman. Thank you, Mr. Chairman. I have one question, 
with a possible follow-up depending on the answer.
    Did the 23 members of the grand jury sign off on this 
referral?
    Mr. Starr. No, we did not ask the grand jury to review the 
referral. We briefed them on our obligations. It was our view 
of the statute, it is our reading of the statute, that it is 
the judgment of our office.
    Mr. Berman. I understand the statute in no way obligates 
that.
    Mr. Starr. Yes.
    Mr. Berman. My follow-up, given that they didn't sign off 
on it, did they vote on or review the allegations, the 
credibility determinations or the inferences that the referral 
draws?
    Mr. Starr. No. We did not ask the grand jury to make 
specific judgments on specific witnesses. These were our 
assessments. These were our evaluations.
    Mr. Berman. Thank you very much.
    Mr. Hyde. The gentleman from South Carolina, Mr. Lindsey 
Graham.
    Mr. Graham. Thank you, Mr. Chairman.
    If you can handle a couple more, we are about at the end 
here.
    One thing I have learned, Judge Starr, about impeachment, 
it is becoming more and more clear to me, I asked a question 
before to myself, really, is this Watergate or Peyton Place? 
And I learned that I dated myself because no one in my office 
knew what Peyton Place was about. So it should have been 
Melrose Place, I suppose.
    But one thing I have learned is without--we can talk 
academically and legalistically about crimes and punishment, 
but without public outrage, impeachment is a very difficult 
thing, and I think that is an essential component of 
impeachment. I think that is something that the Founding 
Fathers probably envisioned.
    But the most bizarre thing to me, and it is odd times in 
which we live, that the public outrage is directed at you and 
not at the person who has allegedly done all of these things. 
Let me talk about that person for a second.
    Is it Watergate or Peyton Place? I can remember Watergate 
pretty well because I was in high school. And as I looked 
through this, you have got Mr. Hubbell, who is about to come 
testify or offer evidence to the government. Then you have a 
cast of characters on behalf of the President, maybe on his 
behalf. I don't know if it was on his behalf or not, but there 
are certainly acquaintances of the President, friends, donors 
and benefactors, who drop about $550,000 on this guy to do 
business for them, and he is getting ready to go to jail. The 
last time I checked, when you are getting ready to go to jail, 
marketability goes down.
    So I find it very difficult for me to sit here and believe 
that that amount of money going to that man at that time wasn't 
an orchestrated effort by somebody to get him to shut up to 
avoid one of the messes that the Clintons have created because 
a land deal went bad. But you are telling me you can't lay that 
at the feet of the President, so I am going to be stuck with 
that.
    We have now evidence about Kathleen Willey, a lady who says 
that she went to the President when times were bad to ask for a 
job, and something bad happened. And whether she is telling the 
truth or the President is telling the truth, I don't know, but 
if she is telling the truth, that tells me a lot about William 
Jefferson Clinton.
    Now you give me some information that an individual close 
to the President asked her to come down to his place, and now 
he takes the fifth amendment about what he did with her.
    We have files turning up in the White House that you have 
been looking for a couple of years, that nobody can find, and a 
copy of them are in the loft of a dead guy, and you are telling 
me you can't lay this at the feet of the President.
    Now we will go to what--I think that is Watergate stuff--
the Dick Morris secret police unit, from Bruce Lindsey and 
other people who have been loyal to the President and some 
private investigators, if you don't like Linda Tripp--and I can 
understand that. There are some people over there you shouldn't 
like either. The more you know about them, the less you will 
like. But this is not about liking anybody. This is about the 
law.
    As much as I dislike the President politically, and as much 
as I wonder about who he is and what kind of people represent 
him, we are going to play it straight. And we are going to play 
it straight, folks.
    If I bring you two perjurers, does it matter if one 
confessed and the one put the State through the pain and 
expense of a trial and punishment? Does that matter, Judge 
Starr, as a judge? Don't you take that into consideration?
    Mr. Starr. I certainly think it is a relevant 
consideration, whether someone accepts responsibility or else, 
you know, as some pundit put it, ``It is the 7 months, 
stupid.''
    Mr. Graham. The point I am trying to make----
    Mr. Starr. And I did not mean to direct that, but I was 
just quoting the pundit. That it was what--it is what the 
Nation was put through.
    Mr. Hyde. I think we heard you right, Judge Starr. That 
inflection was important.
    Mr. Starr. That is what the Nation was put through.
    Mr. Graham. I have heard a lot from pundits, and I would 
rather try to focus on the facts, to be honest with you.
    The point I am trying to make is that the law that you 
cherish and I cherish, and I think we all love, allows for you 
to treat people differently based on what they lied about. That 
is not a bad thing to talk about. Every perjurer doesn't get 
the same punishment. That is a concept that we are going to 
have to deal with here.
    Without public outrage, impeachment is hard to do, and it 
should be hard to do. And the truth of the matter is, Judge 
Starr, we may never get public outrage on behalf of what the 
President did because some of the things that are Watergate-
like we can't lay at the feet of the President. But what he did 
do is he lied through his teeth in a civil deposition, and I am 
going to disagree with you about the legal effect.
    When the judge ruled that his deposition was not 
admissible, I have a problem with materiality in terms of 
perjury, and I am going to disagree with you, and I am going to 
stick by my word for the last 2 months. I am not going to 
consider that an impeachable offense because I don't think 
legally you would probably get prosecuted for that, or you 
would have a heck of a hard time once the case was dismissed 
and your testimony was deemed inadmissible. And I may be wrong, 
but I am going to give him the benefit of the doubt.
    But I am telling you right now, it is Peyton Place what we 
are left with, but the cover-up Peyton Place has gone to the 
point that I no longer can ignore it and feel good about it 
because I believe the President of the United States went into 
a grand jury, in front of your grand jurors, took an oath, and 
6 and 7 months after this whole affair started, after being 
begged by everybody in this country to come clean, lied again.
    Mr. Hyde. The gentleman's time has expired.
    The gentlelady from California, Mrs. Bono.
    Mrs. Bono. Thank you, Mr. Chairman.
    I actually want to share something with you first as your 
newest Member. When I first came to this committee, I told my 
colleagues that I don't understand the rules yet, the 5-minute 
rules and the etiquette. I asked my colleagues for help. They 
all yelled back at me, ``Don't worry; we don't understand it 
either.'' I was thinking when I get my orientation on the 
rules, maybe we can all sit down and learn the rules.
    I just want to say to Judge Starr that it has been an 
extremely enlightening day for me. Up until now, basically, 
your persona has been one of a character out of Ground Hog Day, 
if you will. Where you have been the same person day in and day 
out to all of us. Where you have walked from your house to a 
car, smiled, and got in. That is all that we have known of you.
    I think that it is nice to see that behind that image there 
is a human; behind the spin that there is a human. I also want 
to say that what has been most interesting to me today is to 
watch all of these lawyers attacking other lawyers for what it 
is lawyers do, whatever it is.
    I have to say also I think you have been the victim of a 
lot of Monday-morning quarterbacking into your investigation. 
None of that changes the facts. None of that changes the truth, 
and the election on November 4th also did not change the facts. 
It did not change the truth.
    I must say that you have proven yourself to me today to be 
a fair, competent, meticulous and thorough person that Attorney 
General Janet Reno knew you to be when she appointed you.
    Mr. Starr. Thank you.
    Mrs. Bono. You know, some criticized you that you boast 
about all of your wins. I think you should boast, because I 
think you do what you do very well. I think far be it from 
anybody in this town to criticize somebody for boasting about 
their record.
    I do have a question for you. Judge Starr, you and your 
family have been subjected to an enormous amount of personal 
persecution during your tenure as an independent counsel, 
particularly over the last year. What motivates you to keep 
going forward? Do you have this bone to pick with the President 
or this personal vendetta? Do you hold personal animosity 
toward him and has that affected the job you have done?
    Mr. Starr. Well, I thank you for that question. And I hold 
no animosity, and I would love to be back in private life. I 
received questions today with respect to, well, didn't you 
accept a deanship at Pepperdine, and look who made a 
contribution.
    So, you are right, I would prefer to be almost your 
constituent, a little bit farther west. I would like to be--and 
I even looked at a house in Malibu Country Estates. That is 
where I would like to be. I would like to be living my life 
with my family, and I tried to do that because I had a view 
that I could, in fact, lay down the mantle long before Monica 
Lewinsky ever walked into the Nation's life, and pass the 
mantle on to someone else because of what I had tried to 
create. And I have talked about it today, which is that this 
Office of Independent Counsel should, in fact, reflect the 
experience and practice of the Justice Department.
    I love the Justice Department. I served there two times, 
and I loved every moment that I was there, even during the 
rough times, and there were plenty of those, because it is a 
great department. And so I tried to create the Department of 
Justice and frankly felt that I had.
    Unfortunately a number of my prosecutors are being 
calumnied and criticized. It is one thing to criticize the 
Independent Counsel. It goes with the territory. But to 
criticize and to calumny the men and women with whom I am 
privileged to serve, many of whom are on detail from the United 
States Department of Justice, is, I think, wrong, and I think 
it is unfair, and I think it is unfortunate.
    But that is what I thought I had created. I tried to say my 
job has reached a stage where I feel that the Independent 
Counsel's Office, with offices in Little Rock and in 
Washington, would, in fact, be able to carry on very 
effectively under new leadership.
    I tried to retire. I think George Washington was very wise 
in saying, 8 years is enough. I would rather go back. Of 
course, he wasn't across the river where the capital was then. 
But I would rather return to Mount Vernon, thank you very much.
    Well, I would have preferred to have returned to private 
life, but I was importuned by my own staff, and I let down my 
staff because the deliberative process that I had so talked 
about, that before we make any major decision, whether one 
agrees with the decision or not, we deliberate about it, and 
they basically said, ``Ken, you let us down. You didn't 
deliberate with us. You chose your own decision professionally 
without a process as to what this might mean at this particular 
time to the investigation.''
    If I could be indulged 30 more seconds.
    I will always remember the comments by an assistant United 
States attorney, one of the senior prosecutors in the South, I 
think Congressman Bryant would know him, but I don't name the 
names of our line prosecutors, but he was on detail to us in 
the Little Rock office, and he had a major case responsibility. 
He came to me and said, and this was indicative of what I was 
receiving, ``You are making a profound mistake, and it is 
unfair to the investigation. You cannot leave.'' And this was 
after I had been roundly criticized on any number of--for my 
many sins of commission and omission. Even with all of that, 
the suggestion was made, and I was both honored by it and 
humbled by it, but also frankly a little bit down in the dumps 
about it, it was sort of, it is not time to leave.
    So my duty is to do my duty. I did not ask for this 
investigation to come walking in the door. It came to us. We 
took it to the department that I love greatly and admire 
greatly, the Department of Justice, and we said, what do we do? 
As colleagues, how do we collaborate? How should this matter 
that unfortunately for the country and unfortunately for this 
committee is now before you, and it came to me, and that is why 
I am here.
    In terms of my family, they are bearing up well, and thank 
you very much for asking.
    Mrs. Bono. Thank you, Judge Starr.
    Mr. Hyde. The gentlelady's time has expired.
    Mrs. Bono. Thank you, Mr. Chairman.
    Mr. Hyde. I would like to thank her very much.
    We will now recess until 8:25 p.m., and we would ask that 
everyone stay in their place until the Independent Counsel has 
left.
    Ms. Jackson Lee. Mr. Chairman, will Mr. Starr be back?
    Mr. Hyde. What?
    Ms. Jackson Lee. Will Mr. Starr be back? I have a point of 
order.
    Mr. Hyde. Indeed he will be back because Mr. Kendall has to 
question him, and so does Mr. Schippers.
    Ms. Jackson Lee. I have a point of order.
    Mr. Hyde. If you wish.
    [Recess.]
    Mr. Hyde. The committee will come to order.
    The Chair now recognizes the President's counsel, Mr. 
Kendall, to examine the witness for 30 minutes, should he chose 
to do so. Mr. Kendall.
    Mr. Kendall. Mr. Chairman, Mr. Conyers, members. My name is 
David Kendall. I am the personal attorney for President 
Clinton. My task is to respond to the 2 hours of uninterrupted 
testimony from the Independent Counsel, as well as to his 4-
year, $45 million investigation, which has included at least 28 
attorneys, 78 FBI agents, and an undisclosed number of private 
investigators, an investigation which has generated by computer 
count 114,532 news stories in print and 2,513 minutes of 
network television time, not to mention 24-hour scandal 
coverage on cable, a 445-page referral, 50,000 pages of 
documents from secret grand jury testimony, 4 hours of 
videotape testimony, 22 hours of audiotape, some of which was 
gathered in violation of state law, and the testimony of scores 
of witnesses, not one of whom has been cross-examined. And I 
have 30 minutes to do this.
    It is a daunting exercise, but let me begin with the simple 
but powerful truth that nothing in this overkill of 
investigation amounts to a justification for the impeachment of 
the President of the United States.
    Mr. Starr, good evening.
    Mr. Starr. Good evening. How are you, David?
    Mr. Kendall. I am very well, Ken. You have the book of 
exhibits before you, do you not?
    Mr. Starr. I do.
    Mr. Kendall. Would you turn to tab 5, which is a press 
release which your office issued under your name on February 5, 
1998. Do you see that?
    Mr. Starr. I do.
    Mr. Kendall. I want to direct your attention to your 
statement, and you are addressing the fact that you have not 
been able to talk to Ms. Lewinsky yet, and you say in your 
press release, ``We cannot responsibly determine whether she is 
telling the truth without speaking directly to her. We have 
found that there is no substitute for looking a witness in the 
eye, asking detailed questions, matching the answers against 
verifiable facts, and, if appropriate, giving a polygraph 
test.''
    Did you issue that press release saying that, Mr. Starr?
    Mr. Starr. Yes, I did.
    Mr. Kendall. And questions have been addressed to you today 
about the credibility of various witnesses, including Ms. 
Lewinsky. It is true, is it not, that you were not present when 
Ms. Lewinsky testified before the grand jury?
    Mr. Starr. That is true.
    Mr. Kendall. And you were not present at her deposition.
    Mr. Starr. At her deposition?
    Mr. Kendall. Yes. Were you aware that Ms. Lewinsky was 
deposed?
    Mr. Starr. I am sorry, in our deposition. I am sorry, I 
misunderstood you. Yes, I was not present.
    Mr. Kendall. You were not present on any occasion when she 
was interviewed by FBI agents, were you?
    Mr. Starr. That is correct, I was not.
    Mr. Kendall. And you have never really exchanged words with 
Ms. Lewinsky, have you?
    Mr. Starr. That is correct. The answer is yes, I have not 
had occasion to meet or otherwise to look her in the eye 
myself.
    Mr. Kendall. The same is true for her mother, Marsha Lewis; 
is it not?
    Mr. Starr. Yes, that is true as well. That is true.
    Mr. Kendall. The same is true for Betty Currie?
    Mr. Starr. Yes.
    Mr. Kendall. The same is true for Vernon Jordan?
    Mr. Starr. Well, in connection--I happen to know Mr. 
Jordan, but yes, in connection with this----
    Mr. Kendall. In connection with this case, were you present 
during his grand jury testimony?
    Mr. Starr. No, I was not.
    Mr. Kendall. And were you present at any interview of him?
    Mr. Starr. No, I was not.
    Mr. Kendall. Would the same be true for Mr. Podesta?
    Mr. Starr. The answer is the same with respect to Mr. 
Podesta, yes.
    Mr. Kendall. And indeed, Mr. Starr, there are 115 
individual grand jury transcripts which your office submitted 
to the House, and, with the exception of the deposition of the 
President of the United States, you were present at none of 
those grand jury proceedings, were you?
    Mr. Starr. That is correct.
    Mr. Kendall. Likewise, there were 19 depositions submitted, 
and you were--at least the reporter doesn't show you being 
present on any of those; is that correct?
    Mr. Starr. I think that is right. I need to reflect on some 
of the Secret Service matters, but I think you are correct that 
I was not actually present for any of the depositions 
themselves, including the Secret Service officers.
    Mr. Kendall. And there are 134 FBI Form 302 interviews 
submitted. You are not shown as being present at any of those, 
are you?
    Mr. Starr. That is correct. I would ordinarily not be 
present for an interview of a witness.
    Mr. Kendall. Mr. Starr, I bring this out not to cast any 
aspersions or to question your use of time, but you are here 
as--and I believe you have already said this--you are not a 
fact witness; is that correct?
    Mr. Starr. Yes, in terms--well, I can testify to a number 
of facts in the investigation.
    Mr. Kendall. Such as your own autobiography. I am talking 
about facts of this investigation.
    Mr. Starr. Could I answer the question? I believe that 
there are a number of facts that I can, in fact, testify to, 
but with respect specifically to this investigation and most 
particularly with respect to the abuse of power issues. But 
with respect to other questions, the President's perjury and 
obstruction of justice and the like, to the extent that one is 
talking about fact witnesses, you are quite right.
    The function of the Independent Counsel himself or herself 
is ordinarily, ordinarily, depending on the size of the 
investigation, not one to accompany FBI agents. One relies upon 
the professionalism and the expertise of one's colleagues in 
the FBI who work ultimately under the aegis of Judge Freeh.
    Mr. Kendall. There were--unlike the 1974 grand jury 
referral to the House Judiciary Committee, this referral was 
not submitted to the chief judge of the district court, was it?
    Mr. Starr. The answer to that, and I may want to reserve 
part of my answer for executive session, let me say that we did 
not seek the approval of the Chief Judge with respect to the 
contents of the report.
    Mr. Kendall. Was she ever shown a copy of the referral?
    Mr. Starr. I would prefer to go into executive session with 
respect to communications I may have had with the district 
court.
    Mr. Kendall. The grand jury did not vote to approve or 
forward this referral; is that correct?
    Mr. Starr. That is correct, because, as I have said, the 
decision with respect to the referral is the product of career 
prosecutors who came together from around the country, and I 
tried to make sure that the committee understood that the 
individuals who were involved in assisting me and in guiding me 
are career Department of Justice U.S. Attorney's Office 
prosecutors from around the country, but ultimately this is, 
David, my judgment.
    Mr. Kendall. You are here really as an advocate for this 
referral; are you not?
    Mr. Starr. I view myself--no, I think that is not right. I 
do believe in the referral. I tried to answer questions with 
respect to the referral, although many questions did not relate 
to the referral, but related to other matters. But I do believe 
in it.
    But the reason that I should not be advocating is because 
it is this committee's judgment that they will come to by 
virtue of the submission of this in writing, with the 
supporting materials, and then it is up to the committee to 
determine, do they want to call additional witnesses and the 
like. Our task was to put before them the information that we 
found met the statutory standard of substantial and credible 
information.
    Mr. Kendall. In your testimony today, you indicated that 
you had exonerated the President with regard to the Travel 
Office, if I heard you correctly; is that correct?
    Mr. Starr. Yes. What I indicated was that we had no 
information that related to his involvement, although I also 
made it clear that that investigation is continuing, and we 
hope to announce decisions or actions very soon.
    Mr. Kendall. The Travel Office firings which you are 
investigating occurred in 1993; is that correct?
    Mr. Starr. Yes, the firings were in 1993.
    Mr. Kendall. Also, if I heard you correctly this morning, 
you indicated that you had exonerated the President with 
respect to the FBI files matter which had arisen in 1996; was 
that correct?
    Mr. Starr. Yes, that jurisdiction did come to us in 1996 
from the Attorney General, and, yes, we have found, as I 
indicated, no evidence of any wrongdoing by anyone who is 
relevant to, I believe, at least in my assessment, I can't 
speak for the committee, that would be relevant to the 
committee's assessment of our referral.
    Mr. Kendall. Mr. Starr, when did you come to those 
conclusions?
    Mr. Starr. With respect to the Travel Office, I would 
frankly have to search my recollection to see exactly where we 
were and when we were there. As I indicated with respect to the 
Travel Office, we have, in fact, had to put part of the Travel 
Office investigation--and I am now talking about the Travel 
Office, and I will come to the FBI files--we had to put part of 
the Travel Office investigation on hold, as it were, because of 
issues over privileged litigation, which we did not prevail on 
in the Supreme Court. And there are other matters that we are 
presently examining and which I can't talk about here.
    Mr. Kendall. Were the two exonerations you announced today, 
did you come to those conclusions before or after November 1, 
1998?
    Mr. Starr. Before November 1 of this year?
    Mr. Kendall. This year.
    Mr. Starr. Well, I would say that we have not had 
information that would guide us to the view that we should be 
concerned about the President in respect of those two matters, 
and that is why, of course, there is no mention of either of 
those matters in the referral. But both matters were, in fact, 
continuing, and no final prosecutorial decisions had been made 
with respect to either the Travel Office matter or, now to 
address the FBI files matter, with respect to that.
    There is, as I have indicated, an unresolved question with 
respect to one individual. I have not named that individual. 
But I do not have--it remains unresolved, so it is a predictive 
judgment, Mr. Kendall, that nothing we are likely to achieve in 
either of those investigations will be relevant to this 
committee's inquiry, and that is what I view my duty as being.
    Mr. Kendall. And today was the first time you have 
announced that with respect to these two matters; is it not, 
Mr. Starr?
    Mr. Starr. It is the first time that we have viewed it as 
appropriate to speak to issues that are still, David, under 
investigation. We are still investigating both matters, and I 
hope I have made that point clear. Both investigations have 
very live, active elements to them, and we will make those 
decisions promptly. But I felt it was my duty to inform this 
committee of the state of the record with respect to the 
President of the United States, because the committee has been 
asking me, do you have any other information that is relevant?
    I have received a lot of correspondence. Mr. Conyers----
    Mr. Kendall. Mr. Starr, I have only 30 minutes. If I could, 
I think you have adequately answered my question.
    Let me return to a question asked by Congressman Wexler 
this afternoon, and that was about a witness named Julie Hiatt 
Steele. Have your investigators investigated the adoption of 
her 8-year-old child? She adopted it from a Romanian orphanage.
    Mr. Starr. Mr. Kendall, my investigators work very hard and 
diligently to find relevant evidence. I believe that the 
questions--and I have conducted no specific investigation, and 
you just spent a good deal of time establishing that I don't go 
with my FBI agents on every single interview. Indeed, I don't 
go--may I finish? You asked the question.
    I don't go with them on interviews. They have a fair amount 
of discretion as professionals as to what is appropriate to 
inquire into. But let me simply say this: There is an enormous 
amount of misinformation and false information that is being 
bandied about with respect to that particular witness and the 
circumstances of questioning. I will look forward at the 
appropriate time to be able to demonstrate that to any fair-
minded person beyond any reasonable doubt.
    Mr. Kendall. Mr. Starr, I am asking the question for the 
facts. I am not casting aspersions. Again----
    Mr. Starr. But, Mr. Kendall, you just said I was not 
present for the following persons: Ms. Lewinsky, Marsha Lewis, 
and Vernon Jordan. You are now asking me about FBI interviews, 
and you talked about how many witnesses there were, and now you 
are asking me specifically was a specific question asked of a 
particular witness. I will be happy to find that out, if it 
seems to be relevant to this committee.
    Mr. Kendall. Mr. Starr, I don't think it is unfair to try 
to find out the facts, because there has been considerable 
publicity about Ms. Steele's claim that that is, in fact, what 
your investigators have been doing. I was simply asking to 
clarify the record.
    Mr. Starr. Well, in respect of some of her claims, some of 
her claims, and I am going to say this even though there is an 
active part of our investigation under way, are utterly without 
merit and utterly without foundation, utterly without factual 
foundation.
    Mr. Kendall. Is this one of those claims?
    Mr. Starr. No, I did not say that, Mr. Kendall. I am aware 
of certain--the specific question that you asked goes to 
whether one or a series of questions were asked of one witness, 
and my point is, I thought that what we were here today to 
discuss is a referral which we believe contains substantial and 
credible information of potential impeachable offenses by the 
President of the United States. What a particular witness's 
demeanor was or what a particular FBI agent asked is, to my 
mind, quite far removed from the sober and serious purposes 
that I thought brought us here together. And the final thing I 
would say in this respect, if there is an issue with respect to 
the way a witness is treated, that is why courts sit. I was 
privileged to serve as a judge. That is why judges work.
    Mr. Kendall, if there is an issue with respect to the 
treatment of a witness, let's take it to court and have the 
court resolve it in an orderly way, just as the Supreme Court 
of the United States said, that this particular individual is 
entitled to an orderly disposition of her claims.
    Mr. Kendall. In your testimony this morning, Mr. Starr, you 
said, ``We go to court and not on the talk show circuit. We are 
officers of the court who live in the world of law. We have 
presented our cases in court.'' That is at page 36 of your 
testimony.
    Now, Mr. Charles Bakaly, your press spokesman and public 
relations adviser, has been on, by my count, 10 talk shows and 
is on Nightline tonight. I would be happy to read them to you. 
This is from late April. But does that sound about right, that 
he has been on 11 talk shows?
    Mr. Starr. That probably sounds about right, but I would 
have to do the count. But let me say that no lesser authority 
than Archibald Cox talked, very eloquently and movingly, about 
the public information function of a prosecutor's office. Not 
only do we have the right, we have the duty to engage in a 
proper public information function, because this is the 
public's business. We must do so in order at times to combat 
misinformation that is being spread about, including at times 
by lawyers who frequently claim that their clients have been 
grossly mistreated, which is what criminal defense lawyers are 
paid to do.
    Mr. Kendall. Mr. Starr, I take it there would be no 
disagreement that you, as a United States prosecutor, are under 
a legal obligation to protect the secrecy of the grand jury 
process?
    Mr. Starr. Yes, there is no dispute whatsoever.
    Mr. Kendall. No dispute. Indeed, if you turn to tab 17 of 
the materials, you wrote me a letter on February 6th, 1998, and 
if I could direct your attention to the second paragraph of 
that letter, I complained about leaks of grand jury 
information. You had replied, ``From the beginning, I have made 
the prohibition of leaks a principal priority of the office. It 
is a firing offense, as well as one that leads to criminal 
prosecution.''
    You say also that you have reminded the staff that leaks 
are utterly intolerable. Am I reading that correctly?
    Mr. Starr. Yes, you are reading it correctly.
    Mr. Kendall. And has anybody been fired from your office, 
Mr. Starr, for leaking?
    Mr. Starr. No, because I don't believe anyone has leaked 
grand jury information, Mr. Kendall.
    Mr. Kendall. On the day this story broke in the press, 
which was Wednesday, January 21, you issued a press release. Do 
you recall that press release?
    Mr. Starr. Could you say that again? On January----
    Mr. Kendall. On January 21st, the day the Washington Post 
story ran, you issued a press release about your information 
policy.
    Mr. Starr. Do you have that here?
    Mr. Kendall. Yes, I do. Let me direct your attention to 27.
    Mr. Starr. Twenty-seven.
    Mr. Kendall. And also we have a blowup of this press 
release on the easel. Now, it is a very short press release, 
but I will give you a moment to read it.
    Have you read it?
    Mr. Starr. I have.
    Mr. Kendall. In your testimony this morning you described 
the litigation that your office has been involved in at page 
36. You said you faced an extraordinary number of legal 
disputes on issues of privilege, jurisdiction, substantive 
criminal law and the like. Do you see that at the top of your 
testimony?
    Mr. Starr. Yes, I do see that.
    Mr. Kendall. You did not mention leak litigation in that 
list, I observe.
    Mr. Starr. Yes, that is correct.
    Mr. Kendall. In fact, we have litigated on a number of 
occasions, producing by my count at least five district court 
opinions which have all been unsealed and in the binder, and 
one court of appeals decision on this matter; have we not?
    Mr. Starr. Yes, and in fact with respect to that, we did, 
Mr. Kendall--and I think you will agree-- prevail in the court 
of appeals with respect to the issue that you are talking 
about; and I want to be careful about what I say, because I 
have found that some lawyers are very quick to suggest that 
certain comments made by prosecutors may run afoul of 
confidentiality requirements.
    I think I can say this: The D.C. Circuit unanimously 
concluded that the procedures that you had urged were entirely 
inappropriate, improper, unauthorized by law, and that there 
had to be an orderly process that was protective of very vital 
interests. That was a unanimous opinion by the D.C. Circuit 
overturning a process that you had urged upon the district 
court in your effort to find out as much information inside the 
prosecutor's office as you possibly could. So I hadn't even 
thought of that as one of the 17, but you are absolutely right.
    That is part of our litigation record, and we are now in 
the process, as you well know, of additional litigation, and I 
think that judgment should be withheld--judgment should be 
withheld--with respect to this question until such time as 
there is a judgment, an ultimate judgment in this case, because 
I am confident that we have abided by our obligations. I am 
confident of that.
    Mr. Kendall. I take it you would agree with Chief Judge 
Johnson that enforcing rule 6(e), which enforces grand jury 
secrecy, is of the utmost importance to the integrity of the 
grand jury process?
    Mr. Starr. Yes. Chief Judge Johnson has made it abundantly 
clear, and I agree with that, that the values of 
confidentiality of matters occurring before the grand jury is 
very important.
    Mr. Kendall. And she has also ruled, has she not, that due 
to the serious and repetitive prima facie violations of rule 
6(e), a thorough investigation is necessary and is now being 
conducted. This, let me direct your attention to, is at tab 24, 
and that is her opinion which was just unsealed.
    Mr. Starr. Tab 24?
    Mr. Kendall. Tab 24, page 20.
    Mr. Starr. Yes, this is the October 30 and then the 
redacted version. And this, and I think this is fundamental 
fairness, requires this body to know that the law of this 
circuit permitted Mr. Kendall to say, ``Here are articles. Look 
at the sourcing, we get to ask the prosecutor to come forward 
and to show that the prosecutor is not the source of this grand 
jury--or of this information.'' And that is the process that is 
under way now.
    We are at phase 2. But the law of this circuit, under the 
Barry case, with which you are intimately familiar, is 
essentially a hair trigger. All it takes is a letter from Mr. 
Kendall saying, ``Here is an article with ambiguous sourcing; I 
believe it may relate to the grand jury matters,'' and a prima 
facie case, as is said in the law, may be established.
    And in this district, and I think this is a major issue for 
the administration of justice, in high-profile cases, such as 
Congressman Rostenkowski and Mayor Barry; again and again, the 
criminal defense bar of this jurisdiction is rushing into court 
and saying there are grand jury leaks----
    Mr. Kendall. Mr. Starr, I don't mean to interrupt you, but 
I only have 30 minutes.
    Mr. Starr. I am sorry.
    Mr. Kendall. In fact, Judge Johnson had before her 24 
submissions from us as to what might be leaks from the 
independent counsel's office; did she not?
    Mr. Starr. And we are in the process of litigating those, 
as you know.
    Mr. Kendall. How many did she find there was prima facie 
reason to believe your office committed these leaks?
    Mr. Starr. I think you know the answer to that. Under the 
hair trigger Barry standard, where almost anything will 
satisfy--and the D.C. Circuit noted that; you cited the D.C. 
Circuit's opinion--the D.C. Circuit's opinion makes it very 
clear, as you know, David, that the burden on the moving party 
is quite limited. That is not a quote, but that is the idea. It 
is a very limited burden that you have.
    Mr. Kendall. I think the answer to my question was all 24. 
And are you saying that the journalists invented sources like 
``prosecutors painted a different picture,'' ``sources in 
Starr's office tell us,'' ``sources near Starr,'' ``prosecutors 
suggest''; does the media make up those quotes, Mr. Starr?
    Mr. Starr. I am not here to accuse the media of anything. I 
am here to say that fairness requires us to be able to litigate 
this matter, which, as you well know, is under seal, and to 
litigate that in an orderly way, and then to come to a judgment 
as to the significance of that.
    But I will simply say that the law of this circuit makes it 
quite easy for you to say, ``Look at this sourcing. I get to 
now put the burden on the prosecutor to come forward and show 
evidence that the prosecutor is not the source.'' David, that 
is what we are doing.
    Mr. Kendall. Mr. Starr, in fact there has been no case 
remotely similar to this in terms of the massive leaking from 
the prosecutor's office. I think we know that.
    Mr. Starr. I totally disagree with that. That is an 
accusation, and it is an unfair accusation. I completely reject 
it, and I would say, David, let's wait until the litigation has 
concluded. You are asking to--and especially with the rules 
being what they are on a prima facie case--you are asking, 
let's now come to judgment after about 10 minutes of the first 
half. That is not fair.
    Mr. Kendall. May I direct your attention now to the exhibit 
that we have displayed up there. It is 27.
    Mr. Starr. This is, I am sorry, number 27?
    Mr. Kendall. Yes, it is your press release on the first day 
of the Lewinsky story breaking. It is a press release on the 
letterhead of the Independent Counsel's Office. We secured it 
from your office through a Freedom of Information Act request. 
It is under your name. It says, ``Independent Counsel Kenneth 
W. Starr issued the following statement today from his office 
in Washington D.C.'' And then it says, ``Because of 
confidentiality requirements, we are unable to comment on any 
aspect of our work.''
    Is that what you announced to the world on January the 
21st?
    Mr. Starr. Yes, and I must say, I think that this is 
inconsistent with the duty of a prosecutor to provide 
appropriate and lawful public information. I think it is the 
duty of the prosecutor to combat the dissemination of 
misinformation as long as the prosecutor can do that without 
violating his or her obligations under Rule 6(e). And that is 
the position, David, as you know, of the Justice Department.
    Mr. Kendall. Did you issue any press release admitting that 
you were talking about aspects of your investigation?
    Mr. Starr. I am sorry, could you say that again?
    Mr. Kendall. After the press release which you now said--
and I have forgotten your exact phrase. What was it, that you 
would not have issued it now?
    Mr. Starr. No----
    Mr. Kendall. Does it depend on what you mean by 
``comment''?
    Mr. Starr. No. In terms of being able to provide a public 
information function, it depends upon how broadly one wants to 
read a particular document. This is not a legal document, it is 
a statement of policy, and ordinarily, in contrast to what most 
prosecutors do, we try to treat all individuals, those, for 
example, charged with crime, with complete fairness. We do not 
go out and hold press conferences and the like. That is our 
methodology and our approach. But we follow Justice Department 
policy, and I frankly think that this comment is an overbroad 
statement, because it is incompatible with DOJ policy.
    Mr. Kendall. It is your comment, though, Mr. Starr. It is 
what you wanted the world to think you were doing in the 
Lewinsky investigation; is that not a fact? It is your press 
release.
    Mr. Starr. Well, except I think it is still--you are 
talking about a press release, you are not talking about a 
filing in court and the like. And what we were, in fact, doing 
virtually contemporaneously with this was issuing--it may not 
have been contemporaneously, and perhaps you will guide me to 
that, but we were being accused, and we have heard it all day 
long today, about the events at the Ritz Carlton, and I felt 
duty-bound to provide public information that I thought was 
appropriate about the conditions that Ms. Lewinsky found 
herself in, and that the character assassination by her then-
attorneys no longer--at least one is no longer her attorneys.
    Mr. Hyde. Mr. Kendall, your time is up. You may want to get 
into the facts. Do you need additional time?
    Mr. Kendall. Chairman Hyde, I think I would like additional 
time.
    Mr. Hyde. How much time would you like?
    Mr. Kendall. I think that the analysis--I am sorry, what 
did you say?
    Mr. Hyde. I was going to say, is 15 minutes helpful?
    Mr. Kendall. I would like--that won't be enough.
    Mr. Hyde. You are being coached by Ms. Waters here now. 
That doesn't count. How much?
    Mr. Kendall. Your Honor, another hour.
    Mr. Hyde. Another 30 minutes?
    Mr. Kendall. Could I have another hour?
    Mr. Hyde. How about 30, so you can get into the facts.
    Mr. Kendall. I thank the Chair for 30 minutes. I think, 
though, that these are the facts, Your Honor. How this analysis 
was done, the campaign to disseminate information against the 
President is very much a part of the fairness of the document 
which your committee is having to consider.
    Mr. Hyde. Very well.
    Mr. Kendall. Is the analysis reliable, is it fair, does it 
present the facts, have proper procedures been followed?
    Mr. Hyde. I see. Well, the gentleman is recognized then for 
an additional 30 minutes, but that should wind it up. So you 
have 30 more minutes.
    Mr. Kendall. Mr. Starr, you were right. You did issue a 
press conference about Ms. Lewinsky's treatment at the Ritz 
Carlton. That was a press release, it was on the record, 
everybody knew you were saying that. You were accountable. To 
use your phrase, you were transparent. But you also spoke 
frequently on background to the press. And my question to you 
is you and those around you, your subordinates----
    Mr. Starr. Yes, be careful when you say the ``you,'' 
because I do not speak frequently or otherwise to the press.
    Mr. Kendall. Did Professor Dash give you any advice as to 
what should be on background and what on the record?
    Mr. Starr. We discussed with Sam a variety of issues. I 
would have to search my recollection with respect to any 
specific observations that Sam gave us with respect to this.
    But let me say this: If you look--because your comments to 
the Chairman, whom you called Your Honor, and I have been 
tempted to do that most of the day, because you and I are both 
accustomed to being in courthouses--when you look at the 
information that we had in our Office and the FBI, as opposed 
to information that you had access to, it never, never entered 
the public domain.
    For example, the dress, the DNA, the test results, those 
were never in the public domain, because you did not have a 
witness in your joint defense arrangements who you could 
debrief and tell you, because it was the distinguished judge 
who is the head of the FBI and a handful----
    Mr. Kendall. Mr. Starr----
    Mr. Starr. No, you are talking about fairness. It is time 
for some fairness with respect to all of these charges that 
keep being bandied around without any kind of judicial 
determination that there is, in fact, wrongdoing under 6(e).
    Mr. Kendall. My question was simple, Mr. Starr. My question 
was why would you speak on background? Why not be accountable? 
Why not be transparent? I have never protested a press release 
which you have issued, have I?
    Mr. Starr. No, you have not.
    Mr. Kendall. And I think that there may well be times as a 
prosecutor when it is necessary to correct misinformation. You 
have sometimes done that. It is necessary to get the facts out 
so that people aren't misguided. But why speak off the record 
on background? Why not be accountable?
    Mr. Starr. It depends on the circumstances, and I will say 
this: I believe the Justice Department practice, it certainly 
was the practice when I was there; I will hazard that it is 
still the practice of the Justice Department, that these are 
judgment calls as to whether the prosecutor wants to make 
herself or himself part of the story.
    A specific example: If someone comes to us with a specific 
allegation of wrongdoing on the part of one of our 
prosecutors--perhaps a criminal defense lawyer who has said the 
prosecutor did the following bad things--it may be utterly 
bogus, because people do, in fact, lie about what happens to 
their clients, I am sorry to say. We do not want to in any way 
be part of a story as to whether--and obviously we can't talk 
about matters occurring before the grand jury, but we can, in 
fact, respond to a suggestion that the FBI in some way or a 
prosecutor in some way conducted herself or himself improperly. 
But it is quite wise to say----
    Mr. Kendall. Then why not say it on the record? Why the 
secrecy?
    Mr. Starr. You are asking essentially about press policy as 
opposed to the constitutional issues that have brought us all 
here, and if this is an oversight hearing with respect to the 
press policy of the Independent Counsel's Office, or if that is 
what the President's lawyer wants to spends his time doing, 
then that is your prerogative. Let me tell you what our press 
policy is.
    Mr. Kendall. Well, Mr. Starr, I only have got 30 minutes. I 
asked you, I think, a simple question, but let me move on.
    You yourself executed an affidavit in the leaks 
investigation; did you not?
    Mr. Starr. David, this matter is in litigation, and, Mr. 
Chairman, as a matter of fairness, I have to be careful about 
what I say because he may tell me that it is not--it is just 
not right to be in litigation under seal before the district 
court and to be cross-examined by the President's attorney with 
respect to that matter which seems to have no germaneness 
whatever, although----
    Mr. Kendall. Mr. Starr, I was going to ask you about an 
affidavit, a sworn declaration, which you yourself executed, 
which is not under seal in the leaks proceeding. But I will 
move on if this is not something you want to respond to.
    Mr. Starr. Well, David, I just think if you are talking 
about the leaks litigation, that is the point, it is in 
litigation. Why don't we allow that litigation to go forward, 
instead of individuals, Members of Congress who talk about 
fairness, jumping to the conclusion that there has been a 
violation when there has been no adjudication of anything 
beyond the existence under the law of this circuit of a prima 
facie case.
    That is unfair. It is unfair to my career prosecutors, it 
is unfair to investigators, it is wrong. And, just to finish 
the point, when we had highly sensitive information that Mr. 
Kendall did not have, the DNA on the dress, that was held 
within our Office and the FBI. There was no dissemination of 
that information.
    But what happens is Mr. Kendall and others interview 
witnesses, and any criminal defense lawyer, and if you see fit 
to inquire into the joint defense arrangement in existence 
here, I would be grateful. I know you want to move forward with 
these proceedings, but the joint defense arrangement that has 
been in effect in this operation is a very significant aspect 
of the very issues that Mr. Kendall is now raising before this 
committee, because one of the issues in 6(e)----
    Mr. Kendall. Excuse me, could I direct your attention to 
tab 15? I think you have answered the question, and I would 
like to move on. I am running against the clock.
    Mr. Starr. I am sorry, Mr. Kendall. I have been here since 
10 o'clock, so forgive me.
    Mr. Kendall. I know, and I will move on.
    Carol Bruce, Ms. Carol Bruce, was appointed Independent 
Counsel to investigate the Indian gambling casino matter; was 
she not?
    Mr. Starr. Yes. The Secretary Babbitt matters, yes.
    Mr. Kendall. Are you aware of her press policy?
    Mr. Starr. No, I am not.
    Mr. Kendall. It is indicated there at tab 15 that she held 
a press conference when she was appointed, and then said she 
did not anticipate making any further public comments until the 
investigation is completed.
    You mentioned the experience of Ms. Lewinsky at the Ritz 
Carlton on Friday, January 16, 1998. One of the reasons your 
agents held Ms. Lewinsky was that they----
    Mr. Starr. I have to interrupt. That premise is false.
    Mr. Kendall. Let me rephrase it.
    Mr. Starr. That is false, and you know it to be false.
    Mr. Kendall. I will rephrase the question.
    Mr. Starr. She was not held.
    Mr. Kendall. Her own psychological state will speak for 
itself as to how she felt. It is in the record in her 
testimony.
    Mr. Starr. You said she was held; you didn't say how she 
felt. You said she was held, and I think that is unfair to our 
investigators, and this issue has been litigated, David, as you 
well know, with respect to the constitutional rights of the 
individual involved. Excuse me.
    Mr. Kendall. During her sojourn with your agents----
    Mr. Starr. Well, the Ritz Carlton is a very pleasant place 
to have a sojourn.
    Mr. Kendall. One of the purposes was to get Ms. Lewinsky to 
wear a recording device and surreptitiously record Mr. Jordan 
or the President; was it not?
    Mr. Starr. It was not. And I know that there is testimony, 
and this has been referred to, but let me explain. She was 
asked and given the opportunity, which she turned down, to be a 
cooperating witness. And we explained to her--we did not invent 
this, this is all traditional prosecutorial activity and 
techniques--one of the things that a cooperating witness can do 
is to assist us in consensual monitoring. We described that at 
a high level of generality, it is my understanding, and I 
believe my prosecutors, in fact, conducted themselves 
consistently with what I have just told you.
    Mr. Kendall. Could you turn to tab 7, and could we have----
    Mr. Starr. I am sorry, tab 7?
    Mr. Kendall. Yes, tab 7 of the binder.
    You may have read the Time Magazine essay by Messrs. 
Ginsburg and Speights in which they state the following: ``The 
government didn't just want our client to tell her story, they 
wanted her wired. They wanted her to record telephone calls 
with the President of the United States, Vernon Jordan and 
others at their will.''
    You are familiar with Mr. Ginsburg's charge?
    Mr. Starr. Mr. Ginsburg is wrong, and he must know that he 
is wrong. He was wrong then, and it is a calumny to repeat that 
now. Mr. Ginsburg was not known for his consistency of 
articulating positions, nor was he known for his consistency in 
dealing with facts. I would say that he was rather fast and 
loose with the facts, and if you are going to rely in this 
proceeding on a Time Magazine essay by Bill Ginsburg, then I 
think the standards are not quite as lofty as I thought they 
would be this evening.
    Mr. Kendall. Mr. Starr, what is an FBI 302 form?
    Mr. Starr. An FBI 302 form is a report of interview by FBI 
agents with a witness.
    Mr. Kendall. Now, you categorically denied wanting to have 
Ms. Lewinsky wear a wire or secretly tape record the President 
or Mr. Jordan when the charge was made in the Time article; did 
you not? You categorically denied that.
    Mr. Starr. Are you saying at the time of this Time article?
    Mr. Kendall. At the time of that Time article, you denied 
Mr. Ginsburg's charge; did you not?
    Mr. Starr. I believe that we did, but I am just not 
recalling specifically how we did it.
    Mr. Kendall. You certainly denied it----
    Mr. Starr. We have had a number of charges, so you will 
have to remind me of where my rebuttal is.
    Mr. Kendall. Let me direct you to tab 12 in the volume. 
This is your later letter to Steve Brill. We are displaying the 
page there. It is page 7. You don't have to read your entire 
letter.
    Mr. Starr. Okay, page 7.
    Mr. Kendall. Do you see where it is indented 6? It is tab 
12, page 7 of the exhibit, your own letter. You say, ``This is 
false. This Office never asked Ms. Lewinsky to agree to wire 
herself for conversation with Mr. Jordan or the President. You 
cite no source at all, nor could you, as we had no such 
plans.''
    Have I read correctly your letter?
    Mr. Starr. Yes, you have.
    Mr. Kendall. All right. Now, when you wrote the letter, did 
you review--you were not present at the Ritz Carlton, were you?
    Mr. Starr. No, I was not.
    Mr. Kendall. Did you review with Mr. Emmick, for example, 
what had happened there?
    Mr. Starr. Yes, I have reviewed with a number of--well, in 
terms of this particular letter, if you are asking did I review 
the contents of the Ritz Carlton in connection with this as 
opposed to what we had already done in terms of the allegations 
being made at or around the time, I do have very vivid 
recollections of discussions with respect to the circumstances 
of----
    Mr. Kendall. Do you remember----
    Mr. Starr. --of the Ritz Carlton. You are asking me in 
connection with this letter did I have a conversation with one 
of my colleagues, and I would have to review notes and so 
forth.
    Mr. Kendall. I apologize for my speed, but I don't have 
much time. I don't usually talk this fast, Mr. Starr.
    Would you look at tab 13.
    Mr. Starr. Okay.
    Mr. Kendall. At tab 13 is the FBI 302 form describing--that 
is not Mr. Ginsburg or Mr. Speights, is it? It is one of your 
own agents. We don't know who because the name is blacked out, 
but if you look at page 5 of that exhibit, it says--at 11:22 
p.m., it says A.I.C. Emmick talked to Bernard Lewinsky, that is 
Ms. Lewinsky's father. ``Cooperation, interview, telephone 
calls, body wires and testimony were mentioned.''
    Do you see that?
    Mr. Starr. Yes, I do.
    Mr. Kendall. And then do you see down below the 11:37 p.m. 
entry, Ms. Lewis has arrived on the scene, Ms. Lewinsky's 
mother, and she expresses, Ms. Lewinsky has expressed concern 
about what is being requested of her. She says, according to 
the FBI 302, ``What if I partially cooperate?'' That is as 
recorded by the FBI agent. ``Marsha Lewis asks what would 
happen if Monica Lewinsky gave everything but did not tape 
anything.''
    Do you see that?
    Mr. Starr. Yes, I do.
    Mr. Kendall. It was in the grand jury that the events of 
Friday, January the 16th, were presented through the testimony 
of Ms. Lewinsky; was it not? Was it her second appearance?
    Mr. Starr. Yes, I believe that is right.
    Mr. Kendall. And do you remember--do you have the 
appendices to your volume?
    Mr. Starr. I can get them.
    Mr. Kendall. I don't think we will need to, because this is 
a famous passage. The grand jurors--your prosecutors had no 
more questions, and the grand jurors themselves began to 
inquire about the events that day. One of them said, at page 
1143, ``We want to know about that day. We really want to know 
about that day.'' And this elicited then from Ms. Lewinsky, who 
was under oath, a tearful description of what had happened to 
her. She asked Mr. Emmick to leave the room; did she not?
    Mr. Starr. That is my recollection of the transcript, yes.
    Mr. Kendall. And, in fact, she said that she was told on 
Friday, January the 16th, by your agents that she would have to 
place calls or wear a wire to call Betty and Mr. Jordan and 
possibly the President.
    ``Question: And did you tell them you didn't want to do 
that?
    ``Yes.''
    Was that Ms. Lewinsky's testimony?
    Mr. Starr. Yes, that is her testimony.
    Mr. Kendall. I think the point was made earlier, but the 
affidavit that Ms. Lewinsky filed had not been mailed by her 
attorney until the end of the day, Friday, January the 16th, 
had it?
    Mr. Starr. I believe that is right in terms of the timing, 
but I would have to reconstruct in terms of the actual timing 
of the mailing. I am sorry, I would have to double-check that.
    Mr. Kendall. Mr. Starr, you have repeatedly said that the 
Attorney General asked you to take on this matter----
    Mr. Starr. Well, that is your characterization. I have said 
that we collaborated with the Justice Department, and the 
Attorney General came to her decision. We brought it to her 
attention. We did say that we thought the steps that we had 
taken had been within our jurisdiction, but we were concerned 
about whether any additional step could be taken properly 
within our jurisdiction, and that is how the discussions began.
    Mr. Kendall. In fact, you requested that the matter be 
referred to you; did you not?
    Mr. Starr. At some point during the discussion in our own 
deliberations we came to the view that we felt that because of 
the involvement, and I will be very specific here, of Vernon 
Jordan, that this was related to our existing jurisdiction. The 
Attorney General disagreed with that, but that was our view.
    Here was Linda Tripp, who was a witness in the Travel 
Office matter and the Vincent Foster documents matter and the 
Vincent Foster death matter, and she had come to us with 
information. So we felt very comfortable--and she said, ``I am 
being asked to commit crimes. I am being asked to commit 
perjury.'' We felt comfortable that we were within our 
jurisdiction at that juncture, but we did feel that there was a 
jurisdictional issue from that point forward, which we worked 
on collaboratively with the Justice Department.
    But we did, in fact, send a letter indicating that we felt 
that this was related to our jurisdiction. But I hasten to note 
that the Attorney General disagreed with that and said, no, it 
is not related to your existing jurisdiction, but we think your 
Office should investigate it. We can't, because the President 
is implicated.
    Mr. Kendall. In her transmission to the Special Division, 
the Attorney General stated ``Independent Counsel Starr has 
requested that this matter be referred to him.'' Is that not 
the case?
    Mr. Starr. You will have to refer me.
    Mr. Kendall. I am sorry, I don't have that in your binder. 
I will represent that to you----
    Mr. Starr. I certainly am going to accede to your 
representation, and it certainly is true, as I just indicated, 
that we did, in fact, send a written submission indicating that 
we felt that this was related to our jurisdiction. The Attorney 
General felt we should have jurisdiction, but determined that 
under the statute it should be an expansion of our existing 
jurisdiction.
    Mr. Kendall. Mr. Starr, when did you first learn, you 
yourself, that there might be an audiotape with a conversation 
involving the President and a young woman?
    Mr. Starr. The young woman, Monica----
    Mr. Kendall. A young woman.
    Mr. Starr. I'm sorry?
    Mr. Kendall. A young woman.
    Mr. Starr. I think we have had questions about that, and I 
have been asked that, and I am searching my recollection. But 
let me say this: If you are talking about Monica Lewinsky, and 
I don't know that you are, you didn't use her name, but the 
first I knew, to the best of my knowledge and recollection, of 
Monica Lewinsky was in January of 1998.
    Now, I had questions, and they seemed to me to suggest that 
there is some information with respect to information that may 
have come to me in November of 1997 with respect to tapes, and 
it was all very vague and shrouded in mystery, and I said I 
will be happy to respond if I get some additional information.
    But with respect to Monica Lewinsky, which is what I assume 
we are here to talk about, I did not know anything about Monica 
Lewinsky, to the best of my recollection. I don't think I ever 
had occasion to meet her or otherwise hear about her until 
January of 1998.
    Mr. Kendall. Were you aware of how Ms. Tripp came to 
communicate with your office in January of 1998?
    Mr. Starr. I was told--I will be very specific, and I can 
be very brief. I was at the American Bar Association Journal 
Board of Editors meeting when the initial contact was made with 
one of the associate independent counsels. I do not believe--
that was on January 8th, and I do not believe in that contact 
Linda Tripp's name was mentioned.
    That information was brought back to Washington. The 
information was conveyed to a deputy independent counsel, who 
said information comes in the front door, and I'm not sure at 
that time that we knew who this person was. We were then called 
on January 12th by Linda Tripp, that was a telephone call, and 
I was made aware of the telephone call promptly thereafter. And 
that is when it was brought to my attention that there was 
information that we would proceed to act on.
    Mr. Kendall. Were you aware that your partner Richard 
Porter had played a role in steering Ms. Tripp to your office?
    Mr. Starr. I know Richard. I am not aware of what his role 
was. I have since read about what his role was, but I did not 
in any way have any involvement whatsoever or participation in 
any way with whatever he did, and I have not conducted an 
investigation. There may be facts of which I am unaware that I 
should be aware in terms of before I formulate a complete 
response.
    Mr. Kendall. Could you turn to tab 2, Mr. Starr. It is a 
provision of the independent counsel statute. It is 28 USC 
594(J). Do you see that?
    Mr. Starr. Yes, I do.
    Mr. Kendall. And you have made the point that you kept your 
law practice, as you were legally entitled to do; you made, I 
think, over $1 million each year for the last 4 from that law 
practice, again, as you were legally entitled to do. But in 
exchange for allowing private counsel to serve part time as 
independent counsel, the Ethics in Government Act enforced a 
very strict conflict of interest rule; did it not?
    Mr. Starr. Yes, it is very specific, yes.
    Mr. Kendall. And that says that any independent counsel 
cannot have any person associated with the firm, not just a 
partner, represent in any matter any person involved in any 
investigation or prosecution under this chapter; is that 
correct?
    Mr. Starr. I believe that's right. I would have to reread 
it, but I am going to simply accept your representation, but I 
think that is correct.
    Mr. Kendall. I call your attention to Exhibit 4, which is 
another 302 interview form, and that is for Ms. Lucianne 
Goldberg, tab 4.
    Mr. Starr. Yes, I do have it.
    Mr. Kendall. At page 1232 of the exhibit, do you see that 
one of your agents is describing why Linda Tripp is nervous.
    Mr. Starr. And where--I am sorry, I have not read this 302.
    Mr. Kendall. It's 1232.
    Mr. Starr. Yes, I know, but what paragraph?
    Mr. Kendall. All right. It is the paragraph that begins, 
``In the meantime, because Tripp--''
    Mr. Starr. It is not on my page 1232.
    Mr. Kendall. I beg your pardon. It is 1231.
    Mr. Starr. Okay, I am sorry. All right.
    Mr. Kendall. ``Goldberg called around to friends she has, 
including one in Chicago who works at the same firm Ken Starr 
does. This person recommended Goldberg call Jackie Bennett at 
the OIC. Goldberg advised that the OIC knew who this person is, 
and that this person is very nervous at this time.'' Did you 
ever have any reports from any source that some person at your 
law firm had expressed nervousness about this contact with 
Linda Tripp?
    Mr. Starr. You are talking about at any time?
    Mr. Kendall. At any time.
    Mr. Starr. Well, you have just brought this to my 
attention. But I do not know. I don't have a recollection of 
something being brought--you are talking about to my attention. 
No.
    Mr. Kendall. Did you cause any check to be made at any time 
before you sought jurisdiction in the Lewinsky matter as to 
whether any person in your law firm had any kind of an 
association with the Paula Jones case?
    Mr. Starr. No, I did not. But I must say that what you 
pointed me to in the statute was representation, and I have 
read the 302 quickly for the first time. I have not had 
occasion to read this 302, and the 302 does not talk about 
representation; it talks about calling a friend.
    Mr. Kendall. It is possible, is it not, Mr. Starr, for the 
provision of legal advice of some kind to involve a 
representation, at least for conflict of interest purposes, 
even if there is no written retainer, there is no formal hiring 
of a person?
    Mr. Starr. Well, I am not sure I would readily agree with 
that. Let me just say this. Conflict of interest analysis is, 
as you well know because you are a partner in a very 
prestigious law firm, is very technical and very complicated, 
and very careful evaluation has to be made, and that is why I 
am sure at your firm, as we do at our firm, the firm in which I 
am on leave of absence, we have a partner who is dedicated to 
the issue--to the analysis of these very issues. So these are 
things that you assess all the facts. What is a conflict? As 
you know, the issue of conflict is one that is at times a 
very--very much a judgment call that reasonable persons have to 
have an enormous amount of information in order to come to that 
judgment.
    Mr. Kendall. Mr. Starr, could I direct your attention to 
exhibit--tab 14, please. Do you have that exhibit?
    Mr. Starr. Yes, I do.
    Mr. Kendall. That is a Washington Post article from June of 
1997 indicating that your investigators are now probing rumors 
about the President; is it not?
    Mr. Starr. It is an article about that subject, yes.
    Mr. Kendall. And indicating that State troopers, two who 
are named and quoted, Ronnie Anderson and Roger Perry, are 
being interviewed about rumors of affairs that the President 
had while he was Governor of Arkansas; is that correct?
    Mr. Starr. That is what the story is about, but whether the 
story reflects the facts is obviously a different matter.
    Mr. Kendall. Did you cause any investigation to be done as 
to whether, in fact, your investigators were asking witnesses 
about a list of 12 to 15 women by name, including Paula Corbin 
Jones?
    Mr. Starr. When this--and we were in Little Rock at the 
time, all of the attorneys were in Little Rock as we were 
assessing a very important issue, and when we were in the midst 
of our discussions, we were receiving urgent inquiries from The 
Washington Post asking about interviews, and you are quite 
right in pointing out that this was a Washington Post piece 
from June of 1997. They were talking about interviews that had 
been conducted in February, so it was old news, and we did then 
inquire, in light of this, we then did make inquiries 
internally of the FBI, because these are professional agents 
and we said, what kinds of questions are being asked; what is 
the purpose, and the purpose of the investigation was as we 
were moving forward in the Little Rock phase of our 
investigation, we wanted to make sure, as investigators should 
do and as prosecutors should do, that we had reached out and 
interviewed anyone who might have relevant information, and 
that is what we were doing. We were, in fact----
    Mr. Kendall. Relevant to this interview, did you go to the 
Attorney General and seek an expansion of your jurisdiction to 
accompany this particular investigation?
    Mr. Starr. I guess I wasn't clear. This was the Whitewater 
phase of our investigation that is referenced here in the press 
we are talking about, in Little Rock; we are not talking about 
activity in Washington. And we were, in fact, interviewing, as 
good prosecutors, good investigators do, individuals who would 
have information that may be relevant to our inquiry about the 
President's involvement in Whitewater, in Madison Guaranty 
Savings and Loan and the like, and specifically, a loan from 
Madison Guaranty that we had information on in which we were 
not able to secure as much information as we would like, given 
the records of the bank and given Susan McDougal's lack of 
cooperation. As you know, as you well know, Susan McDougal was 
not cooperating with the investigation, and indeed, as we know, 
you spent time with Susan McDougal during the course of the 
trial representing the President's interest to communicate with 
her, as you are entitled to do. We are also entitled, just as 
you are entitled to reach out to your fellow criminal defense 
lawyers, we are entitled to reach out to witnesses who may have 
relevant information.
    Mr. Kendall. Did you use private investigators to do this 
investigation into the 12 to 15 women?
    Mr. Starr. I beg your pardon? Private investigators?
    Mr. Kendall. Your GAO report, for the last three times, has 
a line item of approximately--it varies, but it is about half a 
million dollars, for among other things, private investigators.
    Mr. Starr. No, we have never hired Terry Lenzner, David.
    Mr. Kendall. What private investigative----
    Mr. Starr. But what we do do is we do hire retired FBI 
agents, and those are--I will have to look at--you are talking 
about an audit report, and if you want to guide me to the audit 
report, that's fine.
    Mr. Hyde. The Chair has got to intervene. The hour is over 
quite a little bit. Mr. Lowell and Mr. Kendall have had 2 
hours. Mr. Schippers has been waiting since 10 o'clock and is 
getting testy, which is his natural state. But Mr. Kendall, you 
will have an opportunity, a further opportunity to present and 
address the committee at length in extensio as you lawyers say, 
and offer whatever evidence, exculpatory or otherwise, you 
want. You will have a full opportunity before we go to any 
markup, if we go to a markup. So really, it is a long day. One 
must have some compassion for Mr. Starr, and if not----
    Mr. Starr. Thank you, Mr. Chairman.
    Mr. Kendall. Mr. Chairman, I thank you, but I would simply 
request, Mr. Starr testified for two and a quarter hours; I am 
simply trying to get my fair crack at him. I would like to go 
into omissions from the referral and other areas.
    Mr. Hyde. Well, I am sure----
    Mr. Kendall. I would come back tomorrow, if that were 
appropriate.
    Mr. Hyde. Well, I don't think many of us want to come back 
tomorrow. But really you will have an opportunity to address 
the committee fully and produce whatever you want by way of 
evidence, witnesses, exculpatory material. We will not 
foreclose you, but the night is waning and we would like to get 
to Mr. Schippers, so with your kind indulgence, and I see you 
are putting your glasses away, which is a healthy sign.
    Mr. Starr, do you want a little break?
    Mr. Starr. No, Mr. Chairman. We are almost at my bedtime.
    Mr. Hyde. We are at mine, I can assure you.
    Ms. Waters. Mr. Chairman.
    Mr. Hyde. The gentlewoman from California.
    Ms. Waters. I would like to inquire of the Chair, what 
opportunity will we have to clarify what appears to have been 
conflicting information that we have received here today from 
our star witness?
    Mr. Hyde. I would write a letter to Mr. Starr, if I were 
you. If I were confused about some of the evidence, I would 
write him a nice letter and I would say please straighten me 
out, and I bet he would answer you.
    Ms. Waters. I think it is a little deeper than that. It may 
go to perjury. This man is under oath.
    Mr. Hyde. Well, he is under oath. Are you charging him with 
perjury?
    Ms. Waters. I would like clarification, and after the 
clarification is made, I can determine whether or not I would 
make that charge.
    Mr. Hyde. Well, Ms. Waters, the Chair has to control this 
committee. We have been at it all day, and I think what you are 
asking at this late moment is an imposition on the committee, 
not to mention Mr. Starr, so you would not be recognized for 
that purpose. But I will recognize Mr. Schippers for 30 
minutes.
    Mr. Schippers. Thank you, Mr. Chairman.
    Judge Starr, my name is David Schippers and I am the chief 
investigative counsel for the committee. Can you hear me?
    Mr. Starr. Now I can. Thank you.
    Mr. Schippers. I will try to be as brief as I possibly can, 
but I do have a little bit of territory to cover, as you well 
know.
    I will begin with some of Mr. Kendall's statements and some 
of Mr. Kendall's questions to you. First of all, do I 
understand that there is such a thing as a hair trigger? You 
referred to a hair trigger that would set off an investigation 
of whether or not there were leaks out of your office.
    Mr. Starr. Yes.
    Mr. Schippers. And that hair trigger can be and often is 
triggered by a defense attorney sending something to the judge 
claiming that there is a leak; is that right?
    Mr. Starr. It is--yes, it is standard practice for criminal 
defense lawyers to charge leaks of grand jury information, 
their allies then pick up the charge, and suddenly it becomes 
conventional wisdom that there has, in fact, been some final 
adjudication, which is wrong as a matter of law and unfair, 
just in terms of basic human decency, because these are 
professional prosecutors that we are talking about.
    Mr. Schippers. Thank you, Judge.
    Mr. Starr. Yes, I am sorry.
    Mr. Schippers. Do I understand that Mr. Kendall sent 27 of 
these such requests about leaks?
    Mr. Starr. I think he had some 24 exhibits which again I 
have been reluctant to talk about, because it is in litigation. 
I mean the specifics are in litigation, as David knows.
    Mr. Schippers. Well, Judge, if I were expecting someone to 
testify before a congressional committee and I wanted some 
questions to ask him about leaks, all I would have to do is 
send some letters to the judge and trigger this hair trigger 
effect, isn't that correct?
    Mr. Starr. I don't want to suggest that the hair trigger is 
a nonexistent trigger, but the burden on the defense lawyer is 
quite modest, and one of the things that we have learned, and I 
know this is your time, but I would just say, one of the things 
that we have learned in this investigation is that a lot of 
people, including Mr. Kendall, talk on background and the like, 
and the sourcing that is then used by the reporter becomes very 
important. Someone as responsible as Tim Russert sourced a 
story in such a way that it came from us. He was decent and 
honorable enough to say, no, it didn't come from Starr's 
office, it in fact, with all due respect, came from the 
Congress.
    Now, you are not under a 6(e) obligation, so you can talk 
as freely as you would like, and indeed you enjoy Speech and 
Debate Clause immunity. However, prosecutors are very 
sensitive, especially in this jurisdiction in light of the hair 
trigger to a reporter who sort of says, ``sources close to.'' 
Well, what does that mean? It can mean almost anyone. And I 
think that one of the things that this litigation will, in 
fact, show, is that that becomes an issue ever so quickly as we 
saw in the Marion Barry case and as we saw in the Dan 
Rostenkowski case.
    Mr. Schippers. Judge, Mr. Kendall mentioned massive 
leaking. I am going to ask you a specific and direct question. 
As you sit there, do you have any information, evidence or 
anything in your possession to indicate that anyone in your 
office has leaked anything? Any 6(e) material?
    Mr. Starr. Well, again, it depends on what one means by 
6(e), because there are issues. I have a press release----
    Mr. Schippers. With your information.
    Mr. Starr. Within my understanding, and I think that my 
understanding is correct, no, I can say here that now. But I 
also think that it is important for this litigation that I had 
talked about to go forward and let's see what happens in that 
litigation, which is again under seal, but there is an orderly 
process, just as the Supreme Court said in the Paula Corbin 
Jones case. Let's allow that orderly process to go forward.
    Mr. Schippers. Fine. Sir, you were asked whether you were 
present during the taking of the 302s, the FBI interviews, 
whether you were present at the grand jury appearances of all 
of these witnesses; whether you were present during the course 
of interviews and depositions, and you answered no; isn't that 
correct?
    Mr. Starr. That is correct.
    Mr. Schippers. But you did have experienced, highly 
experienced professional agents and prosecutors present at each 
and every one of those occasions, did you not?
    Mr. Starr. I did.
    Mr. Schippers. And you relied upon the integrity, the 
honesty and the decency of those agents and investigators, did 
you not?
    Mr. Starr. I did, and very proudly so.
    Mr. Schippers. All right. I notice that Mr.--we have heard 
an awful lot about fairness here, Judge Starr, but I notice 
that when you sat down this morning you were given about 2 
inches of documents to review. How long did you have to review 
those before Mr. Lowell began questioning you?
    Mr. Starr. Unless Mr. Lowell shipped it over this morning, 
I left the office at 9:15 a.m. to come to the House of 
Representatives, and I had not seen it. If it is waiting on my 
desk, then I suppose he gave me some notice, but no, in terms 
of actual notice, I had no notice whatsoever.
    Mr. Schippers. You were also given a book filled with some 
63 tabs when Mr. Kendall began to question you. When is the 
first time you saw that book?
    Mr. Starr. This evening, when I came in after having a 
sandwich.
    Mr. Schippers. And of course they had, they were in 
possession of those books before you left to have your 
sandwich. They didn't give it to you to review, did they?
    Mr. Starr. No, unless it is sitting on my desk--it is not. 
They did not, and I am confident I have to be careful what I 
say, because of not having universal facts, but Mr. Schippers, 
no, I had no advance notice that this was going to be inquired 
into.
    Mr. Schippers. You were questioned about specific, one 
line, two lines inside of this 2\1/2\-inch document and you had 
to go and hunt for the answers, didn't you, Judge?
    Mr. Starr. I did.
    Mr. Schippers. Now, we have heard over 2 hours of 
questioning, almost 3 hours of questioning if we include the 
Democratic members of this committee, and I haven't heard 
anybody ask you one question about the facts of these cases. So 
with your permission, Judge, I am going to take a few minutes 
and get to the facts and the issues that are really before this 
committee.
    First of all, Mr. Conyers in his opening statement made a 
remark about a recent delivery of four boxes of documents. That 
delivery was made, what was it, yesterday or the day before to 
the Ford Building, was it not, Judge Starr?
    Mr. Starr. Yes, I believe it was the day before.
    Mr. Schippers. Now, that wasn't your idea to deliver those, 
was it?
    Mr. Starr. No, it was not.
    Mr. Schippers. It was in answer to a request by Mr. Conyers 
that you provide additional information, wasn't it?
    Mr. Starr. Yes. Well, it was a congressional request. I 
believe it originated with Congressman Conyers.
    Mr. Schippers. And you were just----
    Mr. Starr. We have had so many requests. We have had 
individual requests from individual Members. I don't mean to 
complain, but we don't have a congressional office. We are 
prosecutors and lawyers, so we do the best we can. We have had 
a virtual flurry of requests for information, but I believe 
Congressman Conyers was one of the requesters with respect to 
that information and we tried to be responsive, yes.
    Mr. Schippers. Now, Judge Starr, you have been 
investigating President Clinton and the Monica Lewinsky matter 
and other matters involving perjury, obstruction of justice, 
conspiracy and so on for some 7 or 8 months; is that correct?
    Mr. Starr. Yes, I guess now 10 months.
    Mr. Schippers. Have you been given any exculpatory evidence 
by the President, or have you been offered any exculpatory 
evidence or witnesses by the President in that time?
    Mr. Starr. I don't believe that we have. I would want to 
check, and if I have additional information I would provide it 
to the committee. But as I sit here this evening, I am not 
aware of any suggestion that there is exculpatory evidence, 
other than the discussion we have had here today with respect 
to what one individual witness may have said. But no, no 
witness has come forward to say, Monica Lewinsky made it all 
up. No one has suggested that. No one has suggested it. So I am 
sorry to be going on, but the point is----
    Mr. Schippers. I think you have answered the question.
    Mr. Starr. We stand ready to receive information, but no 
one has come forward.
    Mr. Schippers. That was my next question. If information 
were available and had been given to you, you would have 
considered that along with all of the other information, is 
that correct?
    Mr. Starr. Oh, yes, absolutely. In fact, one of my 
colleagues reminds me that we specifically asked in the flurry 
of this investigation, we asked Mr. Kendall by letter, please 
provide us with any exculpatory information. Mr. Kendall said, 
there was nothing to exculpate, or that there was nothing to 
worry about exculpation from.
    Mr. Schippers. Now, there was a great deal of discussion 
throughout the day about the difference between your 
investigation and that of Mr. Jaworski. There was no 
Independent Counsel Act when Mr. Jaworski was performing his 
duties, was there?
    Mr. Starr. That is correct. He had no statute to look to at 
all.
    Mr. Schippers. Your actions as regards referrals to this 
committee are alluded to by statute; are they not?
    Mr. Starr. They are indeed.
    Mr. Schippers. And you tried to the best of your ability to 
comply with those statutes.
    Mr. Starr. That is correct. I would just add that there was 
no experience for this, happily for the country, under this 
provision of the statute. So we were sailing in uncharted 
waters and trying to come to the best professional judgment we 
could about what Congress intended and wanted in this provision 
that required us to report to it.
    Mr. Schippers. One aside. In the 63--have you had an 
opportunity--I know you haven't had a reasonable opportunity, 
but have you had any opportunity to page through Mr. Kendall's 
63 tabs?
    Mr. Starr. Only as he was guiding me.
    Mr. Schippers. Well, I have, Judge Starr, and I note that 
it contains several newspaper articles, several magazine 
articles, several self-serving letters from the President's 
counsel, and not one word, not one word of evidence.
    By the way, the other 2 inches is equally devoid of 
evidence.
    During your term as Independent Counsel, sir, and with 
particular reference to your investigation of the Lewinsky 
matter and the perjury and the obstruction of justice and other 
related criminal activity, you were under the guidance and 
control of the Attorney General of the United States, were you 
not?
    Mr. Starr. Well, I was certainly under her ultimate 
supervision in terms of the provisions for removal, but of 
course the Independent Counsel is to be independent of her 
daily supervision.
    Mr. Schippers. I mean that in the sense that if you were to 
be involved in anything untoward, unethical, illegal, the 
Attorney General had the absolute ability to fire you for 
cause; did she not?
    Mr. Starr. Yes. I mean the statute is clear that an 
independent counsel can be removed for good cause.
    Mr. Schippers. Now, you have been pilloried and vilified in 
newspapers and magazines and here, unfortunately. Has the 
Attorney General ever indicated that she had any thought of 
firing you for cause?
    Mr. Starr. I am not aware of any expression of any issue at 
all with respect to good cause. In fairness to the Attorney 
General--because of the flurry of allegations that are just 
constant--there is a process of evaluation on her part, but no. 
I meet with the Attorney General episodically and her senior 
staff, and there has never been a suggestion that there is good 
cause to remove me as Independent Counsel. At least I am not 
aware of any suggestion.
    Mr. Schippers. Well, has the Attorney General ever 
questioned you about conflicts of interest or anything like 
that?
    Mr. Starr. No, the Attorney General has not, but the 
Attorney General has a process through the Office of 
Professional Responsibility or otherwise exercising her 
jurisdiction, but thus far, the issues that have been acted on, 
we have been cleared on, or else no action has been taken over 
the years of my stewardship as the Independent Counsel.
    Mr. Schippers. Now, all of these specific factors that 
various people have asked you if you reported to the Attorney 
General when you met her on the 16th of, when was it, the 15th 
of January?
    Mr. Starr. Well, we met with the Deputy Attorney General on 
the 15th and then there was--and again, I did not have these 
meetings, as it turned out.
    Mr. Schippers. There was a litany of things that you 
apparently allegedly did not tell the Attorney General.
    Mr. Starr. Oh, yes, yes, I am sorry, yes.
    Mr. Schippers. But of course shortly thereafter all of that 
litany of information became available to the Attorney General.
    Mr. Starr. If it wasn't available to begin with. Part of 
the quarrel that I have had with a number of the suggestions 
about what I should have told the Attorney General is that 
these were all in the public domain. As I said in response to 
questions very early, or earlier in the day, certain things did 
not occur to me as relevant or germane. It may be that others 
would say, gee, isn't it relevant that you were asked by Bob 
Fiske to consider preparing an amicus brief in the Paula Corbin 
Jones case. I didn't view it as--well, it just didn't occur to 
me.
    Mr. Schippers. That's fine. But it did become available and 
no action was taken.
    Mr. Starr. No. That is correct.
    Mr. Schippers. Now, let's get to this January 16 meeting 
with Monica Lewinsky that so much has been made of.
    Mr. Starr. Yes.
    Mr. Schippers. I have been a prosecutor too, and Monica 
Lewinsky from my reading was treated very, very nicely by your 
agents.
    Mr. Starr. Thank you.
    Mr. Schippers. I believe-- I hear laughter from the left, 
but I often here laughter from the left, even when you were 
testifying, and I didn't really think it was fair to laugh at 
you when you were testifying either.
    Mr. Starr. Well, I think a fair assessment of the record 
will show that we wanted her cooperation, and we treated her 
with dignity and with respect, but we were prosecutors and we 
were investigators investigating crime. That is a serious 
matter and we made it very clear to her, she is in a serious 
situation. But we treated her with dignity and we certainly 
took every step to make sure----
    Mr. Schippers. I wonder how many of your accusers have read 
the log that was kept of every minute of that day.
    Now, sir, there was also some question as to why Ms. 
Lewinsky was not allowed to call Mr. Carter. Mr. Carter had 
been given to Monica Lewinsky by Vernon Jordan, isn't that 
correct?
    Mr. Starr. That is correct.
    Mr. Schippers. And the evidence available to you at that 
time, phone evidence indicated that perhaps Mr. Jordan had been 
in telephonic contact with the President at the time he was 
getting her that lawyer; isn't that correct, sir?
    Mr. Starr. That is correct.
    Mr. Schippers. And in an abundance of caution, you did not 
want the President to know that Monica Lewinsky was talking to 
you; isn't that right?
    Mr. Starr. That is correct.
    Mr. Schippers. And that is a perfectly valid prosecutorial 
move, isn't it?
    Mr. Starr. Yes, very traditional. Nothing out of the 
ordinary.
    Mr. Schippers. As a matter of fact, later Ms. Lewinsky 
decided she didn't want to be represented by Mr. Carter on that 
day; isn't that correct?
    Mr. Starr. Yes. She came to a decision to be represented by 
Mr. Ginsburg.
    Mr. Schippers. And she called Mr. Ginsburg and she talked 
to him, didn't she?
    Mr. Starr. Yes. I was going to say that was in consultation 
with her family, so I don't know to what extent Ms. Lewinsky 
was being guided by her parents, and especially Dr. Lewinsky.
    Mr. Schippers. But in any event, she changed lawyers from 
the one that had been provided to her indirectly by the White 
House to an independent lawyer from the West Coast, is that 
right?
    Mr. Starr. Oh, yes, and one who was well-known to the 
family.
    Mr. Schippers. Doesn't the evidence demonstrate that from 
the 16th on, from that day on when she was unavailable, there 
was a 3-day frenzy at the White House to try and find Monica 
Lewinsky by phone, by beeper, and that Mr. Jordan, Mr. Carter, 
and Ms. Currie were in constant efforts to reach Monica 
Lewinsky; isn't that a fact?
    Mr. Starr. I believe that is true.
    Mr. Schippers. Does that indicate to you that they were a 
little bit afraid of what Monica might say?
    Mr. Starr. I think there was concern.
    Mr. Schippers. By the way, when Monica Lewinsky was--I am 
not going to say being held, because I don't want to run into 
trouble. When Monica Lewinsky was in with your agents----
    Mr. Starr. And prosecutors.
    Mr. Schippers. She was never questioned about criminal 
activity, was she?
    Mr. Starr. No, she was not.
    Mr. Schippers. She was not questioned at all about criminal 
activity until she was represented by counsel, isn't that 
right?
    Mr. Starr. That is absolutely right, and that is why not 
one word in this referral comes from any information that was 
gleaned or gathered on the evening of January 16.
    Mr. Schippers. As a matter of fact, the first time Monica 
Lewinsky testified in the grand jury was some 7 months later, 
correct?
    Mr. Starr. It took a long time and a new set of lawyers, 
two very distinguished lawyers here in Washington.
    Mr. Schippers. And if she was afraid and if she was 
disturbed on January 6th, she was sure as heck over it by 
August 6th, wasn't she?
    Mr. Starr. Well, she was at least--yes, she seemed to be. 
But I am very fearful of saying anything about state of mind, 
especially in light of a comment I have heard with respect--but 
in any event.
    Mr. Schippers. Do you have before you, Judge Starr, the 
first two-incher, the one that Mr. Lowell gave you? Would you 
turn to tab 35, please. There are a whole series of remarks on 
page 35, and I think there was a--356 is the page number; that 
is where tab 35 begins. The first bullet, do you have it, 
Judge?
    Mr. Starr. I do.
    Mr. Schippers. The first bullet says Monica Lewinsky 
testified before the grand jury that quote, ``No one ever asked 
me to lie and I was never promised a job for my silence.'' Is 
that right?
    Mr. Starr. Yes.
    Mr. Schippers. She also testified, ``But nobody told me to 
tell the truth, either,'' didn't she?
    Mr. Starr. Absolutely.
    Mr. Schippers. Monica Lewinsky also testified that she had 
a conversation with the President in the White House on the 
phone when she found out that she was on the witness list and 
the President told her, you can make an affidavit.
    Mr. Starr. That is correct, words to that effect.
    Mr. Schippers. The affidavit of course would be for the 
purpose of avoiding testimony; isn't that correct, Judge Starr?
    Mr. Starr. Yes, that is correct.
    Mr. Schippers. And in order to accomplish that purpose, 
both the President and Ms. Lewinsky were fully aware that that 
affidavit would have to be a lie; isn't that right?
    Mr. Starr. Yes.
    Mr. Schippers. And it was the President's suggestion that 
she make that affidavit, according to her testimony?
    Mr. Starr. According to her testimony, yes.
    Mr. Schippers. We might as well be complete about these 
tabs when we are going over them. We are going to talk a little 
bit about fairness, if I may.
    The President of the United States testified before a grand 
jury, did he not, Judge Starr?
    Mr. Starr. Yes, he did.
    Mr. Schippers. And he was permitted to testify by videotape 
or by closed circuit television from the White House, was he 
not?
    Mr. Starr. Yes, he was.
    Mr. Schippers. How often is a perspective witness before 
the grand jury permitted to testify from home?
    Mr. Starr. Very rarely. Usually----
    Mr. Schippers. So that was being overly fair to the 
President by letting him testify from there, isn't that right?
    Mr. Starr. We tried to respect the dignity of the 
Presidency and the President, and we readily agreed to provide 
this alternative mechanism at Mr. Kendall's request to his 
actual appearance before the grand jury.
    Mr. Schippers. Also, the President was permitted to have 
his attorney sitting with him and to consult with that 
attorney; isn't that correct?
    Mr. Starr. Yes. Mr. Kendall and Ms. Seligman and----
    Mr. Schippers. How many perspective witnesses before a 
grand jury are permitted to bring their lawyer into the grand 
jury room with them?
    Mr. Starr. None. It is inconsistent----
    Mr. Schippers. Except the President.
    Mr. Starr. --with grand jury practice.
    Mr. Schippers. So another favor to the President in the 
interest of fairness; is that correct?
    Mr. Starr. That's correct.
    Mr. Schippers. The President was permitted to read a 
statement before he began to testify. How many witnesses in a 
grand jury are permitted to read a statement of their own 
before testifying?
    Mr. Starr. Ordinarily, it is not done. They are there to 
answer questions that the prosecutors and the legal advisors to 
the grand jury or the grand jurors themselves
    have.
    Mr. Schippers. The President was originally subpoenaed to 
appear before a grand jury?
    Mr. Starr. Yes, he was, after he had declined six 
invitations to testify.
    Mr. Schippers. And as an accommodation to the President, 
you and your staff withdrew that subpoena and allowed him the 
courtesy of appearing quote, ``voluntarily?''
    Mr. Starr. Yes, at Mr. Kendall's request.
    Mr. Schippers. Once again being eminently fair to the 
President.
    Mr. Starr. We acceded to his request. We did try and do try 
to be fair.
    Mr. Schippers. Now, Judge Starr, when an individual 
testifies before a grand jury, that individual has three 
choices. He can tell the truth, one; he can lie, two; or he can 
assert his Fifth Amendment privilege not to testify because his 
answers might tend to incriminate him; isn't that correct?
    Mr. Starr. Yes.
    Mr. Schippers. When an individual is questioned in a grand 
jury, is he permitted to say, I stand on my statement in lieu 
of taking the Fifth?
    Mr. Starr. No.
    Mr. Schippers. But the President was allowed to do that, 
was he not?
    Mr. Starr. He was.
    Mr. Schippers. So much for the unfairness of the grand 
jury.
    You were also asked by some of the members here, and a 
great, great deal was made that none of these individuals in 
the grand jury were subjected to cross examination, and that is 
true; none of them were?
    Mr. Starr. That is correct.
    Mr. Schippers. Are you aware of any grand jury proceeding 
in which the defense is permitted to come in and cross-examine 
the witnesses before the grand jury?
    Mr. Starr. Absolutely not.
    Mr. Schippers. It is unbelievable, isn't it?
    Mr. Starr. It is completely outside the contemplation of 
grand jury practice, because that is not the function of the 
grand jury; it is to gather information and to determine 
whether there is probable cause to believe that a criminal 
offense may have been committed.
    Mr. Schippers. That's right. Now, the cross examination is 
for the trial; is it not?
    Mr. Starr. Yes, absolutely.
    Mr. Schippers. Now, if I could change horses a little bit 
and go to the impeachment proceeding, the Constitution provides 
that the sole power of impeachment resides in the House of 
Representatives; isn't that correct?
    Mr. Starr. That is correct.
    Mr. Schippers. And that is in the nature of a grand jury 
proceeding which results in a charge; isn't that right?
    Mr. Starr. That's right.
    Mr. Schippers. So there should be no cross examination at 
that stage of the proceeding either, should there?
    Mr. Starr. That is entirely within your prerogative, but to 
the extent that you are mirroring the grand jury, there is no 
cross examination.
    Mr. Schippers. Well, over and above that, Judge Starr, the 
Constitution further provides that the sole power to try an 
impeachment resides in the Senate; isn't that correct?
    Mr. Starr. That is true.
    Mr. Schippers. So if this House were to permit cross 
examination and to hold a mini trial here, they would be 
usurping the constitutional duties of the United States Senate; 
isn't that correct?
    Mr. Starr. Well, I am not sure I would necessarily agree 
with that, because I think----
    Mr. Schippers. I hear the moaning from the left.
    Mr. Starr. I think, I think----
    Mr. Hyde. Does somebody need aspirin?
    Mr. Starr. But I think there are substantial--I shouldn't 
be advising the House of Representatives in terms of its 
prerogatives, but it seems to me that under the Constitution 
you have extraordinary latitude under whatever the Rules of the 
House under which you are operating to determine how to 
proceed. But you are quite right, the Constitution contemplates 
the trial to be in the Senate, and what you are quite rightly 
saying is, if one is saying, ``let's have a trial,'' you might 
have the raw power to do it, but it is almost as if, well, that 
doesn't count, because the real issue is, is there substantial, 
or whatever the standard is, that the House of Representatives 
sees fit to articulate as its operative standard.
    Mr. Schippers. Now, Judge, let's do some fairness comparing 
here. Did anybody in the grand jury, while the President was 
testifying, laugh at him?
    Mr. Starr. Yes.
    Mr. Schippers. Who?
    Mr. Starr. Members of the grand jury.
    Mr. Schippers. And when was that, Judge Starr? While the 
President was testifying and telling what he told the grand 
jurors, they were laughing at him; is that right, sir?
    Mr. Starr. I understand that there were some occasions 
where one or more grand jurors, at least that is my 
understanding. But I want to protect the confidentiality of the 
grand jury process and deliberative process, even though you 
have all the transcripts and the like. I would just rely on 
what the transcripts say.
    Mr. Schippers. All right. When the President was asked 
questions, he was asked questions one at a time; was he not?
    Mr. Starr. Yes.
    Mr. Schippers. And they were relatively simple questions 
and he was permitted to give full and complete answers, isn't 
that correct?
    Mr. Starr. Yes.
    Mr. Schippers. He wasn't asked six or eight questions at a 
time running over a 4 or 5-minute period and then given 10 
seconds to answer, was he?
    Mr. Starr. Definitely not.
    Mr. Schippers. Now, by the way, did anybody cut off the 
President when he tried to answer questions?
    Mr. Starr. No, I don't think there was any episode when we 
cut off the President. Although may I say, we were operating as 
well under very strict limitations, and we did want to proceed 
with additional questions, and the grand jury had questions, 
but Mr. Kendall did enforce the understanding that we had, 
which was a 4-hour session by the President, and we abided by 
that. And I don't mean to sound quarrelsome in suggesting that 
Mr. Kendall was not within his rights. He was.
    Mr. Schippers. Now, Judge, there has been a lot of talk in 
the public domain and on the television and things that this 
is--that all the President did was deny sex, deny a sexual 
relationship with an intern. He went a lot further than that, 
didn't he? For an example, with Mr. Blumenthal?
    Mr. Starr. Yes.
    Mr. Schippers. As a matter of fact, before Mr. Blumenthal 
came in to testify, he was subjected to an elaborate, elaborate 
lie by the President concerning the relationship with Monica 
Lewinsky.
    Mr. Starr. Yes, he was.
    Mr. Schippers. If I may, the President told Mr. Blumenthal 
that Monica made sexual demands upon him which he rebuffed. Is 
that right? And that was not true, was it?
    Mr. Starr. That was not true.
    Mr. Schippers. He also said that Monica Lewinsky threatened 
to claim an affair and he wouldn't go along with it; that he 
had been threatened by Monica Lewinsky; is that right?
    Mr. Starr. Yes.
    Mr. Schippers. Now, this is at a time when the President 
thought that it was a one-on-one with Monica Lewinsky, didn't 
he?
    Mr. Starr. I believe that is what he thought at that time.
    Mr. Schippers. And this would have been a perfect answer. 
``She threatened to say I had sex with her if I didn't do 
something for her. I didn't do something, therefore, everything 
she is saying is a lie.''
    Mr. Starr. It would be a very good answer.
    Mr. Schippers. It has been suggested that your people used 
the young lady and betrayed the young lady. Wouldn't that more 
properly belong to the President of the United States?
    Mr. Starr. Well, I am not sure I should be the one to pass 
judgment, but we certainly did not betray Ms. Lewinsky. We were 
doing our job, and we certainly never took any steps other than 
to try to vindicate the interests of the criminal law.
    Mr. Hyde. Mr. Schippers, your time has expired. Do you need 
additional time?
    Mr. Schippers. If I may, and if Judge Starr can stand it. I 
will not need a great deal more, Mr. Chairman.
    Mr. Hyde. All right. I will allow an additional 15 minutes, 
and maybe you won't use that, said he hopefully, prayerfully.
    Mr. Schippers. There has been some suggestion, Judge, that 
this was merely a private crime. The United States Constitution 
provides for three branches of government, does it not, coequal 
branches?
    Mr. Starr. That is correct.
    Mr. Schippers. And the judiciary is coequal with the 
executive?
    Mr. Starr. Absolutely.
    Mr. Schippers. Did I understand you earlier to say that 
lying under oath, perjury, and obstruction of justice strikes 
at the very heart of the judicial system of the United States?
    Mr. Starr. Absolutely, and I think every judge would agree 
with that, that this is absolutely inimical to the judicial 
functioning. It is inimical to our court system.
    Mr. Schippers. And under the Constitution of the United 
States, if the judicial system is destroyed, that is destroying 
one of the constitutional portions of our government; isn't it?
    Mr. Starr. No question that from the founding of the 
Republic, the importance of our judiciary as an enforcer of 
rights and the vindicators of rule of law is absolutely 
critical.
    Mr. Schippers. So when the President of the United States 
lies under oath, a civil or criminal case, grand jury or other, 
and obstructs justice, civil or criminal, grand jury or other, 
he is effectively attacking the judicial branch of the United 
States constitutional government, isn't he?
    Mr. Starr. That is the way I would view it.
    Mr. Schippers. And a President takes the oath that he will 
faithfully execute the Office of President of the United 
States, and will, to the best of his ability, preserve, protect 
and defend the Constitution of the United States, right?
    Mr. Starr. Right.
    Mr. Schippers. That is not defending, is it?
    Mr. Starr. No, it is not.
    Mr. Schippers. There is a term that has stuck in my brain 
from these transcripts that I have read, and that is mission 
accomplished.
    When Webb Hubbell needed help, Vernon Jordan got somebody 
at Revlon or the parent company of Revlon to put him on 
retainer for no work, right?
    Mr. Starr. Essentially no work.
    Mr. Schippers. So, Vernon Jordan, mission accomplished.
    When Monica was looking for a job, and it became very 
urgent for her to get a job, Mr. Jordan again accomplished his 
mission.
    Mr. Starr. Yes, he did.
    Mr. Schippers. When Ms. Currie, when they wanted to get rid 
of the gifts, Ms. Currie went and picked them up, put them 
under her bed to keep them from anybody else. Another mission 
accomplished?
    Mr. Starr. That's right.
    Mr. Schippers. By the way, there has been some talk here 
that Monica said that she recalled that Betty Currie called her 
and said, either the President wants me to pick something up, 
or I understand you have something for me to pick up. Later, 
Ms. Currie backed off of that and said, well, I am not sure, 
maybe Monica called me. In the material that you made 
available, you and your staff made available to us, there were 
302s in which Monica said, I think when Betty called me, she 
was using her cell phone. Do you recall that, Judge Starr?
    Mr. Starr. I do.
    Mr. Schippers. And in that same material that is in your 
office that both parties were able to review and that we did, 
in fact, review, there are phone records of Ms. Currie; are 
there not?
    Mr. Starr. There are.
    Mr. Schippers. And there is a telephone call on her cell 
phone to Monica Lewinsky's home on the afternoon of December 
28, 1997; isn't there?
    Mr. Starr. That is correct.
    Mr. Schippers. Once again, Monica is right and she has been 
corroborated, right?
    Mr. Starr. That certainly tends to corroborate Ms. 
Lewinsky's recollection.
    Mr. Schippers. By the way, they did find some of the 
billing records from the Rose firm in the attic of Vince 
Foster's home.
    Mr. Starr. Yes, that is correct.
    Mr. Schippers. They weren't under the bed, were they?
    Mr. Starr. No, they were in the attic.
    Mr. Schippers. I am sorry.
    Now, when Ms. Lewinsky was subpoenaed, Mr. Jordan contacted 
the President and then got Ms. Lewinsky an attorney, Mr. 
Carter, is that right?
    Mr. Starr. That is correct.
    Mr. Schippers. Another mission accomplished.
    When Monica did her job search and she signed a false 
affidavit, the next day she was down in New York or up in New 
York trying to get a job; isn't that right?
    Mr. Starr. I believe it was the next day, yes.
    Mr. Schippers. And she couldn't get a job because she kind 
of didn't do a very good job on the interview.
    Mr. Starr. She did not feel that the interview had gone 
well and she was not given a job offer, and that concerned her 
and she expressed that concern.
    Mr. Schippers. This is when Mr. Jordan called the chairman 
of the board and got her the job.
    Mr. Starr. He certainly--yes. He called Mr. Perelman and 
Mr. Perelman then made a call and she was reinterviewed and she 
was hired.
    Mr. Schippers. So Mr. Jordan at that time knew that the 
false affidavit had been signed and that he had had a job for 
Monica, and he went to see the President of the United States 
and said, mission accomplished, didn't he?
    Mr. Starr. Well, in fairness to Mr. Jordan, he knew the 
affidavit had been signed; the rest I am sure would be in some 
dispute, but yes, that is----
    Mr. Schippers. Well, he knew the affidavit had been signed 
and he knew that the job had been gotten and he went into the 
President and said, ``Mission accomplished.''
    Mr. Starr. Yes, that is correct.
    Mr. Schippers. We don't know which he was referring to, 
whether it was the job or we got the affidavit signed, do we?
    Mr. Starr. No, I don't think that we do know that. We just 
know that he said mission accomplished. I know he felt that he 
had, you know, engaged in a certain amount, a certain level of 
effort to secure that job for Ms. Lewinsky at Revlon.
    Mr. Schippers. Now, Judge Starr, I only have a few more 
questions.
    You are a senior partner in a major law firm, or you were 
before you took a leave of absence?
    Mr. Starr. Yes, past tense.
    Mr. Schippers. You are a recognized scholar in 
constitutional law and in law in general. You have been the 
Solicitor General of the United States; is that correct?
    Mr. Starr. That is correct.
    Mr. Schippers. Argued a number of cases before the Supreme 
Court of the United States?
    Mr. Starr. That's correct.
    Mr. Schippers. You have received honorary doctors of law 
degrees from six universities?
    Mr. Starr. I think that is right.
    Mr. Schippers. You have written numerous articles in 
various scholarly journals?
    Mr. Starr. Yes. I have written a number.
    Mr. Schippers. You have a completely unblemished career for 
your entire life as a lawyer, and you are looked upon in the 
profession as a man of honor, integrity and decency, is that 
right?
    Mr. Starr. Well, I would like to think that at least once 
upon a time, that was the reputation.
    Mr. Schippers. For the past year, you have been trashed in 
the newspapers, on television, and with snide backward remarks 
to which you could not reply, isn't that right, Judge Starr?
    Mr. Starr. Well, I have chosen until now not to reply, but 
I think the code of silence at some times in terms of basic 
fairness gets to come to an end.
    Mr. Schippers. And you have been pilloried and excoriated, 
charged with unbelievable things of which you are incapable of 
being guilty?
    Mr. Starr. I cannot imagine me and my colleagues engaging 
in some of the suggested activities that have been described 
here seriously. We simply cannot in conscience live with one 
another as professionals, and I laid out in my opening 
statement the backgrounds of my colleagues, and I have been 
privileged to serve with two John Marshall award winners, and 
that is special at the Justice Department. That means there is 
no better trial lawyer in the Department of Justice recognized 
in a particular year, and I have been privileged to serve with 
two of them with public corruption chiefs. These are career 
civil servants, and it is not right and it is not fair to 
attack and calumny career civil servants. But for my part, I 
have learned that it goes with the Independent Counsel 
territory.
    Mr. Schippers. And the Independent Counsel job, you didn't 
seek that, did you?
    Mr. Starr. Absolutely not.
    Mr. Schippers. You were asked to take it, and you tried to 
leave and your staff begged you to stay and you did stay; is 
that right?
    Mr. Starr. All of that is true. I never sought this job. I 
am reminded of the old song about taking a job and what you can 
do with it, but it would be indecorous of me to say it. But no, 
I was asked to, by the Special Division to take on this 
responsibility; the three-judge panel saw fit to ask me to 
serve. I had been asked by Phil Heymann, who was Deputy 
Attorney General of the United States in January of 1994, 
whether I would be willing to be considered for appointment as 
the Whitewater counsel under Ms. Reno to be appointed by Janet 
Reno. Happily for me, she wisely chose Bob Fiske. Unhappily for 
me, the Special Division chose me.
    Mr. Schippers. You have been given a duty that you did not 
seek, and you have performed that duty to the best of your 
ability; is that correct, sir?
    Mr. Starr. I have certainly tried, and I do it to the best 
of my ability, and I am proud of what we have been able to 
accomplish. As I indicated earlier, the records of convictions 
obtained, but also, the decisions not to seek an indictment, 
the decision to issue thorough reports, all of that is part of 
what we have co-labored together, with Mr. Kendall pointing out 
the number of persons involved in the investigation. I am proud 
of those persons. They are my colleagues, and they have become 
my friends, and they have worked very long and very hard under 
very difficult circumstances, and recognizing, and we are big, 
big boys, and I mean that in a gender-neutral way. So when we 
were accused in Arkansas of a political witch-hunt, we took it 
and we did our arguing in court, and we proved to the 
satisfaction of a fair-minded jury with a very distinguished 
judge that the sitting governor and the President and the First 
Lady's business partners were guilty of serious felonies, and 
we had been listening month after month to ``it's a political 
witch-hunt,'' and that was unfair, but we learned that goes 
with this territory.
    Mr. Schippers. Judge, for all that doing your duty, you 
have been pilloried and attacked from all sides, is that
    right.
    Mr. Starr. I would hope not all sides, but yes, that's----
    Mr. Schippers. Well, sometimes it seems like all sides.
    How long have you been an attorney, Judge Starr?
    Mr. Starr. 25 years.
    Mr. Schippers. Well, I have been an attorney for almost 40 
years, and I want to say I am proud to be in the same room with 
you and your staff.
    Mr. Starr. Thank you, Mr. Schippers.
    Mr. Schippers. Thank you.
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Hyde. The gentlewoman from Houston.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I indicated I had a point of order. This might be more 
preferable as a point of clarification, and that is, I know it 
is extremely late in the evening, Mr. Starr, but Mr. Chairman, 
did I understand Mr. Starr to state that we would not expect 
any referrals on Filegate, Travelgate, and Watergate--excuse 
me, Whitewater, it has been many years--as relates to the 
provision in the Constitution on impeachment? Did I hear that 
correctly?
    Mr. Chairman, I had in addition to add to the record a 
question as to whether or not because of the shortness of the 
time of questioning, whether or not Mr. Starr would be able to 
answer, as he indicated I believe to many members that he would 
be willing to answer some of our questions in writing. For 
example, as to the question I had of his firsthand knowledge of 
any details in that referral.
    Ms. Jackson Lee. But Mr. Chairman, excuse me. It is late 
into the evening. And I do want to add United States v. 
Birdman, 602 F. 2d 547 (3rd Circuit, 1979). I would like to ask 
to have it submitted into the record, as it deals with the 
statement that courts have shared the legal profession's 
disapproval of the liberal role of an advocate witness.
    Mr. Hyde. The gentlelady has had her time now.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Hyde. Do you have a specific request?
    Ms. Jackson Lee. Yes, Mr. Chairman. I would like the 
specific question answered as to the referrals on Whitewater, 
Travelgate and Filegate.
    Mr. Hyde. Okay. Mr. Starr, can you answer that?
    Mr. Starr. I am sorry. The opening statement spoke to the 
FBI files and Travel Office matter. I did not comment beyond 
those two matters.
    Ms. Jackson Lee. What did you say on those matters, Mr. 
Starr? That is what I asked.
    Mr. Hyde. Well, if the gentlelady would read the report.
    Mr. Starr. When I say I didn't comment with respect to the 
conclusion of such matters, the opening statement speaks for 
itself, and I think we can, in fact, have that as part of the 
record.
    Mr. Hyde. Well, it is part of the official record.
    Mr. Starr. Yes.
    Mr. Hyde. Very well.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Hyde. Thank you, Judge Starr, for a wonderful day. 
Thank you.
    Mr. Starr. Thank you.
    Mr. Hyde. Everybody stay, please. The committee will stay. 
We are going to have a meeting.
    Ladies and gentlemen, the committee hearing stands 
adjourned, but the committee will remain here for a very short 
meeting.
    Pursuant to notice and subject to the authority granted in 
H. Res. 581, I now move that the committee authorize the 
issuance of subpoenas for the following individuals: Daniel 
Gecker, Nathan Landow and Bob Bennett.
    Mr. Nadler. Mr. Chairman. Mr. Chairman. The room is not in 
order, and I cannot hear you.
    Mr. Hyde. Mr. Nadler.
    Mr. Nadler. The committee is not in order, and I cannot 
hear you.
    Mr. Hyde. Okay. I will try it again.
    Pursuant to notice, subject to the authority granted in H. 
Res. 581, I now move that the committee authorize the issuance 
of subpoenas for the following individuals: Daniel Gecker, 
Nathan Landow, Bob Bennett.
    Mr. Nadler. Mr. Chairman.
    Mr. Hyde. Is there any objection?
    Mr. Nadler. Mr. Chairman.
    Mr. Hyde. Mr. Nadler.
    Mr. Nadler. Mr. Chairman, I would like to know the response 
for those subpoenas, in particular Mr. Gecker.
    Mr. Hyde. If the gentleman will permit me, if we have to go 
into it, we have to go into executive session to do that.
    Mr. Nadler. Let me ask one question which may not have to 
go into executive session.
    Mr. Hyde. Okay. What is it?
    Mr. Nadler. Mr. Gecker, I believe, is Ms. Willey's lawyer. 
I presume he may avail himself of the attorney/client privilege 
claim, in fact he might have to. If you need information about 
the Willey case, why call the lawyer? Why not call the witness 
directly?
    Mr. Hyde. Well, I can't answer that, but I will say the 
attorney/client privilege does not overwhelm an impeachment 
committee.
    Is there any objection to the approval of the three 
subpoenas?
    Mr. Scott. Reserving the right to object.
    Mr. Hyde. Mr. Scott.
    Mr. Scott. Reserving the right to object, Mr. Chairman.
    Mr. Hyde. Do you want to put your mike on?
    Mr. Scott. Mr. Chairman, are we--am I to assume by the 
issuance of these subpoenas that we are not confining the 
inquiry to the Starr allegations?
    Mr. Hyde. What we are doing is pursuant to the House 
Resolution 581. It is pursuant to that resolution.
    Mr. Scott. Well, Mr. Chairman, reserving the right to 
object.
    Mr. Hyde. The gentleman reserves the right to object.
    Mr. Scott. Mr. Chairman, I would just say that at some 
point, I would appreciate it if we would focus the inquiry into 
specific allegations so we know what we are investigating.
    We are now not focused on the Starr allegations. I have no 
idea what the allegations are going to be, and if we are to 
conduct an inquiry that we can conclude at some point in the 
foreseeable future, we have to focus on certain allegations 
that might be impeachable offenses.
    Mr. Hyde. Mr. Scott, this is focusing on material the 
committee has received in executive session. We have that 
material.
    Mr. Scott. Mr. Chairman, I withdraw my reservation.
    Mr. Hyde. I thank the gentleman.
    Mr. Watt. Mr. Chairman.
    Mr. Hyde. Mr. Watt.
    Mr. Watt. Reserving the right to object.
    Mr. Hyde. The gentleman reserves the right to object.
    Mr. Watt. The motion that I am reserving, the unanimous 
consent request that I am reserving the right to object to, is 
to authorize the subpoenas; is that correct?
    Mr. Hyde. Yes.
    Mr. Watt. Okay. Mr. Chairman----
    Mr. Hyde. These are subpoenas for depositions.
    Mr. Watt. I don't feel like I can pass on that without 
having some background information, and I understand----
    Mr. Hyde. We have to go into executive session.
    Mr. Watt. Well, then, that is--I hate to put us to that 
burden, but I don't know how I can pass on it without having 
some more information.
    Mr. Hyde. We will go into executive session. We will have 
to clear the room.
    Mr. Schumer. Wait, Mr. Chairman.
    Mr. Hyde. What?
    Mr. Schumer. Mr. Chairman, a question. Why do we have to be 
in executive session to debate this?
    Mr. Hyde. Because the material to explain the rationale for 
wanting these depositions is material that is executive 
material.
    Mr. Watt. Well, with respect, Mr. Chairman, I don't feel 
like I can vote--I can sit here and not object without 
understanding the rationale myself.
    Mr. Hyde. I understand, and we are perfectly willing to go 
into executive session.
    Mr. Watt. I am not trying to violate the executive rule.
    Mr. Schumer. Will the chairman yield?
    Mr. Hyde. Yes, I will yield.
    Mr. Schumer. I mean, look, it seems--I am befuddled by why 
we are doing this. I understand----
    Mr. Hyde. We wish to take depositions of these three 
people.
    Mr. Schumer. I understand that.
    Mr. Hyde. And we will explain that in executive session.
    Mr. Schumer. If I might make my point, sir----
    Mr. Hyde. Sure.
    Mr. Schumer [continuing]. Which is I think the public, most 
of which is wondering why this is dragging on and on, also has 
a right to know why we are doing this. So what I would suggest, 
what I would suggest, is that we discuss as much of the 
rationale for this as we can out of executive session so the 
public can hear, and then if there are any specific references 
as to why we have to go into executive session--about materials 
that are gathered in executive session, we can go in for that 
portion.
    Mr. Hyde. Mr. Schumer, we can't really discuss really 
anything around the edges even without transgressing on 
executive session material. So let's just go into executive 
session.
    Mr. Schumer. Well, then what I would move, Mr. Chairman--I 
have no problem with us going into an executive session, but 
then I would like for us to be able to discuss the rationale 
for this without using executive session material in public 
session, and that is the move I would--that is what I would 
propose.
    Mr. Hyde. Well, we can't do it. We are going to have to go 
into executive session.
    Mr. Frank. Mr. Chairman, if I could be heard on the motion?
    Mr. Hyde. Yes, you may.
    Mr. Frank. Mr. Chairman, I know it is late, but we didn't 
decide--and you have been accommodating to us in some regards, 
but we didn't decide to do this all in 1 day, and I do not 
think it is legitimate to constrain members by running too much 
in 1 day and then saying, oh, it is getting late in the day.
    Then do it tomorrow. We have been spending--many of us felt 
that we should have started this a while ago. You waited until 
November 18th or 19th. Then you put it all in 1 day. It is 
simply not legitimate then to argue the time constraints.
    I think this committee has erred greviously by going into 
executive session and discussing things in executive session 
that ought to be discussed publicly. It is very, very strange 
to have these arguments about the need for the public to know, 
et cetera, et cetera, and we do it all in secret. This is the 
committee that released grand jury information on the 
television. We made history in denying what has traditionally 
been something that would be kept somewhat private, and we do 
these--we debated doing that in a private session.
    There is simply a great abuse of this. And again, I have to 
say then adjourn, come back tomorrow, come back next week. You 
know, as far as these depositions are concerned that were so 
important, I don't know why they weren't taken in September or 
October or earlier in November. I don't know how they became an 
emergency overnight.
    The fact is that you have, I think, overused the executive 
session. There are very important questions, and it is simply 
inconsistent to say this is a terribly important issue to the 
American people, people need to know about it, and we will go 
into secret and make all the decisions. Virtually every 
decision this committee has made it has made in secret, and it 
is simply an inconsistent position to talk about the important 
public issues that are involved here by going into it in 
secret.
    Mr. Hyde. All right. The gentleman has made his point.
    Mr. Frank. No, excuse me, Mr. Chairman. I think I have 5 
minutes. I am sorry. Look, I didn't decide that we would try to 
do it all in 1 day, but having decided to do it all in 1 day, 
you can't use that against us, and you can't use that to 
constrain things.
    You know, isn't it somewhat paradoxical? We talk about how 
important this issue is. We talk about this is such a 
fundamental constitutional question, but we have to worry 
because it is getting late? Then don't schedule us so that you 
constrain the most important thing we could possibly be talking 
about by the clock. Then let it go over to tomorrow. Let it go 
over until the next week. We should have been doing it a month 
ago. I will not be constrained by a self-imposed handicap of 
the clock.
    And I still do not think we should go into executive 
session without some justification as to why we have to go into 
executive session. We are not discussing national security. We 
are not discussing anything that is going to give anything away 
to anybody. We are not tipping off anybody. So I do not 
understand, and I think we have a right to be told, why we have 
to go into executive session.
    Mr. Berman. Mr. Chairman.
    Mr. Hyde. I thank the gentleman. There is a motion before 
us----
    Mr. Berman. Mr. Chairman.
    Mr. Hyde. --before the committee, to authorize the issuance 
of these subpoenas, and the clerk will call the roll.
    Mr. Frank. Mr. Chairman, there are members--point of order, 
Mr. Chairman.
    The Clerk. Mr. Sensenbrenner.
    Mr. Sensenbrenner. Aye.
    The Clerk. Mr. Sensenbrenner votes aye.
    Mr. Frank. Mr. Chairman, in the interest of fairness, do 
you think by cutting off members seeking recognition----
    The Clerk. Mr. McCollum.
    Mr. McCollum. Aye.
    The Clerk. Mr. McCollum votes aye.
    Mr. Watt. Mr. Chairman, I move to strike the last word.
    Mr. Frank. This is unworthy of you, Mr. Chairman.
    Mr. Hyde. All right. Hold it.
    Mr. Berman. Mr. Chairman.
    Mr. Frank. There were members seeking recognition.
    Mr. Hyde. Mr. Berman.
    Mr. Berman. Mr. Chairman, earlier today you made a ruling, 
which I agreed with, on a point of order raised by the 
gentlelady from Texas that with respect to the jurisdiction for 
this inquiry, the House has spoken.
    The House did not mandate this committee to investigate 
everything under the sun. It allowed this committee to conduct 
an inquiry on anything under the sun.
    We have the authority to decide what we are going to 
investigate.
    Mr. Schumer makes a point. When you issue subpoenas for 
people involved in the Kathleen Willey case, the implication is 
that that matter becomes part of the impeachment inquiry.
    Everyone on this side of the aisle voted to limit the 
inquiry to the Monica Lewinsky referral. The Independent 
Counsel has not made a referral on the Kathleen Willey case. He 
has not found substantial and credible information that conduct 
by the President in that matter may justify impeachment--that 
finding has not been made, and that referral has not been made.
    So there should be a bifurcation. First, the issue of 
whether we go into this line of inquiry is something that 
should be discussed in open session. Then, if our position is 
lost, then in executive session the justification for the 
subpoenas can be raised. That is the only question that I have, 
and that is why I think we should be able to get the 
justification for the subpoenas if we decide we are launching 
into that inquiry, and I sure hope we don't.
    Mr. Schumer. Just would the gentleman yield?
    Mr. Berman. I would be happy to.
    Mr. Schumer. I would like to finish my point from before. 
Could the Chair give us some--without treading on executive 
session or anyone's confidentiality being disclosed, could the 
chairman give us some idea why these three people were chosen 
and not others, and where the Chair intends to take this--these 
depositions? What is the point?
    We already have heard from Mr. Starr that he doesn't think 
the Willey episode rises to a level of impeachment. In my 
judgment, he has a pretty low threshold for impeachment, and if 
he doesn't think that the Willey affair does, then that is 
pretty dispositive to me.
    And here we are, with three completely--you know, yesterday 
we heard talk of John Huang. It was very hard to figure out 
what that was all about. Now we are hearing these three. One 
can only draw the conclusion, Mr. Chairman--Mr. Chairman, one 
can only draw the conclusion, without hearing an explanation, 
that the majority doesn't quite know what to do here and is 
sort of prolonging this with whatever thing they can grab onto, 
because there is no logic to this, at least to me.
    I would like to hear it, and I think the public is entitled 
to hear it. And I think in this case it could well be argued 
that executive session is being used as a shield because there 
is no good explanation as to why these three people are going 
to be deposed, why other people are not, and where the Chair 
and where the committee intends to take the depositions of 
these three people as, again, in--at least particularly in an 
area where the Office of Independent Counsel has said there is 
no impeachable offenses as far as it can see.
    Mr. Hyde. All right. The Chair----
    Mr. Watt. Mr. Chairman.
    Mr. Hyde. The Chair will declare a 5-minute recess.
    [Recess.]
    Mr. Hyde. The committee will come to order. The committee 
will come to order.
    I move that pursuant to Rule 11 Clause 2(g)(1), this 
committee meeting be conducted in executive session. The clerk 
will call the roll.
    Mr. Schumer. I move the previous question.
    Mr. Hyde. It is nondebatable.
    The Clerk. Mr. Sensenbrenner.
    Mr. Sensenbrenner. Aye.
    The Clerk. Mr. Sensenbrenner votes aye.
    Mr. McCollum.
    Mr. McCollum. Aye.
    The Clerk. Mr. McCollum votes aye.
    Mr. Gekas.
    Mr. Gekas. Aye.
    The Clerk. Mr. Gekas votes aye.
    Mr. Coble.
    [No response.]
    The Clerk. Mr. Smith.
    Mr. Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Gallegly.
    Mr. Gallegly. Aye.
    The Clerk. Mr. Gallegly votes aye.
    Mr. Canady.
    [No response.]
    The Clerk. Mr. Inglis.
    Mr. Inglis. Aye.
    The Clerk. Mr. Inglis votes aye.
    Mr. Goodlatte.
    [No response.]
    The Clerk. Mr. Buyer.
    Mr. Buyer. Aye.
    The Clerk. Mr. Buyer votes aye.
    Mr. Bryant.
    Mr. Bryant. Aye.
    The Clerk. Mr. Bryant votes aye.
    Mr. Chabot.
    [No response.]
    The Clerk. Mr. Barr.
    [No response.]
    The Clerk. Mr. Jenkins.
    Mr. Jenkins. Aye.
    The Clerk. Mr. Jenkins votes aye.
    Mr. Hutchinson.
    [No response.]
    The Clerk. Mr. Pease.
    Mr. Pease. Aye.
    The Clerk. Mr. Pease votes aye.
    Mr. Cannon.
    Mr. Cannon. Aye.
    The Clerk. Mr. Cannon votes aye.
    Mr. Rogan.
    Mr. Rogan. Aye.
    The Clerk. Mr. Rogan votes aye.
    Mr. Graham.
    Mr. Graham. Aye.
    The Clerk. Mr. Graham votes aye.
    Mrs. Bono.
    Mrs. Bono. Aye.
    The Clerk. Mrs. Bono votes aye.
    Mr. Conyers. Mr. Conyers.
    Mr. Conyers. No.
    The Clerk. Mr. Conyers votes no.
    Mr. Frank.
    Mr. Frank. No.
    The Clerk. Mr. Frank votes no.
    Mr. Schumer.
    Mr. Schumer. No.
    The Clerk. Mr. Schumer votes no.
    Mr. Berman.
    [No response.]
    The Clerk. Mr. Boucher.
    Mr. Boucher. No.
    The Clerk. Mr. Boucher votes no.
    Mr. Nadler.
    Mr. Nadler. No.
    The Clerk. Mr. Nadler votes no.
    Mr. Scott.
    Mr. Scott. No.
    The Clerk. Mr. Scott votes no.
    Mr. Watt.
    Mr. Watt. No.
    The Clerk. Mr. Watt votes no.
    Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Ms. Lofgren votes no.
    Ms. Jackson Lee.
    Ms. Jackson Lee. No.
    The Clerk. Ms. Jackson Lee votes no.
    Ms. Waters.
    [No response.]
    The Clerk. Mr. Meehan.
    [No response.]
    The Clerk. Mr. Delahunt.
    Mr. Delahunt. No.
    The Clerk. Mr. Delahunt votes no.
    Mr. Wexler.
    Mr. Wexler. No.
    The Clerk. Mr. Wexler votes no.
    Mr. Rothman.
    [No response.]
    The Clerk. Mr. Barrett.
    Mr. Barrett. No.
    The Clerk. Mr. Barrett votes no.
    Mr. Hyde.
    Mr. Hyde. Aye.
    The Clerk. Mr. Hyde votes aye.
    Mr. Berman. Mr. Chairman.
    Mr. Hyde. The gentleman from California, Mr. Berman.
    Mr. Berman. Mr. Berman votes no.
    The Clerk. Mr. Berman votes no.
    Mr. Hyde. The gentlelady from California, Ms. Waters.
    Ms. Waters. Votes no.
    The Clerk. Ms. Waters votes no.
    Mr. Hyde. Mr. Chabot.
    Mr. Chabot. Aye.
    The Clerk. Mr. Chabot votes aye.
    Mr. Hyde. Mr. Canady.
    Mr. Canady. Aye.
    The Clerk. Mr. Canady votes aye.
    Mr. Hyde. Mr. Goodlatte.
    Mr. Goodlatte. Aye.
    The Clerk. Mr. Goodlatte votes aye.
    Mr. Hyde. Have all voted who wish?
    Mr. Hutchinson. Mr. Chairman.
    Mr. Hyde. Mr. Hutchinson.
    Mr. Hutchinson. Aye.
    Mr. Hyde. Mr. Meehan.
    The Clerk. Mr. Hutchinson votes aye.
    Mr. Meehan. No.
    The Clerk. Mr. Meehan votes no.
    Mr. Hyde. The clerk will report.
    The Clerk. Mr. Chairman, there are 19 ayes and 15 noes.
    Mr. Hyde. The motion is agreed to and the House, that is 
the committee----
    Mr. Schumer. Point of order, Mr. Chairman.
    Mr. Hyde. --will stand at ease while we clear the room.
    Mr. Schumer. Point of order before that, Mr. Chairman.
    Mr. Hyde. Yes, Mr. Senator.
    Mr. Schumer. Mr. Chairman, according to the rules, at least 
a cursory review of the rules, a move to go into executive 
session is indeed debatable.
    Mr. Conyers. Yes.
    Mr. Schumer. It is indeed debatable, and you said it was 
not debatable. I would ask----
    Mr. Hyde. I was so informed by staff.
    Mr. Schumer. Could counsel make a ruling on that, please, 
and point to the relevant part of our rules which shows that it 
is? I mean, now we are really flying by the seats of our pants.
    Mr. Buyer. I moved the previous question, Mr. Chairman.
    Mr. Schumer. You did, and I just made the point of
    order.
    Mr. Hyde. Your point of order is well taken. It is 
debatable. I was informed it was not.
    Mr. Schumer. Thank you, Mr. Chairman.
    Mr. Hyde. But do you want to debate this some more now?
    Mr. Schumer. Yes.
    Mr. Hyde. Well, you have already spoken, so Mr. Nadler is 
recognized.
    We will undo the roll call. We will dump the roll call and 
start again.
    Mr. Conyers. Dump the roll call.
    Mr. Hyde. Ms. Jackson Lee will be next.
    Mr. Nadler. Could the committee be in order?
    Mr. Hyde. Okay. Go ahead, Mr. Nadler. I am all ears.
    Mr. Nadler. Regular order. The room is too noisy.
    Mr. Hyde. The room won't be cleared until we go into 
executive session.
    Mr. Nadler. I didn't ask for it to be cleared. I simply 
asked for it to be quiet.
    Mr. Hyde. Oh, quiet. Okay.
    Mr. Nadler. I do not want it cleared.
    Mr. Chairman, we should not go into executive session until 
a reason is given as to why we are going into executive 
session.
    Number two, before we talk about these subpoenas, we should 
have some basic idea of why we are being asked for these 
subpoenas. Specifically the subpoenas apparently relate to the 
Kathleen Willey matter which, as Mr. Schumer pointed out, the 
special prosecutor says raises no questions that rise to the 
level of possible impeachable offenses. And so I would want to 
know, does this relate to the Willey matter? If it doesn't, 
does it relate to something else? And why are we being asked 
for this?
    I can't believe that some reason can't be given in public 
session.
    Thirdly, if we are to have a motion to go into executive 
session, I would ask that the motion say go into executive 
session and then come back into open session so we can address 
whatever it is we can address publicly, because I believe we 
owe that to the public.
    Mr. Hyde. Will the gentleman yield?
    Mr. Nadler. Yes.
    Mr. Hyde. The gentleman can make that motion when we are in 
executive session.
    Mr. Nadler. No. I think we have to make that motion now. 
That ought to be a condition of our going into executive 
session.
    Mr. Hyde. I don't agree with that.
    Mr. Nadler. Because if we make that motion in executive 
session, and it is voted down, we can't even say it was voted 
down.
    Mr. Hyde. That is true.
    Mr. Nadler. And that is not right.
    Mr. Hyde. The gentleman has it exactly right.
    Mr. Nadler. But it is not the right thing to do or the 
right way to conduct our business.
    Mr. Hyde. Okay. Are you through?
    Mr. Nadler. I would move to amend the motion then.
    Mr. Hyde. I hear you. Thank you.
    Mr. Nadler. I move to amend the motion.
    Mr. Buyer. Mr. Chairman, parliamentary inquiry.
    Mr. Hyde. Mr. Buyer has a parliamentary inquiry.
    Mr. Nadler. May I finish saying more on the amendment 
before his parliamentary inquiry?
    Mr. Hyde. I am sorry. What?
    Mr. Nadler. I said, could I finish stating the amendment 
before Mr. Buyer's parliamentary inquiry?
    Mr. Hyde. Surely. You can finish anything you want.
    Mr. Nadler. I move to amend the motion that after we go 
into executive session, when the executive session is 
completed, we come out and resume regular session and then 
discuss the matter of the proposed subpoenas to the extent we 
can, in public session, and that the vote on those subpoenas be 
held in public session.
    Mr. Hyde. The clerk will call the roll. You have heard the 
motion.
    You want to talk on the motion? Ms. Jackson Lee? Well, the 
amendment to the motion, that is right. Yes, Ms. Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I want 
to associate myself with the words of Mr. Nadler and his 
motion, for two reasons.
    One, Mr. Chairman, you were quoted as saying that in spite 
of the resolution passed dealing with how we would proceed in 
this impeachment process, that you look to the end of 1998 to 
complete this process. I think it is important for the American 
people to know where we are going with this process, how long 
it will take, and how many people will be caught up in our web. 
Clearly, I think to go into executive session will preclude us 
from discussing this in an open manner as to whether this is 
going to go on and on and on and on.
    We have determined today that the witness Mr. Starr has 
indicated that certain referrals would not come here. Are we 
now encouraging him to bring other referrals that he had not 
even contemplated or has already indicated there is no basis 
for bringing forward? And so I would just argue that we are not 
providing the direction and allowing for a discussion on 
whether or not we should go into executive session, and call 
witnesses, of course, we don't know for what basis we are 
calling them, then I would ask, Mr. Chairman, that we not go 
into executive session on these matters, and instead find out, 
as a whole, where we are going and when we will be able to 
complete this matter, in a timely manner. And I yield back.
    Mr. Hyde. The gentleman from Indiana.
    Mr. Buyer. Mr. Chairman, I am somewhat bewildered and 
confused, so I am going to ask a parliamentary inquiry. We had 
a motion here before the committee. I moved the previous 
question, and then we had a vote. Now, I would like to ask the 
Parliamentarian why would that vote not stand?
    Mr. Hyde. I will answer that. Because I told them that the 
motion was not debatable, and I was wrong. It was debatable. So 
I did not want to ram through something under the mistaken 
ruling of the Chair that it was not debatable. That is why. I 
made a mistake.
    Mr. Buyer. Well, I will move the previous question on Mr. 
Nadler's amendment to the motion.
    Mr. Hyde. The gentleman moves the previous question. All 
those in favor say aye.
    Opposed, nay.
    The ayes have it, and the previous question is moved.
    The question now occurs on the motion of Mr. Nadler to go 
into executive session but then to hold an open session 
thereafter.
    Mr. Nadler. And to vote in the open session.
    Mr. Hyde. And to vote in the open session? What will we 
vote on?
    Mr. Nadler. The discussion----
    Mr. Hyde. I understand. The vote on the subpoenas.
    Mr. Nadler. Let me clarify. The debate would be in the 
closed session. We come out of the debate whatever and discuss 
that which could be discussed in the open session, and then we 
would have the vote in the open session.
    Mr. Hyde. We understand Mr. Nadler's motion. All those in 
favor say aye.
    Opposed, no.
    Mr. Berman. Roll call.
    Mr. Hyde. Roll call.
    The Clerk. Mr. Sensenbrenner.
    Mr. Sensenbrenner. No.
    The Clerk. Mr. Sensenbrenner votes no.
    Mr. McCollum.
    [No response.]
    The Clerk. Mr. Gekas.
    Mr. Gekas. No.
    The Clerk. Mr. Gekas votes no.
    Mr. Coble.
    Mr. Coble. No.
    The Clerk. Mr. Coble votes no.
    Mr. Smith.
    Mr. Smith. No.
    The Clerk. Mr. Smith votes no.
    Mr. Gallegly.
    Mr. Gallegly. No.
    The Clerk. Mr. Gallegly votes no.
    Mr. Canady.
    Mr. Canady. No.
    The Clerk. Mr. Canady votes no.
    Mr. Inglis.
    Mr. Inglis. No.
    The Clerk. Mr. Inglis votes no.
    Mr. Goodlatte.
    Mr. Goodlatte. No.
    The Clerk. Mr. Goodlatte votes no.
    Mr. Buyer.
    Mr. Buyer. No.
    The Clerk. Mr. Buyer votes no.
    Mr. Bryant.
    Mr. Bryant. No.
    The Clerk. Mr. Bryant votes no.
    Mr. Chabot.
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. Barr.
    [No response.]
    The Clerk. Mr. Jenkins.
    Mr. Jenkins. No.
    The Clerk. Mr. Jenkins votes no.
    Mr. Hutchinson.
    Mr. Hutchinson. No.
    The Clerk. Mr. Hutchinson votes no.
    Mr. Pease.
    Mr. Pease. Mr. Chairman, no.
    The Clerk. Mr. Pease votes no.
    Mr. Cannon.
    Mr. Cannon. No.
    The Clerk. Mr. Cannon votes no.
    Mr. Rogan.
    Mr. Rogan. Mr. Chairman, regrettably, before voting, I 
simply want to make sure I am clear on Mr. Nadler's motion, and 
I apologize for the confusion, but the noise and the rapidity 
with which this was moving was so quickly, and I wasn't able to 
get a clarification to my satisfaction.
    Is the motion that we are debating upon now whether to 
debate the issuance of subpoenas in executive session?
    Mr. Nadler. No. Could I clarify the amendment again?
    Mr. Hyde. Yes, please.
    Mr. Nadler. The amendment says we will go into executive 
session. We will discuss whatever we discuss in executive 
session. Then we will come out and resume the public session, 
debate whatever we can debate in the public session, and then 
vote in the public session.
    Mr. Rogan. With that elucidation, Rogan votes no.
    The Clerk. Mr. Rogan votes no.
    Mr. Graham.
    Mr. Graham. He is deliberating. No.
    The Clerk. Mr. Graham votes no.
    Mrs. Bono.
    Mrs. Bono. No.
    The Clerk. Mrs. Bono votes no.
    Mr. Hyde. Mr. Barr.
    Mr. Barr. No.
    The Clerk. Mr. Barr votes no.
    Mr. Hyde. Mr. McCollum.
    Mr. McCollum. No.
    The Clerk. Mr. McCollum votes no.
    Mr. Hyde. The clerk will report.
    Mr. Conyers. Have we voted?
    Mr. Schumer. Mr. Chairman, do we get to vote? Thank you, 
Mr. Floyd--I mean, Mr. Chairman.
    Mr. Hyde. Haven't you ever heard of cut to the chase?
    Mr. Frank. Well, we didn't think we would be the ones that 
were cut.
    Mr. Hyde. The clerk will continue to call the roll, and 
don't let me try that again.
    The Clerk. Okay. Mr. Conyers.
    Mr. Conyers. Aye.
    The Clerk. Mr. Conyers votes aye.
    Mr. Frank.
    Mr. Frank. Aye.
    The Clerk. Mr. Frank votes aye.
    Mr. Schumer.
    Mr. Schumer. Aye.
    The Clerk. Mr. Schumer votes aye.
    Mr. Berman.
    Mr. Berman. Aye.
    The Clerk. Mr. Berman votes aye.
    Mr. Boucher.
    Mr. Boucher. Aye.
    The Clerk. Mr. Boucher votes aye.
    Mr. Nadler.
    Mr. Nadler. Aye.
    The Clerk. Mr. Nadler votes aye.
    Mr. Scott.
    Mr. Scott. Aye.
    The Clerk. Mr. Scott votes aye.
    Mr. Watt.
    Mr. Watt. Pass.
    The Clerk. Mr. Watt passes.
    Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Ms. Lofgren votes aye.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Aye.
    The Clerk. Ms. Jackson Lee votes aye.
    Ms. Waters.
    Ms. Waters. Aye.
    The Clerk. Ms. Waters votes aye.
    Mr. Meehan.
    Mr. Meehan. Aye.
    The Clerk. Mr. Meehan votes aye.
    Mr. Delahunt.
    Mr. Delahunt. Aye.
    The Clerk. Mr. Delahunt votes aye.
    Mr. Wexler.
    Mr. Wexler. Aye.
    The Clerk. Mr. Wexler votes aye.
    Mr. Rothman.
    Mr. Rothman. Aye.
    The Clerk. Mr. Rothman votes aye.
    Mr. Barrett.
    Mr. Barrett. Aye.
    The Clerk. Mr. Barrett votes aye.
    Mr. Hyde.
    Mr. Hyde. No.
    The Clerk. Mr. Hyde votes no.
    Mr. Watt. Mr. Chairman.
    Mr. Hyde. The gentleman from North Carolina.
    Mr. Watt. I vote aye.
    The Clerk. Mr. Watt votes aye.
    Mr. Chairman, there are 16 ayes and 21 noes.
    Mr. Hyde. Mr. Nadler's motion is defeated.
    Mr. Nadler. Mr. Chairman.
    Mr. Hyde. The question occurs----
    Mr. Nadler. Mr. Chairman.
    Mr. Schumer. Mr. Chairman.
    Mr. Hyde. For what purpose does the gentleman seek 
recognition?
    Mr. Nadler. To offer an amendment.
    Mr. Hyde. The previous question has been moved.
    Mr. Nadler. I haven't heard the previous question moved.
    Mr. Buyer. I have now moved the previous question.
    Mr. Nadler. Excuse me.
    Mr. Buyer. I move we go into executive session.
    Mr. Nadler. Excuse me.
    Mr. Hyde. You are not recognized for that purpose. Let us 
move on.
    Mr. Nadler. No.
    Mr. Hyde. Come on.
    Mr. Buyer. Mr. Chairman, I move the previous question.
    Mr. Nadler. Mr. Chairman, it is not a dilatory amendment. 
You may even agreed to it.
    Mr. Hyde. You have spoken on this question already.
    Mr. Nadler. No, it is a new amendment. It is not the same 
question.
    Mr. Hyde. All right. What is your amendment?
    Mr. Nadler. My amendment is simply, Mr. Chairman, that the 
ayes and nays on the issuance of the subpoenas and the ayes and 
nays on the motion will be made public. I ask yes on executive 
session.
    Mr. Hyde. All right. The gentleman's motion is not in 
writing, but that is all right. We are accommodating tonight. 
You have heard the motion. All those in favor say aye.
    Opposed, nay.
    The ayes have it.
    Mr. Buyer. Mr. Chairman, I have a motion that this 
committee now move to executive session.
    Mr. Hyde. All those in favor of the motion say aye.
    Opposed, nay.
    The ayes have it.
    Mr. Frank. Roll Call, Mr. Chairman.
    Mr. Hyde. Roll Call. Roll Call.
    The Clerk. Mr. Sensenbrenner.
    Mr. Sensenbrenner. Aye.
    The Clerk. Mr. Sensenbrenner votes aye.
    Mr. McCollum.
    Mr. McCollum. Aye.
    The Clerk. Mr. McCollum votes aye.
    Mr. Gekas.
    Mr. Gekas. Aye.
    The Clerk. Mr. Gekas votes aye.
    Mr. Coble.
    Mr. Coble. Aye.
    The Clerk. Mr. Coble votes aye.
    Mr. Smith.
    Mr. Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Gallegly.
    Mr. Gallegly. Aye.
    The Clerk. Mr. Gallegly votes aye.
    Mr. Canady.
    Mr. Canady. Aye.
    The Clerk. Mr. Canady votes aye.
    Mr. Inglis.
    Mr. Inglis. Aye.
    The Clerk. Mr. Inglis votes aye.
    Mr. Goodlatte.
    Mr. Goodlatte. Aye.
    The Clerk. Mr. Goodlatte votes aye.
    Mr. Buyer.
    Mr. Buyer. Aye.
    The Clerk. Mr. Buyer votes aye.
    Mr. Bryant.
    Mr. Bryant. Aye.
    The Clerk. Mr. Bryant votes aye.
    Mr. Chabot.
    Mr. Chabot. Aye.
    The Clerk. Mr. Chabot votes aye.
    Mr. Barr.
    Mr. Barr. Aye.
    The Clerk. Mr. Barr votes aye.
    Mr. Jenkins.
    Mr. Jenkins. Aye.
    The Clerk. Mr. Jenkins votes aye.
    Mr. Hutchinson.
    Mr. Hutchinson. Aye.
    The Clerk. Mr. Hutchinson votes aye.
    Mr. Pease.
    Mr. Pease. Aye.
    The Clerk. Mr. Pease votes aye.
    Mr. Cannon.
    Mr. Cannon. Aye.
    The Clerk. Mr. Cannon votes aye.
    Mr. Rogan.
    Mr. Rogan. Aye.
    The Clerk. Mr. Rogan votes aye.
    Mr. Graham.
    Mr. Graham. Aye.
    The Clerk. Mr. Graham votes aye.
    Mrs. Bono.
    Mrs. Bono. Aye.
    The Clerk. Mrs. Bono votes aye.
    Mr. Conyers.
    Mr. Conyers. No.
    The Clerk. Mr. Conyers votes no.
    Mr. Frank.
    Mr. Frank. No.
    The Clerk. Mr. Frank votes no.
    Mr. Schumer.
    Mr. Schumer. No.
    The Clerk. Mr. Schumer votes no.
    Mr. Berman.
    Mr. Berman. No.
    The Clerk. Mr. Berman votes no.
    Mr. Boucher.
    Mr. Boucher. No.
    The Clerk. Mr. Boucher votes no.
    Mr. Nadler.
    Mr. Nadler. No.
    The Clerk. Mr. Nadler votes no.
    Mr. Scott.
    Mr. Scott. No.
    The Clerk. Mr. Scott votes no.
    Mr. Watt.
    Mr. Watt. No.
    The Clerk. Mr. Watt votes no.
    Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Ms. Lofgren votes no.
    Ms. Jackson Lee.
    Ms. Jackson Lee. No.
    The Clerk. Ms. Jackson Lee votes no.
    Ms. Waters.
    Ms. Waters. No.
    The Clerk. Ms. Waters votes no.
    Mr. Meehan.
    Mr. Meehan. No.
    The Clerk. Mr. Meehan votes no.
    Mr. Delahunt.
    Mr. Delahunt. No.
    The Clerk. Mr. Delahunt votes no.
    Mr. Wexler.
    Mr. Wexler. No.
    The Clerk. Mr. Wexler votes no.
    Mr. Rothman.
    Mr. Rothman. No.
    The Clerk. Mr. Rothman votes no.
    Mr. Barrett.
    Mr. Barrett. No.
    The Clerk. Mr. Barrett votes no.
    Mr. Hyde.
    Mr. Hyde. Aye.
    The Clerk. Mr. Hyde votes aye.
    Mr. Chairman, there are 21 ayes and 16 noes.
    Mr. Hyde. And the motion is carried, and the committee will 
go into executive session, and we will stand at ease until the 
room is cleared.
    [Whereupon the committee proceeded in Executive Session.]

                                <all>
</pre></body></html>
